DEPARTMENT OF HOMELAND SECURITY
    Office of Inspector General


  Status Report on Open Recommendations 

            to DHS Components 





OIG-08-27                  February 2008
Table of Contents 


Status of Unimplemented Recommendations......................................................................1 


     Federal Emergency Management Agency .....................................................................2 

     Federal Law Enforcement Training Center .................................................................63 

     Management Directorate..............................................................................................70          

     Multiple Components...................................................................................................78        

     National Protection and Programs Directorate ............................................................82 

     Office of Health Affairs ...............................................................................................87 

     Office of Policy............................................................................................................88

     Science and Technology Directorate ...........................................................................89 

     Transportation Security Administration ......................................................................90                 

     U.S. Citizenship and Immigration Service ................................................................107 

     U.S. Coast Guard .......................................................................................................111 

     U.S. Customs and Border Protection .........................................................................129 

     U.S. Immigration and Customs Enforcement ............................................................140 

     U.S. Secret Service ....................................................................................................147 


Report Summaries............................................................................................................148



Appendices
     Appendix A: Department Comments 

     Appendix B: Major Contributors to this Report 

Abbreviations 

  ACE	          Automated Commercial Environment
  ACS 	         Automated Case Support
  ADOS	         Administrative Detention Operations Supervisor
  ADRD 	        Alzheimer’s Disease and Related Dementias
  AEL       	   Authorized Equipment List
  AFG 	         Annual Funding Guidance
  AFR 	         Annual Financial Report
  AMOC 	        Air and Marine Operations Center
  APHIS 	       Animal and Plant Health Inspection Service
  ASG       	   American Samoa Government
  ATS 	         Automated Targeting System
  BAA 	         Buy American Act
  BPA 	         Blanket Purchase Agreement
  BZP 	         Buffer Zone Plan
  BZPP 	        Buffer Zone Protection Program
  C4ISR     	   Command, Control, Communications, Computer, Intelligence,
                Surveillance and Reconnaissance
  C&A 	         Certification and Accreditation
  CAP 	         Criminal Alien Program or Corrective Action Plan
  CAS 	         Core Accounting System
  CBP 	         Customs and Border Protection
  CBPMO 	       Customs and Border Protection Modernization Office
  CBPO 	        Customs and Border Protection Officer
  CD       	    Compact Disk
  CFO 	         Chief Financial Officer
  CFR 	         Code of Federal Regulations
  CGDN 	        Coast Guard Data Network
  CIO 	         Chief Information Officer
  CIP 	         Construction in Progress
  CLAIMS 	      Computer Linked Application Information Management System
  COOP 	        Continuity of Operations
  CPAF	         Cost Plus Award Fee
  CPO 	         Chief Procurement Officer
  CPPC 	        Cost Plus Percentage of Cost
  CREC 	        Central Rural Electric Cooperative
  CSIRC 	       Computer Security Incident Response Center
  DBA      	    Database Administrator
  DCIA 	        Debt Collection Improvement Act of 1996
  DEP 	         Department of Environmental Protection
  DFB 	         Disaster Finance Branch
  DHS 	         U.S. Department of Homeland Security
  DOD 	         U.S. Department of Defense
  DOI 	         U.S. Department of the Interior
  DOJ	          U.S. Department of Justice
  DPS 	         Department of Public Safety
  DRO 	         Office of Detention and Removal Operations
Abbreviations 

  DTO       Delivery Task Order
  EA        Expedited Assistance
  EDS       Explosives Detection System
  EFS       Emergency Support Functions
  EMPG      Emergency Management performance Grants
  EOIR      Executive Office for Immigration Review
  ePMO      Electronic Program Management Office
  EP&R      Emergency Preparedness and Response
  ETD       Explosive Trace Detection
  FAR       Federal Acquisition Regulations
  FASAB     Federal Accounting Standards Advisory Board
  FBI       Federal Bureau of Investigation
  FBwT      Fund Balance with Treasury
  FCEN      Financial Crimes Enforcement Network
  FCO       Federal Coordinating Officer
  FDA       Food and Drug Administration
  FDNS      Office of Fraud Detection and National Security
  FDNS-DS   Fraud Detection and National Security Data System
  FECA      Federal Employees’ Compensation Act
  FEMA      Federal Emergency Management Agency
  FFMIA     Federal Financial Management Improvement Act
  FFMS      Federal Financial Management System
  FHA       Federal Highway Administration
  FINCEN    Financial Crimes Enforcement Network
  FIPS      federal information processing Standards
  FISMA     Federal Information Security Management Act of 2002
  FLETC     Federal Law Enforcement Training Center
  FMFIA     Federal Managers Financial Integrity Act
  FMTTF     Financial Management Transformation Task Force
  FOUO      For Official Use Only
  FPDS-NG   Federal Procurement Data System-Next Generation
  FPS       Federal Protective Service
  FSD       Federal Security Director
  FSR       Financial Status Reports
  FSTAR     Financial Strategy for Transformation and Audit Readiness
  FY        Fiscal Year
  GAAP      Generally Accepted Accounting Principles
  GAO       Government Accountability Office
  G&T       Grants and Training
  GFPS      Grand Forks Public Schools
  GPRA      Government Performance and Results Act
  GSA       General Services Administration
  GWA       Government Wide Accounting
  HHS       U.S. Health and Human Services
  HM        Hazard Mitigation
  HMGP      Hazard Migration Grant Program
Abbreviations 

  HSCIS 	         Homeland Security Contract Information System
  HQ          	   Headquarters
  HSPD 	          Homeland Security Presidential Directive
  I&A         	   Intelligence and Analysis
  ICE 	           Immigration and Customs Enforcement
  ICoFR       	   Internal Controls over Financial Reporting
  IFG 	           Individual and Family Grant
  IHP         	   Individuals and Households Program
  INS         	   Immigration and Naturalization Service
  IPAC        	   Intra-Governmental Payment and Collection
  ISA         	   Interconnection Service Agreement
  ISAC 	          Information Sharing and Analysis Center
  IT          	   Information Technology
  JFO         	   Joint Field Office
  JV          	   Journal Voucher
  KEC 	           Kiamichi Electric Cooperative
  LAN         	   Local Area Network
  LASD 	          Los Angeles Sheriffs Department
  LEO 	           Law Enforcement Officer
  LEPC 	          Law Enforcement Planning Commission
  LHLS/EP 	       Louisiana Office of Land Security, Emergency Preparedness
  MEMA        	   Mississippi Emergency Management Agency or Massachusetts
                  Emergency Management Agency
  MIP 	           Mapping Information Platform
  MLDC 	          Mira Loma Detention Center
  MOA         	   Memorandum of Agreement
  MOU         	   Memorandum of Understanding
  MPC 	           Minnkota Power Cooperative
  MSP 	           Michigan State Police
  MRS 	           Military Retirement System
  MSW	            Municipal Solid Waste
  MTF 	           Military Treatment Facility
  NAICS 	         North American Industry Classification System
  NAVD 88 	       North American Vertical Datum of 1988
  NBIS 	          National Bio-Surveillance Integration System
  NCR 	           National Capital Region
  NDDEM	          North Dakota Division of Emergency Management
  NDPCI	          National Domestic Preparedness Coalition Incorporated
  NEMIS 	         National Emergency Management Information System
  NFC 	           National Finance Center
  NFIP 	          National Flood Insurance Program
  NI          	   Non-intrusive
  NIMS        	   National Incident Management System
  NIST 	          National Institute of Standards and Technology
  NPPD        	   National Protection and Programs Directorate
  NPSC 	          National Processing Service Center
Abbreviations 

  NRP      National Response Plan
  NSC      National Security Cutter
  OCFO     Office of the Chief Financial Officer
  OCIO     Office of the Chief Information Officer
  ODP      Office for Domestic Preparedness
  OEM      Oklahoma Department of Emergency Management
  OFM      Office of Financial Management
  OFO      Office of Fiscal Operations
  OGC      Office of General Counsel
  OHA      Office of Health Affairs
  OHC      Office of Human Capital
  OIG      Office of Inspector General
  OJT      On-the-Job Training
  OMB      Office of Management and Budget
  OM&S     Operating Materials and Supplies
  OPM      Office of Personnel Management
  ORR      Office of Refugee Resettlement
  OTM      Other Than Mexican
  PA       Public Assistance
  PCI      Personal Identity Verification Card Issuer
  PD       Procurement Desktop
  PDAs     Preliminary Damage Assessments
  PEMA     Pennsylvania Emergency Management Agency
  PII      Personally Identifiable Information
  PIV      Personal Identity Verification
  PMO      Project Management Office
  POAM     Plan of Action and Milestones
  POC      Point of Contact
  POE      Port of Entry
  PMO      Project Management Officer
  PP&E     Property, Plants, and Equipment
  PPQ      Plant Protection Quarantine
  PPSO     Plaquemines Parish Sheriff’s Office
  PRISM    Procurement Information System for Management
  PWS      Performance Work Statement
  RRAD     Red River Army Depot
  RSSI     Required Supplementary Stewardship Information
  RVS      Remote Video Surveillance
  S&T      Science and Technology Directorate
  SAA      State Administration Agency
  SAP      Systems, Applications, and Products Database
  SBInet   Secure Border Initiative Network
  SDLC     Systems Development Life Cycle
  SEMA     State Emergency Management Agency
  SEMO     State Emergency Management Office
  SFFAS    Statement of Federal Financial Accounting Standards
Abbreviations 

  SIC       Special Interest Countries
  SLGCP     State and Local Government Coordination and Preparedness
  SOP       Standard Operating Procedure
  SPC       Service Processing Center
  SSA       State Administrative Agency
  SSWeb     Secret Service Web
  SST       State Sponsors of Terrorism
  TAC       Technical Assistance Contract
  TAFS      Treasury Appropriation Fund Symbol
  TDEM      Texas Division of Emergency Management
  TECS      Treasury Enforcement Communications System
  TEMCO     Territorial Emergency Management Coordinating Office
  TIER      Treasury Information Executive Repository
  TIP       Threat Image Projection
  TOHS      Territorial Office of Homeland Security
  TOPOFF    Top Officials Exercise
  TRX       TIP-Ready X-Ray Machine
  TSA       Transportation Security Administration
  TSO       Transportation Security Officer
  UASI      Urban Area Security Initiative
  UDO       Undeliverable Orders
  UN        Unmet Needs
  UND       University of North Dakota
  USACE     U.S. Army Corps of Engineers
  US-CERT   United States Computer Emergency Readiness Team
  USCG      U.S. Coast Guard
  USCIS     U.S. Citizenship and Immigration Service
  USDA      U.S. Department of Agriculture
  US&R      Urban Search and Rescue
  USSGL     United States Standard General Ledger
  UVI       University of the Virgin Islands
  VA-NPSC   Virginia - National Processing Service Center
  VI        Virgin Islands
  VMIS      Vehicle Management Information System
  VPN       Virtual Private Network
  VRPP      Vulnerability Reduction Protection Plan
  VWP       Visa Waiver Program
  WADS      Work Accomplishment Data System
  WAPA      Water and Power Authority
  WEM       Wisconsin Emergency Management
  WFEC      Western Farmers Electric Cooperation
OIG 

Department of Homeland Security
Office of Inspector General

Status of Unimplemented Recommendations
            Our office issued 214 reports with 1,070 recommendations that, according
            to our records, had not been implemented as of December 31, 2007. Of
            the 1,070 recommendations, 27 were closed in January 2008. The largest
            number of open recommendations was made to the Federal Emergency
            Management Agency (FEMA). No other single DHS component accounts
            for more than 12% of unimplemented recommendations.

            Chart 1: Distribution of DHS OIG Open Recommendations by Component



                                 USSS 0.005% (5)
                                 USCIS 3% (27)
                                                               CBP 8% (89)
                           USCG 7% (77)
                                                                       FLETC 2% (23)
                 TSA 12% (129)

              S&T 2% (18)


          NPPD 3% (35)
       Policy 0.003% (3)

           Multiple

       Components 3%

            (29)                                                            FEMA 50% (530)
       Management 6%
            (63)

                 OHA 1% (6) ICE 3% (36)




                Status Report on Open Recommendations to DHS Components 


                                         Page 1 

    Federal Emergency Management Agency

                                                            Agrees (Yes, No,
Report Number         Recommendation Text                                      Current Status
                                                              Unknown)
                                                                                    Status of
                 Disallow excess contract charges in the
                                                                Unknown         implementation is
                          amount of $55,266.
                                                                                    unknown.
                                                                                    Status of
                  Disallow unauthorized charges in the
                                                                Unknown         implementation is
                          amount of $21,078.
                                                                                    unknown.
   DA-01-05
                                                                                    Status of
                 Disallow excess charges for equipment
                                                                Unknown         implementation is
                        in the amount of $78,259.
                                                                                    unknown.
                                                                                    Status of
                 Disallow unauthorized work charges in
                                                                Unknown         implementation is
                        the amount of $52,039.
                                                                                    unknown.
                                                                                    Status of
                    Disallow unsupported costs in the
                                                                Unknown         implementation is
                          amount of $859,199.
                                                                                    unknown.
                                                                                    Status of
                   Disallow ineligible overtime salary
   DA-02-05                                                     Unknown         implementation is
                  charges in the amount of $1,215,911.
                                                                                    unknown.
                                                                                    Status of
                 Disallow unreasonable labor charges in
                                                                Unknown         implementation is
                         the amount of $7,319.
                                                                                    unknown.
                                                                                    Status of
                 Disallow excess engineering charges in
                                                                Unknown         implementation is
                        the amount of $410.037.
                                                                                    unknown.
   DA-03-04
                                                                                    Status of
                  Disallow ineligible repair costs in the
                                                                Unknown         implementation is
                          amount of $625,712.
                                                                                    unknown.
                                                                                    Status of
                  Disallow unsupported charges in the
   DA-06-04                                                     Unknown         implementation is
                          amount of $1,385.
                                                                                    unknown.
                  Disallow unnecessary charges in the                              Action Plan
                                                                  No
                         amount of $117,778.                                         Needed.
                 Disallow unapplied program income in                              Action Plan
                                                                  No
                        the amount of $85,337.                                       Needed.
   DA-06-05                                                                        Action Plan
                                                                                    provided.
                    Disallow duplicate charges in the                               Awaiting
                                                                  Yes
                           amount of $8,413.                                     confirmation of
                                                                               implementation by
                                                                                   component.
                                                                                    Status of
   DA-07-03       Disallow $9,621 of questioned costs.          Unknown         implementation is
                                                                                    unknown.
                                                                                    Status of
                   Instruct the county to comply with
                                                                Unknown         implementation is
                    federal procurement regulations.
                                                                                    unknown.
   DA-07-05
                  Require the county to ensure the rate                             Status of
                   charges for debris monitoring by             Unknown         implementation is
                      contractors are reasonable.                                   unknown.

                Status Report on Open Recommendations to DHS Components 


                                           Page 2 

                                                            Agrees (Yes, No,
Report Number         Recommendation Text                                      Current Status
                                                              Unknown)
                                                                                    Status of
   DA-07-06      Disallow $365,633 in questioned costs.         Unknown         implementation is
                                                                                    unknown.
                                                                                   Action Plan
                   Recommend Director of the Biloxi
                                                                                    provided.
                  Transitional Recovery Office and the
                                                                                    Awaiting
   DA-07-08      grantee require the county ensure that           Yes
                                                                                 confirmation of
                 debris monitoring rates charged by the
                                                                               implementation by
                    engineering firm are reasonable.
                                                                                   component.
                                                                                   Action Plan
                                                                                    provided.
                  Disallow $1,721,725 associated with                               Awaiting
   DA-07-09                                                       Yes
                 debris removal from federal-aid roads.                          confirmation of
                                                                               implementation by
                                                                                   component.
                    Require the NY State Emergency
                     Management Office to establish
                                                                                   Status of
                 accounting procedures to ensure that its
                                                                Unknown        implementation is
                 accounting system adequately supports
                                                                                  unknown.
   DA-07-10         SEMO's costs claimed under each
                              FEMA grant.
                                                                                   Status of
                 Disallow $653,408 of questioned costs.         Unknown        implementation is
                                                                                  unknown.
                   Disallow $3.8 million in questioned
                     costs - $408,775 under Hurricane
                       Katrina and $3,409,216 under
                                                                                   Status of
                     Hurricane Wilma - resulting from
   DA-07-11                                                     Unknown        implementation is
                 excess and non-disaster-related charges,
                                                                                  unknown.
                  an unapplied credit, losses covered by
                  insurance and excessive contract labor
                                  charges.
                   Director of FL Long Term Recovery                               Status of
   DA-08-01             Office disallow $336,786 of             Unknown        implementation is
                             unsupported costs.                                   unknown.
                    Director of FEMA MS Transitional                               Status of
   DA-08-02        Recovery Office disallow $43,751 in          Unknown        implementation is
                        excessive contract charges.                               unknown.
                      Require the city to complete the
                                                                                   Status of
                 subsidiary record to ensure that current
                                                                Unknown        implementation is
                    and future project expenditures are
                                                                                  unknown.
                         accounted for separately.
                    Inform city to comply with federal                             Status of
   DA-08-03
                  procurement regulations for any future        Unknown        implementation is
                       contracts under FEMA award.                                unknown.
                                                                                   Status of
                 Disallow questioned costs of $102,244.         Unknown        implementation is
                                                                                  unknown.
                                                                                   Status of
                    Require municipality to maintain
   DA-09-05                                                     Unknown        implementation is
                   accounting records per the 44§CFR.
                                                                                  unknown.


                Status Report on Open Recommendations to DHS Components 


                                          Page 3 

                                                           Agrees (Yes, No,
Report Number         Recommendation Text                                     Current Status
                                                             Unknown)
                                                                                   Status of
                 Disallow excess charges in the amount
                                                               Unknown         implementation is
                             of $234,810.
                                                                                   unknown.
                                                                                   Status of
                  Disallow unsupported charges in the
                                                               Unknown         implementation is
                         amount of $113,898.
                                                                                   unknown.
                                                                                   Status of
                  Disallow unsupported charges in the
                                                               Unknown         implementation is
                          amount of $3,013.
                                                                                   unknown.
   DA-09-05
                                                                                   Status of
                 Disallow excess charges in the amount
                                                               Unknown         implementation is
                              of $6,766.
                                                                                   unknown.
                                                                                   Status of
                  Disallow duplicate benefits charges in
                                                               Unknown         implementation is
                         the amount of $53,448.
                                                                                   unknown.
                                                                                   Status of
                 Disallow for incomplete small projects
                                                               Unknown         implementation is
                       in the amount of $35,349.
                                                                                   unknown.
                                                                                  Action Plan
                                                                                   provided.
                    FEMA Director disallow $21,769                                 Awaiting
   DA-10-05                                                      Yes
                    awarded for administrative costs.                           confirmation of
                                                                              implementation by
                                                                                  component.
                                                                                   Status of
                  Disallow unsupported charges in the
                                                               Unknown          implementation
                          amount of $11,662.
   DA-11-04                                                                        unknown.
                                                                                   Status of
                   Disallow duplicated charges in the
                                                               Unknown          implementation
                          amount of $6,720.
                                                                                   unknown.
                                                                                   Status of
                      Region III ensure records are
                                                               Unknown          implementation
                       maintained by the grantee.
                                                                                   unknown.
                                                                                   Status of
                  Region III ensures grantee maintains
                                                               Unknown          implementation
                  financial reports per 44§C.F.R.13.20.
                                                                                   unknown.
                                                                                   Status of
   DA-12-04      Region III administrative plans for HM,
                                                               Unknown          implementation
                   PA and IFG include all elements.
                                                                                   unknown.
                                                                                  Action Plan
                                                                                   provided.
                   Region III ensures grantees develop
                                                                                   Awaiting
                    and implement monitoring status              Yes
                                                                                confirmation of
                                 reports.
                                                                              implementation by
                                                                                  component.
                                                                                   Status of
                    FEMA disallow small project not
                                                               Unknown          implementation
                   completed in the amount of $4,506.
                                                                                   unknown.
   DA-12-05
                                                                                   Status of
                   FEMA disallow small project not
                                                               Unknown          implementation
                  completed in the amount of $36,694.
                                                                                   unknown.


                Status Report on Open Recommendations to DHS Components 


                                          Page 4 

                                                            Agrees (Yes, No,
Report Number         Recommendation Text                                      Current Status
                                                              Unknown)
                                                                                    Status of
                   FEMA disallow small project not
                                                                Unknown          implementation
                  completed in the amount of $20,472.
                                                                                    unknown.
                                                                                    Status of
                    FEMA disallow small project not
                                                                Unknown          implementation
                   completed in the amount of $1,400.
                                                                                    unknown.
                                                                                    Status of
                 FEMA disallow unsupported charges in
   DA-12-05                                                     Unknown          implementation
                      the amount of $175,506.
                                                                                    unknown.
                                                                                    Status of
                   FEMA disallow interest earned on
                                                                Unknown          implementation
                    funds in the amount of $11,180.
                                                                                    unknown.
                                                                                    Status of
                 FEMA disallowed duplicate funding in
                                                                Unknown          implementation
                      the amount of $89,884.
                                                                                    unknown.
                                                                                   Action Plan
                                                                                    provided.
                                                                                    Awaiting
                     Excess charges for tree stumps.              Yes
                                                                                 confirmation of
                                                                               implementation by
                                                                                   component.
   DA-13-03
                                                                                   Action Plan
                                                                                    provided.
                                                                                    Awaiting
                   Excessive award for small project.             Yes
                                                                                 confirmation of
                                                                               implementation by
                                                                                   component.
                   Director Region II require OEM to                               Action Plan
                   develop and implement a personnel                                provided.
                       activity reporting system that                               Awaiting
   DA-14-05                                                       Yes
                   documents and supports salary cost                            confirmation of
                  distributed among the various FEMA                           implementation by
                              funded activities.                                   component.
                                                                                    Status of
                 FEMA Director is to instruct the city to
                                                                Unknown         implementation is
                      comply with 44§C.F.R.
                                                                                    unknown.
                                                                                    Status of
                  Disallow unsupported debris removal
   DA-16-05                                                     Unknown         implementation is
                   charges in the amount of $254,233.
                                                                                    unknown.
                                                                                    Status of
                    Disallow unapplied credits in the
                                                                Unknown         implementation is
                           amount of $2,537.
                                                                                    unknown.
                                                                                   Action Plan
                                                                                    provided.
                  Region I require MEMA to establish a                              Awaiting
   DA-17-04                                                       Yes
                             tracking system.                                    confirmation of
                                                                               implementation by
                                                                                   component.




                Status Report on Open Recommendations to DHS Components 


                                          Page 5 

                                                           Agrees (Yes, No,
Report Number         Recommendation Text                                     Current Status
                                                             Unknown)
                                                                                 Action Plan
                                                                                  provided.
                  Region I require MEMA to establish
                                                                                  Awaiting
                     procedures for administrative               Yes
                                                                               confirmation of
                              allowances.
                                                                              implementation by
                                                                                 component.
                                                                                 Action Plan
                                                                                  provided.
                  Region I require MEMA to establish                              Awaiting
   DA-17-04                                                      Yes
                       IFG closeout procedures.                                confirmation of
                                                                              implementation by
                                                                                 component.
                                                                                 Action Plan
                                                                                  provided.
                 Region I require MEMA to implement                               Awaiting
                                                                 Yes
                   procedures per federal guidelines.                          confirmation of
                                                                              implementation by
                                                                                 component.
                      Disallow excess charges for                                 Status of
                  engineering and design in the amount         Unknown         implementation
                              of $168,559.                                        unknown.
                                                                                  Status of
                    Disallow excess charges for flood
                                                               Unknown         implementation
                   insurance in the amount of $47,999.
                                                                                  unknown.
   DA-17-05
                     Disallow excess charges for a                                Status of
                   mathematical error in the amount of         Unknown         implementation
                               $71,391.                                           unknown.
                                                                                  Status of
                 Disallow costs covered by insurance in
                                                               Unknown         implementation
                        the amount of $260,086.
                                                                                  unknown.
                                                                                  Status of
                   Disallow excess charges for fringe
                                                               Unknown         implementation
                  benefit rates in the amount of $3,904.
                                                                                  unknown.
                 Disallow excess charges for normal rate                          Status of
   DA-18-05         of compensation in the amount of           Unknown         implementation
                                $2,915.                                           unknown.
                      Disallow excess charges for a                               Status of
                  mathematical error in that amount of         Unknown         implementation
                                $1,352.                                           unknown.
                                                                                 Action Plan
                 FEMA Regional Director require OMB
                                                                                  provided.
                    to reconcile disbursements in the
                                                                                  Awaiting
                 subgrantee accounts for disasters 1067          Yes
                                                                               confirmation of
                     and 1136, and make necessary
                                                                              implementation by
                              adjustments.
   DA-20-03                                                                      component.
                                                                                 Action Plan
                 FEMA Director require OMB to record
                                                                                  provided.
                   in the subgrant control accounts the
                                                                                  Awaiting
                    amounts of matching contributions            Yes
                                                                               confirmation of
                    from non-profit organizations and
                                                                              implementation by
                 independent Commonwealth agencies.
                                                                                 component.


                Status Report on Open Recommendations to DHS Components 


                                          Page 6 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                                                                                   Action Plan
                                                                                    provided.
                   FEMA instruct OMB to implement
                                                                                    Awaiting
                 approved policy for advancing funds to            Yes
                                                                                 confirmation of
                             subgrantees.
                                                                                implementation by
                                                                                   component.
                     FEMA instruct OMB to consider                                 Action Plan
                  amending its cash management policy                               provided.
                    by eliminating the requirement for                              Awaiting
                                                                   Yes
                     subgrantees to submit supporting                            confirmation of
                   documentation of costs incurred and                          implementation by
                         require only a certificate.                               component.
                                                                                   Action Plan
                   FEMA instruct OMB to require 15                                  provided.
                 subgrantees that received cash advances                            Awaiting
                                                                   Yes
                   to return funds that are in excess of                         confirmation of
                          their immediate needs.                                implementation by
                                                                                   component.
                                                                                   Action Plan
                  FEMA instruct OMB to determine the                                provided.
                    amount of interest earned on cash                               Awaiting
                                                                   Yes
                   advances and require subgrantees to                           confirmation of
                     remit to FEMA interest earned.                             implementation by
                                                                                   component.
   DA-20-03                                                                        Action Plan
                                                                                    provided.
                    Deobligate $45,441 of statutory
                                                                                    Awaiting
                  administrative allowance provided to             Yes
                                                                                 confirmation of
                  OMB under state management grants.
                                                                                implementation by
                                                                                   component.
                                                                                   Action Plan
                                                                                    provided.
                  Require OMB to develop procedures
                                                                                    Awaiting
                 for monitoring day-to-day operations of           Yes
                                                                                 confirmation of
                              subgrantees.
                                                                                implementation by
                                                                                   component.
                   Require OMB to establish an audit
                    scheduling process that considers                              Action Plan
                      auditing subgrantees that have                                provided.
                      mismanaged grant funds, have                                  Awaiting
                                                                   Yes
                 experienced problems in administering                           confirmation of
                   projects, have received the largest                          implementation by
                 dollar awards, or have been referred for                          component.
                         audit by public officials.
                                                                                   Action Plan
                    Require OMB to develop an audit                                 provided.
                 program that identifies the objectives of                          Awaiting
                                                                   Yes
                  its subgrant audits and procedures to                          confirmation of
                       accomplish those objectives.                             implementation by
                                                                                   component.




                Status Report on Open Recommendations to DHS Components 


                                           Page 7 

                                                            Agrees (Yes, No,
Report Number         Recommendation Text                                      Current Status
                                                              Unknown)
                                                                                   Action Plan
                   Require OMB to instruct staff to                                 provided.
   DA-20-03       become familiar with and adhere to                                Awaiting
                                                                  Yes
                 GAGAS in the performance of subgrant                            confirmation of
                      audits and audit reporting.                              implementation by
                                                                                   component.
                                                                                   Action Plan
                                                                                    provided.
                    Region IV ensure that the grantee                               Awaiting
                                                                  Yes
                    submit quarterly progress reports.                           confirmation of
                                                                               implementation by
                                                                                   component.
                                                                                   Action Plan
                                                                                    provided.
                   Region IV ensure that program and
   DA-20-04                                                                         Awaiting
                  administrative plans are completed, as          Yes
                                                                                 confirmation of
                         per federal regulations.
                                                                               implementation by
                                                                                   component.
                                                                                   Action Plan
                                                                                    provided.
                     Region IV requires grantee to                                  Awaiting
                                                                  Yes
                 implement procedures for subgrantees.                           confirmation of
                                                                               implementation by
                                                                                   component.
                                                                                   Action Plan
                                                                                    provided.
                 Region III Director must ensure that the
                                                                                    Awaiting
                  grantee has all procedures in a SOP             Yes
                                                                                 confirmation of
                                 manual.
                                                                               implementation by
                                                                                   component.
   DA-21-05
                                                                                   Action Plan
                                                                                    provided.
                   Region III Director should direct
                                                                                    Awaiting
                 Grantee to prepare and submit closeout           Yes
                                                                                 confirmation of
                               documents.
                                                                               implementation by
                                                                                   component.
                  FEMA Director to disallow excessive                               Status of
                 and unsupported charges in the amount          Unknown         implementation is
                             of $463,833.                                           unknown.
                    FEMA Director to disallow excess                                Status of
                   equipment charges in the amount of           Unknown         implementation is
                               $30,777.                                             unknown.
                                                                                    Status of
   DA-22-05       FEMA Director to disallow duplicate
                                                                Unknown         implementation is
                   benefits in the amount of $9,676.
                                                                                    unknown.
                                                                                    Status of
                  FEMA Director to disallow duplicate
                                                                Unknown         implementation is
                   funding in the amount of $168,359.
                                                                                    unknown.
                   FEMA Director to disallow charges                                Status of
                  covered by insurance in the amount of         Unknown         implementation is
                                $11,286.                                            unknown.


                Status Report on Open Recommendations to DHS Components 


                                          Page 8 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                  FEMA Director to disallow funds for                                Status of
                   incomplete work in the amount of              Unknown         implementation is
                               $331,875.                                             unknown.
   DA-22-05
                  FEMA Director to disallow funds for                                Status of
                  work not performed in the amount of            Unknown         implementation is
                                $15,359.                                             unknown.
                                                                                     Status of
                    Disallow unsupported costs in the
                                                                 Unknown          implementation
                           amount of $85,439.
                                                                                     unknown.
                                                                                     Status of
                 Disallow excess charges in the amount
                                                                 Unknown          implementation
                             of $49,893.
                                                                                     unknown.
   DA-23-04
                                                                                     Status of
                   Disallow administrative costs in the
                                                                 Unknown          implementation
                           amount of $23,719.
                                                                                     unknown.
                                                                                     Status of
                 Disallow ineligible regular time salaries
                                                                 Unknown          implementation
                        in the amount of $2,301.
                                                                                     unknown.
                                                                                     Status of
                   FEMA Director disallow duplicate
   DA-23-05                                                      Unknown          implementation
                   charges in the amount of $46,485.
                                                                                     unknown.
                   FEMA Director disallow ineligible                                 Status of
                    project charges in the amount of             Unknown          implementation
                                $11,419.                                             unknown.
                  FEMA Director disallow charges for                                 Status of
                   incomplete work in the amount of              Unknown          implementation
                                $8,333.                                              unknown.
   DA-24-05
                                                                                     Status of
                   FEMA Director disallow insurance
                                                                 Unknown          implementation
                     costs in the amount of $6,415.
                                                                                     unknown.
                    FEMA Director disallow excess                                    Status of
                 administrative charges in the amount of         Unknown          implementation
                                 $4,429.                                             unknown.
                                                                                     Status of
                 FEMA Director to recoup unauthorized
                                                                 Unknown          implementation
                       payment of $597,855.
                                                                                     unknown.
                                                                                    Action Plan
                                                                                     provided.
                    FEMA Director to ensure proper                                   Awaiting
                                                                   Yes
                 support for $13.9 million disbursement.                          confirmation of
   DA-25-05                                                                     implementation by
                                                                                    component.
                                                                                    Action Plan
                                                                                     provided.
                 FEMA Director to determine how $1.8                                 Awaiting
                                                                   Yes
                   million to Opa-Locka was spent.                                confirmation of
                                                                                implementation by
                                                                                    component.




                Status Report on Open Recommendations to DHS Components 


                                           Page 9 

                                                            Agrees (Yes, No,
Report Number         Recommendation Text                                      Current Status
                                                              Unknown)
                                                                                  Action Plan
                                                                                   provided.
                  FEMA Director to ensure subgrantees                              Awaiting
   DA-25-05                                                       Yes
                    spending is per 44§CFR13.21.                                confirmation of
                                                                               implementation by
                                                                                  component.
                                                                                   Status of
                 Regional Director to request grantee to
                                                                Unknown         implementation
                   Advise FEMA on IFG program.
                                                                                   unknown.
                                                                                  Action Plan
                                                                                   provided.
                 Regional Director to require the grantee                          Awaiting
                                                                  Yes
                 to do all paperwork in a timely manner.                        confirmation of
                                                                               implementation by
                                                                                  component.
                                                                                  Action Plan
   DA-26-04                                                                        provided.
                  Regional Director to monitor grantee                             Awaiting
                                                                  Yes
                    procedures with state’s process.                            confirmation of
                                                                               implementation by
                                                                                  component.
                                                                                  Action Plan
                                                                                   provided.
                 Regional Director to monitor grantee to                           Awaiting
                                                                  Yes
                   ensure all procedures are current.                           confirmation of
                                                                               implementation by
                                                                                  component.
                                                                                  Action Plan
                                                                                   provided.
                 FEMA Director to assess staffing level                            Awaiting
                                                                  Yes
                    per Single Audit Act of 1996.                               confirmation of
                                                                               implementation by
                                                                                  component.
                                                                                  Action Plan
                                                                                   provided.
                     FEMA Director to implement                                    Awaiting
                                                                  Yes
                   procedures for compliance of Act.                            confirmation of
                                                                               implementation by
                                                                                  component.
   DA-26-05
                                                                                  Action Plan
                                                                                   provided.
                     FEMA Director to comply with                                  Awaiting
                                                                  Yes
                          44§CFR 13.42.                                         confirmation of
                                                                               implementation by
                                                                                  component.
                                                                                  Action Plan
                                                                                   provided.
                 FEMA Director to implement effective                              Awaiting
                                                                  Yes
                    cash management procedures.                                 confirmation of
                                                                               implementation by
                                                                                  component.


                Status Report on Open Recommendations to DHS Components 


                                          Page 10 

                                                              Agrees (Yes, No,
Report Number         Recommendation Text                                        Current Status
                                                                Unknown)
                                                                                    Action Plan
                                                                                     provided.
                 FEMA Director to improve accounting                                 Awaiting
   DA-26-05                                                         Yes
                            procedures.                                           confirmation of
                                                                                 implementation by
                                                                                    component.
                 ODP Acting Executive Director require
                   LEPC to coordinate their accounting
                                                                                     Status of
                  efforts with the Department of Finance
                                                                  Unknown         implementation
                     to ensure that records on program
                                                                                    unknown.
                        expenditures are timely and
                          appropriately reconciled.
                 ODP Acting Executive Director require
                                                                                     Status of
                   LEPC to reallocate to the appropriate
   DA-28-05                                                       Unknown         implementation
                    fund, costs that were charged to the
                                                                                    unknown.
                              wrong account.
                      ODP Acting Executive Director                                  Status of
                   disallow the $111,540 of questioned            Unknown         implementation
                                   charges.                                         unknown.
                 ODP Acting Executive Director require
                                                                                     Status of
                   the LEPC to comply with applicable
                                                                  Unknown         implementation
                    procurement and progress reporting
                                                                                    unknown.
                       requirements for ODP grants.
                 Instruct the Authority to retain financial
                                                                                     Status of
                   records for future FEMA projects for
                                                                  Unknown         implementation
                      the period prescribed by federal
                                                                                    unknown.
   DA-29-03                      regulations.
                                                                                     Status of
                   Disallow the $6,864 of questioned
                                                                  Unknown         implementation
                                 costs.
                                                                                     unknown.
                                                                                     Status of
                  Disallow ineligible repair costs in the
                                                                  Unknown         implementation
                         amount of $1,818,638.
                                                                                     unknown.
   DA-30-04
                                                                                     Status of
                   Verify that insurance recoveries and
                                                                  Unknown         implementation
                    future FEMA grants are credited.
                                                                                     unknown.
                                                                                    Action Plan
                                                                                     provided.
                       Require the Department of
                                                                                     Awaiting
                  Environmental and Natural Resources               Yes
                                                                                  confirmation of
                    establish accounting procedures.
                                                                                 implementation by
                                                                                    component.
   DA-33-04            Require the Department of
                                                                                     Status of
                  Environmental and Natural Resources
                                                                  Unknown         implementation
                   implement a contract management
                                                                                    unknown.
                                system.
                                                                                     Status of
                    Disallow unsupported costs in the
                                                                  Unknown         implementation
                         amount of $7,313,956.
                                                                                    unknown.
                                                                                     Status of
                  Disallow unsupported charges in the
   DA-34-04                                                       Unknown         implementation
                         amount of $565,950.
                                                                                    unknown.

                Status Report on Open Recommendations to DHS Components 


                                           Page 11 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                                                                                    Status of
                  Disallow incomplete small projects in
   DA-34-04                                                      Unknown         implementation
                         the amount of $16,786.
                                                                                   unknown.
                                                                                    Status of
                    Disallow excessive charges in the
                                                                 Unknown         implementation
                          amount of $110,665.
                                                                                   unknown.
   DA-35-04
                                                                                    Status of
                    Disallow duplicate charges in the
                                                                 Unknown         implementation
                           amount of $16,246.
                                                                                   unknown.
                                                                                    Status of
                  Disallow unrelated project charges in
                                                                 Unknown         implementation
                        the amount of $159,456.
                                                                                   unknown.
                                                                                    Status of
                  Disallow ineligible regular labor costs
   DA-36-04                                                      Unknown         implementation
                        in the amount of $76,498.
                                                                                   unknown.
                                                                                    Status of
                 Disallow excessive equipment charges
                                                                 Unknown         implementation
                       in the amount of $12,628.
                                                                                   unknown.
                                                                                    Status of
                  Disallow unrelated project charges in
                                                                 Unknown         implementation
                        the amount of $191,828.
                                                                                   unknown.
                                                                                    Status of
                  Disallow unsupported charges in the
                                                                 Unknown         implementation
                         amount of $194,421.
                                                                                   unknown.
   DA-37-04
                                                                                    Status of
                  Disallow ineligible regular labor costs
                                                                 Unknown         implementation
                        in the amount of $12,525.
                                                                                   unknown.
                                                                                    Status of
                 Disallow excessive equipment charges
                                                                 Unknown         implementation
                        in the amount of $8,316.
                                                                                   unknown.
                                                                                    Status of
                  Disallow excess labor charges in the
                                                                 Unknown         implementation
                          amount of $58,403.
   DA-38-04                                                                        unknown.
                                                                                    Status of
                 Disallow excess fringe benefit charges
                                                                 Unknown         implementation
                        in the amount of $6,289.
                                                                                   unknown.
                 Inform the city, for future declarations,
                                                                                    Status of
                    to comply with applicable federal
                                                                 Unknown        implementation is
                  regulations and FEMA guidelines for
                                                                                   unknown.
                               procurement.
                  Disallow $3,062,516 of project costs
                  related to excessive contract charges,                            Status of
  DA-FL-07-12    debris removal from federal-aid roads,          Unknown        implementation is
                  ineligible project costs and unapplied                           unknown.
                                  credits.
                 De-obligate excess funding of $122,794
                                                                                    Status of
                 received under Project 2929 for debris
                                                                 Unknown        implementation is
                      removal activities outside the
                                                                                   unknown.
                        authorized 72-hour period.




                Status Report on Open Recommendations to DHS Components 


                                          Page 12 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                 Inform the city, for future declarations,
                                                                                    Status of
                 to adequately document the hazardous
  DA-FL-07-12                                                    Unknown        implementation is
                   nature of stumps before removal to
                                                                                   unknown.
                         ensure reimbursement.
                                                                                   Action Plan
                                                                                    provided.
                                                                                    Awaiting
                 Unsupported contract equipment costs.             Yes
                                                                                 confirmation of
                                                                                implementation by
                                                                                   component.
   DD-01-04
                                                                                   Action Plan
                                                                                    provided.
                   Unreasonable costs on "cost-plus"                                Awaiting
                                                                   Yes
                              contract.                                          confirmation of
                                                                                implementation by
                                                                                   component.
                                                                                   Closed after
                   Use of Administrative Allowances.               Yes
                                                                                    12/31/07.
                                                                                   Closed after
                   HMG and PA Project Monitoring.                  Yes
                                                                                    12/31/07.
                                                                                   Closed after
   DD-01-05             PA Administrative Plans.                   Yes
                                                                                    12/31/07.
                                                                                   Closed after
                    PA Quarterly Progress Reporting.               Yes
                                                                                    12/31/07.
                                                                                   Closed after
                    Payments for PA Small Projects.                Yes
                                                                                    12/31/07.
                                                                                   Action Plan
                                                                                    provided.
                  Unsupported and ineligible Volunteer                              Awaiting
                                                                   Yes
                               credits.                                          confirmation of
                                                                                implementation by
                                                                                   component.
                                                                                   Action Plan
                                                                                    provided.
                                                                                    Awaiting
                   Excessive and unreasonable costs.               Yes
                                                                                 confirmation of
                                                                                implementation by
                                                                                   component.
   DD-02-04
                                                                                   Action Plan
                                                                                    provided.
                                                                                    Awaiting
                   Unsupported contractor labor costs.             Yes
                                                                                 confirmation of
                                                                                implementation by
                                                                                   component.
                                                                                   Action Plan
                                                                                    provided.
                                                                                    Awaiting
                    Work not related to the disaster.              Yes
                                                                                 confirmation of
                                                                                implementation by
                                                                                   component.



                Status Report on Open Recommendations to DHS Components 


                                          Page 13 

                                                            Agrees (Yes, No,
Report Number         Recommendation Text                                      Current Status
                                                              Unknown)
                                                                                  Action Plan
                                                                                   provided.
                                                                                   Awaiting
                         Unallowable markups.                     Yes
                                                                                confirmation of
                                                                               implementation by
                                                                                  component.
                                                                                  Action Plan
                                                                                   provided.
                                                                                   Awaiting
                   Unsupported contractor labor costs.            Yes
                                                                                confirmation of
                                                                               implementation by
                                                                                  component.
                                                                                  Action Plan
                                                                                   provided.
                                                                                   Awaiting
   DD-02-04        Unsupported Force Account labor.               Yes
                                                                                confirmation of
                                                                               implementation by
                                                                                  component.
                                                                                  Action Plan
                                                                                   provided.
                                                                                   Awaiting
                           Duplicate benefits.                    Yes
                                                                                confirmation of
                                                                               implementation by
                                                                                  component.
                                                                                  Action Plan
                                                                                   provided.
                 Unsupported Force Account equipment                               Awaiting
                                                                  Yes
                            and material.                                       confirmation of
                                                                               implementation by
                                                                                  component.
                                                                                  Action Plan
                     Require LHLS/EP to develop,                                   provided.
                 document, and implement policies and                              Awaiting
                                                                  Yes
                  procedures to ensure administrative                           confirmation of
                  plans meet all 44 CFR requirements.                          implementation by
                                                                                  component.
                      Require LHLS/EP to develop,
   DD-02-05       document, and implement procedures,
                                                                                  Action Plan
                 to ensure quarterly progress reports are
                                                                                   provided.
                 accurate, timely, and complete. These
                                                                                   Awaiting
                   procedures should describe how to              Yes
                                                                                confirmation of
                    obtain adequate information from
                                                                               implementation by
                    subgrantees and a staffing plan to
                                                                                  component.
                  ensure procedures are followed when
                        multiple disasters occur.




                Status Report on Open Recommendations to DHS Components 


                                          Page 14 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                         Require LHLS/EP to follow its
                        procedures for performing final
                 inspections and revise those procedures                           Action Plan
                 to include steps that assure FEMA work                             provided.
                  has been completed in accordance with                             Awaiting
                                                                   Yes
                    federal regulations. Such procedures                         confirmation of
                   might include providing the Region a                         implementation by
                 copy of the final inspection report along                         component.
                      with the final reimbursement claim
                     submitted on each approved project.
                       (1) Determine whether HMGP or
                       Unmet Needs (UN) projects were
                  funded under more than one disaster or
                        program and, if so, disallow the
                      resulting duplicate funding and (2)
                     Develop, document, and implement
                   policies and procedures to adequately
                   perform project ranking and selection.
                   Specifically, the procedures should be
                                                                                   Action Plan
                   sufficient to ensure that LHLS/EP: (1)
                                                                                    provided.
                   Does not select projects for mitigation
                                                                                    Awaiting
                        under more than one disaster or            Yes
                                                                                 confirmation of
                 program; (2) Prevents subgrantees from
                                                                                implementation by
                       using funds to substitute or match
                                                                                   component.
                     funding available from other federal
                    programs; (3) Revises the Individual
   DD-02-05       Application Worksheet to include data
                        relevant to determining whether
                       properties should receive priority
                       funding; (4) Consistently applies
                     project priorities listed in its HMGP
                   Administrative Plan during the project
                         ranking and selection process.
                  Require LHLS/EP to: (1) Perform final
                       project closeouts for all approved
                    projects completed under the Hazard
                        Mitigation and UN programs to
                    determine whether costs claimed are
                             supported and eligible;
                       (2) Disallow unsupported and/or
                  ineligible costs claimed for HMGP and                            Action Plan
                                  UN projects;                                      provided.
                  (3) Develop, document, and implement                              Awaiting
                                                                   Yes
                       policies and procedures to review                         confirmation of
                 documentation to support costs claimed                         implementation by
                      under all HMGP and UN projects.                              component.
                   These procedures should be sufficient
                     to ensure that subgrantees: Incurred
                       claimed cost for eligible work on
                 approved projects; Meet the non-federal
                  cost-share requirement; and Minimized
                    the time elapsed between receipt and
                         disbursement of federal funds.

                Status Report on Open Recommendations to DHS Components 


                                          Page 15 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                                                                                   Action Plan
                      Require LHLS/EP to develop,
                                                                                    provided.
                  document, and implement procedures
                                                                                    Awaiting
                  to ensure that all changes in scope of           Yes
                                                                                 confirmation of
                  HMGP projects are properly approved
                                                                                implementation by
                         in advance by FEMA.
                                                                                   component.
                  The Regional Director, FEMA Region
                                      VI:
                 (1) Disallow $163,301 of the $186,363
                    statutory administrative allowances
                    claimed as of September 2003 and
                       disallow the remaining $23,062
                 claimed unless LHLS/EP can prove the
                   eligibility of the remaining costs; (2)
                                                                                   Action Plan
                    Disallow any claims subsequent to
                                                                                    provided.
                   September 2003 for HMGP statutory
                                                                                    Awaiting
                      administrative allowances unless             Yes
                                                                                 confirmation of
                  LHLS/EP can prove costs claimed are
                                                                                implementation by
                      eligible; (3) Require LHLS/EP to
                                                                                   component.
                    develop, document, and implement
                 procedures to ensure that costs claimed
                  under HMGP statutory administrative
                 allowances are limited to extraordinary
                  actual expenses supporting the Hazard
                   Mitigation program and are properly
   DD-02-05      recorded and allocated on an individual
                                 disaster basis.
                  The Regional Director, FEMA Region
                                      VI:
                 (1) Disallow $454,486 of the $465,689
                    UN admin. and management costs
                    claimed as of September 2003 and
                       disallow the remaining $11,203
                 claimed unless LHLS/EP can prove the
                   eligibility of the remaining costs; (2)
                    Disallow any claims subsequent to
                 September 2003 for UN administrative
                                                                                   Action Plan
                 and management costs unless LHLS/EP
                                                                                    provided.
                 can prove costs claimed are eligible; (3)
                                                                                    Awaiting
                        Require LHLS/EP to develop,                Yes
                                                                                 confirmation of
                  document, and implement procedures
                                                                                implementation by
                        ensuring that costs incurred to
                                                                                   component.
                    administer or manage the grant are
                 properly recorded and monitored on an
                  individual disaster basis and that costs
                  claimed are limited to actual expenses
                          incurred for the purpose of
                   administering and managing the UN
                   program; (4) Train LHLS/EP staff on
                     the allowable use of Unmet Needs
                              administrative and
                            management funding.


                Status Report on Open Recommendations to DHS Components 


                                          Page 16 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                                                                                   Action Plan
                      Require LHLS/EP to develop,
                                                                                    provided.
                  document, and implement procedures
                                                                                    Awaiting
   DD-02-05      to ensure that cost estimates for Hazard          Yes
                                                                                 confirmation of
                    Mitigation projects are adequately
                                                                                implementation by
                       assessed for reasonableness.
                                                                                   component.
                 Disallow $299,676 of unallowable and
                   insufficiently documented claimed
                 administrative costs and disallow any
                                                                                   Action Plan
                 claims subsequent to September 2003               No
                                                                                    needed.
                   for administrative allowance costs
                  unless LHLS/EP can prove the costs
                  claimed were eligible and reported.
                                                                                   Action Plan
                                                                                    provided.
                   Determine the interest earned from
   DD-03-05                                                                         Awaiting
                  early drawdowns of Federal funds for             Yes
                                                                                 confirmation of
                           open PA programs.
                                                                                implementation by
                                                                                   component.
                                                                                   Action Plan
                                                                                    provided.
                  Require LHLS/EP to refund to FEMA
                                                                                    Awaiting
                 the overpayment of $183,029 made to a             Yes
                                                                                 confirmation of
                             subgrantee.
                                                                                implementation by
                                                                                   component.
                     Disallow $1,802,562 of ineligible
                      contracting costs and require the
                       Oklahoma Department of Civil
                   Emergency Management to develop,
                   document, and implement procedures
                     for future disasters to: (a) provide                          Action Plan
                                                                   No
                      subgrantees guidance on federal                               needed.
                   regulations, standards, and guidelines
                  related to procurement and (b) monitor
   DD-06-05
                  subgrantees to ensure compliance with
                 those federal regulations, standards, and
                                 guidelines.
                                                                                   Action Plan
                                                                                    provided.
                 Disallow $72,762 of ineligible material                            Awaiting
                                                                   Yes
                                costs.                                           confirmation of
                                                                                implementation by
                                                                                   component.




                Status Report on Open Recommendations to DHS Components 


                                          Page 17 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                  Require the Oklahoma Department of
                     Civil Emergency Management to
                   develop, document, and implement
                   procedures for future disasters to (a)
                    provide sub-grantees guidance on
                    federal regulations, standards, and
                                                                                    Status of
                  guidelines related to procurement and
                                                                   No           implementation is
                    (b) monitor sub-grantees to ensure
                                                                                   unknown.
                      compliance with those federal
                 regulations, standards, and guidelines.
                   In addition, disallow $3,232,188 of
                 contract costs that WFEC incurred that
                      did not meet minimum federal
                          procurement standards.
                                                                                    Status of
                     Disallow $549,686 of ineligible
   DD-06-06                                                        No           implementation is
                      damages to private property.
                                                                                   unknown.
                                                                                    Status of
                   Disallow $234,210 of unsupported
                                                                   No           implementation is
                                costs.
                                                                                   unknown.
                                                                                    Status of
                  Disallow $37,725 of overstated fringe
                                                                   No           implementation is
                                benefits.
                                                                                   unknown.
                                                                                    Status of
                      Disallow $36,080 of duplicate
                                                                   No           implementation is
                          administrative costs.
                                                                                   unknown.
                                                                                    Status of
                    Disallow $20,387 in unallowable
                                                                   No           implementation is
                       markups on contract costs.
                                                                                   unknown.
                                                                                    Status of
                  Disallow $2,370 in ineligible costs for
                                                                   No           implementation is
                     work not related to the disaster.
                                                                                   unknown.
                    Federal Coordinating Officer (FCO)
                  ensure that St. Bernard Parish perform
                 an independent cost or price analysis of                         Action Plan
                                                                   Yes
                   the monitoring contract using current                           needed.
                    labor rates and an updated overhead
                       rate from the engineering firm.
                 FCO ensure that St. Bernard Parish re-
                      negotiate the fixed hourly rates in
                                                                                  Action Plan
                  consideration of the results of the cost         Yes
   DD-07-02                                                                        needed.
                      or price analysis and the updated
                                overhead rate.
                     FCO ensure that St. Bernard Parish
                     apply the revised rates to the hours                         Action Plan
                                                                   Yes
                 claimed by the engineering firm for the                           needed.
                            monitoring activities.
                     FCO ensure that St. Bernard Parish
                       modify the contract to delete the                          Action Plan
                                                                   Yes
                 prohibited cost-plus-percentage of cost                           needed.
                          provision of the contract.


                Status Report on Open Recommendations to DHS Components 


                                          Page 18 

                                                              Agrees (Yes, No,
Report Number         Recommendation Text                                        Current Status
                                                                Unknown)
                                                                                  Implementation
                  FCO Request the St. Bernard-based
                                                                                 delayed. Working
                 FEMA officials to resubmit the review
                                                                    Yes          on implementation
                      results for consideration.
                                                                                  with component.
                 FCO Require FEMA and state officials
                  at the Joint Field Office to review the                         Implementation
                     review results and determine the                            delayed. Working
                                                                    Yes
                 adjustments that should be made to the                          on implementation
                 previously approved St. Bernard Parish                           with component.
                                 invoices.
                 FCO Disallow all costs associated with
                  cuts determined to be ineligible based                            Action Plan
                                                                    Yes
                 upon the FEMA and state JFO officials                               needed.
                                  review.
                                                                                  Implementation
                 FCO disallow all costs determined to be                         delayed. Working
                                                                    Yes
                             unallowable.                                        on implementation
   DD-07-02
                                                                                  with component.
                     FCO require FEMA to clarify its
                    guidance on removing hangers and                                Action Plan
                                                                    Yes
                   modify training to ensure that future                             needed.
                  claims are according to FEMA policy.
                 FCO review all current and future costs
                 claimed by the monitoring contractor to
                  ensure that: (a) the hourly rates being
                 applied are fair and equitable in relation
                                                                                    Action Plan
                   to the type of work being performed,             Yes
                                                                                     needed.
                  and (b) the time claimed is directly in
                     support of the debris monitoring
                 activities as compared to being general
                           management in nature.
                    FCO disallow any claims that were
                  based upon unreasonable rates or that                             Action Plan
                                                                    Yes
                  were duplicated as direct and indirect                             needed.
                                   costs.
                                                                                    Action Plan
                 Disallow $1,054,000 for mobile homes                                provided.
                    purchased but not occupied, and                                  Awaiting
   DD-07-05                                                         Yes
                    evaluate the remaining costs for                              confirmation of
                     eligibility and reasonableness.                             implementation by
                                                                                    component.
                                                                                    Action Plan
                                                                                     provided.
                     Require the state to update the
   DD-07-06                                                                          Awaiting
                   Administrative Plans for the PA and              Yes
                                                                                  confirmation of
                             HM Programs.
                                                                                 implementation by
                                                                                    component.




                Status Report on Open Recommendations to DHS Components 


                                           Page 19 

                                                            Agrees (Yes, No,
Report Number         Recommendation Text                                      Current Status
                                                              Unknown)
                                                                                  Action Plan
                                                                                   provided.
                     Develop a system to assure
                                                                                   Awaiting
                 Administrative Plans are updated prior           Yes
                                                                                confirmation of
                              to approval.
                                                                               implementation by
                                                                                  component.
                                                                                  Action Plan
                                                                                   provided.
                  Develop policies and procedures for                              Awaiting
                                                                  Yes
                  completing Financial Status Reports.                          confirmation of
                                                                               implementation by
                                                                                  component.
                                                                                  Action Plan
                                                                                   provided.
                  Provide training on how to complete                              Awaiting
                                                                  Yes
                       Financial Status Reports.                                confirmation of
                                                                               implementation by
                                                                                  component.
                                                                                  Action Plan
                                                                                   provided.
                    Establish procedures for tracking
   DD-07-06                                                                        Awaiting
                     expenses charged to statutory                Yes
                                                                                confirmation of
                          administrative funds.
                                                                               implementation by
                                                                                  component.
                                                                                  Action Plan
                                                                                   provided.
                  Implement a time-keeping system to
                                                                                   Awaiting
                  track time spent on federally funded            Yes
                                                                                confirmation of
                                projects.
                                                                               implementation by
                                                                                  component.
                                                                                  Action Plan
                                                                                   provided.
                  Require and enforce prior approval of
                                                                                   Awaiting
                  management grant costs incurred after           Yes
                                                                                confirmation of
                            closure of DFO.
                                                                               implementation by
                                                                                  component.
                                                                                  Action Plan
                                                                                   provided.
                 Disallow $16.4 million billed for direct                          Awaiting
                                                                  Yes
                  charges and recover payments made.                            confirmation of
                                                                               implementation by
                                                                                  component.
                                                                                  Action Plan
                                                                                   provided.
   DD-07-08        Require the city to account for each                            Awaiting
                                                                  Yes
                        large project separately.                               confirmation of
                                                                               implementation by
                                                                                  component.




                Status Report on Open Recommendations to DHS Components 


                                          Page 20 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                                                                                   Action Plan
                                                                                    provided.
                     Require the city to prepare and
                                                                                    Awaiting
                   maintain documentation adequate to              Yes
                                                                                 confirmation of
                    support all disaster costs claimed.
                                                                                implementation by
                                                                                   component.
                                                                                   Action Plan
                                                                                    provided.
                 Require the city to comply with federal
                                                                                    Awaiting
                  procurement regulations for all future           Yes
                                                                                 confirmation of
                                contracts.
                                                                                implementation by
                                                                                   component.
                                                                                   Action Plan
                                                                                    provided.
                  Evaluate the $1.4 million in contract
                                                                                    Awaiting
   DD-07-08       costs for travel trailers to determine           Yes
                                                                                 confirmation of
                          cost reasonableness.
                                                                                implementation by
                                                                                   component.
                                                                                   Action Plan
                                                                                    provided.
                 Provide written guidance to the city for                           Awaiting
                                                                   Yes
                 disposition of trailers no longer in use.                       confirmation of
                                                                                implementation by
                                                                                   component.
                  Disallow $679,150 for the following:
                                                                                   Action Plan
                   $239,000 -- excess fringe benefits;
                                                                                    provided.
                   $105,000 -- ineligible regular time
                                                                                    Awaiting
                 labor costs (city fire dept); $216,000 --         Yes
                                                                                 confirmation of
                    ineligible regular time labor (city
                                                                                implementation by
                   employees); $12,922 -- mechanics'
                                                                                   component.
                 salaries covered by FEMA equipment.
                   Require the state to verify that the
                 Parish did not claim $593,461 billed by                           Action Plan
                                                                   No
                      the monitoring contractor for                                 needed.
                         ineffective performance.
                   Notify Parish officials that contract
                 modifications on future FEMA projects                             Closed after
                                                                   Yes
                     should provide for full and open                               12/31/07.
                               competition.
                                                                                   Action Plan
   DD-07-10                                                                         provided.
                     Require the state to consider the
                                                                                    Awaiting
                     cleanup of the park to be a large             Yes
                                                                                 confirmation of
                                 project.
                                                                                implementation by
                                                                                   component.
                                                                                   Action Plan
                                                                                    provided.
                   Close the project according to large                             Awaiting
                                                                   Yes
                      project closeout procedures.                               confirmation of
                                                                                implementation by
                                                                                   component.


                Status Report on Open Recommendations to DHS Components 


                                          Page 21 

                                                            Agrees (Yes, No,
Report Number         Recommendation Text                                      Current Status
                                                              Unknown)
                    Advise the Parish on the federal
                     requirements concerning how                                  Closed after
                                                                  Yes
                 administrative allowance funds may be                             12/31/07.
                                   used.
                   Ensure that the Parish returns any
                                                                                  Action Plan
                 unused administrative funds to FEMA              No
                                                                                   needed.
                               at closeout.
                                                                                  Action Plan
                 Instruct the Parish to immediately remit                          provided.
                  all interest on the excess FEMA funds                            Awaiting
                                                                  Yes
                    (less $100 for expenses) to FEMA.                           confirmation of
                 (Undetermined amount at time of audit)                        implementation by
                                                                                  component.
                                                                                  Action Plan
                                                                                   provided.
                   Disallow $743,700 of ineligible and                             Awaiting
                                                                  Yes
                  unsupported costs for debris removal.                         confirmation of
                                                                               implementation by
                                                                                  component.
                   Require the state to analyze the cost                          Action Plan
                  concerns identified but not quantified                           provided.
                 during the review and provide results of                          Awaiting
                                                                  Yes
                       their analysis to FEMA for                               confirmation of
   DD-07-11
                 determination whether additional costs                        implementation by
                          should be disallowed.                                   component.
                                                                                  Action Plan
                                                                                   provided.
                   Disallow $613,325 claimed by the                                Awaiting
                                                                  Yes
                        Parish under PW 3144.                                   confirmation of
                                                                               implementation by
                                                                                  component.
                                                                                  Action Plan
                                                                                   provided.
                   Disallow $741,086 of unsupported                                Awaiting
                                                                  Yes
                     costs claimed under PW2643.                                confirmation of
                                                                               implementation by
                                                                                  component.
                    Advise the Parish on the federal
                     requirements concerning how                                  Closed after
                                                                  Yes
                 administrative allowance funds may be                             12/31/07.
                                   used.
                   Ensure that the Parish returns any
                                                                                 Closed after
                 unused administrative funds to FEMA              Yes
                                                                                  12/31/07.
                               at closeout.
                   Advise the Parish to comply with
                                                                                 Closed after
                  federal procurement standards at 44             Yes
                                                                                  12/31/07.
                     CFR§13.36 in future disasters.




                Status Report on Open Recommendations to DHS Components 


                                          Page 22 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                      Evaluate reasonableness of costs
                                                                                   Action Plan
                   claimed for the monitoring contractor
                                                                                    provided.
                  in light of the contractor's substandard
   DD-07-11                                                                         Awaiting
                   performance in assuring the accuracy            Yes
                                                                                 confirmation of
                      and supportability of the claims
                                                                                implementation by
                    certified to the Parish and adjust the
                                                                                   component.
                         claimed costs accordingly.
                     Disallow $3,360,425 of ineligible
                      contracting costs and require the
                       Oklahoma Department of Civil
                   Emergency Management to develop,                                Action Plan
                   document, and implement procedures                               provided.
                     for future disasters to: (a) provide                           Awaiting
                                                                   Yes
                  subgrantees timely guidance on federal                         confirmation of
                   regulations, standards, and guidelines                       implementation by
                  related to procurement and (b) monitor                           component.
                  subgrantees to ensure compliance with
                 those federal regulations, standards, and
                                  guidelines.
                                                                                   Action Plan
                                                                                    provided.
                  Disallow $1,247,200 of unsupported                                Awaiting
                                                                   Yes
                                costs.                                           confirmation of
                                                                                implementation by
                                                                                   component.
                                                                                   Action Plan
                                                                                    provided.
   DD-08-05        Disallow $649,168 of unreasonable                                Awaiting
                                                                   Yes
                             contract costs.                                     confirmation of
                                                                                implementation by
                                                                                   component.
                                                                                   Action Plan
                                                                                    provided.
                                                                                    Awaiting
                  Disallow $385,812 of duplicate costs.            Yes
                                                                                 confirmation of
                                                                                implementation by
                                                                                   component.
                                                                                   Action Plan
                                                                                    provided.
                        Recover $251,479 FEMA                                       Awaiting
                                                                   Yes
                             overpayment.                                        confirmation of
                                                                                implementation by
                                                                                   component.
                                                                                   Action Plan
                                                                                    provided.
                     Disallow $197,259 of ineligible                                Awaiting
                                                                   Yes
                             contract costs.                                     confirmation of
                                                                                implementation by
                                                                                   component.




                Status Report on Open Recommendations to DHS Components 


                                          Page 23 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                                                                                   Action Plan
                                                                                    provided.
                      Recover the $105,941 FEMA                                     Awaiting
                                                                   Yes
                             overpayment.                                        confirmation of
                                                                                implementation by
   DD-08-05                                                                        component.
                                                                                   Action Plan
                                                                                    provided.
                 Disallow $38,403 of ineligible contract                            Awaiting
                                                                   Yes
                  costs for standby and idle equipment.                          confirmation of
                                                                                implementation by
                                                                                   component.
                                                                                   Action Plan
                                                                                    provided.
                    Disallow $3,005,823 of ineligible
                                                                                    Awaiting
   DD-08-06         contract costs claimed for project             Yes
                                                                                 confirmation of
                          management services.
                                                                                implementation by
                                                                                   component.
                    Disallow unreasonable contractor
                     profits $3,386,606 and develop,
                    implement procedures for future
                                                                                   Closed after
                  disasters to ensure that grantees and            Yes
                                                                                    12/31/07.
                 subgrantees are knowledgeable of, and
   DD-09-04           follow regulations and FEMA
                    guidelines related to contracting.
                     Disallow $894,601 in ineligible                               Closed after
                                                                   Yes
                           (duplicate) charges.                                     12/31/07.
                 Disallow ineligible subgrantee statutory                          Closed after
                                                                   Yes
                 administrative allowance of $133,303.                              12/31/07.
                                                                                   Action Plan
                                                                                    provided.
                 Disallow unsupported engineering costs                             Awaiting
                                                                   Yes
                              of $56,435.                                        confirmation of
                                                                                implementation by
                                                                                   component.
                                                                                   Action Plan
                                                                                    provided.
                    Disallow ineligible travel costs of                             Awaiting
                                                                   Yes
                                $21,463.                                         confirmation of
                                                                                implementation by
   DD-09-05
                                                                                   component.
                   Require the Oklahoma Department of
                   Emergency Management to develop,
                   document, and implement procedures                              Action Plan
                     for future disasters to (a) provide                            provided.
                      subgrantees guidance on federal                               Awaiting
                                                                   Yes
                   regulations, standards, and guidelines                        confirmation of
                  related to procurement and (b) monitor                        implementation by
                  subgrantees to ensure compliance with                            component.
                 those federal regulations, standards, and
                                 guidelines.


                Status Report on Open Recommendations to DHS Components 


                                          Page 24 

                                                           Agrees (Yes, No,
Report Number         Recommendation Text                                     Current Status
                                                             Unknown)
                                                                                  Action Plan
                                                                                   provided.
                     Disallow $204,049 claimed for                                 Awaiting
                                                                 Yes
                 ineligible damages to private property.                        confirmation of
                                                                              implementation by
                                                                                  component.
                                                                                  Action Plan
                                                                                   provided.
                  Disallow $34,098 of overstated fringe                            Awaiting
                                                                 Yes
                             benefit costs.                                     confirmation of
                                                                              implementation by
                                                                                  component.
   DD-09-05
                                                                                  Action Plan
                                                                                   provided.
                   Disallow $15,984 of duplicate labor                             Awaiting
                                                                 Yes
                                 costs.                                         confirmation of
                                                                              implementation by
                                                                                  component.
                                                                                  Action Plan
                                                                                   provided.
                                                                                   Awaiting
                  Disallow $5,720 of unsupported costs.          Yes
                                                                                confirmation of
                                                                              implementation by
                                                                                  component.
                     Establish written procedures for                              Status of
                   improving grant management of the             No            implementation is
                            FEMA PA program.                                       unknown.
                  Establish written procedures to ensure
                   that for future disasters subgrantees
                    understand Federal regulations and
                                                                                  Status of
                 FEMA guidelines regarding accounting
                                                                 No           implementation is
                  for and expending federal grant funds
                                                                                 unknown.
                     and related internal controls; and
                     documentation requirements for
                         supporting claimed costs.
                  Establish written procedures to ensure
                      that for future disasters the city                          Status of
   DD-09-06        understands federal regulations and           No           implementation is
                        FEMA guidelines regarding                                unknown.
                         procurement procedures.
                                                                                 Action Plan
                                                                                  provided.
                   Disallow $1,338,993 of questioned                              Awaiting
                                                                 Yes
                            costs (PW 179).                                    confirmation of
                                                                              implementation by
                                                                                 component.
                                                                                 Action Plan
                                                                                  provided.
                   Disallow $1,898,547 of questioned                              Awaiting
                                                                 Yes
                            costs (PW 637).                                    confirmation of
                                                                              implementation by
                                                                                 component.

                Status Report on Open Recommendations to DHS Components 


                                         Page 25 

                                                         Agrees (Yes, No,
Report Number         Recommendation Text                                   Current Status
                                                           Unknown)
                                                                                 Status of
                   Disallow $1,865,066 of questioned
                                                                 No          implementation is
                            costs (PW 628).
                                                                                 unknown.
                                                                                 Status of
                   Disallow $1,192,052 of questioned
                                                                 No          implementation is
                            costs (PW 593).
                                                                                 unknown.
                                                                                Action Plan
                                                                                 provided.
                 Disallow $960,646 of questioned costs                           Awaiting
                                                                 Yes
                              (PW 661).                                       confirmation of
                                                                            implementation by
                                                                                component.
                                                                                Action Plan
                                                                                 provided.
                 Disallow $577,311 of questioned costs                           Awaiting
                                                                 Yes
                              (PW 652).                                       confirmation of
                                                                            implementation by
                                                                                component.
                                                                                Action Plan
                                                                                 provided.
                    Disallow $540,489 (PW 651) and
                                                                                 Awaiting
                    $441,155 (PW 557) of questioned              Yes
                                                                              confirmation of
                                costs.
                                                                            implementation by
                                                                                component.
   DD-09-06
                                                                                Action Plan
                                                                                 provided.
                 Disallow $137,697 of questioned costs                           Awaiting
                                                                 Yes
                              (PW 083).                                       confirmation of
                                                                            implementation by
                                                                                component.
                                                                                Action Plan
                                                                                 provided.
                 Disallow $157,012 of questioned costs                           Awaiting
                                                                 Yes
                              (PW 270).                                       confirmation of
                                                                            implementation by
                                                                                component.
                                                                                Action Plan
                                                                                 provided.
                 Disallow $102,090 of questioned costs                           Awaiting
                                                                 Yes
                              (PW 218).                                       confirmation of
                                                                            implementation by
                                                                                component.
                                                                                Action Plan
                                                                                 provided.
                  Disallow $12,344 of questioned costs                           Awaiting
                                                                 Yes
                              (PW 588).                                       confirmation of
                                                                            implementation by
                                                                                component.




                Status Report on Open Recommendations to DHS Components 


                                        Page 26 

                                                           Agrees (Yes, No,
Report Number         Recommendation Text                                     Current Status
                                                             Unknown)
                                                                                 Action Plan
                                                                                  provided.
                   Have Region provide training for its                           Awaiting
                                                                 Yes
                         staff for the 50% rule.                               confirmation of
                                                                              implementation by
                                                                                 component
                                                                                 Action Plan
   DD-10-06                                                                       provided.
                  Ensure cost estimates and calculations                          Awaiting
                                                                 Yes
                      are done by unbiased parties.                            confirmation of
                                                                              implementation by
                                                                                 component
                    Develop, document, and implement
                                                                                 Closed after
                     procedures for future disasters for         Yes
                                                                                  12/31/07.
                   subgrantee guidance and monitoring.
                       Require TDEM to develop and
                                                                                 Action Plan
                  implement internal control procedures
                                                                                  provided.
                 to ensure that administrative allowance
                                                                                  Awaiting
                   funds are used only for extraordinary         Yes
                                                                               confirmation of
                     costs associated with the disaster
                                                                              implementation by
                      program for which the funds are
                                                                                 component.
                                 awarded.
                                                                                 Action Plan
                     Require TDEM to develop and
                                                                                  provided.
                    implement procedures for closing
                                                                                  Awaiting
   DD-11-04      individual projects as soon as possible         Yes
                                                                               confirmation of
                 after the work is completed rather than
                                                                              implementation by
                  after P-4 certifications are received.
                                                                                 component.
                      Require TDEM to develop and
                                                                                 Action Plan
                 implement procedures to ensure that the
                                                                                  provided.
                   Federal shares of outstanding checks
                                                                                  Awaiting
                 for all open IFG programs are refunded          Yes
                                                                               confirmation of
                  to FEMA within 30 days from the date
                                                                              implementation by
                  the closeout package for each program
                                                                                 component.
                         is submitted to Region VI.
                                                                                 Action Plan
                                                                                  provided.
                  Provide additional training on federal                          Awaiting
                                                                 Yes
                   procurement standards to grantees.                          confirmation of
                                                                              implementation by
                                                                                 component.
   DD-11-06
                                                                                 Action Plan
                    Require grantees to develop and
                                                                                  provided.
                    implement procedures for future
                                                                                  Awaiting
                     disasters to ensure that electric           Yes
                                                                               confirmation of
                 cooperatives are knowledgeable of and
                                                                              implementation by
                 follow federal procurement standards.
                                                                                 component.




                Status Report on Open Recommendations to DHS Components 


                                          Page 27 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                 Require grantees to enforce compliance                            Action Plan
                 with federal procurement standards for                             provided.
                     FEMA Public Assistance grants to                               Awaiting
   DD-11-06                                                        Yes
                    electric cooperatives by disallowing                         confirmation of
                   costs incurred under contracts that do                       implementation by
                       not comply with the standards.                              component.
                      ODCEM develop and implement
                 procedures for future disasters to ensure
                  that subgrantees are knowledgeable of                            Action Plan
   DD-13-04                                                        No
                     and follow federal regulations and                             needed.
                        FEMA guidelines related to
                                procurement.
                 Develop and implement procedures for
                     future disasters to ensure that sub-
                                                                                   Closed after
   DD-15-03          grantees are knowledgeable of and             Yes
                                                                                    12/31/07.
                       follow federal regulations and
                     guidelines related to procurement.
                                                                                   Action Plan
                                                                                    provided.
                 Disallow $7,849,566 of duplicate costs                             Awaiting
                                                                   Yes
                           for EM-3134-IL.                                       confirmation of
   DD-16-03
                                                                                implementation by
                                                                                   component.
                    Disallow $688,887 of questionable                              Closed after
                                                                   Yes
                                   costs.                                           12/31/07.
                    Disallow $1,114,192 in questioned
                  costs and direct the State of Michigan
                  to develop and implement procedures
                                                                                   Action Plan
   DD-18-04            for future disasters to ensure              No
                                                                                    needed.
                  subgrantees are knowledgeable of and
                  follow federal regulations and FEMA
                    guidelines related to procurement.
                                                                                 Implementation
                                                                                delayed. Working
                   Unsupported FA Equipment costs.                 No
                                                                                on implementation
                                                                                 with component.
                                                                                 Implementation
                                                                                delayed. Working
                 Ineligible Equipment Operating Costs.             No
                                                                                on implementation
                                                                                 with component.
                                                                                 Implementation
   DO-08-03                                                                     delayed. Working
                             Excess Charges.                       No
                                                                                on implementation
                                                                                 with component.
                                                                                 Implementation
                 Costs Covered under FEMA's Statutory                           delayed. Working
                                                                   No
                       Administrative Allowance.                                on implementation
                                                                                 with component.
                                                                                 Implementation
                                                                                delayed. Working
                       Non-disaster Related costs.                 No
                                                                                on implementation
                                                                                 with component.

                Status Report on Open Recommendations to DHS Components 


                                          Page 28 

                                                         Agrees (Yes, No,
Report Number         Recommendation Text                                   Current Status
                                                           Unknown)
                                                                             Implementation
                                                                            delayed. Working
   DO-12-03        Unsupported Fringe Benefit Costs.             No
                                                                            on implementation
                                                                             with component.
                                                                             Implementation
                 Duplicate payment for National Guard                       delayed. Working
   DS-03-06                                                      No
                          meals and lodging.                                on implementation
                                                                             with component.
                 Regional Administrator, FEMA Region
                 X, in coordination with the Emergency                          Status of
   DS-07-01          Management Division disallow             Unknown       implementation is
                   $4,899,578 in costs claimed by the                          unknown.
                              Department.
                                                                             Implementation
                                                                            delayed. Working
                            Fiscal Year 2002.                    No
                                                                            on implementation
                                                                             with component.
                                                                             Implementation
                                                                            delayed. Working
                        Fiscal Year 2003 Part 1.                 No
                                                                            on implementation
                                                                             with component.
                                                                             Implementation
                                                                            delayed. Working
                        Fiscal Year 2003, Part 2.                No
                                                                            on implementation
                                                                             with component.
                                                                             Implementation
                                                                            delayed. Working
                            Fiscal Year 2004.                    No
                                                                            on implementation
                                                                             with component.
                                                                             Implementation
                      Identify deficiencies for First                       delayed. Working
   DS-07-42                                                      No
                               Responders.                                  on implementation
                                                                             with component.

                                                                             Implementation
                                                                            delayed. Working
                        Review questioned costs.                 No
                                                                            on implementation
                                                                             with component.
                                                                             Implementation
                                                                            delayed. Working
                     Establish policies and controls.            No
                                                                            on implementation
                                                                             with component.
                                                                             Implementation
                                                                            delayed. Working
                        Use existing authorities.                No
                                                                            on implementation
                                                                             with component.
                                                                             Implementation
                                                                            delayed. Working
                      Develop state strategic plan.              No
                                                                            on implementation
                                                                             with component.



                Status Report on Open Recommendations to DHS Components 


                                          Page 29 

                                                              Agrees (Yes, No,
Report Number         Recommendation Text                                        Current Status
                                                                Unknown)
                                                                                     Status of
                  Disallow unsupported expenses in the
                                                                  Unknown        implementation is
                          amount of $110,604.
                                                                                    unknown.
                                                                                     Status of
                    Disallow duplicate charges in the
                                                                  Unknown        implementation is
                           amount of $85,977.
                                                                                    unknown.
                                                                                     Status of
                  Disallow unsupported charges in the
                                                                  Unknown        implementation is
                          amount of $83,600.
  EMA-06-03                                                                         unknown.
                                                                                     Status of
                 Disallow ineligible fringe benefit costs
                                                                  Unknown        implementation is
                        in the amount of $9,758.
                                                                                    unknown.
                                                                                     Status of
                  Disallow ineligible grant funds in the
                                                                  Unknown        implementation is
                          amount of $60,737.
                                                                                    unknown.
                                                                                     Status of
                 Disallow ineligible and duplicate costs
                                                                  Unknown        implementation is
                        in the amount of $7,364.
                                                                                    unknown.
                    FEMA negotiate a not-to-exceed
                 ceiling within a brief period (i.e., two -                          Status of
                  three weeks) after issuance of a new            Unknown        implementation is
                   verbal authorizations and letter task                            unknown.
                                  orders.
                 FEMA negotiate not-to-exceed ceilings,
                                                                                     Status of
 GC-HQ-06-05        as soon as possible, on all current
                                                                  Unknown        implementation is
                   verbal authorizations and letter task
                                                                                    unknown.
                                  orders.
                   FEMA develop a binding spending
                                                                                     Status of
                   schedule against the not-to-exceed
                                                                  Unknown        implementation is
                  ceiling for each verbal authorization
                                                                                    unknown.
                           and letter task order.
                                                                                    Action Plan
                 Review and test the system controls and                             provided.
                  procedures that are in place to prevent                            Awaiting
                                                                    Yes
                   duplication of benefits to ensure that                         confirmation of
                            they are effective.                                  implementation by
                                                                                    component.
 GC-HQ-06-06
                                                                                    Action Plan
                                                                                     provided.
                   Have caseworkers review the 5,126
                                                                                     Awaiting
                   potential duplicates and recoup any              Yes
                                                                                  confirmation of
                      overpayments that occurred.
                                                                                 implementation by
                                                                                    component.
                    FEMA require that the contractor
                 continue to obtain appropriate credits to                           Status of
 GC-HQ-06-09      hotel billings where room charges are           Unknown        implementation is
                  higher than published room rates plus                             unknown.
                              applicable taxes.




                Status Report on Open Recommendations to DHS Components 


                                           Page 30 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                  FEMA request that GSA modify the
                    contract to provide incentives for                              Status of
                 meeting contract cost estimates and/or          Unknown        implementation is
                  penalties for failing to meet contract                           unknown.
                              cost estimates.
 GC-HQ-06-09
                  FEMA work with Corporate Lodging
                  Consultants and/or the American Red                               Status of
                 Cross to revise the process for selecting       Unknown        implementation is
                  hotels to prevent excessive per night                            unknown.
                              room charges.
                                                                                    Action Plan
                    Require applicants to provide co-
                                                                                     provided.
                  applicant social security numbers and
                                                                                     Awaiting
                   check those numbers against other               Yes
                                                                                  confirmation of
                    applications to identify possible
                                                                                implementation by
                               duplication.
 GC-HQ-06-10                                                                        component.
                                                                                    Action Plan
                  Review all awards to applicants who                                provided.
                 provided false social security numbers                              Awaiting
                                                                   Yes
                 and recoup any erroneous or ineligible                           confirmation of
                               payments.                                        implementation by
                                                                                    component.
                                                                                    Action Plan
                                                                                     provided.
                  Develop comprehensive plan to use,
                                                                                     Awaiting
                  dispose of mobile and manufactured               Yes
                                                                                  confirmation of
                               homes.
                                                                                implementation by
                                                                                    component.
                                                                                     Status of
                     Monitor storage sites to prevent
 GC-HQ-06-12                                                     Unknown         implementation is
                             deterioration.
                                                                                     unknown.
                                                                                     Status of
                  Recoup manufacturer repair costs for
                                                                 Unknown         implementation is
                       damage during delivery.
                                                                                     unknown.
                  For future disasters, develop policies,                            Status of
                 plans, and procedures for acquisition of        Unknown         implementation is
                       mobile/manufactured homes.                                    unknown.
                  FEMA conduct a needs assessment of
                                                                                    Status of
                    guard services required by FEMA
                                                                 Unknown        implementation is
                 facilities, including the need for armed
                                                                                   unknown.
                            and unarmed guards.
 GC-HQ-06-17
                     FEMA conduct a full and open
                                                                                    Status of
                    competition to meet all long-term
                                                                 Unknown        implementation is
                  requirements for armed and unarmed
                                                                                   unknown.
                               guard services.
                    FEMA require Contract Officers'
                 Technical Representatives to physically                            Status of
 GC-HQ-06-35        inspect contractor storage sites to          Unknown        implementation is
                 ensure that contractors report damaged                            unknown.
                 and non-mission capable travel trailers.



                Status Report on Open Recommendations to DHS Components 


                                          Page 31 

                                                            Agrees (Yes, No,
Report Number         Recommendation Text                                      Current Status
                                                              Unknown)
                 FEMA should determine responsibility
                    for the damaged trailers and take                              Status of
 GC-HQ-06-35      appropriate action to return or repair        Unknown        implementation is
                    damaged trailers or recover cost                              unknown.
                            through warranty.
                                                                                   Action Plan
                                                                                    provided.
                 FEMA's CFO and ADRD take action to
                                                                                    Awaiting
 GC-HQ-06-40      establish management cost rates for             Yes
                                                                                 confirmation of
                    admin allowance & state grants.
                                                                               implementation by
                                                                                   component.
                        Determine the extent of the                                 Status of
                  unallowable charges under the lodging         Unknown         implementation is
                                  contract.                                         unknown.
                 Initiate collection procedures to recoup                           Status of
 GC-HQ-06-41
                 unallowable charges from the American          Unknown         implementation is
                                 Red Cross.                                         unknown.
                   Develop and implement controls to                                Status of
                 identify and prevent future unallowable        Unknown         implementation is
                     charges under lodging contracts.                               unknown.
                                                                                   Action Plan
                 Develop a methodology to estimate and                              provided.
                 distribute costs among states where the                            Awaiting
 GC-HQ-06-45                                                      Yes
                     goods and services are not state                            confirmation of
                                 specific.                                     implementation by
                                                                                   component.
                                                                                   Action Plan
                     Request the Parish to amend its                                provided.
                   documentation for PW 8 to deduct                                 Awaiting
                                                                  Yes
                 $2,638,032 for charges ineligible or not                        confirmation of
                               applicable.                                     implementation by
                                                                                   component.
                                                                                   Action Plan
                 Review contract billings based on cost
                                                                                    provided.
                  plus percentage of cost and verify that
                                                                                    Awaiting
                 rates charged for labor, equipment, and          Yes
                                                                                 confirmation of
                 materials were based on actual costs to
                                                                               implementation by
                              the contractor.
                                                                                   component.
 GC-LA-06-54
                                                                                   Action Plan
                      Disallow $1,098,000 for the                                   provided.
                  percentages added for overhead and                                Awaiting
                                                                  Yes
                  profit on cost plus percentage of cost                         confirmation of
                                contracts.                                     implementation by
                                                                                   component.
                                                                                   Action Plan
                  Determine whether non-compliance                                  provided.
                 with contracting requirements resulted                             Awaiting
                                                                  Yes
                 in excessive or ineligible charges, and                         confirmation of
                       adjust funds accordingly.                               implementation by
                                                                                   component.



                Status Report on Open Recommendations to DHS Components 


                                          Page 32 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                  Require the FCO to disallow the $1.9                             Action Plan
                    million of debris removal costs for                             provided.
                  federal aid roads; Require the FCO to                             Awaiting
                                                                   Yes
                         inform the city to request                              confirmation of
                   reimbursement from FHA for debris                            implementation by
                      removal on federal aid roads.                                component.
 GC-MS-06-25
                                                                                   Action Plan
                                                                                    provided.
                  Require the FCO to require the city to
                                                                                    Awaiting
                  remit to FEMA the interest earned on             Yes
                                                                                 confirmation of
                            FEMA advance.
                                                                                implementation by
                                                                                   component.
                   The FCO instruct the Contracting
                                                                                    Status of
                  Officer to terminate blanket purchase
 GC-MS-06-29                                                     Unknown        implementation is
                  agreements and to use GPO for any
                                                                                   unknown.
                              printing needs.
                                                                                    Action Plan
                                                                                     provided.
                   FCO coordinate with MEMA and
                                                                                     Awaiting
 GC-MS-06-36     require the city to negotiate labor rates         Yes
                                                                                  confirmation of
                           for debris monitors.
                                                                                implementation by
                                                                                    component.
                     FCO in coordination with MEMA                                   Status of
 GC-MS-06-37         disallow the $207,068 of ineligible         Unknown         implementation is
                                overtime cost.                                       unknown.
                    FCO, in coordination with MEMA,
                      should require the county to take                            Action Plan
                    immediate action to negotiate labor                             provided.
                   rates for any existing debris monitors                           Awaiting
 GC-MS-06-47                                                       Yes
                    and ensure that under future FEMA                            confirmation of
                        projects, rates for services are                        implementation by
                   commensurate with the nature of the                             component.
                               work performed.
                    FCO, in coordination with MEMA,
                                                                                   Action Plan
                   require the county to take immediate
                                                                                    provided.
                   action to determine whether the rates
                                                                                    Awaiting
 GC-MS-06-48        charged by the engineering firm for            Yes
                                                                                 confirmation of
                       debris monitoring activities are
                                                                                implementation by
                 reasonable, and adjust its claim for such
                                                                                   component.
                            services, as necessary.
                     Require the city to negotiate debris                          Action Plan
                   monitor labor rates for ongoing work                             provided.
                    and ensure that under future FEMA-                              Awaiting
                                                                   Yes
                   funded projects, rates for services are                       confirmation of
                  commensurate with the nature of work                          implementation by
                                  performed.                                       component.
 GC-MS-06-55
                                                                                   Action Plan
                                                                                    provided.
                  Require the city to remit to FEMA the                             Awaiting
                                                                   Yes
                   interest earned on FEMA advances.                             confirmation of
                                                                                implementation by
                                                                                   component.

                Status Report on Open Recommendations to DHS Components 


                                          Page 33 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                    Organize the lease agreements by
                 apartment complex and verify accuracy                             Closed after
                                                                   Yes
                  of billing and payments totaling $2.24                            12/31/07.
 GC-TX-06-26                      million.
                      Obtain refunds from apartment
                                                                                   Closed after
                 complexes for improper payments and               Yes
                                                                                    12/31/07.
                      remit to FEMA, if appropriate.
                                                                                   Management
                                                                                Implication Report
                                                                                provided by Office
                  Citizenship status not a variable in the                       of Investigations.
                                                                 Unknown
                        registration intake process.                                 Awaiting
                                                                                  confirmation of
                                                                                implementation by
M06-FEMA-HOU-                                                                       component.
     22692                                                                         Management
                                                                                Implication Report
                                                                                provided by Office
                 Term Qualified Alien not well defined                           of Investigations.
                                                                 Unknown
                          on Form 90-69B.                                            Awaiting
                                                                                  confirmation of
                                                                                implementation by
                                                                                    component.
                  Establish a point of contact within the                          Management
                     DHS OIG who is responsible for                             Implication Report
                    conducting basic law enforcement                            provided by Office
                 checks on the organizations/entities that                       of Investigations.
                                                                 Unknown
                     are applying for UASI grants to                                 Awaiting
                   determine if there is any derogatory                           confirmation of
                   information that may play a part in                          implementation by
                       grant award determination.                                   component.
                                                                                   Management
                                                                                Implication Report
                  Require information during the grant
                                                                                provided by Office
                    submission process regarding the
M08-OGPO-MIA-                                                                    of Investigations.
                     individual completing the actual            Unknown
    00379                                                                            Awaiting
                    application to determine multiple
                                                                                  confirmation of
                  submissions by the same grant writer.
                                                                                implementation by
                                                                                    component.
                                                                                   Management
                                                                                Implication Report
                    Verify an organization’s corporate                          provided by Office
                  identification number to determine if                          of Investigations.
                                                                 Unknown
                 the organization/entity is in compliance                            Awaiting
                     with registered corporate status.                            confirmation of
                                                                                implementation by
                                                                                    component.
                 Accelerate the development for federal
                                                                                    Status of
                      guidelines for first responder
  OIG-04-15                                                        Yes          implementation is
                  capabilities, equipment, training, and
                                                                                   unknown.
                                 exercises.



                Status Report on Open Recommendations to DHS Components 


                                           Page 34 

                                                              Agrees (Yes, No,
Report Number         Recommendation Text                                        Current Status
                                                                Unknown)
                   Publish program monitoring guidance
                                                                                     Status of
                       and ensure that states report their
                                                                    Yes          implementation is
                      progress in achieving program and
                                                                                    unknown.
                      performance goals and objectives.
                        Monitor state oversight of local
  OIG-04-15          jurisdictions' compliance with grant
                  requirements and develop performance                               Status of
                   standards that can be used to measure            Yes          implementation is
                        the overall success of the grant                            unknown.
                   programs, including baselines against
                          which to measure progress.
                     Ensure that, for future declarations,
                    preliminary damage assessments are                               Status of
                  performed to determine and document               No           implementation is
                 the type, extent, and location of disaster                         unknown.
                     related damages whenever possible.
                      Develop clearer guidance defining                              Status of
                   circumstances where complete PDAs                No           implementation is
                      may be unnecessary or infeasible.                             unknown.
                 Modify FEMA'S inspection procedures
                    to identify more accurately disaster-                            Status of
                    related losses of household items for           Yes          implementation is
                          which applicants should be                                unknown.
                                 compensated.
                  Modify the IHP Inspection Guidelines
                   to require inspectors to specify in the
                                                                                     Status of
                    “PP Verbal” file the specific item(s)
                                                                    Yes          implementation is
                    that was not available for inspection,
                                                                                    unknown.
                    the verbal representations made, and
                     the evidence used to verify the loss.
  OIG-05-20
                  Develop eligibility criteria for funding
                                                                                     Status of
                   automobile damage that can be tied to
                                                                    Yes          implementation is
                      damages sustained as a result of a
                                                                                    unknown.
                                    disaster.
                   Modify guidelines to require contract
                        inspectors to document verified                              Status of
                 automobile damages to allow FEMA to                Yes          implementation is
                 justify awards based on disaster-related                           unknown.
                                     needs.
                 Work with the states to establish a more
                                                                                     Status of
                       reasonable replacement value for
                                                                    No           implementation is
                     destroyed automobiles based on the
                                                                                    unknown.
                   cost to acquire a comparable vehicle.
                                                                                     Status of
                   Develop criteria and guidelines for
                                                                    No           implementation is
                  determining “disaster-related deaths.”
                                                                                    unknown.
                 Require staff to document their analysis
                                                                                     Status of
                   of each request for funeral expense
                                                                    No           implementation is
                 assistance in order to support approval
                                                                                    unknown.
                    or disapproval of such assistance.



                Status Report on Open Recommendations to DHS Components 


                                           Page 35 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                 Modify inspection guidelines to require
                     contract inspectors to justify that                            Status of
                       funding recommendations for                 Yes          implementation is
                   miscellaneous items are based upon                              unknown.
                           disaster-related needs.
                 Recoup the $36,300 paid to individuals                             Status of
                   who did not report a need for rental            Yes          implementation is
                   assistance or damage to their home.                             unknown.
                 Modify its home inspection procedures
                      to require contract inspectors to
                         document (1) the basis for
                                                                                    Status of
                  determinations that homes are unsafe,
                                                                   No           implementation is
                        and (2) instances of deferred
                                                                                   unknown.
                 maintenance, including an evaluation of
                    the severity of such conditions for
                        housing eligibility decisions.
                   Modify its inspection guidelines to
  OIG-05-20
                     require inspectors to identify and                             Status of
                 document the types of disaster damages            Yes          implementation is
                    sustained to justify a decision that                           unknown.
                            homes are destroyed.
                    Modify, when feasible, inspection
                     contracts to require contractors to                            Status of
                    review the quality of work of their            Yes          implementation is
                        inspector prior to submitting                              unknown.
                         inspections data to FEMA.
                    Modify NEMIS to include an edit
                                                                                    Status of
                   review of inspector work for errors
                                                                   Yes          implementation is
                      prior to processing payments to
                                                                                   unknown.
                                 applicants.
                  Modify inspection contracts to require
                 inspectors to certify their independence                           Status of
                     for each inspection and to recues             Yes          implementation is
                     themselves from inspections that                              unknown.
                  present a possible conflict of interest.
                                                                                   Action Plan
                    Ensure that adequate controls for
                                                                                    provided.
                   granting, monitoring, and removing
                                                                                    Awaiting
                  NEMIS user access are implemented                Yes
                                                                                 confirmation of
                 according to DHS requirements as well
                                                                                implementation by
                           as NIST guidelines.
                                                                                   component.
  OIG-05-43
                     Develop and implement an IT
                                                                                   Action Plan
                    contingency training and testing
                                                                                    provided.
                 program for NEMIS to ensure that key
                                                                                    Awaiting
                    personnel are trained on the plan              Yes
                                                                                 confirmation of
                 annually, and that an annual test of the
                                                                                implementation by
                     NEMIS IT contingency plan is
                                                                                   component.
                               conducted.




                Status Report on Open Recommendations to DHS Components 


                                          Page 36 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                                                                                   Action Plan
                   Update the NEMIS database software                               provided.
                  to a version that is currently supported                          Awaiting
                                                                   Yes
                     by the vendor, and ensure that all                          confirmation of
                      necessary patches are installed.                          implementation by
                                                                                   component.
  OIG-05-43
                                                                                   Action Plan
                    Develop and implement corrective
                                                                                    provided.
                   action plans to address all identified
                                                                                    Awaiting
                        NEMIS vulnerabilities and                  Yes
                                                                                 confirmation of
                 configuration weaknesses to reduce the
                                                                                implementation by
                  risk of system compromise or failure.
                                                                                   component.
                     Review and revise the Multi-Year
                     Flood Hazard Identification Plan
                     Review and revise the Multi-Year
                    Flood Hazard Identification Plan to
                                                                                   Action Plan
                   improve sequencing and funding for
                                                                                    provided.
                  mapping studies in high-risk areas to
                                                                                    Awaiting
                  meet common goals and needs of the               Yes
                                                                                 confirmation of
                 National Flood Insurance Program and
                                                                                implementation by
                    local floodplain managers; and, to
                                                                                   component.
                 provide end-state objectives and a long-
                      term strategy for producing and
                     maintaining accurate flood maps
                                nationwide.
                                                                                   Action Plan
                                                                                    provided.
                     Improve oversight of contractor                                Awaiting
                                                                   Yes
                         program management.                                     confirmation of
  OIG-05-44
                                                                                implementation by
                                                                                   component.
                   Direct that the map modernization
                   program office work with the DHS                                Action Plan
                    Geospatial Management Office to                                 provided.
                      develop information sharing                                   Awaiting
                                                                   Yes
                 agreements with other federal agencies                          confirmation of
                 and programs to reduce redundancies in                         implementation by
                  the costs and resources used to carry                            component.
                    out map modernization activities.
                  Clearly communicate to stakeholders
                 the objectives, benefits, and alternative                         Action Plan
                   approaches to converting from the                                provided.
                   former National Geodetic Vertical                                Awaiting
                                                                   Yes
                   Datum of 1929 to the official North                           confirmation of
                   American Vertical Datum of 1988                              implementation by
                 (NAVD 88) to help ensure accuracy of                              component.
                            modernized maps.




                Status Report on Open Recommendations to DHS Components 


                                           Page 37 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                                                                                   Action Plan
                     Improve FEMA regional office
                                                                                    provided.
                    outreach and communication to
                                                                                    Awaiting
                    stakeholders to help ensure their              Yes
                                                                                 confirmation of
                 commitment and participation in efforts
                                                                                implementation by
                       to modernize flood maps.
  OIG-05-44                                                                        component.
                                                                                   Action Plan
                                                                                    provided.
                  Re-evaluate the Mapping Information                               Awaiting
                                                                   Yes
                  Platform (MIP) system development.                             confirmation of
                                                                                implementation by
                                                                                   component.
                      We recommend that the Director,
                      DHS/ODP, require the Executive
                          Director, State Emergency
                      Management Agency (SEMA) to
                   document and implement procedures                                Status of
                    for evaluating the state's progress in         Yes          implementation is
                  achieving the February 2002 strategic                            unknown.
                  plan's goals and objectives, and either
                  redirect spending to be in line with the
                  plan or revise the plan based upon the
                              progress achieved.
                      We recommend that the Director,
                      DHS/ODP, require the Executive
                   Director, SEMA to review the state's
                       plans and justifications for first
                                                                                    Status of
                     responder grants subsequent to FY
                                                                   Yes          implementation is
                         2003, and make appropriate
                                                                                   unknown.
                     adjustments considering the state's
  OIG-06-19
                     progress in achieving the goals and
                       objectives of the February 2002
                                strategic plan.
                      We recommend that the Director,
                      DHS/ODP, require the Executive
                  Director, SEMA to improve the state's
                       grant program management by                                  Status of
                        expediting the awards to first             Yes          implementation is
                    responders, aggressively monitoring                            unknown.
                   sub-grantee activities, and complying
                       with Federal progress reporting
                                requirements.
                      We recommend that the Director,
                      DHS/ODP, require the Executive
                       Director, SEMA to disallow the                               Status of
                      $260,718 used by sub-grantees to             Yes          implementation is
                 procure unapproved equipment, and the                             unknown.
                 $696,940 cost of equipment used by the
                  sub-grantees for unapproved purpose.




                Status Report on Open Recommendations to DHS Components 


                                          Page 38 

                                                            Agrees (Yes, No,
Report Number         Recommendation Text                                      Current Status
                                                              Unknown)
                     We recommend that the Director,
                     DHS/ODP, require the Executive
                                                                                   Status of
  OIG-06-19           Director, SEMA to disallow the
                                                                  Yes          implementation is
                        $278,857 disbursed to police
                                                                                  unknown.
                    departments and require that these
                        funds be returned to SEMA.
                    Clarify the National Response Plan
                   guidelines for federal, headquarters-
                                                                                  Action Plan
                      level collection and synthesis of
                                                                                   provided.
                 situational and operational information,
                                                                                   Awaiting
                        with the intent of eliminating            Yes
                                                                                confirmation of
                     duplication of effort between the
                                                                               implementation by
                    Interagency Incident Management
                                                                                  component.
                       Group and Homeland Security
                             Operations Center.
                   Develop alternative housing resource
                                                                                  Action Plan
                     plans that include a review of all
                                                                                   provided.
                  identified resources within an affected
                                                                                   Awaiting
                     area, determine whether potential            Yes
                                                                                confirmation of
                     duplication exists, and efficiently
                                                                               implementation by
                          deliver services that are
                                                                                  component.
                  accommodating to the disaster victim.
                                                                                  Action Plan
                     Develop a more comprehensive
                                                                                   provided.
                   program to recruit, train, and retain
                                                                                   Awaiting
                    local hires for use in augmenting             Yes
                                                                                confirmation of
                      FEMA’s Disaster Assistance
  OIG-06-32                                                                    implementation by
                    Employees and permanent staff.
                                                                                  component.
                    Address levels of coordination and
                                                                                  Action Plan
                     expectations with Department of
                                                                                   provided.
                     Defense entities under the NRP,
                                                                                   Awaiting
                  including Northern Command and the              Yes
                                                                                confirmation of
                       Military Liaison, to facilitate
                                                                               implementation by
                 coordination during responses to future
                                                                                  component.
                            domestic incidents.
                                                                                  Action Plan
                   Develop and implement a resource
                                                                                   provided.
                    tracking system that is capable of
                                                                                   Awaiting
                  documenting whether resources were              Yes
                                                                                confirmation of
                 delivered and the efficiency with which
                                                                               implementation by
                        the resource was provided.
                                                                                  component.
                     Define the Mobile Emergency
                  Response Support authorizations for
                   equipment and staffing, including
                                                                                  Action Plan
                    requirements for mission support              No
                                                                                   needed.
                 during a catastrophic disaster, and fund
                   and staff the detachments to meet
                              requirements.




                Status Report on Open Recommendations to DHS Components 


                                          Page 39 

                                                              Agrees (Yes, No,
Report Number         Recommendation Text                                        Current Status
                                                                Unknown)
                  Develop a disaster workforce plan that
                    accounts for standing capability for
                 permanent, temporary, and reserve staff
                      that is responsive to the needs                               Action Plan
                                                                    No
                   demonstrated in response to previous                              needed.
                 disasters, and also develop a plan that is
                  scalable to other events irrespective of
                        cause, size, or complexity.
                                                                                    Action Plan
                  Develop and implement a system that                                provided.
                   automates and tracks the selection,                               Awaiting
                                                                    Yes
                       deployment, training, and                                  confirmation of
                     demobilization of responders.                               implementation by
                                                                                    component.
                 Provide training to additional National
                                                                                    Action Plan
                  Processing Service Center staff and
                                                                                     provided.
                    contractors to enhance FEMA’s
                                                                                     Awaiting
                     capability to perform applicant                Yes
                                                                                  confirmation of
                    assistance and case management
                                                                                 implementation by
                  activities responsive to the needs of
                                                                                    component.
                                applicants.
                                                                                    Action Plan
                    Establish and test the information
                                                                                     provided.
                 technology infrastructure of the system
  OIG-06-32                                                                          Awaiting
                 to ensure support of user demands and              Yes
                                                                                  confirmation of
                  develop internal controls to decrease
                                                                                 implementation by
                 the potential for duplicate applications.
                                                                                    component.
                   Develop a contract mechanism for its
                                                                                    Action Plan
                    direct federal resources that clearly
                                                                                     provided.
                         defines the expected roles,
                                                                                     Awaiting
                     responsibilities, deliverables, and            Yes
                                                                                  confirmation of
                  performance measures for contractors
                                                                                 implementation by
                  implementing FEMA’s direct housing
                                                                                    component.
                             operations mission.
                 Establish clear roles and responsibilities
                                                                                    Action Plan
                   for the Housing Area Command and
                                                                                     provided.
                   define its reporting requirements and
                                                                                     Awaiting
                 chain of command relationship with the             Yes
                                                                                  confirmation of
                      FEMA headquarters, Joint Field
                                                                                 implementation by
                    Offices, and Technical Assistance
                                                                                    component.
                                 Contractors.
                   Establish eligibility criteria, internal
                     program controls, and a basis for
                          testing a program before                                  Action Plan
                                                                    No
                  implementation to ensure the program                               needed.
                  meets disaster assistance provisions of
                               the Stafford Act.




                Status Report on Open Recommendations to DHS Components 


                                           Page 40 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                      Place priority on analysis of new
                     methods and technology to verify
                    damage, occupancy, and ownership,                              Action Plan
                 when traditional methods of inspection                             provided.
                       are not responsive in the timely                             Awaiting
                                                                   Yes
                   provision of assistance. Methods and                          confirmation of
                   applicable technology must be tested,                        implementation by
                 based on supportable data, and provide                            component.
                      the highest assurance of meeting
                      program eligibility requirements.
                  In coordination with federal, state, and
                                                                                   Action Plan
                    nongovernmental partners, develop
                                                                                    provided.
                   more effective and efficient plans for
                                                                                    Awaiting
                    the delivery of assistance to address          Yes
                                                                                 confirmation of
                 long-term housing issues, and test these
                                                                                implementation by
                      plans in a simulated environment
                                                                                   component.
                   before application in actual disasters.
                                                                                   Action Plan
                   Create individual development plans
                                                                                    provided.
                  (or a similar process) and implement a
                                                                                    Awaiting
                 consolidated records system to maintain           Yes
                                                                                 confirmation of
                     accurate information on training
                                                                                implementation by
                                 completed.
                                                                                   component.
  OIG-06-32                                                                        Action Plan
                  Finalize and distribute the Southeast                             provided.
                 Louisiana Catastrophic Hurricane Plan,                             Awaiting
                                                                   Yes
                    using the lessons learned during                             confirmation of
                 Hurricane Katrina to improve the plan.                         implementation by
                                                                                   component.
                 Request appropriation or provide other                            Action Plan
                   funding, resources, and institutional                            provided.
                  support to agency components and to                               Awaiting
                                                                   Yes
                   state and local partners to complete                          confirmation of
                 draft or proposed catastrophic planning                        implementation by
                      initiatives for natural disasters.                           component.
                                                                                   Action Plan
                    Oversee the Remedial Action                                     provided.
                   Management Program to maintain                                   Awaiting
                                                                   Yes
                    focus and provide support for                                confirmation of
                          corrective action.                                    implementation by
                                                                                   component.
                        Direct its Remedial Action                                 Action Plan
                     Management Program to identify                                 provided.
                   interim remediation plans for issues                             Awaiting
                                                                   Yes
                 that have a remediation completion date                         confirmation of
                  of greater than one year from the date                        implementation by
                                  assigned.                                        component.




                Status Report on Open Recommendations to DHS Components 


                                          Page 41 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                                                                                    Action Plan
                 Develop a method for determining the                                provided.
  OIG-06-32      level of readiness of FEMA to respond                               Awaiting
                                                                   Yes
                    to a disaster that exceeds a state’s                         confirmation of
                                capabilities.                                   implementation by
                                                                                    component.
                   Disallow $152,747 in unsupported                                 Action Plan
                  salary, fringe benefits, and ineligible                            provided.
                    G&A costs claimed by National                                    Awaiting
                                                                   Yes
                    Domestic Preparedness Coalition                              confirmation of
                    Incorporated of Orlando, Florida                            implementation by
                                (NDPCI).                                            component.
                                                                                    Action Plan
                 Disallow $87,770 of NDPCI's claim for                               provided.
                    licensing fees because it received                               Awaiting
                                                                   Yes
                 credits in this amount from the software                        confirmation of
                                  licensor.                                     implementation by
                                                                                    component.
  OIG-06-34
                   Require NDCPI to implement grant                              Implementation
                  management procedures to ensure that                          delayed. Working
                                                                   No
                  Financial Status Reports are properly                         on implementation
                               completed.                                        with component.
                                                                                 Implementation
                  Direct NDCPI to draw down federal
                                                                                delayed. Working
                 cash only as needed for actual incurred           No
                                                                                on implementation
                              expenditures.
                                                                                 with component.
                 Direct NDCPI to strictly follow federal
                                                                                 Implementation
                   regulations and guidelines for future
                                                                                delayed. Working
                       travel, and make a retroactive              No
                                                                                on implementation
                 adjustment to the travel costs that have
                                                                                 with component.
                          already been reimbursed.
                  We recommend that ODP require the
                       Commonwealth to implement
                                                                                    Status of
                     procedures that will assure 2006
                                                                   Yes          implementation is
                   Strategy is complete, accurate, and a
                                                                                   unknown.
                    coordinated document that assesses
                     threats, vulnerabilities, and risks.
                  We recommend that ODP require that
                     the Commonwealth complete its
  OIG-06-45             statewide strategy and needs                                Status of
                    assessment, and determine the best             Yes          implementation is
                 method to link the funds distribution to                          unknown.
                  its threats, associated risks, and needs
                                assessments.
                  We recommend that ODP require the
                 Commonwealth to implement a system                                 Status of
                   of controls and monitoring processes            Yes          implementation is
                 over its subgrantees to comply with the                           unknown.
                    requirements of 28 CFR§66.40(a).




                Status Report on Open Recommendations to DHS Components 


                                           Page 42 

                                                              Agrees (Yes, No,
Report Number         Recommendation Text                                        Current Status
                                                                Unknown)
                   We recommend that ODP require that
                                                                                     Status of
                 the Commonwealth identify all existing
                                                                    Yes          implementation is
                    cash advances from past grants, and
                                                                                    unknown.
                         recoup excess unspent funds
                   We recommend that ODP require that
                      the Commonwealth develop and
                                                                                     Status of
                       implement procedures to ensure
                                                                    Yes          implementation is
                    adequate controls over existing cash
                                                                                    unknown.
                    advances and advances under future
                                    awards.
                   We recommend that ODP require that
                     the Commonwealth establish and
                                                                                     Status of
                    implement management controls to
                                                                    Yes          implementation is
                 monitor purchases for compliance with
                                                                                    unknown.
  OIG-06-45          ODP's Authorized Equipment List
                                     (AEL).
                   We recommend that ODP require that
                  the Commonwealth ensure that the FY
                 2003 SHSGP-1 closeout packages from
                      local jurisdictions do not include                             Status of
                   purchases that were not identified and           Yes          implementation is
                    approved on the FY 2003 SHSGP-I                                 unknown.
                         worksheets, or submit revised
                     worksheets to ODP for retroactive
                            approval of those items.
                   We recommend that ODP require that
                                                                                     Status of
                 the Commonwealth identify equipment
                                                                    Yes          implementation is
                  purchases not on the AEL and resolve
                                                                                    unknown.
                                each with ODP.
                    FEMA should coordinate with each
                        task force and their sponsoring
                   organizations to ensure that they have                            Status of
                   sufficient full-time staff to administer         No           implementation is
                 day-to-day activities and to achieve and                           unknown.
                       maintain System objectives and
                                   standards.
                     FEMA should obtain for each task
  OIG-06-54
                 force a detailed comprehensive analysis                             Status of
                    of grant funding needed to complete             No           implementation is
                   and maintain present and future grant                            unknown.
                          goals and System standards.
                 FEMA should develop and implement a
                                                                                     Status of
                     plan for effective oversight of the
                                                                    No           implementation is
                      US&R System, including on-site
                                                                                    unknown.
                              operational reviews.




                Status Report on Open Recommendations to DHS Components 


                                           Page 43 

                                                              Agrees (Yes, No,
Report Number         Recommendation Text                                        Current Status
                                                                Unknown)
                      We recommend that the Assistant
                        Secretary, Office of Grants and
                    Training require the Director of the
                  State Administrative Agency (SSA) to
                   document and implement procedures                                 Status of
                        for evaluating their progress in            No           implementation is
                         achieving the plans, goals and                             unknown.
                  objectives and either redirect spending
                      in line with the plan or approve a
                     revised plan based on the progress
                                   achieved.
                      We recommend that the Assistant
                        Secretary, Office of Grants and
                    Training require the Director of the
                 SSA to commit the necessary resources                              Action Plan
                 to an accounting system that adequately                             provided.
                 tracks and details grant expenditures by                            Awaiting
                                                                    Yes
                   budgetary category. The accounting                             confirmation of
                    system should provide assurance of                           implementation by
                       budgetary compliance as well as                              component.
                   promote the most effective manner to
                       expend grant funds for terrorism
                                 preparedness.
                      We recommend that the Assistant
                        Secretary, Office of Grants and
  OIG-07-02         Training require the Director of the                            Action Plan
                  SSA to establish policies to ensure that                           provided.
                  adequately trained and secured staffing                            Awaiting
                                                                    Yes
                   are in place to effectively administer                         confirmation of
                      grant funds and provide a security                         implementation by
                 analysis of sensitive data to limit access                         component.
                     to only those authorized to use and
                           process such information.
                      We recommend that the Assistant                               Action Plan
                        Secretary, Office of Grants and                              provided.
                    Training require the Director of the                             Awaiting
                                                                    Yes
                   SSA to establish written policies and                          confirmation of
                  procedures for consistent and effective                        implementation by
                         administration of grant funds.                             component.
                      We recommend that the Assistant
                        Secretary, Office of Grants and
                    Training require the Director of the
                  SSA to establish processes to improve
                                                                                    Action Plan
                       monitoring of funds allocated to
                                                                                     provided.
                   subgrantees to ensure that subgrantee
                                                                                     Awaiting
                   purchases: (1) Serve the objective of            Yes
                                                                                  confirmation of
                 terrorism preparedness on a coordinated
                                                                                 implementation by
                 basis throughout each region within the
                                                                                    component.
                        state. (2) Meet interoperability
                       objective. (3) Are evaluated for
                    effectiveness and efficiency by state
                               and local officials.


                Status Report on Open Recommendations to DHS Components 


                                           Page 44 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                    We recommend that the Assistant
                                                                                   Action Plan
                      Secretary, Office of Grants and
                                                                                    provided.
                   Training require the Director of the
                                                                                    Awaiting
                  SSA to spend grant money within the              Yes
                                                                                 confirmation of
                  time period originally established by
                                                                                implementation by
                   the grant or the approved extended
                                                                                   component.
                                   period.
                    We recommend that the Assistant
                                                                                   Action Plan
                      Secretary, Office of Grants and
                                                                                    provided.
                   Training require the Director of the
                                                                                    Awaiting
                     SSA to support the allowability,              Yes
                                                                                 confirmation of
                    allocability, and reasonableness of
                                                                                implementation by
                        expenditures with adequate
                                                                                   component.
                              documentation.
                                                                                   Action Plan
                   We recommend that the Assistant
                                                                                    provided.
                    Secretary, Office of Grants and
                                                                                    Awaiting
                  Training require the Director of the             Yes
                                                                                 confirmation of
                 SSA to obtain approval documentation
                                                                                implementation by
                       from appropriate parties.
  OIG-07-02                                                                        component.
                     We recommend that the Assistant                               Action Plan
                      Secretary, Office of Grants and                               provided.
                    Training require the Director of the                            Awaiting
                                                                   Yes
                       SSA to ensure that the grants                             confirmation of
                   accounting system properly accounts                          implementation by
                           for grant expenditures.                                 component.
                     We recommend that the Assistant
                                                                                   Action Plan
                      Secretary, Office of Grants and
                                                                                    provided.
                    Training require the Director of the
                                                                                    Awaiting
                  SSA to ensure that equipment procured            Yes
                                                                                 confirmation of
                 is on the detail budget equipment listing
                                                                                implementation by
                   or that deviations from the listing are
                                                                                   component.
                                  approved.
                                                                                   Action Plan
                    We recommend that the Assistant                                 provided.
                     Secretary, Office of Grants and                                Awaiting
                                                                   Yes
                   Training require the Director of the                          confirmation of
                   SSA to disallow costs of $426,578.                           implementation by
                                                                                   component.
                 Make cost-effective plans for the use of                          Action Plan
                                                                   Yes
                   all remaining modular home units.                                 needed.
                       Develop written policies and
                  procedures that allow the purchase of
  OIG-07-03        modular home units only when the
                                                                                   Action Plan
                 requirement has been clearly identified,          Yes
                                                                                    needed.
                    and ensure that they are packaged
                 adequately for storage and are properly
                                 stored.




                Status Report on Open Recommendations to DHS Components 


                                          Page 45 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                   We recommend that G&T perform a
                 comprehensive and thorough root cause
                  analysis fully supported and sustained
                                                                                   Action Plan
                     by documentation to identify the
                                                                                    provided.
                     underlying causes of the material
                                                                                    Awaiting
                    weaknesses, including a review of              Yes
                                                                                 confirmation of
                   financial IT systems, processes, and
                                                                                implementation by
                  human resources. Root causes should
                                                                                   component.
                  be cross-referenced to the weaknesses
                 identified by Management. The CAPS
                      should be prioritized for action.
                   We recommend that G&T develop a
                                                                                   Action Plan
                   CAP to mitigate and correct control
                                                                                    provided.
  OIG-07-13        deficiencies, based on management's
                                                                                    Awaiting
                    own assessment of the issues. The              Yes
                                                                                 confirmation of
                 CAP should include a description of the
                                                                                implementation by
                 detailed tasks and milestones, as well as
                                                                                   component.
                  key success and performance metrics.
                 We recommend that G&T integrate the
                   CAPs with the Department's plan for
                  OMB Circular A-123 implementation                                Action Plan
                     and the annual FMFIA assurance                                 provided.
                    statement. Management's plan for                                Awaiting
                                                                   Yes
                 verification of corrective actions should                       confirmation of
                        be closely integrated with the                          implementation by
                      Department's controls test work                              component.
                     conducted to comply with OMB
                               Circular A-123.
                    Update the FEMA strategic plan to                              Action Plan
                 support achievement of DHS goals and                               provided.
                  ensure that all FEMA systems provide                              Awaiting
                                                                   Yes
                    the performance data necessary to                            confirmation of
                    measure progress toward achieving                           implementation by
                        response and recovery goals.                               component.
                   Direct the EP&R CIO to ensure that                              Action Plan
                  personnel, through the EP&R training                              provided.
                    division, receive adequate systems                              Awaiting
  OIG-07-17                                                        Yes
                 training, guidance, and communication                           confirmation of
                 needed to support disaster response and                        implementation by
                       recovery activities effectively.                            component.
                                                                                   Action Plan
                  Direct the EP&R CIO to complete the
                                                                                    provided.
                 FEMA enterprise architecture, linked to
                                                                                    Awaiting
                  the department-wide architecture and             Yes
                                                                                 confirmation of
                   ongoing initiatives that may impact
                                                                                implementation by
                            EP&R operations.
                                                                                   component.




                Status Report on Open Recommendations to DHS Components 


                                          Page 46 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                 Ensure cross cutting participation from
                    headquarters, regions, and states in
                   processes to develop and maintain a                             Action Plan
                   complete, documented set of FEMA                                 provided.
                    business and system requirements.                               Awaiting
                                                                   Yes
                     Direct the EP&R CIO to analyze                              confirmation of
                   alternatives and determine the most                          implementation by
                  appropriate approach to providing the                            component.
                   technology needed to support these
                    business and system requirements.
  OIG-07-17
                    Direct the EP&R CIO develop and
                   maintain a testing environment that
                 duplicates the real systems environment                           Action Plan
                        and ensures that all systems                                provided.
                       components are properly and                                  Awaiting
                                                                   Yes
                 thoroughly tested prior to their release.                       confirmation of
                  Additionally, direct the EP&R CIO to                          implementation by
                     ensure that proper configuration                              component.
                 management activities are followed and
                               documented.
                  Require FEMA Region IX to abide by
                    and carry out FEMA Headquarters
                                                                                   Action Plan
                 appeal decisions and develop a method             No
                                                                                    needed.
                 to track appeal decisions and their final
                           regional resolutions.
  OIG-07-26
                    Require that FEMA Region IX, in
                      coordination with the Office of
                      Emergency Services, disallow                                 Action Plan
                                                                   No
                    $16,226,089 since the city did not                              needed.
                  comply with the terms and conditions
                            of the grant award.
                                                                                   Action Plan
                                                                                    provided.
                  FEMA require contractor to contact
                                                                                    Awaiting
                 hotels where eligibility was questioned           Yes
                                                                                 confirmation of
                         to resolve open issues.
                                                                                implementation by
                                                                                   component.
                                                                                   Action Plan
                                                                                    provided.
                 FEMA require contractor to determine
  OIG-07-31                                                                         Awaiting
                 if rooms with no registration card were           Yes
                                                                                 confirmation of
                      occupied by eligible evacuees.
                                                                                implementation by
                                                                                   component.
                                                                                   Action Plan
                 FEMA require contractor to determine                               provided.
                 if rooms with no "signed" registration                             Awaiting
                                                                   Yes
                     card were occupied by eligible                              confirmation of
                               evacuees.                                        implementation by
                                                                                   component.




                Status Report on Open Recommendations to DHS Components 


                                          Page 47 

                                                            Agrees (Yes, No,
Report Number         Recommendation Text                                      Current Status
                                                              Unknown)
                                                                                   Action Plan
                                                                                    provided.
                    FEMA require contractor to credit
                                                                                    Awaiting
                     FEMA for rooms that cannot be                Yes
                                                                                 confirmation of
                   associated with an eligible evacuee.
                                                                               implementation by
                                                                                   component.
                                                                                   Action Plan
                                                                                    provided.
                   Determine if pricing by hotels was                               Awaiting
                                                                  Yes
                       within a reasonable range.                                confirmation of
                                                                               implementation by
                                                                                   component.
                                                                                   Action Plan
                                                                                    provided.
                 FEMA require contractor to determine
                                                                                    Awaiting
  OIG-07-31        if payments made to hotels were                Yes
                                                                                 confirmation of
                             accurately.
                                                                               implementation by
                                                                                   component.
                                                                                   Action Plan
                                                                                    provided.
                  FEMA require contractor to quantify
                                                                                    Awaiting
                   credits to FEMA for early evacuee              Yes
                                                                                 confirmation of
                                departure.
                                                                               implementation by
                                                                                   component.
                                                                                   Action Plan
                                                                                    provided.
                   FEMA require contractor to credit
                                                                                    Awaiting
                  FEMA for any duplicate or erroneous             Yes
                                                                                 confirmation of
                             payments.
                                                                               implementation by
                                                                                   component.
                                                                                   Action Plan
                  Study ways to integrate food defense
                                                                                    provided.
                  awareness into existing transportation
                                                                                    Awaiting
                   security programs fully and consider           Yes
                                                                                 confirmation of
                    additional research to improve the
                                                                               implementation by
                        security of food in transit.
                                                                                   component.
  OIG-07-33
                                                                                   Action Plan
                     Expand efforts to sponsor food                                 provided.
                  contamination event exercises with an                             Awaiting
                                                                  Yes
                     emphasis on exercises spanning                              confirmation of
                   multiple state and local jurisdictions                      implementation by
                                                                                   component.
                 Emphasize the importance of assessing                              Status of
                 price reasonableness and price realism           Yes           implementation is
                       before awarding contracts.                                   unknown.
                    Develop written guidance for the
  OIG-07-36       implementation of the new statutory
                                                                                   Status of
                   provision and interim rule to ensure
                                                                  Yes          implementation is
                  FEMA contracting officers properly
                                                                                  unknown.
                  determine whether a business is local
                          (FAR Subpart 26-2).


                Status Report on Open Recommendations to DHS Components 


                                          Page 48 

                                                              Agrees (Yes, No,
Report Number         Recommendation Text                                        Current Status
                                                                Unknown)
                    Reinforce the FAR requirement to                                  Status of
  OIG-07-36        disclose prices as part of post award            Yes           implementation is
                                debriefings.                                          unknown.
                                                                                     Action Plan
                   Develop and enforce a nation-wide                                  provided.
                   policy on sales of travel trailers and                             Awaiting
  OIG-07-41                                                         Yes
                   mobile homes that ensures fair and                              confirmation of
                            equitable prices.                                    implementation by
                                                                                     component.
                 Actively partner with TOHS to identify
                  deficiencies (a) identify deficiencies in
                     immediate equipment and training
                 needs and overall capabilities of ASG's
                     first responders; and (b) develop a
                       comprehensive State Homeland                                  Status of
                  Security Strategy and Implementation              Yes          implementation is
                  Plan that clearly articulates measurable                          unknown.
                    homeland security goals, objectives,
                 and implementation milestones that will
                     ensure consistent improvement of
                 ASG's ability to respond to and recover
                            from acts of terrorism.
                  Review and report on the eligibility of
                   the $1.7 million in homeland security
                                                                                     Status of
                   grant expenditures questioned in this
                                                                    Yes          implementation is
  OIG-07-42            report and disallow those costs
                                                                                    unknown.
                         determined to be ineligible,
                        unallowable, or unsupported.
                  Direct TOHS to establish practices and
                         controls to account for grant
                 expenditures by homeland security goal
                  and objective and provide TOHS with
                 technical assistance to create a financial
                 and grant accountability system that (a)
                                                                                     Status of
                 identifies expenditures applicable to the
                                                                    Yes          implementation is
                   appropriate grant year; (b) documents
                                                                                    unknown.
                   actual expenditures by fund category
                    based on ODP/Office of Grants and
                    Training-approved budgets, and (c)
                  maintains the documentation required
                      to appropriately support all grant
                                expenditures.




                Status Report on Open Recommendations to DHS Components 


                                           Page 49 

                                                              Agrees (Yes, No,
Report Number         Recommendation Text                                        Current Status
                                                                Unknown)
                      In light of the "high-risk" grantee
                  designation imposed on ASG by DOI
                        and the results of the "program
                     specific" audit of TOHS, (a) make
                 greater use of existing authorities, up to
                   and including TOHS as a "high-risk"
                       grantee until TOHS strengthens
                 management controls and practices; (b)                              Status of
                  monitor TOHS progress in improving                Yes          implementation is
                  grant accountability and ensure that it                           unknown.
                      provides all first responder grant
  OIG-07-42
                   reporting documentation required by
                       the grant award; and (c) initiate
                 appropriate and timely sanctions should
                         TOHS fail to meet agreed to
                    programmatic and financial reform
                             goals and milestones.
                  Require the TOHS and the TEMCO to
                 partner with the Task Force, established                            Status of
                     by the Governor on September 27,               Yes          implementation is
                    2001, to develop and administer the                             unknown.
                                 strategic plan.
                      FEMA review procedures for the
                                                                                    Action Plan
                   approval and payment of invoices to
                                                                                     provided.
                  ensure that sufficient internal controls
                                                                                     Awaiting
                  exist to prevent payment of erroneous             Yes
                                                                                  confirmation of
                       charges. Only invoices that are
                                                                                 implementation by
                  consistent with the contract terms and
                                                                                    component.
  OIG-07-47                 pricing should be paid.
                  FEMA review and close contracts in a
                    timely manner. Procedures should
                  facilitate a review within a reasonable                           Action Plan
                                                                    Yes
                  period of time after work is completed                             needed.
                 so that unused funds can be returned to
                 Treasury or re-obligated as appropriate.
                      Develop and implement a secure
                                                                                    Action Plan
                         standard configuration for all
                                                                                     provided.
                   computers. Further, the CIO should
                                                                                     Awaiting
                  establish procedures to ensure that the           Yes
                                                                                  confirmation of
                  model system is configured to protect
                                                                                 implementation by
                       FEMA data and verified prior to
                                                                                    component.
                               implementation.
  OIG-07-50               Remedy the existing critical
                     vulnerabilities identified on laptop                           Action Plan
                  computers based on DHS and federal                                 provided.
                  configuration guidelines. Further, the                             Awaiting
                                                                    Yes
                   CIO should confirm whether similar                             confirmation of
                    vulnerabilities and remediation are                          implementation by
                    applicable to all government-issued                             component.
                           computers within FEMA.




                Status Report on Open Recommendations to DHS Components 


                                           Page 50 

                                                               Agrees (Yes, No,
Report Number         Recommendation Text                                         Current Status
                                                                 Unknown)
                                                                                     Action Plan
                 Implement procedures to ensure that all
                                                                                      provided.
                 FEMA laptops are patched and updated
                                                                                      Awaiting
                 in a timely manner, including those that            Yes
                                                                                   confirmation of
                  do not regularly connect to the FEMA
                                                                                  implementation by
                                 network.
                                                                                     component.
                                                                                     Action Plan
                    Implement appropriate inventory                                   provided.
                  management controls to ensure that an                               Awaiting
  OIG-07-50                                                          Yes
                 accurate laptop inventory is maintained,                          confirmation of
                  including effective inventory reviews.                          implementation by
                                                                                     component.
                     Adhere to DHS policy that requires                              Action Plan
                        every computing resource to be                                provided.
                   individually accounted for as part of a                            Awaiting
                                                                     Yes
                 recognized IT system. Further, the CIO                            confirmation of
                     should ensure laptop computers are                           implementation by
                             compliant with FISMA.                                   component.
                       Ensure that policy and procedural
                  information distributed to other federal
                    agencies regarding volunteer service
                 program specifically addresses expense
                                                                                      Status of
                          eligibility, travel and lodging
                                                                   Unknown        implementation is
                         arrangements, notification and
                                                                                     unknown.
                         deployment time frames, pre-
                 identification of training skills, training
                      requirements and post-deployment
                                 support options.
                     Identify a programmatic focal point
                   within FEMA to establish procedures
                           for collecting information,
                                                                                      Status of
                     communicating with agency POCs,
                                                                   Unknown        implementation is
                 disseminating instructions, coordinating
  OIG-07-51                                                                          unknown.
                    program activity, matching volunteer
                  skills with needs and ensuring accurate
                         and complete record keeping.
                     Compile a listing of DHS and other
                    federal agency employees willing to
                    provide volunteer services in impact                              Status of
                   areas and at call centers in advance of         Unknown        implementation is
                      each hurricane season, identifying                             unknown.
                 existing skills, knowledge, abilities and
                                relevant training.
                   Develop a volunteer survey for use in
                        conjunction with an after-action
                                                                                      Status of
                      assessment of the volunteer service
                                                                   Unknown        implementation is
                   program to identify issues, and revise
                                                                                     unknown.
                     the relevant policies and procedures
                                where appropriate.




                Status Report on Open Recommendations to DHS Components 


                                            Page 51 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                       We recommend that the Deputy
                   Administrator National Preparedness                           Implementation
                   Directorate within FEMA require the                          delayed. Working
                                                                   Yes
                  Office of Attorney General to return to                       on implementation
                          DHS amounts related to the                             with component.
                           unsupported expenditures.
                       We recommend that the Deputy
                   Administrator National Preparedness
                                                                                 Implementation
                   Directorate within FEMA require the
                                                                                delayed. Working
                  Office of Attorney General to evaluate           Yes
                                                                                on implementation
                 its requirements for sub recipient grants
                                                                                 with component.
                       to maintain adequate supporting
                                 documentation.
                       We recommend that the Deputy
                   Administrator National Preparedness
                   Directorate within FEMA require the                           Implementation
                 Office of Attorney General to take steps                       delayed. Working
                                                                   Yes
                         to ensure the records retention                        on implementation
                    requirements are being followed and                          with component.
                  records are maintained at a centralized
  OIG-07-58                         location.
                       We recommend that the Deputy
                   Administrator National Preparedness                           Implementation
                   Directorate within FEMA require the                          delayed. Working
                                                                   Yes
                   Office of Attorney General to submit                         on implementation
                        the five Categorical Assistance                          with component.
                      Progress Reports that are missing.
                       We recommend that the Deputy
                   Administrator National Preparedness
                   Directorate within FEMA require the                           Implementation
                 Office of Attorney General to ensure in                        delayed. Working
                                                                   Yes
                   the future to retain evidence that they                      on implementation
                        are complying with grant terms                           with component.
                      regarding Categorical Assistance
                               Progress Reports.
                       We recommend that the Deputy
                   Administrator within FEMA strongly
                                                                                 Implementation
                      encourage the Office of Attorney
                                                                                delayed. Working
                      General to finalize and implement            Yes
                                                                                on implementation
                       written procedures related to the
                                                                                 with component.
                  Financial Status Reports to ensure that
                    the reports will be submitted timely.
                      Collaborate with DOJ to develop
                 protocols, procedures, and processes to                           Action Plan
                     facilitate the appropriate sharing of                          provided.
                      information from FEMA disaster                                Awaiting
  OIG-07-60                                                        Yes
                 recovery assistance files among federal,                        confirmation of
                  state, local and tribal law enforcement                       implementation by
                       agencies that are responsible for                           component.
                             ensuring public safety.




                Status Report on Open Recommendations to DHS Components 


                                          Page 52 

                                                            Agrees (Yes, No,
Report Number         Recommendation Text                                      Current Status
                                                              Unknown)
                 Require Write Your Own companies to
                    document and make available to the
                 NFIP the rationale and methodology for
                    calculating flood and wind damage                             Action Plan
                                                                  No
                 when there is evidence that both perils                           needed.
                  contributed to the damage, and revise
                   the NFIP Claims Adjuster Manual to
                       reflect these new requirements.
                    Expand the reinspection process to
                  include a review of and determination
  OIG-07-62          that flood and wind damage on the
                                                                                  Action Plan
                 same structure was settled in a fair and         No
                                                                                   needed.
                   equitable manner to ensure that wind
                   damage was not paid under the flood
                                    policy.
                                                                                  Action Plan
                 Provide clear and concise guidance for
                                                                                   provided.
                     adjusting total loss claims after
                                                                                   Awaiting
                 catastrophic events when structures are          Yes
                                                                                confirmation of
                   completely destroyed by wind and
                                                                               implementation by
                                  water.
                                                                                  component.
                                                                                  Action Plan
                     Establish procedures to exchange
                                                                                   provided.
                  information with USACE on a routine
                                                                                   Awaiting
  OIG-07-65           basis to ensure reasonable and              Yes
                                                                                confirmation of
                     consistent unit pricing for debris
                                                                               implementation by
                                 removal.
                                                                                  component.
                                                                                  Action Plan
                                                                                   provided.
                      Respond to previous reported                                 Awaiting
                                                                  Yes
                          recommendations.                                      confirmation of
                                                                               implementation by
                                                                                  component.
                                                                                  Action Plan
                                                                                   provided.
                 Describe actions to be taken to address                           Awaiting
  OIG-07-66                                                       Yes
                   all future OIG recommendations.                              confirmation of
                                                                               implementation by
                                                                                  component.
                                                                                  Action Plan
                     Ensure FEMA's recommendation                                  provided.
                  tracking system contains all necessary                           Awaiting
                                                                  Yes
                   information to provide adequate and                          confirmation of
                            timely follow-up.                                  implementation by
                                                                                  component.
                 We recommend that FEMA continue to
                 improve the timeliness of reconciling
                                                                                  Action Plan
  OIG-07-74        differences with Treasury so that              Yes
                                                                                   needed.
                   “temporary” adjustments are not
                               needed.




                Status Report on Open Recommendations to DHS Components 


                                          Page 53 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                        We recommend that FEMA
                         management emphasize the
                   coordination of necessary accounting
                  information agency-wide in its plan to
                  address control deficiencies identified
                   related to financial management and
                  entity level controls. The plan should
                         stress the importance of the
                                                                                  Action Plan
                  maintenance of proper documentation              Yes
                                                                                   needed.
                  in divisions and offices other than the
                   Office of the Chief Financial Officer
                     and the necessity of providing this
                 documentation to the DFB timely upon
                   request, thereby enabling the DFB to
                       maintain adequate supporting
                   documentation of asset capitalization
                                determinations.
                        We recommend that FEMA
                      management ensure that staff are
                 properly trained on the internal controls
                        surrounding JVs and that the
                 requirements in the Office of the Chief
                 Financial Officer Journal Voucher (JV)                           Action Plan
                                                                   Yes
                      Process manual are enforced. In                              needed.
                   addition, FEMA management should
  OIG-07-74      prohibit the use of a signature stamp to
                     denote approval of JVs unless the
                      approver also initials next to the
                              stamped signature.
                   FEMA adhere to its existing policies
                      and procedures when processing
                     mission assignment payments and
                 credits, specifically its SOP Processing
                   Mission Assignment and Interagency
                    Payments for Fund Code 06. These                              Action Plan
                                                                   Yes
                   procedures include posting suspense                             needed.
                    transactions to appropriate clearing
                         accounts and charging back
                        unsupported bills within the
                     documented time frames if timely
                           resolution attempts fail.
                      FEMA’s Federal Payment team
                   continues to develop and implement
                     policies that will ensure the timely
                    processing of suspense transactions
                       within stated time frames. The                             Action Plan
                                                                   Yes
                 procedures should include standardized                            needed.
                     Intra-Governmental Payment and
                   Collection (IPAC) support templates
                   with appropriately identified required
                      fields to ensure prompt posting.



                Status Report on Open Recommendations to DHS Components 


                                          Page 54 

                                                              Agrees (Yes, No,
Report Number         Recommendation Text                                        Current Status
                                                                Unknown)
                    The FEMA Chief Financial Officer
                   requires DFB to properly account for                            Action Plan
                                                                    Yes
                      IPAC suspense transactions in a                               needed.
                 Treasury recognized suspense account.
                   We recommend that FEMA develop
                  and implement procedures to estimate                             Action Plan
                                                                    Yes
                  and record the grants payable liability                           needed.
                        related to the AFG quarterly.
                   We recommend that FEMA develop
  OIG-07-74       and implement procedures to estimate
                  and record the grants payable liability                          Action Plan
                                                                    Yes
                      related to the AFG quarterly and                              needed.
                     communicate such information to
                                     G&T.
                 We recommend that FEMA continue to
                  improve the timeliness of reconciling
                                                                                   Action Plan
                  differences with Treasury to eliminate            Yes
                                                                                    needed.
                    the need for temporary unsupported
                                 adjustments.
                     We recommend that the Assistant
                       Administrator, Grant Programs
                   Directorate within FEMA advise the
                                                                                   Action Plan
                       Director of PEMA to assess its               Yes
                                                                                    needed.
                    administrative approval process for
                    subgrantee allocation and determine
                           areas for improvements.
                     We recommend that the Assistant
                       Administrator, Grant Programs
                   Directorate within FEMA advise the
                      Director of PEMA to evaluate its                             Action Plan
                                                                    Yes
                   organizational structure and focus to                            needed.
                  determine if it is sufficient to meet its
                  domestic preparedness responsibilities
  OIG-08-03                   and requirements.
                     We recommend that the Assistant
                      Administrator, Grants Programs
                  Directorate within FEMA require the
                  Director of PEMA to comply with the                              Action Plan
                                                                    Yes
                  administrative requirement to develop                             needed.
                 and implement a system to monitor and
                 measure improved preparedness of the
                               Commonwealth.
                     We recommend that the Assistant
                       Administrator, Grants Program
                   Directorate, within FEMA advise the
                                                                                   Action Plan
                  Director of PEMA to institute a more              Yes
                                                                                    needed.
                    effective system to ensure adequate
                      documentation is available when
                                  requested.




                Status Report on Open Recommendations to DHS Components 


                                           Page 55 

                                                            Agrees (Yes, No,
Report Number         Recommendation Text                                      Current Status
                                                              Unknown)
                    We recommend that the Assistant
                     Administrator, Grants Programs
                   Directorate within FEMA advise the
                  Director of PEMA to perform periodic                           Action Plan
                                                                  Yes
                      inspections of the expenditure                              needed.
                       documentation to ensure the
                    Commonwealth retention policy is
                            followed effectively.
                    We recommend that the Assistant
                     Administrator, Grant Programs
                                                                                 Action Plan
                  Directorate within FEMA require the             Yes
                                                                                  needed.
                 Director of PEMA to return to DHS the
                 unauthorized amount totaling $721,317.
                    We recommend that the Assistant
                     Administrator, Grants Programs
                   Directorate within FEMA advise the
                                                                                 Action Plan
                 Director of PEMA to institute a system           Yes
                                                                                  needed.
                        to ensure that all equipment
                     acquisitions are included in the
                            provided guidelines.
                    We recommend that the Assistant
                     Administrator, Grants Programs
                   Directorate within FEMA advise the
                       Director of PEMA to ensure                                Action Plan
                                                                  Yes
  OIG-08-03      Comptroller verifies invoice description                         needed.
                 and compares it with authorized lists to
                   ensure payments are made only for
                            allowable expenses.
                    We recommend that the Assistant
                     Administrator, Grants Programs
                   Directorate within FEMA advise the
                  Director of PEMA to develop policies                           Action Plan
                                                                  Yes
                  and procedures that ensure the proper                           needed.
                       and timely submission of the
                     Categorical Assistance Progress
                                  Reports.
                    We recommend that the Assistant
                     Administrator, Grant Programs
                  Directorate within FEMA require the                            Action Plan
                                                                  Yes
                   Director of PEMA to submit the one                             needed.
                 Categorical Assistance Program Report
                             that was not filed.
                    We recommend that the Assistant
                     Administrator, Grants Programs
                   Directorate within FEMA advise the
                                                                                 Action Plan
                 Director of PEMA to revise its policies          Yes
                                                                                  needed.
                   and procedures to ensure the timely
                  submission of future Financial Status
                              Reports (FSRs).




                Status Report on Open Recommendations to DHS Components 


                                          Page 56 

                                                              Agrees (Yes, No,
Report Number         Recommendation Text                                        Current Status
                                                                Unknown)
                      We recommend that the Assistant
                       Administrator, Grants Programs
                    Directorate within FEMA advise the
                 Director of PEMA to perform a review                               Action Plan
                                                                    Yes
                      of financial data from accounting                              needed.
                    system to determine the reconciling
                    items that would cause a variance in
  OIG-08-03                          FSRs.
                      We recommend that the Assistant
                       Administrator, Grant Programs
                    Directorate within FEMA advise the
                                                                                    Action Plan
                      Director of PEMA to implement                 Yes
                                                                                     needed.
                    procedures to ensure that a sufficient
                 audit trail is maintained and reviews are
                      done on FSRs before submission.
                 Provide its CFO with clear authority to                            Action Plan
                 develop and implement accounting and                                provided.
                 financial reporting policies, procedures,                           Awaiting
                                                                    Yes
                    and internal controls throughout the                          confirmation of
                     agency. Program offices should be                           implementation by
                        required to adhere to policies.                             component.
                       Evaluate the existing financial
                       management organizational and
                   internal control structure to determine                          Action Plan
                  the number of personnel and resources                              provided.
                   needed, along with the requisite skills                           Awaiting
                                                                    Yes
                   and abilities necessary, to ensure that                        confirmation of
                  all significant transactions and account                       implementation by
                 balances are accurately and completely                             component.
                 recorded in FEMA's general ledger in a
                                timely manner.
                                                                                    Action Plan
  OIG-08-12                                                                          provided.
                    Assign accounting functions and
                                                                                     Awaiting
                 responsibilities to staff to ensure proper         Yes
                                                                                  confirmation of
                          segregation of duties.
                                                                                 implementation by
                                                                                    component.
                                                                                    Action Plan
                  Establish clear management oversight
                                                                                     provided.
                     responsibilities and processes to
                                                                                     Awaiting
                    effectively review adjustments to               Yes
                                                                                  confirmation of
                      account balances and complex,
                                                                                 implementation by
                   nonroutine accounting transactions.
                                                                                    component.
                 Develop and implement comprehensive
                     CAPs to correct conditions that
                   contribute to the Department-level
                                                                                     Status of
                     material weaknesses in internal
                                                                    No           implementation is
                     controls, and prevented FEMA
                                                                                    unknown.
                 management from providing reasonable
                    assurance on the effectiveness of
                            internal control.



                Status Report on Open Recommendations to DHS Components 


                                           Page 57 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                                                                                    Status of
                     Fully implement plans to place
                                                                   No           implementation is
                   comptrollers in each regional office.
                                                                                   unknown.
                   Ensure that procedures are in place to                           Status of
                    maintain all job-related training, and         Yes          implementation is
                        other critical personnel actions.                          unknown.
                 Devote necessary personnel to develop
                      and implement proper accounting
                                                                                    Status of
                     policies and procedures and related
                                                                   Yes          implementation is
                      internal controls to ensure that its
                                                                                   unknown.
                    stockpiled inventory throughout the
                                       year.
                      Establish and implement a plan to
                     perform a closed annual inventory                              Status of
                    count as required by FEMA Manual               Yes          implementation is
                 6150.1 Section 4-4g, Section g., Annual                           unknown.
                    Inventory of Accountable Property.
                     Provide more training and detailed
                  instruction to Logistics Center staff on                          Status of
                 performing inventory counts, including            Yes          implementation is
                  the completion of count sheets and the                           unknown.
                           performance of recounts.
                      Reconcile the physical inventory
                   counts, including the annual physical                            Status of
  OIG-08-12           inventory, to the perpetual counts           Yes          implementation is
                  recorded in LIMS, and resolve related                            unknown.
                                 discrepancies.
                   Develop, test (e.g., validation of data
                 and assumptions made), and implement
                                                                                    Status of
                       a reliable method to periodically
                                                                   No           implementation is
                      estimate G&T grants payable [or
                                                                                   unknown.
                   advances] for accrual in the financial
                          statements during the year.
                   Implement policies and procedures to                             Status of
                     ensure full compliance with OMB               No           implementation is
                              Circular No. A-133.                                  unknown.
                  Require all regional offices to perform
                      a complete UDO review, monitor
                                                                                    Status of
                   timely completion of this review, and
                                                                   No           implementation is
                       ensure that all identified mission
                                                                                   unknown.
                 assignment deobligations are processed
                        in the general ledger promptly.
                       Ensure that personnel follow the
                        established policy for quarterly
                   obligation reviews prior to the end of
                                                                                    Status of
                       each quarter to timely determine
                                                                   No           implementation is
                    whether the remaining balance on a
                                                                                   unknown.
                 mission assignment is valid, or whether
                 a deobligation of the remaining balance
                                  is necessary.



                Status Report on Open Recommendations to DHS Components 


                                          Page 58 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                 Enforce the requirement that all OFA’s
                  submit not only a progress report when
                 the mission assignment takes more than
                      60 days to complete, but a progress
                  report every additional 30 days that the
                             project remains either
                        programmatically or financially
                                                                                    Status of
                       additional 30 days that the project
                                                                   No           implementation is
                      remains either programmatically or
                                                                                   unknown.
                      financially incomplete. The report
                 should include an estimated completion
                    date and, when applicable, Form 90-
                   136 should be submitted for extension
                  of the projected end-date whenever the
                  estimate for programmatic completion
                              is more than 30 days.
                          Consider involving OMB in a
                    permanent solution, such as Agreed-
                       upon Procedures engagements, to                              Status of
                   ensure that FEMA receives sufficient            No           implementation is
                  and timely information from OFA’s to                             unknown.
                 properly account for obligations related
                     to outstanding mission assignments.
                   Consider adding additional temporary
                        or permanent accounting staff to
                   improve the deobligation process (our                            Status of
  OIG-08-12
                      recommendations in I-A, Financial            No           implementation is
                       Management Oversight and Entity                             unknown.
                   Level Controls, will also help address
                                these conditions).
                   We recommend that the Coast Guard,
                   FEMA, and TSA fully implement the
                    FMFIA process, as prescribed by the
                   OCFO, to ensure full compliance with
                                                                                    Status of
                 FMFIA and its OMB approved plan for
                                                                   No           implementation is
                  Circular No. A-123 implementation in
                                                                                   unknown.
                 FY 2008. We also recommend that the
                   OCFO consider additional training for
                    its components, to ensure a thorough
                         understanding of requirements.
                       Further develop and implement a
                 tracking system to identify each grantee                           Status of
                 for which an OMB Circular No. A-133               No           implementation is
                    Single Audit is required, and the date                         unknown.
                             the audit report is due.
                                                                                    Status of
                   Strengthen communication with the
                                                                   Yes          implementation is
                           cognizant agencies.
                                                                                   unknown.
                  Use the tracking system to ensure audit
                                                                                    Status of
                   and performance reports are received
                                                                   Yes          implementation is
                 timely, or to follow-up when reports are
                                                                                   unknown.
                                  overdue.

                Status Report on Open Recommendations to DHS Components 


                                          Page 59 

                                                            Agrees (Yes, No,
Report Number         Recommendation Text                                      Current Status
                                                              Unknown)
                     Perform reviews of grantee audit
                    reports, issue-related management                              Status of
  OIG-08-12      decisions, and ensure that the grantees          Yes          implementation is
                 take appropriate corrective action, on a                         unknown.
                                timely basis.
                   This report is Classified. This report
  OIG-08-14       has six open recommendations. Upon
  Classified     request, additional information will be
                      provided to qualified recipients.
                      We recommend that the Acting
                      Assistant Administrator, Grant
                       Programs Directorate monitor
                    Colorado's review of its homeland                            Action Plan
                                                                  Yes
                        security responsibilities and                             needed.
                   organizational structure and provide
                    technical assistance, guidance and
                                  training.
                      We recommend that the Acting
                      Assistant Administrator, Grant
                       Programs Directorate monitor
                 Colorado's development, maintenance,
                     and use of its homeland security
                                                                                 Action Plan
                     strategy as a long range planning            Yes
                                                                                  needed.
                    instrument and evaluate the state's
                 strategy planning cycle to ensure there
                 is an adequate and effective evaluation
                      of risk, capabilities, needs, and
  OIG-08-16
                                  outcome.
                      We recommend that the Acting
                      Assistant Administrator, Grant
                 Programs Directorate proved Colorado
                   technical assistance to ensure that it
                     takes effective action to improve                           Action Plan
                                                                  Yes
                 weaknesses identified, remit $11,555 in                          needed.
                   interest earned on excessive federal
                     drawdowns, and remit $5,460 in
                  interest earned by one sub-grantee on
                    federal advances. (Total $17,015)
                      We recommend that the Acting
                      Assistant Administrator, Grant
                 Programs Directorate review and report
                    on eligibility of the $7.8 million in                        Action Plan
                                                                  Yes
                  homeland security grant expenditures                            needed.
                   questioned and disallow those costs
                     determined to be unallowable or
                                unsupported.




                Status Report on Open Recommendations to DHS Components 


                                          Page 60 

                                                              Agrees (Yes, No,
Report Number         Recommendation Text                                        Current Status
                                                                Unknown)
                       We recommend that the Acting
                       Assistant Administrator, Grant
                       Programs Directorate monitor
                        Colorado's practices for grant                             Action Plan
                                                                    Yes
                     allocations and work with state to                             needed.
                  ensure that it allocates grant funding to
                      projects with the highest risk and
                                   priority.
  OIG-08-16
                       We recommend that the Acting
                       Assistant Administrator, Grant
                 Programs Directorate assist Colorado in
                      establishing a means to regularly
                                                                                   Action Plan
                 monitor statewide equipment readiness,             Yes
                                                                                    needed.
                     and effective exercise and training
                   programs that are in compliance with
                   the objectives of the state's homeland
                              security programs.
                     We recommend that the Assistant
                       Administrator, Grant Programs
                   Directorate within FEMA, require the
                       Florida Division of Emergency
                 Management to develop and implement
                                                                                   Action Plan
                   monitoring policies and procedures to            Yes
                                                                                    needed.
                        ensure compliance with grant
                 requirements involving the allocation of
                    funds to local jurisdictions, specific
                   programs, and timeliness of awarding
                            funds to subgrantees.
                     We recommend that the Assistant
                       Administrator, Grant Programs
                   Directorate within FEMA require the
                       Florida Division of Emergency
                        Management to demonstrate
                                                                                   Action Plan
  OIG-08-20         compliance with grant requirements              Yes
                                                                                    needed.
                   before grant closeout for the FY 2003
                 Parts I and II and FY 2004 grants which
                    may include disallowances for those
                  expenditures incurred by state agencies
                       in excess of grant allowances.
                     We recommend that the Assistant
                       Administrator, Grant Programs
                   Directorate within FEMA, require the
                       Florida Division of Emergency
                   Management to implement controls to
                                                                                   Action Plan
                   comply with grant funding obligation             Yes
                                                                                    needed.
                    stipulations requiring that the State
                     Administrative Agency enter into
                  Memorandums of Understanding with
                      affected jurisdictions upon their
                                   request.




                Status Report on Open Recommendations to DHS Components 


                                           Page 61 

                                                         Agrees (Yes, No,
Report Number         Recommendation Text                                   Current Status
                                                           Unknown)
                   We recommend that the Assistant
                    Administrator, Grant Programs
                 Directorate within FEMA, require the
                                                                              Action Plan
                    Florida Division of Emergency                Yes
                                                                               needed.
                  Management develop a timetable to
                    fully implement its policies and
                 procedures for subgrantee monitoring.
  OIG-08-20        We recommend that the Assistant
                    Administrator, Grant Programs
                 Directorate within FEMA, require the
                    Florida Division of Emergency
                                                                              Action Plan
                 Management to develop and implement             Yes
                                                                               needed.
                   policies and procedures governing
                     control and accountability for
                     equipment distributed to local
                              jurisdictions.




                Status Report on Open Recommendations to DHS Components 


                                        Page 62 

     Federal Law Enforcement Training Center

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                       We recommend that FLETC
                Management: a) Design and implement
                 a process that ensures the Procurement
                 Division consults with the Budget and
                                                                                  Action Plan
                 Finance Division prior to entering into
                                                                                   provided.
                transactions or agreements to determine
                                                                                   Awaiting
                  the budgetary and financial reporting           Yes
                                                                                confirmation of
                 effects of the proposed transactions or
                                                                               implementation by
                      agreements; and b) Review all
                                                                                  component.
                    transactions prior to recording in
                  FLETC's books and records to ensure
                transactions are recorded in accordance
                               with GAAP.
                                                                                  Action Plan
                      We recommend that FLETC
                                                                                   provided.
                    management continue its newly
                                                                                   Awaiting
                     adopted purchases method of                  Yes
                                                                                confirmation of
  OIG-07-46        accounting for inventory, whereby
                                                                               implementation by
                 inventory is expensed upon purchase.
                                                                                  component.
                       We recommend that FLETC
                Management: a) Design and implement
                                                                                  Action Plan
                    a process that ensures each project
                                                                                   provided.
                number applies to only one capital asset
                                                                                   Awaiting
                unit. (Conversely, FLETC may require              Yes
                                                                                confirmation of
                  the contractor to separate the costs of
                                                                               implementation by
                work performed on its contract invoices
                                                                                  component.
                 enabling FLETC to capture the cost to
                         be applied to each unit).
                                                                                  Action Plan
                    We recommend that FLETC
                                                                                   provided.
                Management develop and implement a
                                                                                   Awaiting
                 formalized process to train project              Yes
                                                                                confirmation of
                 managers on the financial reporting
                                                                               implementation by
                   requirements for CIP projects.
                                                                                  component.




                Status Report on Open Recommendations to DHS Components 


                                           Page 63 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                        We recommend that FLETC
                     Management implement the Real
                   Property SOP issued by FLETC on
                       October 27, 2006. Among the
                     procedures established, the SOP
                    requires: a) the Facilities Division
                    submit copies of all Capitalization
                  Reports to the Property Management
                    Division and the Finance Division
                within 10 days of project completion or
                      final decision of additional cost
                resulting from litigation; b) the Finance
                                                                                  Action Plan
                      Division validate construction/
                                                                                   provided.
                         renovation project costs in
                                                                                   Awaiting
                    Capitalization Reports; and c) the            Yes
                                                                                confirmation of
                   Finance Division maintain the CIP
                                                                               implementation by
                  subsidiary ledger by project numbers
                                                                                  component.
                 and funds. The Finance Division will
                compile copies of paid invoices/bills by
                     CIP project numbers and provide
                   copies to the Property Management
                        Division upon validation of
                    Capitalization Report costs. After
                     submission of the Capitalization
                    Reports, the Finance Division will
  OIG-07-46
                  follow-up with the Project Managers
                 for completed construction/renovation
                   projects listed in the CIP subsidiary
                                   ledger.
                                                                                  Action Plan
                d) Develop and implement a quarterly
                                                                                   provided.
                process to reconcile CIP projects listed
                                                                                   Awaiting
                in the subsidiary ledger with on-going            Yes
                                                                                confirmation of
                construction projects as recognized by
                                                                               implementation by
                 the Facilities Management Division.
                                                                                  component.
                a) Design, implement, and document an
                  accrual process that will ensure each
                                                                                  Action Plan
                  type of accounts payable is properly
                                                                                   provided.
                       accrued for financial reporting
                                                                                   Awaiting
                 purposes. This process should include            Yes
                                                                                confirmation of
                 a final review of the accrual details by
                                                                               implementation by
                     senior management to ensure the
                                                                                  component.
                 process was properly executed and the
                           accrual is reasonable.
                     b) Require the use of the accrual                            Action Plan
                      process to capture the financial                             provided.
                    reporting information required for                             Awaiting
                                                                  Yes
                      inclusion in FLETC’s quarterly                            confirmation of
                   financial statements, as required by                        implementation by
                           OMB Circular A-136.                                    component.




                Status Report on Open Recommendations to DHS Components 


                                           Page 64 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                   c) Provide comprehensive training to
                    every person involved in the accrual
                 process. The training should include a
                      discussion of the objective of the
                    process, what each type of accounts
                                                                                  Action Plan
                        payable requires to be accrued
                                                                                   provided.
                  properly, the timing of the procedures
                                                                                   Awaiting
                       to be performed, what form the             Yes
                                                                                confirmation of
                  reported results should take, to whom
                                                                               implementation by
                      the results must be reported, and
                                                                                  component.
                      exactly how the information and
                methods used to obtain the information
                  nor estimate are to be documented for
                later examination by persons internal or
                              external to FLETC.
                     d) Design and implement a plan to
                periodically review the reported accrual
                information provided by personnel both
                                                                                  Action Plan
                       inside and outside the Financial
                                                                                   provided.
                         Division. This will require a
                                                                                   Awaiting
                     knowledgeable person going to the            Yes
                                                                                confirmation of
                   location of the individuals generating
                                                                               implementation by
                  the accrual information and reviewing
                                                                                  component.
                 the accuracy of the information as well
                     as the documentation as to how the
  OIG-07-46
                 information was obtained or estimated.
                    e) Assign one person in the Finance
                Division the responsibility for ensuring
                  that each person designated to submit
                      the quarterly accrual information                           Action Plan
                 submits the information on time and in                            provided.
                        the format required. Any late,                             Awaiting
                                                                  Yes
                        incomplete, or undocumented                             confirmation of
                     submissions should be reported to                         implementation by
                 senior Financial Division management                             component.
                 as well as Management of the Division
                     in which the designated individual
                                    works.
                                                                                  Action Plan
                   f) Include the timely and accurate                              provided.
                 submission of the accrual information                             Awaiting
                                                                  Yes
                as a part of each designated individual's                       confirmation of
                        performance evaluation.                                implementation by
                                                                                  component.
                                                                                  Action Plan
                     We recommend that FLETC                                       provided.
                 management design and implement a                                 Awaiting
                                                                  Yes
                 process that ensures the research and                          confirmation of
                 monthly adjustment of the deferred.                           implementation by
                                                                                  component.




                Status Report on Open Recommendations to DHS Components 


                                           Page 65 

                                                          Agrees (Yes, No,
Report Number        Recommendation Text                                     Current Status
                                                            Unknown)
                                                                                Action Plan
                                                                                 provided.
                 Inform the Finance Division staff that
                                                                                 Awaiting
                   the concept of "materiality" is not          Yes
                                                                              confirmation of
                          appropriate for use.
                                                                             implementation by
                                                                                component.
                    For entity-wide security program
                     planning and management, we
  OIG-07-46     recommend that FLETC’s management
                                                                                Action Plan
                  a) Enforce DHS policy to ensure that
                                                                                 provided.
                      all contractors go through the
                                                                                 Awaiting
                   appropriate background/suitability           Yes
                                                                              confirmation of
                  check, and b) Finalize the IT System
                                                                             implementation by
                 Security Awareness and Training and
                                                                                component.
                 enforce by having all new and existing
                FLETC users and contractors complete
                               the training.




                Status Report on Open Recommendations to DHS Components 


                                          Page 66 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                      For access control a) Use unique
                     database administrator DBA user
                      accounts for accountability when
                          performing DBA duties on
                        Procurement Desktop (PD), b)
                 Implement corrective actions noted in
                          the results of our IT audit's
                vulnerability scans, c) Perform periodic
                scans of FLETC network environment,
                  including the financial processing, d)
                       Implement corrective actions to
                        mitigate risks associated with
                       vulnerabilities identified during
                 periodic scans. Configure Momentum
                      and PD applications to require a
                       password to be minimum eight
                         characters in length, contain
                   combination of alphabetic, numeric,
                   and special characters in compliance
                    with DHS Information Technology
                 Security Program Publication, 4300A
                  Password Policy; e) Configure PD to
                   lock out account users after three (3)
                   invalid login attempts in compliance                           Action Plan
                    with DHS Information Technology                                provided.
                 Security Program Publication, 4300A,                              Awaiting
  OIG-07-46                                                       Yes
                    f) Develop policies and procedures                          confirmation of
                regarding access to the FLETC Telecon                          implementation by
                  Room, including a user authorization                            component.
                form, g) Perform a semi-annual review
                of FLETC Telecon Room access listing
                  in compliance with DHS Information
                        Technology Security Program
                 Publication 4300A, h) Ensure FLETC
                 Manual 4330: User Identification and
                        Authentication Management is
                   finalized, I) Develop and implement
                     policies and procedures restricting
                 access to Momentum system software,
                       and promulgate it to all needed
                    personnel, in compliance with DHS
                     Information Technology Security
                       Program Publication, 4300A, j)
                      Develop and implement FLETC
                  specific policies and procedures over
                 authorization and use, and k) Develop
                and implement policies and procedures
                to proactively monitor sensitive access,
                via audit log review, to system software
                 utilities for Momentum in compliance
                    with DHS Information Technology
                 Security Program Publication 4300A,


                Status Report on Open Recommendations to DHS Components 


                                           Page 67 

                                                          Agrees (Yes, No,
Report Number        Recommendation Text                                     Current Status
                                                            Unknown)
                                                                                Action Plan
                  a) Finalize and implement a SDLC                               provided.
                methodology for Momentum, as well as                             Awaiting
                                                                Yes
                    incorporating security planning                           confirmation of
                       throughout the life cycle.                            implementation by
                                                                                component.
                                                                                Action Plan
                                                                                 provided.
                b) Develop and implement documented
                                                                                 Awaiting
                   policies and procedures over the             Yes
                                                                              confirmation of
                         Momentum and PD.
                                                                             implementation by
                                                                                component.
                                                                                Action Plan
                                                                                 provided.
                c) Document a listing of all users with                          Awaiting
                   access to the Momentum and PD                Yes           confirmation of
                           program libraries.                                implementation by
                                                                                component.

                                                                                Action Plan
                                                                                 provided.
                  Ensure that access is prohibited to
                                                                                 Awaiting
                development staff. Ensure that logs are
                                                                Yes           confirmation of
                 maintained and periodically reviewed
                                                                             implementation by
                           by management.
  OIG-07-46                                                                     component.

                a) Identify and document incompatible
                        duties and system roles and
                                                                                Action Plan
                responsibilities within Momentum and
                                                                                 provided.
                b) Develop and implement policies and
                                                                                 Awaiting
                  procedures segregating incompatible           Yes
                                                                              confirmation of
                duties within the core financial system
                                                                             implementation by
                      to be in compliance with DHS
                                                                                component.
                    Information Technology Security
                       Program Publication, 4300A.
                a) Periodically test the backup compact
                 discs maintained onsite in compliance
                   with DHS Information Technology
                 Security Program Publication, 4300A,
                 b) Affix external labels to the backup                         Action Plan
                     CDs indicating the distribution                             provided.
                limitations and handling caveats of the                          Awaiting
                                                                Yes
                 information in compliance with DHS                           confirmation of
                    Information Technology Security                          implementation by
                   Program Publication 4300A, and c)                            component.
                   Perform a test of the Momentum's
                 contingency plan, in compliance with
                DHS Information Technology Security
                       Program Publication 4300A.




                Status Report on Open Recommendations to DHS Components 


                                          Page 68 

                                                          Agrees (Yes, No,
Report Number        Recommendation Text                                     Current Status
                                                            Unknown)
                  a) Develop and implement a training
                       requirement for all personnel
                    processing invoices and payments
                   ensure FLETC's compliance with 5
                 CFR§1315, the Prompt Payment Act.
                                                                                Action Plan
                 b) Develop and implement a quarterly
                                                                                 provided.
                      review process to examine the
                                                                                 Awaiting
  OIG-07-46     documentation supporting payments for           Yes
                                                                              confirmation of
                    proper recording of receipt dates,
                                                                             implementation by
                      ensure that dates and payment
                                                                                component.
                 information are correctly entered into
                  Momentum Financials Desktop, and
                 ensure disbursements are scheduled in
                  accordance with the requirements of
                         the Prompt Payment Act.




                Status Report on Open Recommendations to DHS Components 


                                         Page 69 

     Management Directorate

                                                             Agrees (Yes, No,
Report Number        Recommendation Text                                        Current Status
                                                               Unknown)
                The Chief Procurement Officer, Office
                         of the Under Secretary for
                    Management: Review and update                                   Status of
  OIG-04-12       FEMA professionalism and warrant                 Yes          implementation is
                    files to ensure that each employee                             unknown.
                  meets the requirements for his or her
                                   position.
                       Provide additional training to
                                                                                    Status of
                  procurement personnel regarding the
                                                                   Yes          implementation is
                BAA requirements and the application
                                                                                   unknown.
                   and use of BAA evaluation factors.
                          Complete the scheduled
                 implementation of automated contract
                                                                                    Status of
                        writing systems for all DHS
                                                                   Yes          implementation is
                  organizational components to ensure
                                                                                   unknown.
                 compliance with BAA and other FAR
                                requirements.
  OIG-05-23          Consult with OMB regarding the                                 Status of
                necessity for government-wide tracking             Yes          implementation is
                of BAA compliance within FPDS-NG.                                  unknown.
                 Revise HSCIS guidance to change the                                Status of
                 country of origin field to a mandatory            Yes          implementation is
                           field, when applicable.                                 unknown.
                 Require organizational components to
                   continue manual data collection on                               Status of
                domestic and foreign end product data,             Yes          implementation is
                 until automated systems to collect this                           unknown.
                      information become available.
                                                                                   Action Plan
                Ensure completion of the identification
                                                                                    provided.
                of systems that collect, process, or store
                                                                                    Awaiting
                 personally identifiable information, as           Yes
                                                                                 confirmation of
                    well as the assessment of the risk
                                                                                implementation by
                 associated with the systems and data.
                                                                                   component.
                                                                                   Action Plan
                     Encrypt personally identifiable
                                                                                    provided.
                information stored on laptop computers
                                                                                    Awaiting
  OIG-07-24      and mobile computing devices, as well             Yes
                                                                                 confirmation of
                   as data transported and stored at an
                                                                                implementation by
                             alternate facility.
                                                                                   component.
                Establish proper remote access security
                                                                                   Action Plan
                  controls for access to PII, including
                                                                                    provided.
                 two-factor authentication for remote
                                                                                    Awaiting
                    access connections and session                 Yes
                                                                                 confirmation of
                    termination after 20 minutes of
                                                                                implementation by
                               inactivity.
                                                                                   component.




                Status Report on Open Recommendations to DHS Components 


                                           Page 70 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                   Implement sufficient controls over
                                                                                   Action Plan
                     electronic copies and extracts of
                                                                                    provided.
                   personally identifiable information,
                                                                                    Awaiting
                   including procedures to ensure that             Yes
                                                                                 confirmation of
                   copies or extracts made by users or
                                                                                implementation by
                   administrators are erased within 90
  OIG-07-24                                                                        component.
                        days if no longer required.
                                                                                   Action Plan
                  Identify aspects of the updated DHS
                                                                                    provided.
                    policies and procedures requiring
                                                                                    Awaiting
                  clarification, and provide additional            Yes
                                                                                 confirmation of
                 guidance to component officials on the
                                                                                implementation by
                              requirements.
                                                                                   component.
                   This report is For Official Use Only.
                             This report has 19 open
OIG-07-53 FOUO        recommendations. Upon request,
                 additional information will be provided
                             to qualified recipients.
                  Periodically compare the GWA system
                 to TIER to ensure the completeness and
                   existence of TAFS reported in TIER.                             Action Plan
                      OFM should especially review the                              provided.
                  GWA system prior to changing TAFS                                 Awaiting
                                                                   Yes
                   to defunct to ensure that no balances                         confirmation of
                        exist. In addition, management                          implementation by
                      approval for changes to the TAFS                             component.
                          included in TIER should be
                   documented and available for review.
                       ICoFR, PMO, and OGC work to
                          establish formal policies and
                   procedures emphasizing the need for
                            thorough, complete, and                                Action Plan
                   understandable responses in the legal                            provided.
                      letter. Additionally, ICoFR PMO                               Awaiting
                                                                   Yes
                    should define the type and extent of                         confirmation of
  OIG-07-74
                    information necessary to ensure that                        implementation by
                        information in the management                              component.
                  schedule and financial statements and
                      related disclosures for contingent
                     liabilities is complete and accurate.
                                                                                   Action Plan
                                                                                    provided.
                     ICoFR PMO gather/update this                                   Awaiting
                                                                   Yes
                     information on a periodic basis.                            confirmation of
                                                                                implementation by
                                                                                   component.
                      DHS continue to document the                                 Action Plan
                 financial reporting process, identify the                          provided.
                 source and cause of the misstatements,                             Awaiting
                                                                   Yes
                  if not already identified, and establish                       confirmation of
                  adequate corrective procedures within                         implementation by
                      the financial reporting process.                             component.

                 Status Report on Open Recommendations to DHS Components 


                                            Page 71 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                                                                                  Action Plan
                      DHS continue to work with                                    provided.
                     components to completely and                                  Awaiting
                                                                  Yes
                accurately implement existing guidance                          confirmation of
                related to FASAB Interpretation No. 6.                         implementation by
                                                                                  component.
                                                                                  Action Plan
                                                                                   provided.
                 Perform a review of earmarked funds                               Awaiting
                                                                  Yes
                         on an annual basis.                                    confirmation of
                                                                               implementation by
                                                                                  component.
                          Incorporate the component                               Action Plan
                       management assessment of its                                provided.
                       earmarked funds into the Chief                              Awaiting
                                                                  Yes
                 Financial Officer certification process,                       confirmation of
  OIG-07-74
                including compliance with the relevant                         implementation by
                       standard operating procedures.                             component.
                      We recommend that the Finance
                Branch perform the following, until the
                interface between FFMS and PRISM is
                 implemented: 1) adhere to the existing
                  policies and procedures to ensure that                          Action Plan
                  all obligations are entered into FFMS                            provided.
                  timely and prior to the receipt of any                           Awaiting
                                                                  Yes
                goods and/or services by the agency, 2)                         confirmation of
                    develop and implement controls to                          implementation by
                monitor the performance of procedures                             component.
                     related to the timely recording of
                     obligations within FFMS, and 3)
                    reconcile all obligations created in
                        PRISM to the general ledger.
                   Improve the OIS’ review process to
                   ensure that all POA&Ms, including
                     classified systems, are complete,
                accurate, and current. Specifically, the
                                                                                  Action Plan
                    closure for all POA&Ms should be
                                                                                   provided.
                      monitored by OIS to ensure that
                                                                                   Awaiting
                    security weaknesses are mitigated             Yes
                                                                                confirmation of
                     timely. POA&Ms should also be
                                                                               implementation by
                reviewed by OIS to identify the causes
                                                                                  component.
                  for recurring and similar weaknesses
  OIG-07-77
                  across the department and determine
                        the reasonableness of delayed
                                 completion.
                   Improve the OIS’ review process to
                                                                                  Action Plan
                   ensure that all C&A documents are
                                                                                   provided.
                  properly prepared before a system is
                                                                                   Awaiting
                    accredited. Systems should not be             Yes
                                                                                confirmation of
                 accredited unless all required artifacts
                                                                               implementation by
                     are complete and weaknesses are
                                                                                  component.
                         incorporated into POA&Ms.

                Status Report on Open Recommendations to DHS Components 


                                           Page 72 

                                                             Agrees (Yes, No,
Report Number        Recommendation Text                                        Current Status
                                                               Unknown)
                                                                                   Action Plan
                   Establish a process to ensure that                               provided.
                    configuration requirements are                                  Awaiting
                                                                   Yes
                  implemented and maintained on all                              confirmation of
                                systems.                                        implementation by
                                                                                   component.
                                                                                   Action Plan
                    Implement a department-wide                                     provided.
                 vulnerability assessment program to                                Awaiting
  OIG-07-77                                                        Yes
                 perform periodic testing to evaluate                            confirmation of
                       DHS’ security posture.                                   implementation by
                                                                                   component.
                                                                                   Action Plan
                                                                                    provided.
                 Establish appropriate training that is
                                                                                    Awaiting
                    needed for all individuals with                Yes
                                                                                 confirmation of
                 significant security responsibilities.
                                                                                implementation by
                                                                                   component.
                  Evaluate DHS’ implementation plan
                 and take necessary steps to include the
                identification of additional resources to                          Action Plan
                                                                   Yes
                    ensure that milestones are met or                               needed.
                   exceeded and that further delays are
                                  avoided.
                     Develop a department-wide cost
                 estimate to ensure the determination of
                     the most cost effective technical                             Action Plan
                                                                   Yes
                 solution and also ensure that sufficient                           needed.
                  resources are allocated to implement
                                 HSPD-12.
                    Work with all DHS components to
                 identify the facilities access points and                         Action Plan
  OIG-08-01                                                        Yes
                   information systems where the PIV                                needed.
                          cards will be required.
                  Ensure that the agency head accredits
                  the PIV-I processes. In addition, the
                    DHS PMO should re-accredit the
                                                                                   Action Plan
                headquarters PCI services after the PIV            Yes
                                                                                    needed.
                     system becomes operational and
                 supporting documentation is revised to
                     include all required information.
                 Revise component guidance to include
                    procedures for issuing PIV cards,
                                                                                   Action Plan
                including adequate separation of duties,           Yes
                                                                                    needed.
                 in compliance with FIPS 201 and DHS
                               requirements.




                Status Report on Open Recommendations to DHS Components 


                                           Page 73 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                       Perform the certification and
                      accreditation of the information
                  systems used to implement HSPD-12
                     and FIPS 201 in accordance with
                applicable NIST and DHS guidance. In                              Action Plan
                                                                  Yes
                   addition, the HSPD-12 PMO should                                needed.
  OIG-08-01      provide agency officials with the most
                 accurate information to make credible,
                    risk-based decisions on whether to
                       authorize a system to operate.
                 Ensure that OMB reporting statistics                             Action Plan
                                                                  Yes
                    are posted on DHS’ website.                                    needed.
                     a) Develop a strategy to quickly
                 provide full accounting and reporting
                   services to newly created reporting
                      entities. Identify a full-service
                accounting provider for OHA, that will
                      address the allocation transfer
                  accounting matters early in FY 2008,
                  and make appropriate adjustments to
                  the financial statements to accurately                          Action Plan
                reflect activity and balances. Consider                            provided.
                   creating a permanent group within                               Awaiting
                                                                  Yes
                   OCFO that will proactively identify                          confirmation of
                  and resolve accounting issues before                         implementation by
                they develop into significant problems,                           component.
                similar to the process used to assist US-
                 Visit in FY 2007. When appropriate,
  OIG-08-12          and needed, this group should be
                 directly involved in development and
                       implementation of long-term
                 accounting solutions, either within the
                        Directorate or at an existing
                                component.
                  b) Fully implement a comprehensive
                 proprietary to budget account analysis
                    that is performed each month with
                                                                                  Action Plan
                      TIER submissions, and require
                                                                                   provided.
                  component entities to investigate and
                                                                                   Awaiting
                resolve differences in a timely manner.           Yes
                                                                                confirmation of
                  Monthly certifications received from
                                                                               implementation by
                  component CFOs should specifically
                                                                                  component.
                 state the completion of this procedure,
                  together with recording of correcting
                       entries to the general ledger.




                Status Report on Open Recommendations to DHS Components 


                                           Page 74 

                                                             Agrees (Yes, No,
Report Number        Recommendation Text                                        Current Status
                                                               Unknown)
                c) Direct component CFO leadership to
                         improve communication and
                 coordination on unique accounting and                             Action Plan
                  transactional matters, and to improve                             provided.
                   the accuracy of routine monthly data                             Awaiting
                                                                   Yes
                submissions. Problems with timeliness,                           confirmation of
                       completeness, and accuracy of                            implementation by
                   component data submissions, and/or                              component.
                  responsiveness to OFM may need the
                       support of the CFO to resolve.
                     d) In coordination with other DHS
                  components, further develop policies,
                procedures, and controls that will result
                        in the timely reconciliation of
                       intragovernmental activity and
                      balances. Differences should be
                   reconciled in a timely manner. This
                                                                                   Action Plan
                       may involve setting up special
                                                                                    provided.
                      arrangements with some trading
                                                                                    Awaiting
                partners, such as work OFM has begun               Yes
                                                                                 confirmation of
                      with the Department of Defense.
                                                                                implementation by
                    Procedures should include positive
                                                                                   component.
                    confirmation at least on a quarterly
                    basis, all intragovernmental activity
                            and balances with their
                    intragovernmental trading partners,
  OIG-08-12
                      including other DHS component
                     entities, as prescribed by Treasury
                                   guidance.
                e) Continue with implementation of the
                                                                                   Action Plan
                      financial reporting management
                                                                                    provided.
                  directives scheduled for release in FY
                                                                                    Awaiting
                 2008. Once implemented, the policies              Yes
                                                                                 confirmation of
                 should be tested for effectiveness, and
                                                                                implementation by
                 when necessary, make improvement to
                                                                                   component.
                       address weaknesses identified.
                f) Improve supervisory and monitoring
                 control procedures over work prepared
                 by accounting staff during the year, to                           Action Plan
                  ensure that they will reliably identify                           provided.
                      errors for correction, in a timely                            Awaiting
                                                                   Yes
                  manner. Consider additional training                           confirmation of
                 for component accountants to improve                           implementation by
                 the quality of submitted financial data,                          component.
                    and for desk officers to improve the
                   effectiveness of their initial reviews.
                   g) OCFO and applicable component                                Action Plan
                      entities should develop financial                             provided.
                    information systems and document                                Awaiting
                                                                   Yes
                   processes to accumulate and present                           confirmation of
                    cost data by DHS strategic goal, as                         implementation by
                          required by SFFAS No. 4.                                 component.

                Status Report on Open Recommendations to DHS Components 


                                           Page 75 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                                                                                  Action Plan
                DHS improve its financial management
                                                                                   provided.
                systems to ensure compliance with the
                                                                                   Awaiting
                     FFMIA, and implement the                     Yes
                                                                                confirmation of
                recommendations provided in Exhibits
                                                                               implementation by
                      I, II, and III in FY 2008.
                                                                                  component.
                 DHS continue to follow and complete
                     the actions defined in its ICOFR
                                                                                  Action Plan
                     "Playbook," to ensure that audit
                                                                                   provided.
                 recommendations are resolved timely
                                                                                   Awaiting
                 and corrective action plans addressing           Yes
                                                                                confirmation of
                  all DHS audit findings are developed
                                                                               implementation by
                      and implemented together with
                                                                                  component.
                 appropriate supervisory review in FY
                                     2008.
                  DHS risk assessments be completed
                   earlier in the year so that programs
                       identified as high risk by risk
                 assessments are the programs that are
                                                                                  Action Plan
                       sample tested. DHS needs to
                                                                                   provided.
                  strengthen oversight of components'
                                                                                   Awaiting
                  progress in implementing corrective             Yes
                                                                                confirmation of
                action plans and in recovering improper
                                                                               implementation by
                    payments for high-risk programs.
                                                                                  component.
  OIG-08-12         Also, DHS should review sample
                      testing procedures and begin to
                  independently validate the results of
                        components' sample testing.
                 DHS, and its components continue to
                 implement the corrective action plans
                 described in DHS' ICOFR "Playbook"
                (see Comment IV-I, Federal Managers'
                      Financial Integrity Act of 1982
                                                                                  Action Plan
                 (FMFIA), above) to remediate the FY
                                                                                   provided.
                       2007 material weaknesses and
                                                                                   Awaiting
                significant deficiencies, and improve its         Yes
                                                                                confirmation of
                 policies, procedures, and processes, as
                                                                               implementation by
                   necessary, to allow management to
                                                                                  component.
                 assert that all financial statements are
                      fairly stated in compliance with
                      accounting principles generally
                 accepted in the United States, and are
                      ready for an independent audit.
                                                                                  Action Plan
                   DHS ensure full compliance with
                                                                                   provided.
                   GPRA by completing its updated
                                                                                   Awaiting
                    Strategic Plan and aligning all               Yes
                                                                                confirmation of
                   performance goals to its strategic
                                                                               implementation by
                        objectives in FY 2008.
                                                                                  component.




                Status Report on Open Recommendations to DHS Components 


                                           Page 76 

                                                        Agrees (Yes, No,
Report Number        Recommendation Text                                    Current Status
                                                          Unknown)
                                                                               Action Plan
                                                                                provided.
                 DHS develop policies and procedures
                                                                                Awaiting
  OIG-08-12       to ensure full compliance with the           Yes
                                                                             confirmation of
                          DCIA in FY 2008.
                                                                            implementation by
                                                                               component.




                Status Report on Open Recommendations to DHS Components 


                                        Page 77 

     Multiple Components

                                                             Agrees (Yes, No,
Report Number        Recommendation Text                                        Current Status
                                                               Unknown)
                   The Under Secretary for Border and
                 Transportation Security should initiate
                 a business process reengineering effort                            Status of
                to establish a clear vision of the overall         Yes          implementation is
                  federal operations that will be used to                          unknown.
                  clear people entering and leaving the
  OIG-04-25                     United States.
                   The Under Secretary for Border and
                   Transportation Security should work
                                                                                    Status of
                 with the Chief Acquisition Officer and
                                                                   Yes          implementation is
                  Chief Information Officer to develop
                                                                                   unknown.
                    an overall departmental acquisition
                                   strategy.
                 Establish an ongoing training program
                       to ensure that all CBP and ICE
                    employees whose duties bring them
                      into contact with juvenile aliens                           Action Plan
                                                                   No
                 understand and comply with the terms                              needed.
                     of Flores. This training should be
  OIG-05-45     standardized in format and participation
                      should be centrally documented.
                     Implement procedures that require
                   juvenile transportation and detention
                                                                                  Action Plan
                custodial records that provide sufficient          No
                                                                                   needed.
                       detail and accountability for all
                      juveniles apprehended by DHS.
                    Design an information management
                   system that allows users to track and
                    share information more openly and                             Action Plan
                 efficiently; and, standardize the format          Yes             needed.
                    and methodology for collecting and
                           reporting information.
                  Review ESF-9 Annex capabilities for
                    search and rescue and coordination
                within FEMA and other Department of
                 Homeland Security components (such
                 as U.S. Coast Guard and Customs and                              Action Plan
                                                                   Yes
  OIG-06-32     Border Protection) or with other federal                           needed.
                  departments and agencies, and either
                  redistribute ESF-9 responsibilities or
                        develop greater water rescue
                         capabilities within FEMA.
                     Develop a surge plan and standard
                  operating procedures for augmenting
                FEMA’s ESF-9 coordination capability
                                                                                  Action Plan
                       during catastrophic events with             Yes
                                                                                   needed.
                resources such as the U.S. Coast Guard
                    and Customs and Border Protection
                                  personnel.


                Status Report on Open Recommendations to DHS Components 


                                           Page 78 

                                                              Agrees (Yes, No,
Report Number         Recommendation Text                                        Current Status
                                                                Unknown)
                       Develop a definitive ESF-15
                  organizational chart that is scalable to
                                                                                   Action Plan
                   the size of an incident, with a clear            No
                                                                                    needed.
                  hierarchical structure and information
                                   flow.
                  Complete the development of and fully
                                                                                   Action Plan
                 implement the DHS Public Affairs state             No
                                                                                    needed.
                           outreach program.
                      Establish measurable response
                 expectations and provide the necessary                            Action Plan
                                                                    No
                 financial, technical, and staff support to                         needed.
                         meet those expectations.
                  Develop a means to standardize and
                                                                                   Action Plan
                  streamline the resource ordering and              Yes
                                                                                    needed.
                           tracking process.
  OIG-06-32
                   Determine and fill requirements to
                   provide emergency responders with                               Action Plan
                                                                    Yes
                 communications equipment capable of                                needed.
                    performing in austere conditions.
                 Jointly develop a formal mechanism to
                        ensure continuity between
                  preparedness, response, and recovery
                  by including FEMA regional staff in
                                                                                   Action Plan
                     the Preparedness Directorate’s                 Yes
                                                                                    needed.
                   relationships with state emergency
                    management agencies for grants,
                      exercises, planning, technical
                         assistance, and training.
                   Ensure all DHS employees receive
                                                                                   Action Plan
                 training on DHS responsibilities under             No
                                                                                    needed.
                           the NRP and NIMS.
                   This report is For Official Use Only.
                          This report has one open
OIG-06-41 FOUO       recommendation. Upon request,
                 additional information will be provided
                           to qualified recipients.
                        The CBP Commissioner, in
                     coordination with the DHS Chief
                  Procurement Officer (CPO), prepare a
                     plan of action and milestones for
                  developing its capacity to manage the
                  program, administer its contracts and                              Status of
  OIG-07-07          agreements, and ensure effective               Yes          implementation is
                   oversight and implementation. Each                               unknown.
                    should specify the actions they will
                    take to assist the program office in
                    accomplishing the objectives of the
                       plan, especially with regard to
                      resources for capacity building.


                 Status Report on Open Recommendations to DHS Components 


                                            Page 79 

                                                             Agrees (Yes, No,
Report Number        Recommendation Text                                        Current Status
                                                               Unknown)
                    The SBInet program office provide
                regular implementation status reports to                            Status of
                the Commissioner and CPO on its plan               Yes          implementation is
                 for building program management and                               unknown.
                              oversight capacity.
                   The Commissioner and CPO should
                develop a plan of action and milestones
                 for defining, validating, and stabilizing
                the program's operational requirements,
                        translating them into contract
                requirements, and establishing a system
                 of performance metrics and controls to                             Status of
                    gauge progress in meeting contract             Yes          implementation is
  OIG-07-07
                 requirements and mission needs. Each                              unknown.
                 should specify actions they will take in
                    accomplishing the objectives of the
                   plan, especially regarding resources
                     needed to implement the plan and
                  address ensuing contract and program
                            cost estimate changes.
                    The SBInet program office provide
                regular implementation status reports to
                                                                                    Status of
                 the Commissioner and CPO on its plan
                                                                   Yes          implementation is
                  to stabilize requirements and establish
                                                                                   unknown.
                performance metrics and controls to the
                           Commissioner and CPO.
                 Work with HHS and USDA to prepare
                 an integrated food defense budget plan
                                                                                   Action Plan
                   for Fiscal Year 2009 using a process            No
                                                                                    needed.
                      that satisfies Homeland Security
                  Presidential Directive 9 requirements.
                                                                                   Action Plan
                  Pursue the recruitment, hiring, and                               provided.
                  retention of several additional staff                             Awaiting
                                                                   Yes
  OIG-07-33        with expertise in matters of post-                            confirmation of
                         harvest food defense.                                  implementation by
                                                                                   component.
                                                                                   Action Plan
                 Expand food sector modeling to other
                                                                                    provided.
                 portions of the food supply chain for
                                                                                    Awaiting
                    the purpose of improving food                  Yes
                                                                                 confirmation of
                  contamination event consequence
                                                                                implementation by
                   assessment and decision support.
                                                                                   component.




                Status Report on Open Recommendations to DHS Components 


                                           Page 80 

                                                             Agrees (Yes, No,
Report Number        Recommendation Text                                        Current Status
                                                               Unknown)
                      Require the Protective Security
                  Coordination Division to certify: (1)
                      that the equipment or resource                               Action Plan
                  enhancements requested in the VRPP                                provided.
                  are appropriate for the identified site                           Awaiting
                                                                   Yes
                 vulnerabilities or the capability gap of                        confirmation of
                the responsible jurisdiction; and (2) that                      implementation by
                     the BZP approval is based on an                               component.
                  analysis of the BZP plan’s protective
                              security strategy.
                    Provide instructions in the BZPP
                                                                                   Action Plan
                 application requesting that responsible
                                                                                    provided.
  OIG-07-59           jurisdictions certify that all the
                                                                                    Awaiting
                equipment received will be available to            Yes
                                                                                 confirmation of
                  all of the BZPP sites listed under the
                                                                                implementation by
                same Vulnerability Reduction Purchase
                                                                                   component.
                                    Plan.
                 Clarify roles and responsibilities of the
                    National Protection and Programs                               Action Plan
                    Directorate’s Protective Security                               provided.
                   Coordination Division and FEMA’s                                 Awaiting
                                                                   Yes
                    National Preparedness Directorate                            confirmation of
                  Capabilities Division and amend the                           implementation by
                   BZPP Memorandum of Agreement                                    component.
                                accordingly.
                   Replace the USCIS and ICE 100%
                  Referral Memorandum of Agreement                                 Action Plan
                 with a policy that limits and prioritizes         Yes              needed.
                 USCIS adjudicator referrals to FDNS,
                        and FDNS referrals to ICE.
                Develop shared management reports on
  OIG-08-09        the status of referred petitions, and                           Action Plan
                                                                   Yes
                    procedures for raising quality and                              needed.
                            timeliness concerns.
                 Develop standards for site visit reports
                      that document USCIS and ICE                                  Action Plan
                                                                   Yes
                 workload, safety, and law enforcement                              needed.
                          coordination measures.
                 Negotiate and execute a memorandum
                   of agreement between the Domestic
                    Nuclear Detection Office and the
                    Federal Emergency Management
                                                                                   Action plan
  OIG-08-19        Agency’s Office of Grant Programs               Yes
                                                                                    needed.
                 that defines funding responsibilities of
                        each office for preventative
                     radiological and nuclear training
                                  courses.




                Status Report on Open Recommendations to DHS Components 


                                           Page 81 

     National Protection and Programs Directorate

                                                             Agrees (Yes, No,
Report Number        Recommendation Text                                        Current Status
                                                               Unknown)
                        Work and coordinate with the
                    Department of Homeland Security,
                   Office of the Secretary to clarify the
                  designation process for an Incident of                           Action Plan
                                                                   No
                   National Significance and define the                             needed.
                      resources and assets that thereby
                    become available to state and local
                                  government.
                         Work with the Department of
                     Homeland Security, Office of the
                    Secretary to develop a disaster and
                emergency powers compendium for all                                Action Plan
                                                                   No
                    states so that federal resources and                            needed.
                        assets may be more effectively
                   coordinated during national exercise
                                      play.
                   Design an information management
                 system for use in future exercises that
                  allows participants to track and share
                                                                                   Action Plan
                         information more openly and               No
                                                                                    needed.
                 efficiently; and, standardize the format
                    and methodology for collecting and
                             reporting information.
  OIG-06-07      Offer additional training, accompanied
                by exercise opportunities, to the private
                 sector on how federal departments and                             Action Plan
                     agencies operate in response to an                             provided.
                  Incident of National Significance and                             Awaiting
                                                                   Yes
                Presidential disaster declarations so that                       confirmation of
                      the private sector obtains a better                       implementation by
                       understanding of their roles and                            component.
                  responsibilities under the NRP and of
                                DHS functions.
                        Work and coordinate with the
                    Department of Homeland Security,
                Private Sector Office to create a central
                                                                                   Action Plan
                repository for best practices and lessons          No
                                                                                    needed.
                       learned from private industry to
                   facilitate information sharing among
                       critical and non-critical sectors.
                      Work and coordinate with DHS’
                 Private Sector Office and with private
                 sector entities throughout the exercise
                                                                                   Action Plan
                        planning process to design and             No
                                                                                    needed.
                      implement an effective two-way
                     communication strategy for future
                             exercise participation.




                Status Report on Open Recommendations to DHS Components 


                                           Page 82 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                 Solicit from each federal department
                 and agency participating in TOPOFF
                exercises an estimated cost associated
                                                                                  Action Plan
                with planning and participation. After            No
                                                                                   needed.
                    the completion of the exercise,
                document the costs and institutionalize
  OIG-06-07           the reporting of such costs.
                                                                                  Action Plan
                 Develop an action-tracking program
                                                                                   provided.
                 that identifies and documents issues
                                                                                   Awaiting
                    and recommendations made in                   Yes
                                                                                confirmation of
                TOPOFF exercises that can be used as
                                                                               implementation by
                     a means for issue resolution.
                                                                                  component.
                    Provide states with training on the
                        applicability of the National
                                                                                  Action Plan
                 Preparedness System and preparedness             No
                                                                                   needed.
                 grants to all hazards, including natural
                                  disasters.
                     Develop a system to assess state
  OIG-06-32
                    capability to respond to a disaster,
                     without federal assistance and in
                                                                                  Action Plan
                       respect to a minimum level of              No
                                                                                   needed.
                 preparedness based on the Emergency
                   Management Accreditation Program
                                  standard.
                 Restore communication with the Food
                ISAC by re-establishing a DHS point of                            Action Plan
                                                                  No
                    contact and creating food-industry-                            needed.
                specific products for ISAC distribution.
                      Seek out improvement in DHS’
                  relationship with food sector partners
                      through: Better attention to the
                                                                                  Action Plan
                 demands and information flow related
                                                                                   provided.
                  to coordinating council comments on
                                                                                   Awaiting
                    DHS initiatives; Higher level DHS             Yes
                                                                                confirmation of
  OIG-07-33     official attendance at council meetings;
                                                                               implementation by
                and Increased responsiveness to council
                                                                                  component.
                requests for information, briefings, and
                        presentations by other DHS
                                components.
                      Expand National Infrastructure                              Action Plan
                Coordinating Center outreach efforts to                            provided.
                  include outreach targeted to the food                            Awaiting
                                                                  Yes
                   sector, and actively seek to increase                        confirmation of
                   information flow related to the food                        implementation by
                                   sector.                                        component.




                Status Report on Open Recommendations to DHS Components 


                                           Page 83 

                                                              Agrees (Yes, No,
Report Number        Recommendation Text                                         Current Status
                                                                Unknown)
                  Evaluate the feasibility of providing
                   financial support for and otherwise
                                                                                    Action Plan
                 facilitate the detailing of state or local
                                                                                     provided.
                      government and private sector
                                                                                     Awaiting
                   representatives to support Office of             Yes
                                                                                  confirmation of
                  Infrastructure Protection food sector
                                                                                 implementation by
                     efforts with an emphasis on the
                                                                                    component.
                     Homeland Security Information
                Network’s Food and Agriculture Portal.
                  Expedite the review of existing food                              Action Plan
  OIG-07-33      sector assessments to determine their                               provided.
                 suitability for use in comparative risk                             Awaiting
                                                                    Yes
                  analysis, and collaboratively identify                          confirmation of
                   the role of these assessments in the                          implementation by
                    sector-specific risk methodology.                               component.
                                                                                    Action Plan
                 Continue to develop and disseminate
                                                                                     provided.
                  information about food subsystem-
                                                                                     Awaiting
                     specific operational protective                Yes
                                                                                  confirmation of
                measures and operational best practices
                                                                                 implementation by
                in collaboration with FDA and USDA.
                                                                                    component.
                   Establish priorities and milestones
                 (short term and long term) for critical                            Action Plan
                   tasks using input from the CS&T                                   provided.
                  Strategy Summary report, IT-Sector                                 Awaiting
  OIG-07-48                                                         Yes
                    Specific Plan, and The National                               confirmation of
                    Strategy to Secure Cyberspace.                               implementation by
                     Milestones should be based on                                  component.
                    available funding and resources.
                                                                                    Action Plan
                                                                                     provided.
                 Consolidate the tracking of all current
                                                                                     Awaiting
                 and future initiatives and milestones,             Yes
                                                                                  confirmation of
                     and review at least quarterly.
                                                                                 implementation by
                                                                                    component.
                                                                                    Action Plan
                   Develop additional performance
                                                                                     provided.
                 measures for each branch that can be
                                                                                     Awaiting
                   used to review and periodically                  Yes
                                                                                  confirmation of
                evaluate the outcome or success of the
                                                                                 implementation by
                         division’s programs.
                                                                                    component.
                 Develop and implement procedures to
                review and analyze agencies’ incidents                              Action Plan
                                                                    No
                submissions to identify underreporting                               needed.
                   of incidents by federal agencies.
                                                                                    Action Plan
                 Work with OMB and federal agencies
                                                                                     provided.
                 to eliminate underreporting of cyber
                                                                                     Awaiting
                  security incidents to US-CERT and                 Yes
                                                                                  confirmation of
                complete the deployment of Einstein to
                                                                                 implementation by
                          all federal agencies.
                                                                                    component.


                Status Report on Open Recommendations to DHS Components 


                                            Page 84 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                                                                                  Action Plan
                                                                                   provided.
                 Participate in the Einstein program in
                                                                                   Awaiting
                 order to detect and identify potential           Yes
                                                                                confirmation of
                           security incidents.
                                                                               implementation by
                                                                                  component.
                                                                                  Action Plan
                Develop clearer communications with
                                                                                   provided.
                key personnel and organizations in the
                                                                                   Awaiting
  OIG-07-48     private sector to explain the processes           Yes
                                                                                confirmation of
                 being used to capture, share, use, and
                                                                               implementation by
                      secure cyber information.
                                                                                  component.
                  Expand its communications program                               Action Plan
                    with a focus on key private sector                             provided.
                executives to encourage corporations to                            Awaiting
                                                                  Yes
                      more actively participate in the                          confirmation of
                  information-sharing program and to                           implementation by
                         better secure its systems.                               component.
                      Develop and implement formal
                  procedures for receiving, reviewing,
                and distributing sensitive and classified
                  information. The procedures should
                  include the types of information that                           Action Plan
                     can be shared, and the timing of                              provided.
                 receiving an unclassified (or reduced                             Awaiting
                                                                  Yes
                 level) and redacted version or portion                         confirmation of
                  of the information that can be shared                        implementation by
                     with cyber partners in the private                           component.
                   sector. These procedures should be
                       reviewed and agreed to by all
                 organizations providing sensitive and
                          classified information.
                        Ensure that certification and
                     accreditation documents contain
                 complete and accurate information to
                    reflect the security postures of the                          Action Plan
                       system. In addition, security                               provided.
                      documents should be reviewed                                 Awaiting
                                                                  Yes
                periodically and revised if necessary to                        confirmation of
                      ensure that agency officials are                         implementation by
                     provided with the most accurate                              component.
                   information to make credible, risk-
                based decisions on whether to authorize
                            a system to operate.
                                                                                  Action Plan
                   Test contingency plans, at least
                                                                                   provided.
                   annually, to ensure business and
                                                                                   Awaiting
                computer operations can be maintained             Yes
                                                                                confirmation of
                     or restored in the event of an
                                                                               implementation by
                emergency, system failure, or disaster.
                                                                                  component.




                Status Report on Open Recommendations to DHS Components 


                                           Page 85 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                                                                                  Action Plan
                                                                                   provided.
                  Perform security testing annually to
                                                                                   Awaiting
                 evaluate the effectiveness of controls           Yes
                                                                                confirmation of
                             implemented.
                                                                               implementation by
                                                                                  component.
                                                                                  Action Plan
                                                                                   provided.
                 Provide security awareness training to                            Awaiting
                                                                  Yes
                            all contractors.                                    confirmation of
                                                                               implementation by
                                                                                  component.
  OIG-07-48
                                                                                  Action Plan
                                                                                   provided.
                 Remedy all vulnerabilities identified                             Awaiting
                                                                  Yes
                for which risks have not been assumed.                          confirmation of
                                                                               implementation by
                                                                                  component.
                                                                                  Action Plan
                 Ensure that the BZPP grant guidance                               provided.
                  explicitly states that funding may be                            Awaiting
                                                                  Yes
                used to secure buffer zones surrounding                         confirmation of
                             federal facilities.                               implementation by
                                                                                  component.
                                                                                  Action Plan
                Continue expanding the involvement of
                                                                                   provided.
                     all state homeland security or
                                                                                   Awaiting
                equivalent agencies in the identification         Yes
                                                                                confirmation of
  OIG-07-59      of potential critical infrastructure/key
                                                                               implementation by
                              resource sites.
                                                                                  component.
                   Provide instructions in the BZPP
                application requesting that responsible                           Action Plan
                    jurisdictions include a complete                               provided.
                 description of all equipment, training,                           Awaiting
                                                                  Yes
                   and capability needs necessary to                            confirmation of
                      protect the BZPP site or close                           implementation by
                   capability gaps of the responsible                             component.
                               jurisdiction.
                This report is For Official Use Only. In
                     this report, two of the six open
  OIG-07-68       recommendations belong to NPPD.
                 Upon request, additional information
                will be provided to qualified recipients.




                Status Report on Open Recommendations to DHS Components 


                                           Page 86 

     Office of Health Affairs

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                Evaluate the advisability and feasibility                         Action Plan
                     of integrating additional federal                             provided.
                       foodborne illness reporting,                                Awaiting
  OIG-07-33                                                       Yes
                surveillance, and detection systems into                        confirmation of
                      the National Biosurveillance                             implementation by
                            Integration System.                                   component.
                 Assess NBIS staffing needs and apply
                    adequate resources to effectively                             Action Plan
                                                                  Yes
                      oversee and support program                                  needed.
                          management activities.
                Develop and implement a program plan
                    identifying a program activities,
                                                                                  Action Plan
                  milestones, and outcomes needed to              Yes
                                                                                   needed.
                 develop an integrated bio-surveillance
                system as required by HSPD-9 and -10.
                    Develop a concept of operations,
                      outlining functional and user                               Action Plan
                                                                  Yes
  OIG-07-61       requirements for NBIS 2.0 to the IT                              needed.
                            systems contractor.
                  Develop a plan aimed at improving
                  NBIS outreach and communication
                       with stakeholders to ensure                                Action Plan
                                                                  Yes
                  commitment and participation in the                              needed.
                      creation of an integrated bio-
                           surveillance system.
                      Perform an information needs
                 assessment, outlining interagency data                           Action Plan
                                                                  Yes
                 content requirements to support NBIS                              needed.
                        2.0 operational capability.




                Status Report on Open Recommendations to DHS Components 


                                           Page 87 

     Office of Policy

                                                          Agrees (Yes, No,
Report Number        Recommendation Text                                     Current Status
                                                            Unknown)
                 Develop a plan to ensure the accurate
                                                                               Closed after
                  and timely submission of required             Yes
                                                                                12/31/07.
                        VWP annual reports.
  OIG-04-26
                  Formally assign responsibility for
                   conducting the required country                             Closed after
                                                                Yes
                reviews and develop formal protocols                            12/31/07.
                     for conducting the reviews.
                  Consider formally designating the
                    position of National Juvenile
                   Coordinator as the DHS lead on
                                                                               Action Plan
  OIG-05-45      juvenile alien policy and the official         No
                                                                                needed.
                DHS point of contact on juvenile alien
                    policy for other agencies and
                             organizations.




                Status Report on Open Recommendations to DHS Components 


                                         Page 88 

     Science and Technology Directorate

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                      Remedy the existing critical
                     vulnerabilities in the standard
                                                                                   Action Plan
                   configuration for laptops, based on
                                                                                    provided.
                     DHS and federal configuration
                                                                                    Awaiting
                  guidelines. Further, the CIO should              Yes
                                                                                 confirmation of
                 confirm whether similar vulnerabilities
                                                                                implementation by
                  and remediation are applicable to all
                                                                                   component.
                  government-issued computer within
                                  S&T.
                                                                                   Action Plan
                                                                                    provided.
                  Ensure that the updated model system
                                                                                    Awaiting
                  is correctly implemented on all S&T              Yes
                                                                                 confirmation of
                            laptop computers.
  OIG-06-42                                                                     implementation by
                                                                                   component.
                                                                                   Action Plan
                  Develop procedures to ensure that all
                                                                                    provided.
                  S&T laptops are patched and updated
                                                                                    Awaiting
                   in a timely manner, including loaner            Yes
                                                                                 confirmation of
                  and secondary unit laptops, as well as
                                                                                implementation by
                    all government-issued computers.
                                                                                   component.
                                                                                   Action Plan
                    Implement appropriate inventory
                                                                                    provided.
                     management controls, including
                                                                                    Awaiting
                  effective inventory reviews, physical            Yes
                                                                                 confirmation of
                   security controls, and classification
                                                                                implementation by
                                 labeling.
                                                                                   component.
                   This report is For Official Use Only.
                          This report has 12 open
OIG-07-43 FOUO      recommendations. Upon request,
                 additional information will be provided
                          to qualified recipients.
                 We recommend that S&T management
                                                                                   Action Plan
                  implement policies and procedures to
                                                                                    provided.
                     either participate in the quarterly
                                                                                    Awaiting
  OIG-07-74      Validation and Verification initiated by          Yes
                                                                                 confirmation of
                  ICE OFM or perform its own control
                                                                                implementation by
                     procedures to verify and validate
                                                                                   component.
                       undelivered orders balances.
                 Develop and maintain, in collaboration
                                                                                   Action Plan
                 with Office of Grants and Training and
                                                                                    provided.
                   Office of Infrastructure Protection, a
                                                                                    Awaiting
  OIG-07-33        comprehensive report on DHS food                Yes
                                                                                 confirmation of
                 sector research and education initiatives
                                                                                implementation by
                 to be shared with FDA and USDA on a
                                                                                   component.
                               regular basis.




                 Status Report on Open Recommendations to DHS Components 


                                            Page 89 

     Transportation Security Administration

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                                                                                  Action Plan
                                                                                   provided.
                Document the Credentialing Program
                                                                                   Awaiting
  OIG-04-08     Office workload and then plan and hire            Yes
                                                                                confirmation of
                 staff to meet workload requirements.
                                                                               implementation by
                                                                                  component.
                This report is Classified. There is one
                 open recommendation in this report.
  OIG-04-37
                 Upon request, additional information
                will be provided to qualified recipients.
                                                                                   Status of
                Reform contract to avoid appearance of
                                                                  Yes          implementation is
                               CPPC.
                                                                                  unknown.
                 Amend awarded fee pool to ensure it                               Status of
                does not include increases unrelated to           Yes          implementation is
                      approved scope changes.                                     unknown.
                                                                                   Status of
                   Evaluate past performance and
  OIG-04-44                                                       Yes          implementation is
                  determine a reasonable award fee.
                                                                                  unknown.
                                                                                   Status of
                    Recoup unreasonable fees paid.                Yes          implementation is
                                                                                  unknown.
                                                                                   Status of
                Develop guidance for the determination
                                                                  Yes          implementation is
                of reasonable fees on CPAF contracts.
                                                                                  unknown.
                     Complete the analysis for basic
                  screener classroom training, both for
                   passenger checkpoint and checked
                                                                                  Action Plan
                     baggage screeners, and institute             Yes
                                                                                   needed.
                mechanisms to ensure that staff update
                the analysis at least annually and apply
                   the results to curriculum revisions.
  OIG-04-45      Ensure that passenger checkpoint and
                      checked baggage basic course
                  objectives (1) address the knowledge
                     and skills necessary for routine                             Action Plan
                                                                  Yes
                 screener performance, as identified by                            needed.
                 the most current task analysis, and (2)
                     are presented to students at the
                       beginning of course lessons.




                Status Report on Open Recommendations to DHS Components 


                                           Page 90 

                                                              Agrees (Yes, No,
Report Number        Recommendation Text                                         Current Status
                                                                Unknown)
                Further revise written examinations and
                   administration procedures, including
                  the following steps: Ensure all course
                      objectives receive an appropriate
                       assessment of student learning;
                    Thoroughly validate tests, including
                   passing scores, if they are to be used
                      for selection decisions; Pilot-test                          Action Plan
                                                                    Yes
                   examination questions to ensure their                            needed.
                   clarity and objectivity; Schedule tests
                 later during the course to enhance their
                  ability to measure students’ long-term
                      retention of course material; and
                Incorporate post-test reviews to prevent
                    screener misconceptions from being
                          carried into the workplace.
                    Develop and distribute detailed test
                  administration guidelines for Practical
                                                                                   Action Plan
                        Demonstration of Proficiency                Yes
                                                                                    needed.
                 Evaluations with the aim of increasing
                                standardization.
                  Distribute effective training materials
                                                                                   Action Plan
                     to reinforce learning and allow for            Yes
                                                                                    needed.
                 individual study outside the classroom.
                   Require all TSA approved instructors
  OIG-04-45
                to complete an appropriate form of OJT                             Action Plan
                                                                    No
                    prior to providing instruction and to                           needed.
                  undergo annual recertification testing.
                     Analyze the cost and feasibility of
                   establishing designated training sites
                where screening equipment, simulators,                             Action Plan
                                                                    Yes
                   and training aids can be permanently                             needed.
                       located and readily available to
                                    students.
                      Use alternatives to lectures more
                frequently during classroom training to
                    help maintain student attentiveness,                           Action Plan
                                                                    Yes
                   contribute to the comprehension and                              needed.
                  mastery of new knowledge and skills,
                    and foster retention of the material.
                      Ensure that leadership within the
                 screener workforce diligently monitors
                    screeners and immediately corrects                             Action Plan
                                                                    Yes
                        identified failures to adhere to                            needed.
                    screening procedures and negligent
                            screening techniques.
                         Continue the development of
                   evaluations that will relate training to                        Action Plan
                                                                    Yes
                 screener application of learning on the                            needed.
                      job and to organizational results.




                Status Report on Open Recommendations to DHS Components 


                                            Page 91 

                                                             Agrees (Yes, No,
Report Number        Recommendation Text                                        Current Status
                                                               Unknown)
                   Ensure that OJT guidance provides
                   detailed, sequenced lists of specific
                     tasks that each OJT student must
                      perform, including instructional                            Action Plan
                                                                   Yes
                materials where needed, and establishes                            needed.
                   appropriate, function-specific time
                 requirements for both newly hired and
                           cross-trained screeners.
                  Revise OJT examinations in order to:
                   Test screeners on all TSA-approved
                   screening methods that they will be
                   required to use upon completion of
                    OJT; Enforce the use of tests with                            Action Plan
                                                                   Yes
                      explosive material during ETD                                needed.
                practical examinations; and Standardize
                   and enforce limits on OJT retesting
                    opportunities, including the Image
                                Mastery Test.
                  Ensure OJT monitors are certified as
                      having the skills and experience
                                                                                  Action Plan
                  necessary to deliver and monitor OJT             Yes
                                                                                   needed.
                   training and administer subsequent
                                    testing.
                Examine the workforce implications of
                the three-hour training requirement and
                       take steps to correct identified
  OIG-04-45                                                                       Action Plan
                      imbalances in future workforce               No
                                                                                   needed.
                planning to ensure that all screeners are
                    able to meet the recurrent training
                                   standard.
                   Continue to pursue the development
                and application of TIP user adaptability                          Action Plan
                                                                   Yes
                    features to maximize TIP training                              needed.
                                   benefits.
                  Expedite TRX connectivity to realize
                                                                                  Action Plan
                administrative and information sharing             Yes
                                                                                   needed.
                             gains related to TIP.
                    Further enhance local operational
                       testing efforts by: (1) revising
                  procedures and protocols to increase
                 opportunities for realistic and difficult
                       testing, and (2) expediting the                            Action Plan
                                                                   Yes
                      development, certification, and                              needed.
                        distribution of ETD and EDS
                    operational testing tools to enable
                   assessment of screeners performing
                                 these duties.
                      Fund and resume installation of
                 computer training labs and high-speed
                                                                                  Action Plan
                   network connectivity to provide all             Yes
                                                                                   needed.
                screeners with full access to the Online
                               Learning Center.

                Status Report on Open Recommendations to DHS Components 


                                           Page 92 

                                                             Agrees (Yes, No,
Report Number        Recommendation Text                                        Current Status
                                                               Unknown)
                Ensure that screeners are scheduled for
                 basic classroom training that provides
                                                                                   Action Plan
                initial certification on the specific make         No
                                                                                    needed.
                 and model of ETD and EDS machines
                              that they operate.
                 Improve management controls for the
  OIG-04-45
                   screener scheduling system, such as
                     linking scheduling to employee
                                                                                   Action Plan
                  qualifications in the Online Learning            Yes
                                                                                    needed.
                  Center, to ensure that TSA schedules
                screeners to operate only equipment on
                          which they are certified.
                     Assistant Secretary of Homeland
                Security for TSA: Develop measurable                                Status of
                   criteria to compare and evaluate the            No           implementation is
                   performance of both contractor and                              unknown.
                       federal screening operations.
                 Establish a true passenger and baggage
  OIG-04-47
                   screening pilot program that allows
                  greater flexibility for both contractor                           Status of
                   and federally staffed airports to test          Yes          implementation is
                   innovations and new approaches in                               unknown.
                      hiring, training, and managing
                                  screeners.
                      Follow TSA policy, as well as
                  applicable federal regulations, when
                    acquiring real estate and procuring
                   goods and services. The policy and
                regulations establish procedures to help
                 ensure that funding is spent prudently.
                Although following the procedures may
                                                                                   Action Plan
                 increase the amount of time necessary
                                                                                    provided.
                  to complete purchases, it will protect
                                                                                    Awaiting
                  TSA from wasteful and abusive acts.              Yes
                                                                                 confirmation of
                     Specifically, the TSA Assistant
                                                                                implementation by
                  Secretary should: a) ensure that TSA
                                                                                   component.
  OIG-05-18       procurement personnel coordinate all
                procurements with their TSA customer;
                 and b) ensure that the requirements for
                  all projects are defined, documented,
                      and followed, so that program
                   objectives are met in the most cost-
                              effective manner.
                                                                                   Action Plan
                 Recover the $83,313 overpayment to                                 provided.
                the tool company and such other sums                                Awaiting
                                                                   Yes
                  for which [TSA] may have a legal                               confirmation of
                              remedy.                                           implementation by
                                                                                   component.




                Status Report on Open Recommendations to DHS Components 


                                           Page 93 

                                                                Agrees (Yes, No,
Report Number         Recommendation Text                                          Current Status
                                                                  Unknown)
                 Establish a process to regularly review
                    and evaluate how timely Contact                                    Status of
                    Center personnel are handling the                 Yes          implementation is
                     communications and implement                                     unknown.
                additional corrective actions, as needed.
                Revise the Security directive to require
                  air carriers to retain aircraft security                             Status of
                  search documentation, including the                 Yes          implementation is
                      aircraft search checklists, for a                               unknown.
  OIG-05-51
                           minimum of 30 days.
                Require that, as part of the annual work
                  plan, each FSD inspector workforce
                personally observe a random sample of
                                                                                       Status of
                   aircraft searches at least once every
                                                                      Yes          implementation is
                         quarter and inspect search
                                                                                      unknown.
                  documentation to ensure airlines are
                   complying with the documentation
                           retention requirement.
                  Expedite the selection of the uniform
                biometric credential to be used, develop
                                                                                       Status of
                 and implement a comprehensive plan
                                                                      Yes          implementation is
                 of action that identifies the work to be
                                                                                      unknown.
                completed, milestone completion dates,
                         project cost, and funding.
  OIG-05-52
                 Revise operating procedures to require
                  that LEO carry-on bags be manually
                                                                                       Status of
                  inspected before the LEO enters the
                                                                      No           implementation is
                sterile area of the airport, at least until a
                                                                                      unknown.
                    uniform biometric credential is in
                                   place.
                 TSA's Deputy Assistant Administrator
                   for Acquisition, Chief Procurement
                    Executive, Office of Acquisitions,
                                                                                       Status of
                    further improve TSA acquisition
                                                                      Yes          implementation is
                    policies and procedures to control
                                                                                      unknown.
                   contract costs and provide effective
                project management as indicated in the
                     conclusion section of the report.
  OIG-06-18         TSA's Assistant Administrator for
                 Finance and Administration and Chief
                  Financial Officer, Office of Finance
                   and Administration, strengthen and                                  Status of
                       formalize TSA's policies and                   Yes          implementation is
                        procedures governing funds                                    unknown.
                 certification, status of funds reporting,
                  and recordation practices, consistent
                     with OMB and DHS guidelines.
                    Develop or acquire technology to                                   Status of
  OIG-06-31       permit effective and timely in-flight               Yes          implementation is
                     communication for air marshals.                                  unknown.




                Status Report on Open Recommendations to DHS Components 


                                             Page 94 

                                                               Agrees (Yes, No,
Report Number        Recommendation Text                                          Current Status
                                                                 Unknown)
                   Establish departmental guidance to
                clarify each departmental agency's roles
                                                                                      Status of
                     and responsibilities and require
                                                                     Yes          implementation is
                 coordination and information sharing
                                                                                     unknown.
  OIG-06-31      when handling suspicious passengers
                              and activities.
                                                                                      Status of
                    Execute an MOU with the FBI
                                                                     Yes          implementation is
                 concerning post-flight investigations.
                                                                                     unknown.
                     Collect the $2.7 million in unpaid
                       passenger security fee amounts
                   identified in this report and continue                             Status of
                   efforts to validate that all air carriers         Yes          implementation is
                        not covered by this audit have                               unknown.
                   accurately collected and remitted all
                           passenger security fees.
                       Continue efforts to develop and
                 implement a viable plan to perform an
                 increased number of annual passenger
                                                                                      Status of
                   security fee audits incorporating the
  OIG-06-35                                                          Yes          implementation is
                     issues raised by this audit and any
                                                                                     unknown.
                        others identified in the audits
                     performed by Customs and Border
                             Protection personnel.
                      Enforce the interim final rule on
                  passenger security fees as clarified by
                        Docket 10, and resolve ticket                                 Status of
                reservation system software issues with              Yes          implementation is
                 the airline industry to assure collection                           unknown.
                and remittance of all passenger security
                      fees on future air carrier tickets.
                Ensure that TSA program offices fulfill                              Action Plan
                their assigned responsibilities under the                             provided.
                  TSA HQ COOP plan and provide the                                    Awaiting
                                                                     Yes
                        support necessary for TSA to                               confirmation of
                    implement a viable COOP plan and                              implementation by
                                   program.                                          component.
                      FEMA should ensure DHS MGT
  OIG-06-60
                   Directive 9300.1 is revised to reflect
                    the current DHS organization. The
                     directive should clearly assign and                             Action Plan
                                                                     No
                          delineate COOP oversight                                    needed.
                 responsibilities and authority to ensure
                     all DHS components have a viable
                               COOP program.




                Status Report on Open Recommendations to DHS Components 


                                             Page 95 

                                                           Agrees (Yes, No,
Report Number        Recommendation Text                                      Current Status
                                                             Unknown)
                 Conduct a workforce analysis of FSD
                   administrative staff and develop a
                 staffing model to identify the number                           Action Plan
                    of employees actually needed at                               provided.
                airports. This analysis should identify                           Awaiting
                                                                 Yes
                key mission areas and responsibilities;                        confirmation of
                  take into consideration the time and                        implementation by
                     nature of administrative work                               component.
                performed by screeners when assessing
                       its workforce requirements.
                 Review proposed adjustments to FSD
                       staffing levels and ratios of
                 administrative to screener personnel.
                                                                                 Closed after
                   In particular, proposed changes to            Yes
                                                                                  12/31/07.
  OIG-06-65       Hawaii’s administrative staff caught
                    our attention as warranting more
                                  review.
                                                                                 Action Plan
                                                                                  provided.
                   Continue to study technologies or
                                                                                  Awaiting
                 systems that will automate data entry           Yes
                                                                               confirmation of
                         functions at airports.
                                                                              implementation by
                                                                                 component.
                                                                                 Action Plan
                  Reclassify administrative positions
                                                                                  provided.
                 using more inclusive position titles to
                                                                                  Awaiting
                   incorporate more of the functions             Yes
                                                                               confirmation of
                 employees perform and facilitate the
                                                                              implementation by
                  hiring of administrative personnel.
                                                                                 component.
                  We recommend that TSA implement
                                                                                 Action Plan
                    milestones in the UDOs CAP that
                                                                                  provided.
                  require that require review of TSA's
                                                                                  Awaiting
                   accounting within TSA, and assess             Yes
                                                                               confirmation of
                      their presentation in the DHS
                                                                              implementation by
                 consolidated balance sheet at Sept. 30,
                                                                                 component.
                                  2006.
                  We recommend that TSA implement
                                                                                 Action Plan
                    milestones in the UDOs CAP that
                                                                                  provided.
                 require the implementation of policies
  OIG-07-13                                                                       Awaiting
                and procedures to annually validate that         Yes
                                                                               confirmation of
                  the methodology used to estimate its
                                                                              implementation by
                   grant accrual provides a reasonable
                                                                                 component.
                  estimate of the actual amount owed.
                                                                                 Action Plan
                We recommend that TSA integrate the
                                                                                  provided.
                CAPs with the Department's plan for
                                                                                  Awaiting
                OMB Circular A-123 implementation                Yes
                                                                               confirmation of
                 and the annual FMFIA assurance
                                                                              implementation by
                            statement.
                                                                                 component.




                Status Report on Open Recommendations to DHS Components 


                                           Page 96 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                  This report is For Official Use Only.
                         This report has 19 open
                   recommendations. Upon request,
OIG-07-18 FOUO
                 additional information will be provided
                         to qualified recipients.

                   This report is Classified. This report
  OIG-07-35
                  has one open recommendation. Upon
  Classified
                                    request
                     We recommend that the Assistant
                     Secretary of TSA develop agency
                   polices and procedures on the FECA
                        program to include roles and
                   responsibilities for OHC and airport
                 personnel to ensure, at a minimum, that
                       OHC and the airport workers’
                       compensation coordinators: a)
                    Regularly review and verify agency                             Action Plan
                  long-term case files for recent medical                           provided.
                  evidence to substantiate the continuing                           Awaiting
                                                                   Yes
                     disability of agency claimants; b)                          confirmation of
                      Document all actions and update                           implementation by
                      medical status quarterly for each                            component.
                 injured worker in well-maintained case
                 files; c) Maintain quarterly contact with
                      claimants, supervisors and care
  OIG-07-45
                     providers of injured claimants; d)
                  Challenge questionable claims; and e)
                   Actively identify, pursue and monitor
                     the status of third-party and fraud
                               related claims.
                     We recommend that the Assistant                               Action Plan
                       Secretary of TSA develop and                                 provided.
                    implement a centralized, automated                              Awaiting
                                                                   Yes
                   case management system to track the                           confirmation of
                      status of the agency’s workers’                           implementation by
                            compensation cases.                                    component.
                                                                                   Action Plan
                     We recommend that the Assistant
                                                                                    provided.
                    Secretary of TSA provide sufficient
                                                                                    Awaiting
                 training to managers and staff involved           Yes
                                                                                 confirmation of
                   in the FECA program at OHC and at
                                                                                implementation by
                                the airports.
                                                                                   component.
                     TSA establish a system of cargo
                     screening oversight that includes
                                                                                   Action Plan
                      guidance on what aspects of the
                                                                                    provided.
                  security program requirements should
  OIG-07-57                                                                         Awaiting
                  be inspected and how often, including            Yes
                                                                                 confirmation of
                     the self-audit requirement for air
                                                                                implementation by
                      carriers to ensure that screening
                                                                                   component.
                   activities are conducted according to
                             TSA requirements.

                 Status Report on Open Recommendations to DHS Components 


                                            Page 97 

                                                             Agrees (Yes, No,
Report Number        Recommendation Text                                        Current Status
                                                               Unknown)
                      TSA establish a system of cargo
                     screening oversight that includes a                            Status of
                 quality control program to improve the            Yes          implementation is
                 consistency, thoroughness, and quality                            unknown.
                        of cargo security inspections.
                    TSA improve the Performance and
                      Results Information System and
                                                                                   Action Plan
                   provide better guidance and detailed
                                                                                    provided.
                training to all users, especially Aviation
                                                                                    Awaiting
                  Security Inspectors, on the quality or           Yes
  OIG-07-57                                                                      confirmation of
                  quantity of information that should be
                                                                                implementation by
                    collected and entered to ensure data
                                                                                   component.
                  integrity and enhance the system as a
                              management tool.
                    TSA improve the Performance and
                                                                                   Action Plan
                      Results Information System and
                                                                                    provided.
                 provide sufficient staff and funding for
                                                                                    Awaiting
                  database operations and maintenance.             Yes
                                                                                 confirmation of
                     Including information technology
                                                                                implementation by
                   support, to ensure data integrity and
                                                                                   component.
                       improve reporting capabilities.
                  This report is Classified. This report
  OIG-07-64
                  has one open recommendation. Upon
  Classified
                                   request
                    Create and implement employment                                Action Plan
                   forms that collect information on the                            provided.
                       applicant pursuant to eligibility                            Awaiting
                                                                   Yes
                 standards. Adjudicators should review                           confirmation of
                  these forms prior to a TSO’s entry on                         implementation by
                                    duty.                                          component.
                                                                                   Action Plan
                  Complete a comprehensive screener
                                                                                    provided.
                 position risk designation using criteria
                                                                                    Awaiting
                provided by personnel security officials           Yes
                                                                                 confirmation of
                    in the Department of Homeland
                                                                                implementation by
                 Security and appropriate TSA offices.
                                                                                   component.
  OIG-07-67
                                                                                   Action Plan
                  Select the background check most                                  provided.
                appropriate for the TSO position based                              Awaiting
                                                                   Yes
                     on the findings from the risk                               confirmation of
                         designation process.                                   implementation by
                                                                                   component.
                                                                                   Action Plan
                  Issue a notice of disqualification to                             provided.
                 applicants or a letter of termination to                           Awaiting
                                                                   Yes
                 TSOs who fail to respond to letters of                          confirmation of
                interrogatory within 30 days of receipt.                        implementation by
                                                                                   component.




                Status Report on Open Recommendations to DHS Components 


                                           Page 98 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                                                                                  Action Plan
                 Establish clear and objective policies                            provided.
                for adjudication of false statements and                           Awaiting
                                                                  Yes
                  omissions, including more specific                            confirmation of
                         suitability guidelines.                               implementation by
                                                                                  component.
                                                                                  Action Plan
                   Develop training specific to TSO                                provided.
                    adjudications to focus on ways                                 Awaiting
                                                                  Yes
                 adjudicators can make more complete                            confirmation of
                        and accurate decisions.                                implementation by
                                                                                  component.
                  Implement systems changes to ensure
                                                                                  Action Plan
                   that the Personnel Security Division,
                                                                                   provided.
                     the Office of Human Capital, and
                                                                                   Awaiting
                       Federal Security Directors are             Yes
                                                                                confirmation of
  OIG-07-67         concurrently aware of a TSO under
                                                                               implementation by
                review for termination as a result of the
                                                                                  component.
                            adjudication process.
                 Ensure sufficient resources exist in the                         Action Plan
                   Personnel Security Division to move                             provided.
                the issuance of adjudication termination                           Awaiting
                                                                  Yes
                 letters from Employee Relations in the                         confirmation of
                      Office of Human Capital to the                           implementation by
                        Personnel Security Division.                              component.
                   Construct and implement an internal
                    auditing function that will study the                         Action Plan
                     overall background check process,                             provided.
                including an ongoing review of the type                            Awaiting
                                                                  Yes
                      of check performed for the TSO                            confirmation of
                   population, to maximize efficiencies                        implementation by
                     and improve the administration of                            component.
                     particular segments of the process.
                                                                                  Action Plan
                     TSA develop and implement                                     provided.
                    procedures to develop and track                                Awaiting
                                                                  Yes
                  relevant outcomes and outputs and                             confirmation of
                      report them as part of RSSI.                             implementation by
                                                                                  component.
  OIG-07-74
                                                                                  Action Plan
                    TSA develop and implement                                      provided.
                procedures to create and track relevant                            Awaiting
                                                                  Yes
                outcomes and outputs and report them                            confirmation of
                           as part of RSSI                                     implementation by
                                                                                  component.




                Status Report on Open Recommendations to DHS Components 


                                           Page 99 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                   We recommend that TSA work with
                 DHS personnel to ensure that the prior                           Action Plan
                      period adjustment at DHS level                               provided.
                  resulting from the analysis completed                            Awaiting
                                                                  Yes
                in April 2007 is properly presented and                         confirmation of
                         disclosed in DHS' FY 2007                             implementation by
                      Performance and Accountability                              component.
                                    Report.
                  We recommend that TSA implement
                     formal, documented policies and
                  procedures for the monthly and year-
                      end closing processes to ensure
                 complete and accurate TIER financial
                   data, financial statements, and RSSI
                      can be prepared, and adequately
                   disclose all TIER deficiencies on its
                 certification statement to DHS. These
                       procedures should identify the
                     responsibilities of the accounting
                  services provider and TSA; allow for                            Action Plan
                     adequate time for TSA to review                               provided.
                financial information provided; provide                            Awaiting
                                                                  Yes
                  for the timely resolution of abnormal                         confirmation of
  OIG-08-05     balances, analytical variances and intra-                      implementation by
                DHS elimination differences; and allow                            component.
                  adequate time to reconcile and adjust
                    balances to reflect actual line item
                       amounts. Ensure key financial
                   management personnel are aware of
                     their roles and responsibilities in
                 performing a hard close in compliance
                    with DHS standards. Develop and
                     implement a process to identify a
                      complete listing of post-closing
                     adjustments to be provided to the
                accounting services provider and DHS.
                We recommend that TSA work with its
                    accounting services provider to (a)
                 develop or refine existing system tools
                that simplify the process of identifying,                         Action Plan
                summarizing, and reporting accounting                              provided.
                   transactions to allow for the timely                            Awaiting
                                                                  Yes
                        identification and research of                          confirmation of
                        procurement and expenditure                            implementation by
                documentation, and (b) fully implement                            component.
                  programming logic in the accounting
                 system to capture and report prior year
                    recoveries at the transaction level.




                Status Report on Open Recommendations to DHS Components 


                                          Page 100 

                                                           Agrees (Yes, No,
Report Number        Recommendation Text                                      Current Status
                                                             Unknown)
                                                                                 Action Plan
                We recommend that TSA develop and
                                                                                  provided.
                   implement procedures to review
                                                                                  Awaiting
                outstanding obligations for validity on          Yes
                                                                               confirmation of
                 a periodic basis, and document this
                                                                              implementation by
                               review.
                                                                                 component.
                We recommend that TSA work with its                              Action Plan
                accounting services provider to ensure                            provided.
                 that the interface between Sunflower                             Awaiting
                                                                 Yes
                   and the general ledger functions                            confirmation of
                properly, and discontinue the use of the                      implementation by
                       property holding account.                                 component.
                                                                                 Action Plan
                   We recommend that TSA ensure
                                                                                  provided.
                  adequate supporting documentation
                                                                                  Awaiting
                    exists and is readily available to           Yes
                                                                               confirmation of
                support the acquisition cost and date of
                                                                              implementation by
                     property and equipment items.
                                                                                 component.
                    We recommend that TSA formally
                 document and consistently implement
                      policies and procedures for the
                                                                                 Action Plan
                   preparation and approval of journal
                                                                                  provided.
  OIG-08-05           vouchers for submission to its
                                                                                  Awaiting
                 accounting services provider. Policies          Yes
                                                                               confirmation of
                      and procedures should include
                                                                              implementation by
                 requirements for (a) full completion of
                                                                                 component.
                 the journal voucher form itself and (b)
                attached documentation to support each
                             journal voucher.
                 We recommend that TSA for all grant
                 awards made prior to FY 2006, review                            Action Plan
                the remaining UDOs to determine if the                            provided.
                    obligations are valid or should be                            Awaiting
                                                                 Yes
                   deobligated due to expiration of the                        confirmation of
                 period of performance, inability of the                      implementation by
                   grantee to expend all funds, or other                         component.
                                 reasons.
                       We recommend that TSA in
                 coordination with the DHS component                             Action Plan
                  responsible for managing most of the                            provided.
                     grant programs funded by TSA,                                Awaiting
                                                                 Yes
                  implement monitoring procedures to                           confirmation of
                ensure that grantees submit requests for                      implementation by
                 reimbursement and related reports in a                          component.
                              timely manner.




                Status Report on Open Recommendations to DHS Components 


                                         Page 101 

                                                             Agrees (Yes, No,
Report Number        Recommendation Text                                        Current Status
                                                               Unknown)
                        We recommend that TSA in
                 coordination with the DHS component
                                                                                   Action Plan
                  responsible for managing most of the
                                                                                    provided.
                      grant programs funded by TSA,
                                                                                    Awaiting
                    continue to refine its grant accrual           Yes
                                                                                 confirmation of
                    methodology to properly consider
                                                                                implementation by
                grantees that do not submit requests for
                                                                                   component.
                    reimbursement in a timely manner
                               (non-reporters).
                 We recommend that TSA develop and
                implement a tracking system to identify
                      each grantee for which an OMB
                  Circular No. A-133 audit is required
                and the date that the audit report is due.                         Action Plan
                   TSA should then use this system to                               provided.
                 track the receipt of all completed audit                           Awaiting
                                                                   Yes
                report is due. TSA should then use this                          confirmation of
                      system to track the receipt of all                        implementation by
                completed audit reports, the issuance of                           component.
                  TSA's management decision on TSA-
                      related findings (if any), and the
                  completion of appropriate corrective
                            action by the grantee.
                   We recommend that TSA establish
  OIG-08-05      sufficient and ongoing communication
                 with the DHS OIG to verify the receipt                            Action Plan
                 and status of all OMB Circular No. A-                              provided.
                133 reports for TSA grantees, and place                             Awaiting
                                                                   Yes
                 higher emphasis on following up with                            confirmation of
                grantees and the DHS OIG for the audit                          implementation by
                reports that identify questioned costs or                          component.
                  other significant findings and ensure
                  that timely resolution is documented.
                 We recommend that TSA's accounting
                 services provider, in coordination with
                                                                                   Action Plan
                    TSA, investigate the programming
                                                                                    provided.
                 logic which summarizes accrued leave
                                                                                    Awaiting
                     information for recordation in the            Yes
                                                                                 confirmation of
                   general ledger and make corrections
                                                                                implementation by
                  where required to properly report the
                                                                                   component.
                   annual leave balance in the general
                           ledger each pay period.
                  We recommend that TSA implement
                    the recommendations identified in                              Action Plan
                      Findings "Financial Reporting",                               provided.
                       "Financial Systems Security",                                Awaiting
                                                                   Yes
                 "Undelivered Orders and Contract File                           confirmation of
                      Maintenance" and "Property and                            implementation by
                  Equipment" of Exhibit I to address its                           component.
                          FFMIA noncompliance.




                Status Report on Open Recommendations to DHS Components 


                                           Page 102 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                 We recommend that TSA review the
                                                                                  Action Plan
                   full requirements of the DCIA and
                                                                                   provided.
                  establish policies and procedures to
                                                                                   Awaiting
                  ensure Dunning Notices are sent to              Yes
                                                                                confirmation of
                    debtors in a timely manner with
                                                                               implementation by
                 interest, penalties, and administrative
                                                                                  component.
                        charges properly assessed.
                  TSA implement the recommendations                               Action Plan
                    identified in Findings "Financial                              provided.
  OIG-08-05         Systems Security,” "Undelivered                                Awaiting
                                                                  Yes
                  Orders,” "Property and Equipment,”                            confirmation of
                and "Financial Reporting" to address its                       implementation by
                         FFMIA noncompliance.                                     component.
                                                                                  Action Plan
                 TSA implement the recommendations                                 provided.
                   identified in Finding "Accounts                                 Awaiting
                                                                  Yes
                  Receivable" to address its DCIA                               confirmation of
                            noncompliance.                                     implementation by
                                                                                  component.
                Empowering the CIO with agency-wide
                     IT budget and investment review
                                                                                  Action Plan
                  authority to ensure that IT initiatives         Yes
                                                                                   needed.
                and decisions support accomplishment
                        of TSA mission objectives.
                  Developing a consolidated strategic
                   planning approach to ensure that IT
                     plans across the agency are well-
                aligned and linked to the DHS strategic                           Action Plan
                                                                  Yes
                  plan, providing a clear vision of how                            needed.
                   information and technology will be
                   managed to support TSA and DHS
                            mission objectives.
                    Completing and implementing an
  OIG-08-07
                    enterprise architecture to establish
                                                                                  Action Plan
                 technical standards and guidelines fro           Yes
                                                                                   needed.
                  systems acquisitions and investment
                                 decisions.
                     Establishing and communicating
                       guidelines and procedures for
                                                                                  Action Plan
                 acquiring, developing, and managing              Yes
                                                                                   needed.
                IT solutions in a consistent, integrated,
                           and efficient manner.
                  Applying adequate staff resources to
                       strengthen the IT Division in
                                                                                  Action Plan
                   addressing IT needs and providing              Yes
                                                                                   needed.
                   support to TSA operations agency-
                                   wide.




                Status Report on Open Recommendations to DHS Components 


                                          Page 103 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                                                                                  Action Plan
                 a) Consistently adhere to policies and
                                                                                   provided.
                perform procedures for the preparation
                                                                                   Awaiting
                and approval of on-top adjustments for            Yes
                                                                                confirmation of
                 submission to its accounting services
                                                                               implementation by
                               provider.
                                                                                  component.
  OIG-08-07
                                                                                  Action Plan
                        b) Develop and implement
                                                                                   provided.
                 procedures to properly identify all on-
                                                                                   Awaiting
                top adjustments that require reversal in          Yes
                                                                                confirmation of
                the subsequent period and to ensure the
                                                                               implementation by
                  timely reversal of these adjustments.
                                                                                  component.
                      c) Once accounting and reporting
                processes stabilize in FY 2008, perform
                   a financial organization and human
                       resource needs assessment in
                     coordination with its accounting
                    services provider to determine the
                      optimum number of accounting
                  personnel and skill sets required and                            Status of
                     the most effective organizational            Yes          implementation is
                structure to sustain efficient accounting                         unknown.
                       operations. TSA's accounting
                   operations should be designed and
                    staffed to most efficiently support
                  timely responses to auditor inquiries
  OIG-08-12      during the year, without also causing
                    significant disruption to on-going
                          accounting operations.
                                                                                  Action Plan
                     a) Formally modify its policy to                              provided.
                define the placed in service date, which                           Awaiting
                                                                  Yes
                 then begins the process of recording                           confirmation of
                     periodic depreciation expense.                            implementation by
                                                                                  component.
                                                                                  Action Plan
                                                                                   provided.
                     b) Implement needed IT system
                                                                                   Awaiting
                  changes to properly account for and             Yes
                                                                                confirmation of
                   maintain placed in service dates.
                                                                               implementation by
                                                                                  component.
                                                                                  Action Plan
                  c) Work with its accounting services
                                                                                   provided.
                   provider to discontinue the use of
                                                                                   Awaiting
                 USSGL Account No. 1890 and record                Yes
                                                                                confirmation of
                  PP&E to the proper general ledger
                                                                               implementation by
                        account upon purchase.
                                                                                  component.




                Status Report on Open Recommendations to DHS Components 


                                          Page 104 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                         d) Develop and implement                                 Action Plan
                    management review controls over                                provided.
                equipment purchase contracts to ensure                             Awaiting
                                                                  Yes
                 that amounts advanced to vendors are                           confirmation of
                properly accounted for given the terms                         implementation by
                        of the underlying contract.                               component.
                  a) Develop and perform procedures to
                   enable management to assert to the
                   appropriateness of the "beginning"
                accrued leave balance at a point in time                          Action Plan
                 (e.g., October 1, 2007). For example,                             provided.
                      these procedures may involve                                 Awaiting
                                                                  Yes
                  validating leave balances for all TSA                         confirmation of
                employees at the selected point in time.                       implementation by
                  These procedures should require that                            component.
                  sufficient documentation be retained
                   for purposes of the annual financial
                              statement audit.
                    b) Develop and implement policies
                   and procedures to reconcile annual
                                                                                  Action Plan
                 leave balances per its payroll provider
                                                                                   provided.
                      output records to input records
                                                                                   Awaiting
                    submitted by TSA and to the TSA               Yes
                                                                                confirmation of
                general ledger each pay period. These
                                                                               implementation by
                reconciliations should be documented,
                                                                                  component.
                reviewed by an appropriate supervisor,
  OIG-08-12
                              and maintained.
                                                                                  Action Plan
                    a) Require contracting officers to                             provided.
                review and certify whether obligations                             Awaiting
                                                                  Yes
                 are valid or require deobligation on a                         confirmation of
                    periodic basis (e.g., quarterly).                          implementation by
                                                                                  component.
                    b) Refine or develop a new general
                                                                                  Action Plan
                 ledger reporting tool that provides the
                                                                                   provided.
                      contracting officers accurate
                                                                                   Awaiting
                   information regarding outstanding              Yes
                                                                                confirmation of
                      obligated balances to include
                                                                               implementation by
                 information related to the last activity
                                                                                  component.
                   date to assist in aging the balance.
                  c) Refine existing processes by which                           Action Plan
                    the Business Management Office                                 provided.
                   periodically examines outstanding                               Awaiting
                                                                  Yes
                         obligations and makes                                  confirmation of
                 recommendations (e.g., deobligation)                          implementation by
                        on outstanding balances.                                  component.
                                                                                  Action Plan
                     d) Develop formal policies and
                                                                                   provided.
                   procedures to assist in expediting
                                                                                   Awaiting
                deobligations of funds associated with            Yes
                                                                                confirmation of
                  invalid obligations in advance of a
                                                                               implementation by
                       formal contract close out.
                                                                                  component.

                Status Report on Open Recommendations to DHS Components 


                                          Page 105 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                    We recommend that the TSA fully
                   implement the FMFIA process, as
                                                                                   Status of
                prescribed by the OCFO, to ensure full
                                                                  Yes          implementation is
                compliance with FMFIA and its OMB
                                                                                  unknown.
                approved plan for Circular No. A-123
  OIG-08-12
                      implementation in FY 2008.
                  We recommend that TSA continue to
                                                                                   Status of
                    implement the remedial actions
                                                                  Yes          implementation is
                resulting from its internal investigation
                                                                                  unknown.
                             of this matter.




                Status Report on Open Recommendations to DHS Components 


                                          Page 106 

     U.S. Citizenship and Immigration Service

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                 Strengthen procedures to ensure that                             Action Plan
                     adequate controls for granting,                               provided.
                 monitoring, and removing user access                              Awaiting
                                                                  Yes
                    to the Central Index System are                             confirmation of
                    implemented according to DHS                               implementation by
                  requirements and NIST guidelines.                               component.
                                                                                  Action Plan
                     Review and retain audit trail                                 provided.
                 information to facilitate the detection                           Awaiting
  OIG-05-42                                                       Yes
                   and investigation of inappropriate                           confirmation of
                          access or malicious.                                 implementation by
                                                                                  component.
                 Develop an adequate IT contingency                               Action Plan
                     plan for Central Index System                                 provided.
                  applications; and, ensure that annual                            Awaiting
                                                                  Yes
                 tests of the plan and quarterly tests of                       confirmation of
                     data restoration procedures are                           implementation by
                                conducted.                                        component.
                                                                                  Action Plan
                                                                                   provided.
                      Expand the use of biometric
                                                                                   Awaiting
                  identification in security checks, as           Yes
                                                                                confirmation of
                    consistent with risk assessment.
                                                                               implementation by
                                                                                  component.
                                                                                  Action Plan
                                                                                   provided.
                 Establish a comprehensive, risk-based
                                                                                   Awaiting
                plan for the selection and completion of          Yes
                                                                                confirmation of
                             security checks.
                                                                               implementation by
                                                                                  component.
                                                                                  Action Plan
                   Set measurable objectives for the                               provided.
                conduct and completion of all security                             Awaiting
  OIG-06-06                                                       Yes
                  checks and reorganize management                              confirmation of
                 controls to ensure objectives are met.                        implementation by
                                                                                  component.
                                                                                  Action Plan
                 Implement an automated system that                                provided.
                      stores applicants’ biometric                                 Awaiting
                                                                  Yes
                  information and supports its use in                           confirmation of
                            security checks.                                   implementation by
                                                                                  component.
                                                                                  Action Plan
                 Implement an automated system that                                provided.
                    supports running, documenting,                                 Awaiting
                                                                  Yes
                  reviewing, and monitoring security                            confirmation of
                                checks.                                        implementation by
                                                                                  component.



                Status Report on Open Recommendations to DHS Components 


                                           Page 107 

                                                           Agrees (Yes, No,
Report Number        Recommendation Text                                      Current Status
                                                             Unknown)
                Define accountability and timelines for
                                                                                 Action Plan
                 implementing changes to the security
                                                                                  provided.
                       check process that include the
                                                                                  Awaiting
  OIG-06-06     development of the plan for completion           Yes
                                                                               confirmation of
                  of security checks, check completion
                                                                              implementation by
                        objectives, and reorganized
                                                                                 component.
                           management controls.
                  Develop and modernization strategy                             Action Plan
                    that includes short- and long-term                            provided.
                 goals, funding plans, and performance                            Awaiting
                                                                 Yes
                  measures to guide USCIS entities in                          confirmation of
                   accomplishing their citizenship and                        implementation by
                      immigration services missions.                             component.
                                                                                 Action Plan
                 Complete implementation of plans to                              provided.
                 centralize IT by placing all USCIS IT                            Awaiting
                                                                 Yes
                employees, budgets, and systems under                          confirmation of
                    the CIO's authority and control                           implementation by
                                                                                 component.
                                                                                 Action Plan
                   Ensure that the centralized CIO
                                                                                  provided.
                  operation and its IT transformation
                                                                                  Awaiting
                plans are systems initiatives are linked         Yes
                                                                               confirmation of
                    to and effectively support the
                                                                              implementation by
                    consolidated USCIS strategy.
                                                                                 component.
  OIG-07-11
                     Review, analyze, and reengineer                             Action Plan
                 benefits adjudication activates to help                          provided.
                 eliminate duplication, transition from                           Awaiting
                                                                 Yes
                paper-based processes, better integrated                       confirmation of
                 systems, and provide system access to                        implementation by
                          the users who need it.                                 component.
                     Finalize and implement plans to                             Action Plan
                  upgrade and standardize IT hardware                             provided.
                     and software systems to support                              Awaiting
                                                                 Yes
                   reengineered processes and systems                          confirmation of
                  integration and access improvement                          implementation by
                                initiatives.                                     component.
                                                                                 Action Plan
                Ensure representation and participation
                                                                                  provided.
                  of users at the various levels from
                                                                                  Awaiting
                     across USCIS in all process                 Yes
                                                                               confirmation of
                 reengineering and IT transformation
                                                                              implementation by
                               activities.
                                                                                 component.
                                                                                 Action Plan
                We recommend that the service center
                                                                                  provided.
                continue efforts to move the receipt of
                                                                                  Awaiting
  OIG-07-74       all Service Center applications and            Yes
                                                                               confirmation of
                     petitions with fees to lockbox
                                                                              implementation by
                  operations by the end of FY 2007.
                                                                                 component.




                Status Report on Open Recommendations to DHS Components 


                                          Page 108 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                   We recommend that the Office of                                Action Plan
                  Domestic Operations incorporate a                                provided.
                  control to ensure the timely update                              Awaiting
                                                                  Yes
                 within CLAIMS 3 and CLAIMS 4 of                                confirmation of
                  completed work within its periodic                           implementation by
                      quality assurance reviews.                                  component.
                                                                                  Action Plan
                   We recommend that the Financial
                                                                                   provided.
                    Management Division, until the
                                                                                   Awaiting
                interface between FFMS and PRISM is               Yes
                                                                                confirmation of
                implemented, assume responsibility for
                                                                               implementation by
                recording all obligations within FFMS.
                                                                                  component.
  OIG-07-74
                   We recommend that the Financial                                Action Plan
                    Management Division, until the                                 provided.
                interface between FFMS and PRISM is                                Awaiting
                                                                  Yes
                 implemented, develop and implement                             confirmation of
                controls to monitor timely recording of                        implementation by
                       obligations within FFMS.                                   component.
                                                                                  Action Plan
                   We recommend that the Financial
                                                                                   provided.
                    Management Division, until the
                                                                                   Awaiting
                interface between FFMS and PRISM is               Yes
                                                                                confirmation of
                 implemented, reconcile all obligations
                                                                               implementation by
                created in PRISM to the general ledger.
                                                                                  component.
                  Establish performance measures for
                                                                                  Action Plan
                      fraud detection in the USCIS                Yes
                                                                                   needed.
                     immigration benefit caseload.
                   Require the National Security and
                   Records Verification Directorate to
                                                                                  Action Plan
                   develop a quarterly report on fraud            Yes
                                                                                   needed.
                   goals and accomplishments for the
                            USCIS Director.
                    Require adjudicators to identify
                  petitions with articulable fraud in an
                                                                                  Action Plan
                 electronic system accessible to FDNS,            Yes
                                                                                   needed.
  OIG-08-09     to begin establishing fraud patterns and
                                  trends.
                     Establish a quarterly reporting
                requirement from USCIS Adjudications
                                                                                  Action Plan
                 to the USCIS Director on adjudicator             Yes
                                                                                   needed.
                 participation in identifying articulable
                                   fraud.
                  Develop a process for proactive data
                     analysis across a wide range of
                 immigration data to identify potential                           Action Plan
                                                                  Yes
                    fraud patterns and leads, to both                              needed.
                  generate leads for FDNS and inform
                          proper adjudications.




                Status Report on Open Recommendations to DHS Components 


                                          Page 109 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                Restructure FDNS-DS to improve case
                    tracking and management reports.
                  Case tracking should be streamlined,
                and FDNS program measures should be                              Action Plan
                                                                  Yes
                  developed to be incorporated into the                           needed.
                     database structure, along with an
                interface to extract management reports
                at both the headquarters and field level.
  OIG-08-09
                   Review the value of FDNS-DS as a
                  tool to research referrals as compared
                 to alternate approaches currently used.
                   Labor-intensive data entry should be                          Action Plan
                                                                  Yes
                 reduced by eliminating redundant and                             needed.
                  marginal data fields, automating data
                  entry, and streamlining the data entry
                                 interface.




                Status Report on Open Recommendations to DHS Components 


                                          Page 110 

     U.S. Coast Guard

                                                             Agrees (Yes, No,
Report Number        Recommendation Text                                        Current Status
                                                               Unknown)
                   Analyze historical and current trend
                      data for each of the civilian pay                             Status of
                    components when formulating the                Yes          implementation is
                 civilian pay budget and monitoring its                            unknown.
                                 execution.
                 Document policies and procedures for
                   formulating the civilian pay budget.
                 The procedures should include (a) step
                        by step instructions for each                               Status of
                component, (b) duties of the individuals           Yes          implementation is
                responsible for formulating the budget,                            unknown.
  OIG-05-29          (c) data sources and reports to be
                    utilized, and (d) periodic review of
                    procedures for continued validity.
                    Formalize policies and procedures
                related to monitoring budget execution
                to require: (a) identification of relevant
                monitoring information, (b) supervisory                             Status of
                 reviews, (c) designation of responsible           Yes          implementation is
                       individuals, (d) timeliness for                             unknown.
                  monitoring activities, and (e) periodic
                   review of procedures for continued
                                  validity.
                  Implement a security testing program
                                                                                   Action Plan
                     for CGDN+ (including the LANs
                                                                                    provided.
                   connected to it) as recommended by
                                                                                    Awaiting
                     NIST 800-42 to include periodic               Yes
                                                                                 confirmation of
                      network scanning, vulnerability
                                                                                implementation by
                scanning, penetration testing, password
                                                                                   component.
                         analysis, and war driving.
                                                                                   Action Plan
                    Maintain and review audit trail
                                                                                    provided.
                 information to facilitate the detection
  OIG-05-30                                                                         Awaiting
                   and investigation of inappropriate              Yes
                                                                                 confirmation of
                access or malicious changes to SSWeb
                                                                                implementation by
                          and its applications.
                                                                                   component.
                                                                                   Action Plan
                   Develop, update, and implement
                                                                                    provided.
                  policies as well as procedures for
                                                                                    Awaiting
                  standard configuration of network                Yes
                                                                                 confirmation of
                devices, and passwords, as required by
                                                                                implementation by
                  DHS Policy and DHS Handbook.
                                                                                   component.




                Status Report on Open Recommendations to DHS Components 


                                           Page 111 

                                                             Agrees (Yes, No,
Report Number        Recommendation Text                                        Current Status
                                                               Unknown)
                 Centralize the configuration and patch
                 management process to ensure that all
                                                                                   Action Plan
                      network devices are properly
                                                                                    provided.
                  configured and all necessary patches
                                                                                    Awaiting
                    are applied in a timely manner to              Yes
                                                                                 confirmation of
                 reduce the risk of system compromise
                                                                                implementation by
                    or failure. All high and medium
                                                                                   component.
  OIG-05-30     vulnerabilities that are identified should
                       be addressed and corrected.
                                                                                   Action Plan
                   Develop, update, and implement                                   provided.
                policies as well as procedures to ensure                            Awaiting
                                                                   Yes
                      audit trails are reviewed and                              confirmation of
                               maintained.                                      implementation by
                                                                                   component.
                   Develop, update, and implement                                  Action Plan
                policies as well as procedures to define                            provided.
                     the acceptable use of wireless                                 Awaiting
                                                                   Yes
                technologies, and the consequences of                            confirmation of
                  non compliance. Perform scans for                             implementation by
                   rogue wireless devices regularly.                               component.
                                                                                   Action Plan
                Establish C4ISR spending priorities to                              provided.
                help ensure that "system-of-systems"                                Awaiting
                                                                   Yes
                 objectives are achieved in line with                            confirmation of
                           budget realities.                                    implementation by
                                                                                   component.
                                                                                   Action Plan
  OIG-06-55        Review and revise the Deepwater
                                                                                    provided.
                     training approach to ensure the
                                                                                    Awaiting
                sufficient training, adequate instructors,         Yes
                                                                                 confirmation of
                and reference materials are available to
                                                                                implementation by
                   support the C4ISR systems users.
                                                                                   component.
                  We recommend that the Coast Guard
                                                                                   Action Plan
                      obtain support from executive
                                                                                    provided.
                  leadership, since effective corrective
                                                                                    Awaiting
                 action and progress toward corrective             Yes
                                                                                 confirmation of
                 action could falter without continuous
                                                                                implementation by
                     reinforcement from leadership.
                                                                                   component.
                    Develop a risk management plan.
                Perform a thorough root cause analysis
                to identify the underlying causes of the
                 four material weaknesses, including a                             Action Plan
                  review of IT systems, processes, and                              provided.
                human resources. Coast Guard should                                 Awaiting
  OIG-06-61                                                        Yes
                not rely on the financial statement audit                        confirmation of
                 to identify all of the significant causes                      implementation by
                of control weaknesses, and should only                             component.
                       use the audit to corroborate
                         management's findings.




                Status Report on Open Recommendations to DHS Components 


                                           Page 112 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                      Develop CAPs to mitigate and
                ultimately correct control deficiencies,
                       based on management's own
                  assessment of the issues. The CAPs
                   should include a description of the
                    detailed tasks and milestones, key
                success and performance metrics, and a
                   designated person who is primarily                             Action Plan
                    accountable for completion of the                              provided.
                    effort. The identified root causes                             Awaiting
                                                                  Yes
                    should be cross-referenced to the                           confirmation of
                weakness identified by management (as                          implementation by
                well as those identified by the financial                         component.
                 statement auditor). The CAPs should
                      be prioritized for correction, to
                  minimize duplication of effort where
                corrective actions overlap correction of
                   IT system posting logic errors may
                resolve multiple issues, or mitigate the
                        need for process changes.
                    Make a realistic assessment of the
                   resource requirements, human and
                     financial, needed to perform the
                    investigations to identify the root
                causes of material weaknesses, develop
                                                                                  Action Plan
                 and execute thorough CAPs, and then
                                                                                   provided.
                 to verify correction. This assessment
                                                                                   Awaiting
                 should include input from all affected           Yes
                                                                                confirmation of
                areas, CG-842 (FINCEN) and CG-841
                                                                               implementation by
                  (IT systems). In filling key financial
                                                                                  component.
                    management vacancies, the Coast
                 Guard should ensure that the position
                  holders have the necessary skills and
                 experience to successfully execute the
                                   CAPs.
                                                                                  Action Plan
                    Obtain support from executive                                  provided.
                 leadership, since effective correction                            Awaiting
                                                                  Yes
                   will at times compete with other                             confirmation of
                                mission.                                       implementation by
                                                                                  component.




                Status Report on Open Recommendations to DHS Components 


                                          Page 113 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                 Define the exact criteria which will be
                  used to ascertain when the corrective
                action has been successfully completed,
                     as well as the method for testing
                against such criteria as part of OMB A-
                 123 implementation steps (i.e. tests of                          Action Plan
                        design and tests of operating                              provided.
                    effectiveness of internal controls).                           Awaiting
                                                                  Yes
                 Additionally, integrate the CAPs with                          confirmation of
                the Coast Guard's plan for OMB A-123                           implementation by
                   implementation and annual FMFIA                                component.
                   assurance statement. Management's
                plan for validation of corrective actions
                 should be closely integrated with their
                controls test work conducted to comply
                             with OMB A-123.
                  We recommend that the Coast Guard
                perform a comprehensive and thorough
                root cause analysis fully supported and
                sustained by documentation to identify                            Action Plan
                     the underlying causes of the five                             provided.
                     material weaknesses, including a                              Awaiting
  OIG-07-13                                                       Yes
                      review of financial IT systems,                           confirmation of
                 processes, and human resources. Root                          implementation by
                   causes should be cross-referenced to                           component.
                        the weaknesses identified by
                   Management. The CAPS should be
                            prioritized for action.
                  We recommend that the Coast Guard
                       develop CAPs to mitigate and
                 ultimately correct control deficiencies                          Action Plan
                        based on management's own                                  provided.
                   assessment of the issues. The CAPs                              Awaiting
                                                                  Yes
                    should include a description of the                         confirmation of
                    detailed tasks and milestones, key                         implementation by
                success and performance metrics, and a                            component.
                    designated person accountable for
                          completion of the effort.
                  We recommend that the Coast Guard                               Action Plan
                    make a realistic assessment of the                             provided.
                     resource requirements needed to                               Awaiting
                                                                  Yes
                 identify the root causes of the material                       confirmation of
                     weaknesses, develop and execute                           implementation by
                thorough CAPs, and verify completion.                             component.
                  We recommend that the Coast Guard
                                                                                  Action Plan
                       obtain support from executive
                                                                                   provided.
                  leadership, since effective corrective
                                                                                   Awaiting
                  action and progress toward corrective           Yes
                                                                                confirmation of
                 action could falter without continuous
                                                                               implementation by
                      reinforcement from leadership.
                                                                                  component.
                    Develop a risk management plan.



                Status Report on Open Recommendations to DHS Components 


                                          Page 114 

                                                              Agrees (Yes, No,
Report Number        Recommendation Text                                         Current Status
                                                                Unknown)
                 We recommend that the Coast Guard
                reconcile database(s) used to document                              Action Plan
                 other forms of CAPs or more detailed                                provided.
                   Caps with the ePMO database and                                   Awaiting
                                                                    Yes
                  monitor their completion. Establish                             confirmation of
                   accountability for the results of the                         implementation by
                     CAPs and responsibility for the                                component.
                  remediation of material weaknesses.
                                                                                    Action Plan
                 We recommend that the Coast Guard                                   provided.
                include CAP validation procedures that                               Awaiting
                                                                    Yes
                 should be performed by Coast Guard                               confirmation of
                              personnel.                                         implementation by
                                                                                    component.
                  We recommend that the Coast Guard
                         integrate the CAPs with the
                   Department's plan for OMB Circular                               Action Plan
                  A-123 implementation and the annual                                provided.
                        FMFIA assurance statement.                                   Awaiting
                                                                    Yes
                  Management's plan for verification of                           confirmation of
                   corrective actions should be closely                          implementation by
                      integrated with the Department's                              component.
                controls test work conducted to comply
                         with OMB Circular A-123.
                 The Coast Guard Commandant should
                develop and implement a plan to ensure                               Status of
                 the National Security Cutter is capable            Yes          implementation is
                   of fulfilling the operational profiles                           unknown.
                    defined in the Deepwater contract.
                 The Coast Guard Commandant should
                provide assurances that a solution to the
                cutter's structural design issues are fully                          Status of
                developed and the costs associated with             Yes          implementation is
                     the solutions are identified before                            unknown.
                  issuing any new work orders (DTOs)
                               for NSCs 3 - 8.
                 The Chief Procurement Officer, DHS,
  OIG-07-23
                  in coordination with the Department's
                     Office of General Counsel should
                      ensure that all future department
                   contracts, including those governing
                    the Deepwater acquisition, contain
                                                                                     Status of
                      terms and conditions that clearly
                                                                    No           implementation is
                      stipulate the DHS/OIG's right of
                                                                                    unknown.
                      unfettered access to contract and
                 subcontract documents and personnel,
                       including private, confidential
                   interviews, information, inter-office
                   correspondence, and pre-decisional
                               documentation.




                Status Report on Open Recommendations to DHS Components 


                                           Page 115 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                  Validate the existing CAP root cause
                   analyses. The Coast Guard should
                   utilize existing contract support to
                review the identification of root causes
                for the CAPs and the analysis prepared
                    to support the development of the
                 remediation plans in coordination with
                  A-123 implementation efforts. This
                   effort should assist in determining
                  whether additional root causes exist,
                and in validating that the current CAPs
                                                                                  Action Plan
                  are adequately aligned to address the
                                                                                   provided.
                   material weakness and include the
                                                                                   Awaiting
                necessary steps to implement the CAPs.            Yes
                                                                                confirmation of
                      To develop remediation plans
                                                                               implementation by
                    effectively, the Coast Guard must
                                                                                  component.
  OIG-07-29     understand and identify the process and
                       system-level factors that are
                 contributing to the material weakness.
                    Understanding the problem at the
                process/system level should assist with
                developing remediation plans and with
                   establishing evaluation criteria for
                   determining whether the plans are
                   addressing the root causes and are
                properly aligned to correct the material
                                 weakness.
                                                                                  Action Plan
                                                                                   provided.
                   Develop crosswalks to ensure all
                                                                                   Awaiting
                conditions leading to identified material         Yes
                                                                                confirmation of
                 weaknesses are tracked to root causes.
                                                                               implementation by
                                                                                  component.




                Status Report on Open Recommendations to DHS Components 


                                          Page 116 

                                                             Agrees (Yes, No,
Report Number        Recommendation Text                                        Current Status
                                                               Unknown)
                   Update the current work breakdown
                    structures for the remediation plans
                       after the root cause analysis and
                      validation efforts are completed.
                 Future updates to the work breakdown
                  structures should be coordinated with
                     the PMO to ensure all remediation
                    efforts are integrated. The updated
                     work breakdown structures should                              Action Plan
                 include the efforts are integrated. The                            provided.
                    updated work breakdown structures                               Awaiting
                                                                   Yes
                        should include the individuals                           confirmation of
                      responsible for implementing the                          implementation by
                 activities, a detailed set of process and                         component.
                    system-level activities that must be
                    addressed to resolve the issues, the
                       level of effort required by each
                   individual to implement the detailed
                      activities, detailed timelines with
                         intermediate milestones, and
                     methodologies for monitoring and
                        reporting on work completed.
                  Develop a risk-based plan for each of
                                                                                   Action Plan
                   the four CAPs to prioritize tasks and
  OIG-07-29                                                                         provided.
                  assist with aligning resources to high-
                                                                                    Awaiting
                    value tasks. The materiality of the            Yes
                                                                                 confirmation of
                 financial statement line items to which
                                                                                implementation by
                  the CAPs relate should be used as the
                                                                                   component.
                            basis for assessing risk.
                  The CAPs should address alternatives
                    for addressing resource constraints,
                       such as: a) the transfer of other
                 resources from departments within the
                 Coast Guard; b) the use of contractors
                  specified in terms of hours and period
                     of performance for specific define
                                                                                   Action Plan
                   tasks, and c) the hiring of resources,
                                                                                    provided.
                including a plan to mitigate the risks of
                                                                                    Awaiting
                   the hired individuals not completing            Yes
                                                                                 confirmation of
                      sufficient training and not having
                                                                                implementation by
                sufficient logistical support to complete
                                                                                   component.
                 their assignments. Each of these plans
                should include a matrix to identify and
                  prevent the duplication of contracting
                     effort and to help ensure that such
                     effort is aligned to assist the Coast
                         Guard in addressing specific
                            weaknesses and issues.




                Status Report on Open Recommendations to DHS Components 


                                           Page 117 

                                                           Agrees (Yes, No,
Report Number        Recommendation Text                                      Current Status
                                                             Unknown)
                    Designate a Coast Guard owner or
                  senior-level executive responsible for
                      the coordination of all financial
                        management and reporting                                 Action Plan
                 improvement initiatives. The owner's                             provided.
                duties would include the integration of                           Awaiting
                                                                 Yes
                     contractor support effort, FMTTF                          confirmation of
                  activities, and updates to CAPs. The                        implementation by
                coordination of the various CAP efforts                          component.
                  should help reduce the duplication of
                    remediation efforts and potentially
                eliminate costly contract modifications.
                  Undertake an independent validation                            Action Plan
                 and verification to determine whether                            provided.
                the root causes listed in the CAPs have                           Awaiting
                                                                 Yes
                    been adequately implemented and                            confirmation of
                   whether the CAPs have resolved the                         implementation by
                           material weaknesses.                                  component.
                 Implement the navigational dashboard                            Action Plan
                   currently under development by the                             provided.
                 PMO to standardize the reporting and                             Awaiting
                                                                 Yes
                     tracking functions and define the                         confirmation of
  OIG-07-29        criteria for evaluating percentage to                      implementation by
                                 completion.                                     component.
                   Define specific expectations for the
                contracts, considering the root cause of
                 the material weakness and NFRs (link
                          conditions and consider
                   recommendations). In addition, the
                                                                                 Action Plan
                Coast Guard should review the existing
                                                                                  provided.
                   PWS and consider modifications, if
                                                                                  Awaiting
                necessary, to align them with necessary          Yes
                                                                               confirmation of
                remediation efforts. This effort should
                                                                              implementation by
                  assist in confirming that the cause of
                                                                                 component.
                the problem is being addressed and not
                just the symptoms, and should provide
                  clear definitions for what needs to be
                  done under the contract to assist with
                            remediation efforts.
                                                                                 Action Plan
                Help ensure that project plans exist and
                                                                                  provided.
                are approved by the appropriate Coast
                                                                                  Awaiting
                Guard personnel for each contract. The           Yes
                                                                               confirmation of
                plans should include detailed tasks and
                                                                              implementation by
                    timelines for accomplishments.
                                                                                 component.




                Status Report on Open Recommendations to DHS Components 


                                         Page 118 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                    Enhance the contract development
                      process to ensure management                                Action Plan
                     consensus is reached to preclude                              provided.
                disputes about contract content after the                          Awaiting
                                                                  Yes
                   contract is signed, thereby avoiding                         confirmation of
                         potentially costly contract                           implementation by
                 modifications (longer periods can lead                           component.
                         to more costly solutions).
                  Provide adequate government human
                                                                                  Action Plan
                      resources for the oversight and
                                                                                   provided.
                    validation of contract Fork. Even
                                                                                   Awaiting
                though the contracts are fixed-price, the         Yes
                                                                                confirmation of
                  work must be reviewed for adequacy
                                                                               implementation by
                 and - timelines must be met according
                                                                                  component.
                         to Coast Guard standards.
                   Continue efforts to validate the root
                 causes of the material weaknesses as a                           Action Plan
                 prerequisite to developing the contract                           provided.
                 PWSs for remediation activities. This                             Awaiting
                                                                  Yes
                      validation should help provide                            confirmation of
                 confidence that the causes, and not the                       implementation by
                 symptoms, of the material weaknesses                             component.
                  are being addressed by the contracts.
  OIG-07-29         Coordinate and align the contract
                      support plans with the POAM
                                                                                  Action Plan
                    developed by the FMTTF and the
                                                                                   provided.
                     CAPS developed by the process
                                                                                   Awaiting
                  owners. This should confirm that all            Yes
                                                                                confirmation of
                    staff and contractors are working
                                                                               implementation by
                      toward a cohesive plan for the
                                                                                  component.
                        remediation of the material
                                weaknesses.
                                                                                  Action Plan
                Assess the need for human capital, both                            provided.
                    in number and competency, and                                  Awaiting
                                                                  Yes
                 provide sufficient human resources to                          confirmation of
                  ease reliance on contractor support.                         implementation by
                                                                                  component.
                 Similar to the CAPS recommendation
                    discussed previously, enhance the
                                                                                  Action Plan
                contract development process to ensure
                                                                                   provided.
                  management consensus in reached to
                                                                                   Awaiting
                     preclude disputes about contract             Yes
                                                                                confirmation of
                content after the contract is signed and
                                                                               implementation by
                   thereby avoiding potentially costly
                                                                                  component.
                 contract modifications (longer periods
                   can lead to more costly solutions).




                Status Report on Open Recommendations to DHS Components 


                                          Page 119 

                                                             Agrees (Yes, No,
Report Number        Recommendation Text                                        Current Status
                                                               Unknown)
                                                                                   Action Plan
                  Obtain additional contract technical                              provided.
                    managers and ensure they have                                   Awaiting
                                                                   Yes
                obtained the appropriate COTR training                           confirmation of
                           and certification.                                   implementation by
                                                                                   component.
                    Validate the success of the contract
                      work. The validation should be                               Action Plan
                   documented in writing by the Coast                               provided.
                        Guard to determine whether                                  Awaiting
                                                                   Yes
                       performance measurements are                              confirmation of
                 established and reviewed to determine                          implementation by
                  the adequacy and completeness of the                             component.
                                contract work.
                   Secure adequate human resources to
                        complete the planning and to
                 implement the actions identified in the                           Action Plan
                   POAM, as well as to identify actions                             provided.
                necessary to achieve and sustain clean -                            Awaiting
                                                                   Yes
  OIG-07-29         - audit opinions. Further, the CG-8                          confirmation of
                   team should be led by an individual                          implementation by
                      with sufficient leadership skills,                           component.
                financial expertise, and the authority to
                             implement changes.
                   Document in writing any changes to
                     directives, whether in tasks or due
                                                                                   Action Plan
                 dates, and include the written approval
                                                                                    provided.
                       by the appropriate authority or
                                                                                    Awaiting
                authorities. Although documentation in             Yes
                                                                                 confirmation of
                 briefings and dashboards indicate that
                                                                                implementation by
                Coast Guard leadership may have been
                                                                                   component.
                aware of the delays, it does not indicate
                                their approval.
                   Ensure that the POAM is integrated                              Action Plan
                 with the CAPS. To ensure that efforts                              provided.
                  are not duplicated or that gaps do not                            Awaiting
                                                                   Yes
                       exist in the plans, all activities,                       confirmation of
                    timelines, and schedules need to be                         implementation by
                         coordinated and integrated.                               component.
                Initialize the CAP/FSTAR process with                              Action Plan
                        an assessment of the control                                provided.
                   environment (entity-level controls),                             Awaiting
  OIG-08-12                                                        Yes
                   develop effective corrective actions,                         confirmation of
                     and implement improved financial                           implementation by
                           processes and systems.                                  component.




                Status Report on Open Recommendations to DHS Components 


                                           Page 120 

                                                           Agrees (Yes, No,
Report Number        Recommendation Text                                      Current Status
                                                             Unknown)
                Delegate responsibility for sound fiscal
                  management centrally with the CFO
                                                                                 Action Plan
                  who has full authority to implement
                                                                                  provided.
                    change as needed, including new
                                                                                  Awaiting
                  policies, procedures, controls and IT          Yes
                                                                               confirmation of
                    systems requirements, to have the
                                                                              implementation by
                 ability, and appropriate resources for
                                                                                 component.
                Coast Guard financial management and
                            reporting functions.
                    Engage an expert from outside the
                  organization to evaluate the existing
                 financial management organizational
                   and internal control structure. The
                      organizational specialist should
                conduct an assessment of the financial
                management organizational structure to
                consider the conditions cited above. In                          Action Plan
                 addition, the organizational specialist                          provided.
                     should consider other conditions                             Awaiting
                                                                 Yes
                   identified in Exhibit I-B, Financial                        confirmation of
  OIG-08-12
                 Reporting, below, such as the number                         implementation by
                  and type of personnel and resources                            component.
                 needed, along with the requisite skills
                    and abilities necessary, to provide
                   effective guidance and oversight to
                 program offices that are significant to
                 financial management and reporting,
                 and make recommendations to senior
                 management for appropriate changes.
                Ensure that its CAP/FSTAR actions as
                      designed and performed are: a)
                     Effective in addressing all of the
                                                                                 Action Plan
                 material weaknesses described in this
                                                                                  provided.
                                  Exhibit;
                                                                                  Awaiting
                b) Coordinated and prioritized with the          Yes
                                                                               confirmation of
                     input from Departments CFO to
                                                                              implementation by
                address matters that are preventing the
                                                                                 component.
                  Department from preparing reliable
                 financial statements and executing its
                   fiscal management responsibilities.




                Status Report on Open Recommendations to DHS Components 


                                         Page 121 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                  Conduct an assessment of its current
                financial reporting process, including a
                     review of its three general ledger
                systems, with the goal of establishing a
                general ledger that is FFMIA compliant
                      at the transaction level, e.g., all
                  financial transactions are recorded in
                 the general ledger at the detail USSGL                            Status of
  OIG-08-12           level as they occur, all financial          Yes          implementation is
                        statement line items are fully                            unknown.
                        reconciled and supported by
                   transactional detail contained in the
                       general and subsidiary ledgers,
                   reducing complexity, implementing
                appropriate internal controls, improving
                     financial systems integration and
                       automating manual processes.




                Status Report on Open Recommendations to DHS Components 


                                          Page 122 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                    Establish new or improve existing
                     policies, procedures, and related
                      internal controls to ensure that:
                   a) The year-end, close-out process;
                 reconciliations; and financial data and
                      account analysis procedures are
                supported by documentation, including
                    evidence of effective management
                   review and approval, and beginning
                    balances in the following year are
                determined to be reliable and auditable;
                     b) On-top adjustments to account
                  balances and abnormal balances and
                account relationship discrepancies, e.g.,
                budgetary to proprietary reconciliations
                        are identified, reviewed and
                         documented; c) Account
                  reconciliations, for each of the three
                 general ledgers and the monthly TIER
                 submission, are performed timely and
                completely each month, and differences
                 are researched and resolved before the
                        next month's reporting cycle.
                    Reconciliations should include all
                                                                                   Status of
                 funds maintained by the Coast Guard,
  OIG-08-12                                                       Yes          implementation is
                 including revolving, special, and trust
                                                                                  unknown.
                funds; d) The Coast Guard identifies all
                       accounts receivables and then
                    implements comprehensive Coast
                  Guard-wide policies and procedures,
                      including internal controls, at a
                  sufficient level of detail to determine
                 that the accounts receivable process is
                     effective to support management
                       assertions, in compliance with
                       generally accepted accounting
                 principles, for the accounts receivable
                  balance reported on the Coast Guard
                             balance sheet; and
                    e) The Coast Guard develops and
                       implements effective policies,
                    procedures and internal controls to
                   compile, support, review and report
                       financial statement disclosures
                    submitted for incorporation in the
                  DHS financial statements, to include
                    the effective completion the GAO
                 Disclosure Checklist and valid support
                           for the preparation of
                      statement of net cost disclosure.




                Status Report on Open Recommendations to DHS Components 


                                          Page 123 

                                                             Agrees (Yes, No,
Report Number        Recommendation Text                                        Current Status
                                                               Unknown)
                   Investigate potential financial system
                      problems such as potential posting                            Status of
                  logic errors and automated changes to            Yes          implementation is
                  financial data through scripts (system                           unknown.
                                  modifications).
                 Establish a formal documented review
                            and approval process over
                  reconciliation activities performed by
                          Coast Guard to ensure that all
                intragovernmental activity and balances
                 are identified and differences are being
                         resolved in a timely manner in
                        coordination with the OFM (see                              Status of
                      Exhibit II-B, Financial Reporting).          Yes          implementation is
                         Procedures should also include                            unknown.
                      obtaining positive confirmation of
                balances with DHS trading partners and
                    make appropriate system changes to
                     include updating and validating the
                     information in the vendor tables for
                trading partner data, and correct known
                                      errors.
                      Establish policies, procedures, and
  OIG-08-12         internal controls, including effective
                         reconciliations and the use of a
                     financial system that complies with
                  federal financial system requirements,
                as defined in OMB Circular A-127, and
                 the requirements of the JFMIP, to fully
                      support the fiscal year 2007 FBwT
                  activity and balance at September 30,
                   2007. These policies and procedures
                       should allow the Coast Guard to:
                 a) Perform complete and timely FBwT                                Status of
                reconciliations using the tools provided           Yes          implementation is
                   by Treasury GWA; b) Better manage                               unknown.
                        its suspense accounts to include
                  researching and clearing items carried
                      in suspense clearing accounts in a
                     timely manner during the year, and
                 maintaining documentation of periodic
                          reconciliations of FBwT; and
                       c) Ensure payroll data, supporting
                 payroll transactions processed through
                      FBwT (account 1010), is properly
                      maintained and available for audit
                               testwork, as needed.




                Status Report on Open Recommendations to DHS Components 


                                           Page 124 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                Improve controls and related processes
                        and procedures to ensure that
                     documentation supporting PP&E                                 Status of
                acquisitions, to include the CIP process          Yes          implementation is
                    and existence, including additions,                           unknown.
                 transfers, and disposals, is maintained
                        to support capitalized PP&E.
                  Implement processes and controls to
                 record PP&E transactions accurately,
                  consistently, and timely in the fixed
                    asset system; record an identifying                            Status of
                number in the fixed asset system at the           Yes          implementation is
                    time of asset purchase to facilitate                          unknown.
                identification and tracking; and ensure
                  that the status of assets is accurately
                          maintained in the system.
                    Revise procedures for performing
                     physical inventories of repairable
                      items, to include procedures for
                   resolving differences, and reporting
                results, to ensure that repairable PP&E                            Status of
                is accurately and completely classified           Yes          implementation is
                    and recorded. Support the pricing                             unknown.
  OIG-08-12      methodology used to value repairable
                     PP&E to ensure that balances, as
                  presented in the financial statements,
                approximate amortized historical cost.
                    Review policies and procedures to
                       account for improvements and
                                                                                   Status of
                        impairments to buildings and
                                                                  Yes          implementation is
                 structures, capital leases, and identify
                                                                                  unknown.
                   proper useful lives for depreciation
                  purposes in accordance with GAAP.
                Update OM&S physical count policies,
                 procedures, and controls, and provide
                                                                                   Status of
                  training to personnel responsible for
                                                                  Yes          implementation is
                  conducting physical inventories, and
                                                                                  unknown.
                  include key elements of an effective
                    physical inventory in the policies.
                   Consider adopting a system of bar-
                                                                                   Status of
                 coding or tagging OM&S as a method
                                                                  Yes          implementation is
                  of tracking usage and maintaining a
                                                                                  unknown.
                perpetual inventory of OM&S on hand.
                   Establish processes and controls to
                                                                                   Status of
                support the calculated value of OM&S
                                                                  Yes          implementation is
                to ensure accounting is consistent with
                                                                                  unknown.
                                   GAAP.




                Status Report on Open Recommendations to DHS Components 


                                          Page 125 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                     Establish and document policies,
                  procedures, and effective controls to
                                                                                   Status of
                 ensure the completeness and accuracy
                                                                  Yes          implementation is
                  of the actuarial pension, medical, and
                                                                                  unknown.
                       postemployment travel benefit
                                 liabilities.
                     Establish and document policies,
                   procedures and effective controls to
                 ensure the completeness and accuracy
                  of participant data, medical cost data,                          Status of
                and trend and experience data provided            Yes          implementation is
                    to, and used by, the actuary for the                          unknown.
                      calculation of the MRS pension,
                  medical, and postemployment travel
                             benefit liabilities.
                     Perform a periodic reconciliation
                    between the medical expenditures
                  recorded in the subsidiary ledger and
                those recorded in the CAS, and address
                  differences before data is provided to
                the actuary. This reconciliation should                            Status of
                be performed for all significant sources          Yes          implementation is
  OIG-08-12
                   of medical actuarial data, including                           unknown.
                 TriCare, and DOD Military Treatment
                   Facilities (MTFs). In addition, this
                  reconciliation should be reviewed by
                    someone other than the preparer to
                              ensure accuracy.
                       Analyze and make appropriate
                improvements to the methodology used
                     to estimate accounts payable and                              Status of
                   support all assumptions and criteria           Yes          implementation is
                    with appropriate documentation to                             unknown.
                 develop and subsequently validate the
                      estimate for financial reporting.
                 Implement corrective action, including
                         appropriately designed and
                     implemented internal controls, to
                   support the completeness, existence                             Status of
                   and accuracy of changes in member              Yes          implementation is
                   personnel data records and military                            unknown.
                   payroll transactions, and to include
                   recorded accrued military leave and
                             payroll liabilities.




                Status Report on Open Recommendations to DHS Components 


                                          Page 126 

                                                             Agrees (Yes, No,
Report Number        Recommendation Text                                        Current Status
                                                               Unknown)
                    Develop consistent written agency-
                   wide policies, procedures, processes,
                 and controls to ensure identification of
                    and recording of all environmental
                        liabilities, define the technical
                approach, cost estimation methodology,
                    and overall financial management
                        oversight of its environmental
                    remediation projects. The policies
                should include: a) Procedures to ensure                             Status of
                   the proper calculation and review of            Yes          implementation is
                    cost estimates for consistency and                             unknown.
                       accuracy in financial reporting,
                     including use of tested modeling
                       techniques, use of verified cost
                        parameters, and assumptions;
                      b) Periodically validate estimates
                          against historical costs; and
                     c) Ensure that detailed cost data is
                     maintained and reconciled to the
                                 general ledger.
                  Develop, document, and implement a
                 reliable methodology as well as formal
                                                                                    Status of
                    policies and procedures, to include
                                                                   Yes          implementation is
                 internal controls, to verify and support
  OIG-08-12                                                                        unknown.
                     the accuracy of the legal liability
                      estimate and related disclosures.
                  Improve policies, procedures, and the
                   design and effectiveness of controls
                      related to processing obligation
                 transactions, including periodic review                            Status of
                and validation of UDOs. Emphasize to               Yes          implementation is
                  all fund managers the need to perform                            unknown.
                  effective reviews of open obligations,
                    obtain proper approvals, and retain
                          supporting documentation.
                     Fully implement policies and the
                 design and effectiveness of controls to                            Status of
                       ensure that contract awards are             Yes          implementation is
                    recorded in the general ledger in a                            unknown.
                                 timely manner.
                     Improve segregation of duties for
                 transactions related to the creation and
                                                                                    Status of
                    approval of purchase requisitions,
                                                                   Yes          implementation is
                  certification of funds availability, and
                                                                                   unknown.
                   the recording of the obligations, and
                            record contracts timely.
                Revise controls and related policies and                            Status of
                     procedures to periodically review             Yes          implementation is
                                  commitments.                                     unknown.




                Status Report on Open Recommendations to DHS Components 


                                           Page 127 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                   Improve procedures, processes, and
                       internal controls to verify the
                                                                                   Status of
                completeness and accuracy of the year-
                                                                  Yes          implementation is
                  end obligation pipeline adjustment to
                                                                                  unknown.
                    record all executed obligations for
                            financial reporting.
                Establish automated system controls to
                            prevent incurring a
                   commitment/obligation in excess of
                established targets so that funds are not                          Status of
  OIG-08-12      obligated in excess of the apportioned           Yes          implementation is
                 and allotted amounts and preclude the                            unknown.
                processing of procurement transactions
                    if the contracting officer's warrant
                           authority had expired.
                  We recommend that the Coast Guard
                fully implement the FMFIA process, as
                                                                                   Status of
                prescribed by the OCFO, to ensure full
                                                                  Yes          implementation is
                 compliance with FMFIA and its OMB
                                                                                  unknown.
                 approved plan for Circular No. A-123
                        implementation in FY 2008.




                Status Report on Open Recommendations to DHS Components 


                                          Page 128 

     U.S. Customs and Border Protection

                                                           Agrees (Yes, No,
Report Number        Recommendation Text                                      Current Status
                                                             Unknown)
                                                                                 Management
                                                                              Implication Report
                 Policies and procedures for securing                         provided by Office
                valuables taken from individual or alien                       of Investigations.
                                                               Unknown
                 detainees should be updated, adhered                              Awaiting
                  to, and distributed to all employees.                         confirmation of
                                                                              implementation by
                                                                                  component.
                                                                                 Management
                                                                              Implication Report
                                                                              provided by Office
                CBP should prepare a standard safe log                         of Investigations.
                                                               Unknown
                     to be used with each safe.                                    Awaiting
                                                                                confirmation of
                                                                              implementation by
                                                                                  component.
                The CBP safes should remain locked at
                 all times. Combinations to the safes                            Management
                  should be restricted to Supervisory                         Implication Report
                  personnel with a need to access the                         provided by Office
M04-BCBP-LAX-
                safe. The safe combinations should be                          of Investigations.
    07060                                                      Unknown
                changed on a regular basis and/or when                             Awaiting
                   there is a change in Supervisory                             confirmation of
                 personnel. A record of all employees                         implementation by
                   with the combination to the safes                              component.
                         should be maintained.
                                                                                 Management
                                                                              Implication Report
                                                                              provided by Office
                  The safe log should be secured and                           of Investigations.
                                                               Unknown
                 maintained by supervisory personnel.                              Awaiting
                                                                                confirmation of
                                                                              implementation by
                                                                                  component.
                                                                                 Management
                 Each shift supervisor entering on duty                       Implication Report
                should conduct an inventory of items in                       provided by Office
                 the safe followed by a notation in the                        of Investigations.
                                                               Unknown
                 safe log and ensure that no tampering                             Awaiting
                   of the numbered security seal has                            confirmation of
                               occurred.                                      implementation by
                                                                                  component.




                Status Report on Open Recommendations to DHS Components 


                                         Page 129 

                                                           Agrees (Yes, No,
Report Number        Recommendation Text                                      Current Status
                                                             Unknown)
                                                                                 Management
                                                                              Implication Report
                                                                              provided by Office
                  Property receipts and security seals                         of Investigations.
                                                               Unknown
                  should be used in sequential order.                              Awaiting
                                                                                confirmation of
                                                                              implementation by
                                                                                  component.
                                                                                 Management
                                                                              Implication Report
                CBP management should conduct a full
                                                                              provided by Office
                inventory of the contents of the safe on
M04-BCBP-LAX-                                                                  of Investigations.
                    a regular basis to determine if            Unknown
    07060                                                                          Awaiting
                 abandonment of property procedures
                                                                                confirmation of
                          should be initiated.
                                                                              implementation by
                                                                                  component.
                                                                                 Management
                                                                              Implication Report
                  A log should be made of each entry                          provided by Office
                   into the safe with the names of the                         of Investigations.
                                                               Unknown
                  employees placing and/or retrieving                              Awaiting
                                  items.                                        confirmation of
                                                                              implementation by
                                                                                  component.
                 The contract between Detention and
                  Removal (DRO), ICE, and the Los
                                                                                 Management
                Angeles Sheriffs Department (LASD)
                                                                              Implication Report
                 for the Mira Loma Detention Center
                                                                              provided by Office
                (MLDC) should be updated, amended,
M05-BICE-LAX-                                                                  of Investigations.
                  and/or fully renegotiated to require         Unknown
    00125                                                                          Awaiting
                 production of information relating to
                                                                                confirmation of
                 operations at MLDC, as requested by
                                                                              implementation by
                   components of the Department of
                                                                                  component.
                Homeland Security, such as DRO, ICE,
                            and DHS/OIG.




                Status Report on Open Recommendations to DHS Components 


                                         Page 130 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                The Department of Homeland Security
                (DHS), Customs and Border Protection
                 (CBP) should implement a policy that
                  dictates proper procedures outlining
                    how undocumented immigrant's
                     property should be inventoried,
                accounted, and properly disposed. The                             Management
                   policy should include a check and                           Implication Report
                balance system to ensure integrity. The                        provided by Office
 M05-CBP-LAR-    US Border Patrol, Rio Grande Valley                            of Investigations.
                                                                Unknown
     12693          Sector, has a Standard Operating                                Awaiting
                  Procedure (SOP) that was developed                             confirmation of
                  and utilized for the property storage                        implementation by
                      and disposal of undocumented                                 component.
                    immigrant's property prior to the
                 inception of the DHS. The procedure
                   should include the undocumented
                     immigrant's initials or signature
                 acknowledging items and/or currency
                               inventoried.
                                                                                  Management
                                                                               Implication Report
                  Relocate the CBP container seal to a
                                                                               provided by Office
                 limited -access area where only those
                                                                                of Investigations.
                CBP employees with an official need to          Unknown
                                                                                    Awaiting
                 access the seals have the ability to do
                                                                                 confirmation of
                                   so.
                                                                               implementation by
 M05-CBP-MIA-                                                                      component.
     11844                                                                        Management
                                                                               Implication Report
                                                                               provided by Office
                 Create an inventory control system for
                                                                                of Investigations.
                the accountability of the CBP container         Unknown
                                                                                    Awaiting
                                 seals.
                                                                                 confirmation of
                                                                               implementation by
                                                                                   component.
                                                                                  Management
                                                                               Implication Report
                 It is recommended that FLETC and                              provided by Office
                 DHS and all of its agencies adopt an                           of Investigations.
                                                                Unknown
                 official policy prohibiting the use of                             Awaiting
                  hogtying as a restraint technique.                             confirmation of
                                                                               implementation by
 M06-CBP-ELC-                                                                      component.
     18604                                                                        Management
                                                                               Implication Report
                It is further recommended that training
                                                                               provided by Office
                be incorporated at FLETC and all DHS
                                                                                of Investigations.
                 field offices to reflect the adoption of       Unknown
                                                                                    Awaiting
                the policy to inform all DHS personnel
                                                                                 confirmation of
                               of the policy.
                                                                               implementation by
                                                                                   component.

                Status Report on Open Recommendations to DHS Components 


                                          Page 131 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                                                                                  Management
                                                                               Implication Report
                  The license plate reader for all TECS                        provided by Office
                terminals should come on automatically                          of Investigations.
                                                                Unknown
                 without need for prompting the officer                             Awaiting
                to activate the reader by pushing "PF5.”                         confirmation of
                                                                               implementation by
                                                                                   component.
                                                                                  Management
                     The "PF5" functions should be
                                                                               Implication Report
                   removed, preventing CBPOs from
                                                                               provided by Office
                 deactivating the license plate reader.
                                                                                of Investigations.
                  CBPOs should not be able to reboot            Unknown
                                                                                    Awaiting
                 their TECS terminal while on duty at
                                                                                 confirmation of
                      the inspection lane without a
                                                                               implementation by
                         supervisor's assistance.
 M06-CBP-SND-                                                                      component.
     19040                                                                        Management
                  First line supervisors and managers
                                                                               Implication Report
                 should have the ability to monitor all
                                                                               provided by Office
                 the port's traffic lanes on one screen
                                                                                of Investigations.
                 concurrently and the vehicle license           Unknown
                                                                                    Awaiting
                  plates recorded as entering through
                                                                                 confirmation of
                         those lanes in real time.
                                                                               implementation by
                                                                                   component.
                                                                                  Management
                 The supervisor should be notified via
                                                                               Implication Report
                     TECS if the subordinate has
                                                                               provided by Office
                deactivated the license plate reader, not
                                                                                of Investigations.
                activated the reader when first signing         Unknown
                                                                                    Awaiting
                    onto TECS, or has rebooted the
                                                                                 confirmation of
                terminal taking the TECS terminal off-
                                                                               implementation by
                       line for a period of time.
                                                                                   component.
                 Require contracted technical advisors
                to provide CBPMO management with                                   Status of
   OIG-04-01      meaningful reports on reviews with              Yes          implementation is
                          alternatives, risk, and                                 unknown.
                            recommendations.
                Revise AMOC guidelines for providing
                                                                                   Status of
                  assistance to federal, state, and local
                                                                  Yes          implementation is
                    agencies in law enforcement and
                                                                                  unknown.
                    emergency humanitarian efforts.
                    Provide refresher training for all
                                                                                   Status of
                 operations floor staff and reiterate the
                                                                  Yes          implementation is
                    importance of understanding and
   OIG-04-20                                                                      unknown.
                     following existing procedures.
                    Document the type of assistance
                   provided, e.g., law enforcement or
                                                                                   Status of
                  humanitarian, so that these statistics
                                                                  Yes          implementation is
                    can be easily tracked by the new
                                                                                  unknown.
                 electronic contact database developed
                                by AMOC.


                Status Report on Open Recommendations to DHS Components 


                                          Page 132 

                                                             Agrees (Yes, No,
Report Number        Recommendation Text                                        Current Status
                                                               Unknown)
                  Develop organizational performance
                 measures and individual performance                                Status of
                 standards to evaluate the effectiveness           Yes          implementation is
                and productivity of both AMOC and its                              unknown.
                                personnel.
                    Prepare meaningful productivity
  OIG-04-20
                reports to show workload statistics that
                  measure overall operations floor and                              Status of
                  individual DSS productivity. These               Yes          implementation is
                    reports should also document the                               unknown.
                      number and type of assistance
                                provided.
                 Ensure core security requirements that
                                                                                    Status of
                 provide the basic security controls are
  OIG-04-22                                                        Yes          implementation is
                incorporated and tested during systems
                                                                                   unknown.
                    acceptance testing for Release 3.
                We recommend that the Commissioner
                     of CBP evaluate the Outbound                                  Action Plan
                 Program, including current resources,                              provided.
                 staff needs, along with consistency of                             Awaiting
  OIG-05-21                                                        Yes
                    enforcement practices and make                               confirmation of
                adjustments necessary to ensure that all                        implementation by
                of their enforcement responsibilities are                          component.
                              accomplished.
                CBP identify and correct the causes for                             Status of
  OIG-05-26        the inconsistencies in port and                 Yes          implementation is
                    headquarters' inspection data.                                 unknown.
                Formally request that EOIR ensure that
                the lists of free legal services providers
                                                                                   Closed after
                are current and accurate. Updated lists            No
                                                                                    12/31/07.
                should be distributed on a regular basis
                to all Border Patrol stations and POEs.
                   Formulate and disseminate official
  OIG-05-45      policies, applying to all CBP facilities                          Action Plan
                     that hold juvenile aliens, which                               provided.
                   stipulate the exceptions to the time                             Awaiting
                                                                   Yes
                   guidelines on holding juveniles; the                          confirmation of
                 deadlines and formats for notification;                        implementation by
                      and specific officials who are                               component.
                    authorized to approve extensions.
                 Require the Sector to evaluate vehicle                            Action Plan
                 age, mileage, maintenance and repair                               provided.
                  history, general physical appearance,                             Awaiting
  OIG-05-47                                                        Yes
                   and the condition of the chassis and                          confirmation of
                     suspension for fleet vehicles not                          implementation by
                        tracked in SAP or VMIS.                                    component.




                Status Report on Open Recommendations to DHS Components 


                                           Page 133 

                                                          Agrees (Yes, No,
Report Number        Recommendation Text                                     Current Status
                                                            Unknown)
                   Develop a policy on cannibalizing
                  scrap vehicles for useable parts and
                                                                                Action Plan
                 components, and if cannibalization is
                                                                                 provided.
                 authorized by CBP, establish specific
                                                                                 Awaiting
                 guidelines and controls to ensure that         Yes
                                                                              confirmation of
                    such parts and components are
                                                                             implementation by
                adequately documented in Government
                                                                                component.
                Vehicle Work Orders and are properly
                    accounted for and inventoried.
                                                                                Action Plan
                   Require the Sector to include all
                                                                                 provided.
                 Government Vehicle Work Orders in
                                                                                 Awaiting
                    applicable history files when               Yes
                                                                              confirmation of
                 maintenance services and repairs are
                                                                             implementation by
  OIG-05-47                  performed.
                                                                                component.
                   Monitor Sector compliance with
                                                                                Action Plan
                   vehicle sale and transfer policies,
                                                                                 provided.
                  procedures, and practices currently
                                                                                 Awaiting
                 based on CBP’s information notices             Yes
                                                                              confirmation of
                and monthly newsletters and ultimately
                                                                             implementation by
                     to be based on its new Fleet
                                                                                component.
                       Management Handbook.
                                                                                Action Plan
                  Require the Sector to submit to the
                                                                                 provided.
                    appropriate CBP Headquarters
                                                                                 Awaiting
                approving official properly prepared SF         Yes
                                                                              confirmation of
                120 Excess Property Forms for surplus
                                                                             implementation by
                     property not tracked in SAP.
                                                                                component.
                We recommend that the Commissioner,
                   Customs and Border Protection,
                 continue to work with GSA and the
                  RVS contractor to settle remaining                            Closed after
  OIG-06-15                                                     Yes
                  claims under the BPA, financially                              12/31/07.
                 reconcile funding provided to GSA,
                  and obtain the return of the unused
                            funds to DHS.




                Status Report on Open Recommendations to DHS Components 


                                         Page 134 

                                                             Agrees (Yes, No,
Report Number         Recommendation Text                                       Current Status
                                                               Unknown)
                  Commissioner of CBP should conduct
                  a risk analysis and develop procedures
                       and minimum requirements for
                 selecting and inspecting trucks carrying
                  MSW. The procedures should require
                    inspections throughout the year and
                     physical inspections should not be
                   limited to special operation days. (a)                           Status of
  OIG-06-21          OFO will review the analysis and              Yes          implementation is
                   develop procedures/requirements for                             unknown.
                  selecting and inspecting MSW trucks.
                   (b) OFO will review the analysis and
                   develop procedures/requirements for
                  selecting and inspecting MSW trucks.
                      (c) OFO will implement the new
                       selection criteria and inspection
                                 procedures.
                   This report is For Official Use Only.
                           This report has 17 open
OIG-06-41 FOUO       recommendations. Upon request,
                 additional information will be provided
                            to qualified recipients.
                 Determine whether targeters should use                             Status of
                  the Watchtower 96-Hour Intelligence              Yes          implementation is
                               Review.                                             unknown.
                 Require all ports to routinely check and
                                                                                    Status of
                  periodically measure the performance
                                                                   Yes          implementation is
                    of their container inspection and
                                                                                   unknown.
  OIG-07-09                  control process.
                 Establish a policy requiring each port to                          Status of
                  identify a higher "second level" ATS             Yes          implementation is
                                  score.                                           unknown.

                     Require that ports provide NI                                  Status of
                     inspection imagery to officers                Yes          implementation is
                 conducting secondary level inspections.                           unknown.
                      Remedy the existing critical
                     vulnerabilities in the standard
                                                                                   Action Plan
                   configuration for laptops, based on
                                                                                    provided.
                     DHS and federal configuration
                                                                                    Awaiting
  OIG-07-16       guidelines. Further, the CIO should              Yes
                                                                                 confirmation of
                 confirm whether similar vulnerabilities
                                                                                implementation by
                  and remediation are applicable to all
                                                                                   component.
                  government-issued computers within
                                  CBP.




                 Status Report on Open Recommendations to DHS Components 


                                           Page 135 

                                                            Agrees (Yes, No,
Report Number         Recommendation Text                                      Current Status
                                                              Unknown)
                 Implement procedures to ensure that all                          Action Plan
                 CBP laptops are patched and updated in                            provided.
                  a timely manner, including those that                            Awaiting
                                                                  Yes
                   do not regularly connect to the CBP                          confirmation of
                        network, as well as all CBP                            implementation by
                      government-issued computers.                                component.
                    Implement appropriate inventory                               Action Plan
                  management controls to ensure that an                            provided.
                        accurate laptop inventory is                               Awaiting
  OIG-07-16                                                       Yes
                      maintained, including effective                           confirmation of
                    inventory reviews and adequately                           implementation by
                      trained local property officers.                            component.
                                                                                  Action Plan
                  Report computer security incidents to
                                                                                   provided.
                   DHS CSIRC in a timely manner to
                                                                                   Awaiting
                      ensure that the incidents are               Yes
                                                                                confirmation of
                 investigated and appropriate corrective
                                                                               implementation by
                             action is taken.
                                                                                  component.
                     Develop a staffing model and a                                Status of
                   comprehensive nationwide plan for              Yes          implementation is
                     agriculture specialist staffing.                             unknown.
                   Coordinate with USDA and develop
                  procedures and systems in accordance
                                                                                   Status of
                     with the MOA, to efficiently and
                                                                  Yes          implementation is
                   properly monitor T&E and other in-
                                                                                  unknown.
  OIG-07-32         bond shipments. Assess penalties
                          where violations occur.
                      Provide adequate instructions,
                  resources, training, and supervision to
                   CBP personnel to ensure WADS and                                Status of
                 PPQ-280 data are accurately compiled             Yes          implementation is
                   and entered in the computer system,                            unknown.
                     and related records are properly
                                  retained.
                 Develop plans and procedures to timely
                 and routinely monitor post-deployment                             Status of
                 operations, including post-deployment            Yes          implementation is
                 reviews, for Release 4 ports and future                          unknown.
  OIG-07-54                    ACE releases.
                 Develop plans and procedures to timely
                                                                                   Status of
                      communicate ACE problems,
                                                                  Yes          implementation is
                  operational fixes, and system changes
                                                                                  unknown.
                       to CBP Officers at the ports.
                   This report is For Official Use Only.
                         This report has six open
OIG-07-68 FOUO      recommendations. Upon request,
                 additional information will be provided
                          to qualified recipients.




                 Status Report on Open Recommendations to DHS Components 


                                          Page 136 

                                                             Agrees (Yes, No,
Report Number        Recommendation Text                                        Current Status
                                                               Unknown)
                                                                                   Action Plan
                                                                                    provided.
                CBP should use examination results in                               Awaiting
  OIG-07-72                                                        Yes
                      the rule making process.                                   confirmation of
                                                                                implementation by
                                                                                   component.
                  Continue developing, implementing,
                and maintaining environmental liability
                       management efforts including
                  developing policies, procedures, and                             Action Plan
                 management software systems; Obtain                                provided.
                  and compile the cost estimates for all                            Awaiting
                                                                   Yes
                        UST projects that show the                               confirmation of
                     assumptions used and calculation                           implementation by
                methodology, ensure that all sunk costs                            component.
                 are excluded from the calculation, and
  OIG-07-74        document the overall environmental
                liability identified for the UST projects.
                  Continue to re-evaluate the estimates
                related to CBP’s firing range liability as
                                                                                   Action Plan
                      additional information becomes
                                                                                    provided.
                available and update estimates annually
                                                                                    Awaiting
                 through indexing (inflation factoring),           Yes
                                                                                 confirmation of
                  if necessary, where no other material
                                                                                implementation by
                  changes have occurred and follow up
                                                                                   component.
                 on any issues identified in previous or
                          current facility surveys.
                 Modify the CBP regulations to require
                                                                                   Action Plan
                  advance electronic cargo information
                                                                                    provided.
                 used to screen all shipments. Continue
                                                                                    Awaiting
                    to work with Census to implement               Yes
                                                                                 confirmation of
                    changes to Census regulations and
                                                                                implementation by
                 systems to obtain advanced electronic
                                                                                   component.
                     cargo information prior to export.
                                                                                   Action Plan
                Ensure that CBP collects and regularly                              provided.
  OIG-07-76       reports information necessary to                                  Awaiting
                                                                   Yes
                 exercise sufficient oversight of the                            confirmation of
                         outbound program.                                      implementation by
                                                                                   component.
                                                                                   Action Plan
                                                                                    provided.
                  Develop and report performance
                                                                                    Awaiting
                  measures of compliance with U.S.                 Yes
                                                                                 confirmation of
                    export laws and regulations.
                                                                                implementation by
                                                                                   component.
                 This report is For Official Use Only.
                       This report has three open
  OIG-08-06       recommendations. Upon request,
                additional information will be provided
                        to qualified recipients.



                Status Report on Open Recommendations to DHS Components 


                                           Page 137 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                         CBP establish training and
                   management controls to ensure that                              Status of
                  contracting officers select the NAICS           Yes          implementation is
                      that best describes the principal                           unknown.
                       purpose of each procurement.
                    CBP determine whether exercising
                option years on the current contract will
                 provide the government the best value
                                                                                   Status of
                         for enforcement equipment
                                                                  Yes          implementation is
                     maintenance and field operations
                                                                                  unknown.
                      support, and if not, develop and
                implement a new acquisition strategy to
                           procure these services.
                     CBP (a) determine and document
                   whether Chenega complied with the
  OIG-08-10
                    federal and contract limitations on
                                                                                   Status of
                     subcontracting; and (b) establish
                                                                  Yes          implementation is
                 training and management controls that
                                                                                  unknown.
                ensure on-going oversight of Chenega's
                      compliance with subcontracting
                                 limitations.
                        CBP (a) ensure that Chenega
                     implements all Defense Contract
                Management Agency recommendations
                  for Chenega's purchasing system; and                             Status of
                      (b) after Chenega remediates all            Yes          implementation is
                    deficiencies, certify the purchasing                          unknown.
                   system so that CBP does not have to
                      consent separately to each large
                                 subcontract.
                  Implement effective internal controls
                   over drawback claims as part of any
                  new systems initiatives, including the                          Action Plan
                   ability to compare, verify, and track                           provided.
                    essential information on drawback                              Awaiting
                                                                  Yes
                      claims to the related underlying                          confirmation of
                      consumption entries and export                           implementation by
                 documentation for which the drawback                             component.
  OIG-08-12
                claim is based, and identify duplicate or
                        excessive drawback claims.
                                                                                  Action Plan
                 Implement automated controls within                               provided.
                   ACS to prevent overpayment of a                                 Awaiting
                                                                  Yes
                drawback claim that is subject to deem-                         confirmation of
                             liquidation.                                      implementation by
                                                                                  component.




                Status Report on Open Recommendations to DHS Components 


                                          Page 138 

                                                           Agrees (Yes, No,
Report Number        Recommendation Text                                      Current Status
                                                             Unknown)
                     Provide additional detail in the
                 guidelines, specifying the sample size,
                       procedures to perform, and                                Action Plan
                  documentation requirements for the                              provided.
                  CM Coordinator’s review of Import                               Awaiting
                                                                 Yes
                   Specialists’ review. The guidance                           confirmation of
                    should also readdress the timing                          implementation by
                requirements for the monitoring reports                          component.
                   or data queries and documentation
                                retention.
                                                                                 Action Plan
                Conduct periodic training to ensure that                          provided.
                all port personnel have comprehensive                             Awaiting
                                                                 Yes
                     knowledge of the CM program                               confirmation of
                             requirements.                                    implementation by
                                                                                 component.
  OIG-08-12
                Ensure adequate communication of the
                       ports requirements related to                             Action Plan
                       compliance reviews and risk                                provided.
                    assessments and provide effective                             Awaiting
                                                                 Yes
                 timely training so that all responsible                       confirmation of
                     personnel are aware of and can                           implementation by
                      consistently execute all of the                            component.
                               requirements.
                   Implement a standard procedure to
                 periodically compile the results of all                         Action Plan
                  In-bond audits performed during the                             provided.
                 year and develop an analysis function                            Awaiting
                                                                 Yes
                      in order to evaluate importers’                          confirmation of
                compliance with regulations as well as                        implementation by
                the overall effectiveness of the In-bond                         component.
                         audits at a national level.




                Status Report on Open Recommendations to DHS Components 


                                         Page 139 

     U.S. Immigration and Customs Enforcement

                                                             Agrees (Yes, No,
Report Number        Recommendation Text                                        Current Status
                                                               Unknown)
                                                                                   Management
                 Securing the passports at one location                         Implication Report
                  within the Department of Homeland                             provided by Office
                   Security (DHS), Immigration and                               of Investigations.
                                                                 Unknown
                 Customs Enforcement (ICE), Service                                  Awaiting
                  Processing Center (SPC), El Centro,                             confirmation of
                                 CA.                                            implementation by
                                                                                    component.
                                                                                   Management
                                                                                Implication Report
                  The Standard Operating Procedures
                                                                                provided by Office
                 (SOP) should include a schedule for
                                                                                 of Investigations.
                auditing passports under the care of the         Unknown
                                                                                     Awaiting
                 Administrative Detention Operations
                                                                                  confirmation of
                         Supervisor (ADOS).
                                                                                implementation by
                                                                                    component.
                                                                                   Management
                                                                                Implication Report
                 The SOP should specifically address                            provided by Office
M05-BICE-ELC-
                   what outside agencies need to be                              of Investigations.
    05480                                                        Unknown
                contacted in the event of a lost or stolen                           Awaiting
                    Official Government Passport.                                 confirmation of
                                                                                implementation by
                                                                                    component.
                                                                                   Management
                                                                                Implication Report
                  Once an SOP has been finalized and                            provided by Office
                approved, it should be disseminated to                           of Investigations.
                                                                 Unknown
                all agents who have government-issued                                Awaiting
                     passports and their supervisors.                             confirmation of
                                                                                implementation by
                                                                                    component.
                                                                                   Management
                      In order to ensure that affected
                                                                                Implication Report
                personnel understand the new SOP and
                                                                                provided by Office
                its requirements, there should be a brief
                                                                                 of Investigations.
                   training session provided to escort           Unknown
                                                                                     Awaiting
                 agents, first line supervisors, and other
                                                                                  confirmation of
                  management officials who deal with
                                                                                implementation by
                       government-issued passports.
                                                                                    component.
                 Immediately, disseminate an officer's                             Management
                  safety notice to all law enforcement                          Implication Report
                    authorities using 2004 Blue Bird                            provided by Office
M05-BICE-TUC-
                Express buses that have been retrofitted                         of Investigations.
    07713                                                        Unknown
                   by Unicor. The notice should call                                 Awaiting
                 attention to the types of security door                          confirmation of
                  modifications that were made to the                           implementation by
                          buses in this report.                                     component.



                Status Report on Open Recommendations to DHS Components 


                                           Page 140 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                                                                                  Management
                                                                               Implication Report
                Direct officers to use the key dead bolt
                                                                               provided by Office
                 on the security door until fabrication
                                                                                of Investigations.
                changes take place to the security door         Unknown
                                                                                    Awaiting
                that would prevent a hand from going
                                                                                 confirmation of
                         through the cut outs.
                                                                               implementation by
                                                                                   component.
                                                                                  Management
                                                                               Implication Report
                 Single officer escorts should not be                          provided by Office
M05-BICE-TUC-
                  permitted in buses that have this                             of Investigations.
    07713                                                       Unknown
                 modification unless the officer driver                             Awaiting
                       has an officer observer.                                  confirmation of
                                                                               implementation by
                                                                                   component.
                                                                                  Management
                                                                               Implication Report
                    Re-evaluate the current design                             provided by Office
                  standards and carry out necessary                             of Investigations.
                                                                Unknown
                modifications to ensure the integrity of                            Awaiting
                        the interior cage door.                                  confirmation of
                                                                               implementation by
                                                                                   component.
                    Consider the costs and benefits for
                DRO to obtain additional bed space in
                facilities with family unity capacity. If
                  determined to be beneficial, evaluate
                                                                                  Closed after
                 and determine the most advantageous              No
                                                                                   12/31/07.
                    locations for family unity facilities
                  based on factors including volume of
                 juvenile apprehensions and proximity
                          to border areas or POEs.
                  Propose to ORR that ORR and DRO
                 jointly evaluate apprehension rates by
  OIG-05-45
                 geographic area and provide adequate
                                                                                  Closed after
                    bed space near significant areas of           No
                                                                                   12/31/07.
                   apprehensions in order to minimize
                     DHS initial interstate transfers of
                         unaccompanied juveniles.
                  Request ORR to enter into an MOU
                with DRO on respective responsibilities
                    for unaccompanied juvenile aliens.
                                                                                  Action Plan
                     The MOU should contain specific              No
                                                                                   needed.
                   requirements for releases, including
                 mandatory record checks on potential
                              juvenile sponsors.




                Status Report on Open Recommendations to DHS Components 


                                          Page 141 

                                                              Agrees (Yes, No,
Report Number        Recommendation Text                                         Current Status
                                                                Unknown)
                  Ascertain the impact of administrative
                   costs on FPS’ operating budget and                                Action Plan
                  identify a source of funding for FPS’                          provided. Awaiting
                       administrative costs, including              Yes            confirmation of
                        additional budget authority if                           implementation by
                  necessary, in the annual DHS budget                                component.
                                   request.
                  Obtain a thorough justification of FY                              Action Plan
  OIG-06-29       2004 ICE charges to FPS and require                            provided. Awaiting
                      ICE to return any overcharge, if              Yes            confirmation of
                identified, to FPS to ensure compliance                          implementation by
                               with the HSA.                                         component.
                        Obtain a legal opinion on the
                                                                                     Action Plan
                legitimacy of the transactions discussed
                                                                                 provided. Awaiting
                in this report, i.e., were the transactions
                                                                    Yes            confirmation of
                 in compliance with appropriations law,
                                                                                 implementation by
                and take appropriate corrective actions,
                                                                                     component.
                                as necessary.
                    We recommend that the Assistant
                 Secretary, ICE: develop a detailed plan
                  to ensure that ICE has the capacity to
                 detain, process, and remove aliens that
                                                                                     Status of
                   pose a potential national security or
                                                                    No           implementation is
                 public safety risk to the U.S., including
                                                                                    unknown.
                  SIC, SST, and CAP aliens. The plan
                    should include personnel, training,
                 equipment, infrastructure, and funding
                                requirements.
                 Intensify efforts to obtain the resources
                                                                                     Status of
                 needed to expedite the development of
  OIG-06-33                                                         Yes          implementation is
                  alternatives to detention to minimize
                                                                                    unknown.
                   required detention bed space levels.
                In collaboration with the Department of
                State, develop a detailed plan to resolve
                 travel document and related issues that
                     are preventing or impeding ICE’s
                  ability to repatriate OTM aliens. The                              Status of
                       plan should include timelines,               Yes          implementation is
                       milestone dates, the identity of                             unknown.
                         personnel and organizations
                         responsible for creating and
                implementing the plan, and any funding
                                requirements.




                Status Report on Open Recommendations to DHS Components 


                                           Page 142 

                                                             Agrees (Yes, No,
Report Number        Recommendation Text                                        Current Status
                                                               Unknown)
                       Expedite efforts to develop and
                 implement a data management system
                that is capable of meeting its expanding
                     data collection and analyses needs
                relating to the detention and removal of
                 illegal aliens. The plan should include
                  timelines, milestone dates, equipment                             Status of
  OIG-06-33
                  and infrastructure requirements, a bi-           Yes          implementation is
                 annual reporting requirement outlining                            unknown.
                the progress being made on the project,
                      the identity of the organizational
                        entities to be responsible for
                implementing the planned upgrade, and
                      any short and long-term funding
                                requirements.
                    In consultation with the Division of
                 Immigration Health Services, establish
                   quality assurance measures to ensure
                 the medical staff at detention facilities
                      consistently follow all detention                             Action Plan
                 standards regarding: (a) initial medical                       provided. Awaiting
                     screening and subsequent physical             Yes            confirmation of
                     examinations for new arrivals, (b)                         implementation by
                      timeliness of responding to non-                              component.
                      emergency sick call requests, (c)
                monitor detainees on hunger strikes and
                   (d) monitor detainees identified as a
                                 suicide risk.
                                                                                    Action Plan
                  In consultation with the Division of
                                                                                provided. Awaiting
  OIG-07-01      Immigration Health Services, develop
                                                                   Yes            confirmation of
                  specific criteria to define reasonable
                                                                                implementation by
                      time for medical treatment.
                                                                                    component.
                Revise the ICE Detention Standard to:
                  (a) Explicitly address how detainees
                 should report allegations of abuse and
                    civil rights violations, along with
                    violations of officer misconduct,                               Action Plan
                   directly to ICE management or the                            provided. Awaiting
                 DHS Office of Inspector General; and              Yes            confirmation of
                    (b) Require detention facilities to                         implementation by
                provide appropriate written guidance to                             component.
                   correctional officers to ensure that
                 treatment of immigration detainees is
                  specifically germane to their custody
                                   status.




                Status Report on Open Recommendations to DHS Components 


                                           Page 143 

                                                             Agrees (Yes, No,
Report Number        Recommendation Text                                        Current Status
                                                               Unknown)
                  Validate that each detention facility
                   issues a handbook for immigration
                      detainees that: (a) Specifically
                       identifies detainees’ rights,
                                                                                    Action Plan
                responsibilities, and rules; (b) Includes
                                                                                provided. Awaiting
  OIG-07-01     a section on detainee’s rights regarding
                                                                   Yes            confirmation of
                  the reporting of allegations of abuse
                                                                                implementation by
                    and civil rights violations; and (c)
                                                                                    component.
                Includes a provision that detainees may
                  report allegations of abuse and civil
                  rights violations directly to the DHS
                       Office of Inspector General.
                  NCR Director review all inspection                                Action Plan
                  reports and proposed deductions for                           provided. Awaiting
  OIG-07-05         period 3/1/03 through present and              Yes            confirmation of
                     initiate collection actions on all                         implementation by
                     contracts found to be deficient.                               component.
                     Develop and staff a program to
                                                                                   Action Plan
                  improve oversight of all aliens who
                                                                                    provided.
                have been in detention longer than 180
                                                                                    Awaiting
  OIG-07-28        days after a final order of removal.            Yes
                                                                                 confirmation of
                Oversight should include periodic field
                                                                                implementation by
                  office meetings with local pro bono
                                                                                   component.
                               organizations.
                We recommend that the Dallas Finance
                Center, in coordination with the Office
                       of Financial Management at                                  Action Plan
                  Headquarters review and modify, as                                provided.
                appropriate, the vendor tables in FFMS                              Awaiting
                                                                   Yes
                     on a routine basis to ensure that                           confirmation of
                     attributes related to the Prompt                           implementation by
                     Payment Act are accurate, thus                                component.
                 allowing vendors who are due prompt
                payment interest to receive this interest.
                                                                                   Action Plan
  OIG-07-74     We recommend that the Dallas Finance                                provided.
                Center adhere to its existing standard                              Awaiting
                                                                   Yes
                   operating procedures for IPAC                                 confirmation of
                            transactions.                                       implementation by
                                                                                   component.
                    We recommend that the Office of
                Financial Management examine current                               Action Plan
                policies and procedures and enhance as                              provided.
                      necessary for post validation                                 Awaiting
                                                                   Yes
                 particularly for receipt and acceptance                         confirmation of
                      of goods and services, when                               implementation by
                  disbursements are processed through                              component.
                            the IPAC system.




                Status Report on Open Recommendations to DHS Components 


                                           Page 144 

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                    We recommend that the Office of
                                                                                  Action Plan
                   Financial Management develop and
                                                                                   provided.
                    implement controls to monitor the
                                                                                   Awaiting
                        execution of its policies and             Yes
                                                                                confirmation of
                    procedures, particularly related to
                                                                               implementation by
                 IPAC transactions, to ensure that they
                                                                                  component.
                             are being adhered.
                We recommend that the Dallas Finance
                 Center, in coordination with the Office
                        of Financial Management at
                                                                                  Action Plan
                  Headquarters continue to instruct the
                                                                                   provided.
                        ICE’s program office on the
                                                                                   Awaiting
                   requirements to submit invoices to             Yes
                                                                                confirmation of
                   DFC in a timely manner so that the
                                                                               implementation by
                  payments can be made more timely,
                                                                                  component.
                     and thus avoiding the payment of
                interest, in compliance with the Prompt
                                Payment Act.
                    We recommend that the Office of
                 Acquisition Management adhere to its                             Action Plan
                      existing policies and procedures                             provided.
                 regarding the approval of procurement                             Awaiting
                                                                  Yes
                 documentation by contracting officers                          confirmation of
                to ensure that authorization occurs prior                      implementation by
                to the entity’s resources being obligated                         component.
  OIG-07-74
                                  in FFMS.
                We recommend that the Dallas Finance
                                                                                  Action Plan
                 Center, in coordination with the Office
                                                                                   provided.
                        of Financial Management at
                                                                                   Awaiting
                  Headquarters issue guidance to ICE’s            Yes
                                                                                confirmation of
                    customers instructing them on the
                                                                               implementation by
                   requirements to submit invoices to
                                                                                  component.
                          DFC in a timely manner.
                                                                                  Action Plan
                We recommend that all program offices
                                                                                   provided.
                     and the Office of Acquisition
                                                                                   Awaiting
                Management consider the feasibility of            Yes
                                                                                confirmation of
                 using PRISM for all the procurement
                                                                               implementation by
                          needs of the entity.
                                                                                  component.
                   We recommend that the Office of                                Action Plan
                Financial Management, in coordination                              provided.
                    with the Office of Acquisition                                 Awaiting
                                                                  Yes
                  Management continue its efforts to                            confirmation of
                   implement an interface between                              implementation by
                          PRISM and FFMS.                                         component.
                 We recommend that the timekeepers                                Action Plan
                    adhere to existing policies and                                provided.
                procedures by performing leave audits                              Awaiting
                                                                  Yes
                  when discrepancies are reported by                            confirmation of
                 NFC and timely research and resolve                           implementation by
                           the differences.                                       component.



                Status Report on Open Recommendations to DHS Components 


                                          Page 145 

                                                           Agrees (Yes, No,
Report Number        Recommendation Text                                      Current Status
                                                             Unknown)
                   We recommend that the Office of
                                                                                 Action Plan
                    Human Resources develop and
                                                                                  provided.
                   implement controls to monitor the
  OIG-07-74                                                                       Awaiting
                     execution of these policies and             Yes
                                                                               confirmation of
                 procedures, particularly related to the
                                                                              implementation by
                  leave audits, to ensure that they are
                                                                                 component.
                            being followed.




                Status Report on Open Recommendations to DHS Components 


                                          Page 146 

     U.S. Secret Service

                                                            Agrees (Yes, No,
Report Number        Recommendation Text                                       Current Status
                                                              Unknown)
                                                                                  Action Plan
                  Ensure that adequate controls for
                                                                                   provided.
                 granting, monitoring, and removing
                                                                                   Awaiting
                 SSWeb user access are implemented                Yes
                                                                                confirmation of
                 according to DHS requirements and
                                                                               implementation by
                           NIST guidelines.
                                                                                  component.
                                                                                  Action Plan
                  Develop an IT contingency plan for                               provided.
                SSWeb, and ensure that annual tests of                             Awaiting
                                                                  Yes
                   the plan and quarterly tests of data                         confirmation of
                 restoration procedures are conducted.                         implementation by
                                                                                  component.
  OIG-05-37
                                                                                  Action Plan
                   Develop and implement corrective
                                                                                   provided.
                  action plans to address all identified
                                                                                   Awaiting
                       SSWeb vulnerabilities and                  Yes
                                                                                confirmation of
                configuration weaknesses to reduce the
                                                                               implementation by
                 risk of system compromise or failure.
                                                                                  component.
                                                                                  Action Plan
                Examine methods to implement strong                                provided.
                encryption between SSWeb clients and                               Awaiting
                                                                  Yes
                 servers to ensure that sensitive data is                       confirmation of
                          adequately protected.                                implementation by
                                                                                  component.
                The Forensic Services Division and the
                                                                                  Action Plan
                    Financial Management Division
                                                                                   provided.
                continue working with the field offices
                                                                                   Awaiting
  OIG-07-74        to provide training and ensure the             Yes
                                                                                confirmation of
                 offices are aware of the reconciliation
                                                                               implementation by
                     process and the timeframe for
                                                                                  component.
                        submitting information.




                Status Report on Open Recommendations to DHS Components 


                                          Page 147 

Report Summaries
              Report Number DA-07-03

              Title: Virgin Islands Water and Power Authority.

              Issued: November 2006.

              Abstract: The report audited hazard mitigation funds awarded to
              the Virgin Islands Water and Power Authority (WAPA) under
              Projects VI-0009 and VI-0010. The objective of the audit was to
              determine whether WAPA accounted for and expended FEMA
              funds according to federal regulations and FEMA guidelines.

              Key Findings: WAPA generally accounted for and used grant
              funds according to federal regulations and FEMA guidelines.
              However, the review of WAPA’s claim disclosed questioned costs
              resulting from unrelated and duplicated charges.

              Recommendation Summary and Status: As of December 31,
              2007, the recommendation in this report was open. It is unknown
              whether the recommendation has been implemented. Upon
              verification of implementation, the recommendation will be closed.

              Estimated Cost Savings: $9,621.

              Non-Monetary Benefits: N/A

              Report Number DA-13-03

              Title: Harrison County, Mississippi.

              Issued: June 2003.

              Abstract: We performed an audit of public assistance funds
              awarded to Harrison County, Mississippi. The objective of the
              audit was to determine whether the county accounted for and
              expended FEMA funds according to federal regulations and FEMA
              guidelines.

              Key Findings: The county’s claim included $1,723,666 of
              excessive charges for tree stumps. Also, FEMA mistakenly
              awarded $6,000 of funds under a small project that should be de-
              obligated and used elsewhere.



           Status Report on Open Recommendations to DHS Components 


                                   Page 148 

   Recommendation Summary and Status: As of December 31,
   2007, the two recommendations in this report were open. The
   component has responded by providing a corrective action plan
   implementing the open recommendations. Upon verification of
   implementation, the recommendations will be closed.

   Estimated Cost Savings: $1,729,666.

   Non-Monetary Benefits: N/A

   Report Number DA-20-03

   Title: Commonwealth of Puerto Rico, Office of Management and
   Budget Administration FEMA’s Disaster Public Assistance.

   Issued: August 2003.

   Abstract: We performed an audit to determine whether the
   Commonwealth of Puerto Rico, OMB accounted for, used, and
   managed public assistance program funds according to federal
   regulations and FEMA guidelines.

   Key Findings: We concluded that OMB was not staffed or
   organized in a manner to effectively administer the Public
   Assistance program. Improvements are needed in the areas of
   financial and program management.

   Recommendation Summary and Status: As of December 31,
   2007, 11 of the 21 recommendations in this report were open. The
   component has responded by providing a corrective action plan
   implementing the remaining open recommendations. Upon
   verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $45,441.

   Non-Monetary Benefits: N/A

   Report Number DA-29-03

   Title: Washington Metropolitan Area Transit Authority,
   Washington, D.C.

   Issued: September 2003.




Status Report on Open Recommendations to DHS Components 


                        Page 149 

   Abstract: We performed an audit of public assistance funds
   awarded to the Washington Metropolitan Area Transit Authority,
   Washington, D.C. The objective of the audit was to determine
   whether the Authority accounted for and expended FEMA funds
   according to federal regulations and FEMA guidelines.

   Key Findings: The Authority did not retain all project financial
   records for the period prescribed by the federal regulations.
   Additionally, the Authority’s claim included questioned costs of
   $6,864 (FEMA share $5,148) resulting from excessive material
   chares.

   Recommendation Summary and Status: As of December 31,
   2007, the two recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $6,864.

   Non-Monetary Benefits: N/A

   Report Number DA-03-04

   Title: City of Barnesville, Georgia.

   Issued: November 2003.

   Abstract: We performed an audit of the public assistance funds
   awarded to the City of Barnesville, Georgia. The objective of the
   audit was to determine whether the city accounted for and
   expended FEMA funds according to federal regulations and FEMA
   guidelines.

   Key Findings: The contractor provided the city with a
   “Certification of Liability Insurance” showing the required amount
   of bidder’s risk insurance on the project. However, contrary to
   Article 4M, the insurance policy did not cover flood damages. We
   concluded that the contractor, not the city, was legally responsible
   for the cost of emergency protective measures and repairs to the
   Eddie Creek Dam and Reservoir.

   Recommendation Summary and Status: As of December 31,
   2007, the two recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.


Status Report on Open Recommendations to DHS Components 


                        Page 150 

   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $1,035,749.

   Non-Monetary Benefits: N/A

   Report Number DA-06-04

   Title: Town of Randolph, Vermont.

   Issued: November 2003.

   Abstract: We performed an audit of the public assistance funds
   awarded to the Town of Randolph, Vermont. The objective of the
   audit was to determine whether the town accounted for and
   expended FEMA funds according to federal regulations and FEMA
   guidelines.

   Key Findings: Except for the questioned costs of $1,385 (FEMA
   share $1,039) resulting from unsupported material charges under
   Project 35273, the town properly accounted for and expended
   FEMA funds.

   Recommendation Summary and Status: As of December 31,
   2007, the recommendation in this report was open. It is unknown
   whether the recommendation has been implemented. Upon
   verification of implementation, the recommendation will be closed.

   Estimated Cost Savings: $1,385.

   Non-Monetary Benefits: N/A

   Report Number DA-11-04

   Title: Town of Lincoln, Vermont.

   Issued: February 2004.

   Abstract: We performed an audit of public assistance funds
   awarded to the Town of Lincoln, Vermont. The objective of the
   audit was to determine whether the town accounted for and
   expended FEMA funds according to federal regulations and FEMA
   guidelines.




Status Report on Open Recommendations to DHS Components 


                        Page 151 

   Key Findings: The town’s claim included questioned costs of
   $18,382 (FEMA share $13,787) resulting from unsupported and
   duplicate charges.

   Recommendation Status and Summary: As of December 31,
   2007, the two recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $18,382.

   Non-Monetary Benefits: N/A

   Report Number DA-12-04

   Title: State of West Virginia Administration of Disaster Assistance 

   Funds.

   Issued: February 2004. 


   Abstract: We performed an audit of the disaster assistance grant 

   programs administered by the West Virginia Office of Emergency 

   Services (grantee) was completed. The audit objectives were to 

   determine whether the Grantee administered FEMA grant 

   programs according to Federal regulations, and accounted for, 

   reported and used program funds properly. 


   Key Findings: The audit found that the Grantee needed to improve 

   its procedures for: (1) managing administrative allowances; (2) 

   performing financial management functions; (3) disbursing disaster 

   funds; (4) documenting its internal controls and monitoring 

   procedures; (5) preparing state Administrative Plans; and (6) 

   ensuring subgrantees complied with Single Audit Act 

   requirements. 


   Recommendation Status and Summary: As of December 31, 

   2007, four of the six recommendations in this report were open. 

   The component has responded by providing a corrective action 

   plan implementing one of the open recommendations. It is 

   unknown whether the remaining recommendations have been 

   implemented. Upon verification of implementation, the 

   recommendations will be closed.


   Estimated Cost Savings: N/A




Status Report on Open Recommendations to DHS Components 


                        Page 152 

   Non-Monetary Benefits: Ensure program improvement and
   compliance with requirements.

   Report Number DA-17-04

   Title: State of Massachusetts Administration of Disaster
   Assistance Funds.

   Issued: February 2004.

   Abstract: We performed an audit of the Massachusetts Emergency
   Management Agency’s (MEMA) administration of FEMA’s
   disaster assistance grant programs was completed. The objective
   of this audit was to determine the effectiveness of MEMA’s
   management and administration of disaster assistance programs.

   Key Findings: Improvements were needed in: MEMA’s financial
   management system to properly account for and report on the
   status of FEMA disaster assistance programs; MEMA’s accounting
   system to ensure that FEMA approved administrative allowances
   and management grants were used or accounted for according to
   Federal requirements; MEMA’s closure processes to ensure timely
   closure of programs; the preparation and submission of required
   administrative plans for the Individual and Family and Public
   Assistance Programs, and the program plans for the Hazard
   Mitigation Grant program; and procedures for obtaining Single
   Audit Act reports from subgrantees.

   Recommendation Status and Summary: As of December 31,
   2007, four of the five recommendations in this report were open.
   The component has responded by providing a corrective action
   plan implementing the open recommendation. Upon verification
   of implementation, the recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure compliance with program
   requirements.

   Report Number DA-20-04

   Title: Audit of the State of South Carolina Administration of
   Disaster Assistance Funds.

   Issued: March 2004.


Status Report on Open Recommendations to DHS Components 


                        Page 153 

   Abstract: We performed an audit of the South Carolina
   Emergency Management Division (grantee) administration of
   FEMA’s disaster assistance grant programs. The objective of the
   audit was to determine the effectiveness of the grantee’s
   management and administration of the disaster assistance
   programs.

   Key Findings: Improvements were needed in: the state’s
   preparation and submission of HMGP and PA quarterly progress
   reports; the preparation and submission of program and
   administrative plans; the grantee’s procedures for ensuring that
   HMGP and PA subgrantees comply with the requirements of the
   Single Audit Act; and the state’s procedures for allocating
   federally funded management costs. In addition, the grantee had
   not reimbursed FEMA for the state’s share of two mission
   assignments and had used administrative allowances to pay
   expenses that were not extraordinary as defined by federal
   regulations.

   Recommendation Summary and Status: As of December 31,
   2007, three of the seven recommendations in this report were
   open. The component has responded by providing a corrective
   action plan implementing the remaining open recommendations.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: N/A

   Report Number DA-23-04

   Title: Dekalb County, Georgia.

   Issued: May 2004.

   Abstract: We performed an audit of public assistance funds
   awarded to Dekalb County, Georgia. The objective of the audit
   was to determine whether the county accounted for and expended
   FEMA funds according to federal regulations and FEMA
   guidelines.

   Key Findings: The county’s claim included questioned costs of
   $161,352 (FEMA share $121,014) resulting from unsupported,
   excessive, and ineligible project charges.


Status Report on Open Recommendations to DHS Components 


                        Page 154 

   Recommendation Summary and Status: As of December 31,
   2007, the four recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $161,352.

   Non-Monetary Benefits: N/A

   Report Number DA-26-04

   Title: Audit of the State of Kentucky Administration of Disaster
   Assistance Funds.

   Issued: May 2004.

   Abstract: We performed an audit of the Commonwealth of
   Kentucky Division of Emergency Management’s administration
   and management of disaster assistance programs. The objectives
   of the audit were to determine whether the Commonwealth of
   Kentucky had administered FEMA disaster assistance programs
   according to federal regulations and properly accounted for and
   expended FEMA disaster assistance funds.

   Key Findings: Improvements were needed in the grantee’s
   preparation and submission of program plans, Financial Status
   Reports, and quarterly progress reports. The grantee needed to
   develop a process to track outstanding checks and develop
   procedures for ensuring compliance with the provisions of the
   Single Audit Act by the subgrantees.

   Recommendation Summary and Status: As of December 31,
   2007, four of the six recommendations in this report were open.
   The component has responded by providing a corrective action
   plan implementing three of the recommendations. It is unknown
   whether one of the recommendations has been implemented. Upon
   verification of implementation the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Program improvements.

   Report Number DA-30-04


Status Report on Open Recommendations to DHS Components 


                        Page 155 

   Title: University of the Virgin Islands.

   Issued: June 2004.

   Abstract: We performed an audit of public assistance funds
   awarded to the University of the Virgin Islands (UVI). The
   objective of the audit was to determine whether UVI accounted for
   and expended FEMA funds according to federal regulations and
   FEMA guidelines.

   Key Findings: The Stafford Act prohibits the use of public
   assistance funds for damages covered by insurance. As such, grant
   recipients are responsible for pursuing commercially reasonable
   insurance recoveries and crediting FEMA projects with all
   applicable proceeds. However, UVI’s claim included $1,818,638
   of building repair cost (FEMA share $1,636,774) that was covered
   by insurance.

   Recommendation Summary and Status: As of December 31,
   2007, the two recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $1,818,638.

   Non-Monetary Benefits: N/A

   Report Number DA-33-04

   Title: North Carolina Division of Parks and Recreation.

   Issued: August 2004.

   Abstract: We performed an audit of public assistance funds
   awarded to the North Carolina Division of Parks and Recreation.
   The objective of the audit was to determine whether the Division
   of Parks and Recreation accounted for and expended FEMA funds
   according to federal regulations and FEMA guidelines.

   Key Findings: Parks and Recreation did not have procedures to
   record expenditures on a project-by-project basis and effectively
   administer contracts. In addition, its claim included questioned
   costs of $7,313,956 (FEMA share $6,582,560) resulting from
   unsupported costs, unauthorized work, pre-existing damages, and
   mathematical errors.

Status Report on Open Recommendations to DHS Components 


                        Page 156 

   Recommendation Summary and Status: As of December 31,
   2007, four of the six recommendations in this report were open.
   The component has responded by providing a corrective action
   plan implementing three of the recommendations. It is unknown
   whether two of the recommendations have been implemented.
   Upon verification of implementation the recommendations will be
   closed.

   Estimated Cost Savings: $7,313,956.

   Non-Monetary Benefits: Ensure that proper accounting and
   contract management processes are in place.

   Report Number DA-34-04

   Title: Municipality of San Juan, Puerto Rico.

   Issued: September 2004.

   Abstract: We performed an audit of public assistance funds
   awarded to the Municipality of San Juan, Puerto Rico. The
   objective of the audit was to determine whether the municipality
   accounted for and expended FEMA funds according to federal
   regulations and FEMA guidelines.

   Key Findings: The municipality’s claim contained equipment and
   labor costs of $565,950 that we determined were excessive or
   unsupported. The municipality also claimed $16,786 for work that
   was not completed. We questioned these charges totaling
   $582,736 (FEMA share $524,462).

   Recommendation Status and Summary: As of December 31,
   2007, the two recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $582,736.

   Non-Monetary Benefits: N/A

   Report Number DA-35-04

   Title: City of Macon, Georgia.


Status Report on Open Recommendations to DHS Components 


                        Page 157 

   Issued: September 2004.

   Abstract: We performed an audit of public assistance funds
   awarded to the City of Macon, Georgia. The objective of the audit
   was to determine whether the city accounted for and expended
   FEMA funds according to federal regulations and FEMA
   guidelines.

   Key Findings: The city’s claim contained charges of $126,911
   (FEMA share $114,220) that were excessive or duplicative in
   nature.

   Recommendation Status and Summary: As of December 31,
   2007, the two recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendation will be
   closed.

   Estimated Cost Savings: $126,911.

   Non-Monetary Benefits: N/A

   Report Number DA-36-04

   Title: Brevard County, Florida.

   Issued: September 2004.

   Abstract: We performed an audit of public assistance funds
   awarded to Brevard County, Florida. The objective of the audit
   was to determine whether the county accounted for and expended
   FEMA funds according to federal regulations and FEMA
   guidelines.

   Key Findings: The county’s claim contained charges of $248,582
   (FEMA share $186,437) that were either unrelated to the projects
   charged, ineligible, or excessive.

   Recommendation Summary and Status: As of December 31,
   2007, the three recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $248,582.


Status Report on Open Recommendations to DHS Components 


                        Page 158 

   Non-Monetary Benefits: N/A

   Report Number DA-37-04

   Report Title: Brevard County, Florida.

   Issued: September 2004.

   Abstract: We performed an audit of public assistance funds
   awarded to Brevard County, Florida. The objective of the audit
   was to determine whether the county accounted for and expended
   FEMA funds according to federal regulations and FEMA
   guidelines.

   Key Findings: The county’s claim contained charges of $407,090
   (FEMA share $305,318) that were either unrelated to the projects
   charged, unsupported, ineligible, or excessive.

   Recommendation Status and Summary: As of December 31,
   2007, the four recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $407,090.

   Non-Monetary Benefits: N/A

   Report Number DA-38-04

   Title: Greenville Utilities Commission.

   Issued: September 2004.

   Abstract: We performed an audit of public assistance funds
   awarded to the Greenville Utilities Commission, Greenville, North
   Carolina. The objective of the audit was to determine whether the
   Commission accounted for and expended FEMA funds according
   to federal regulations and FEMA guidelines.

   Key Findings: Except for $64,692 of excess labor and fringe
   benefit charges (FEMA share $58,223), the Commission properly
   accounted for and used FEMA funds.

   Recommendation Status and Summary: As of December 31,
   2007, the two recommendations we made in this report were open.

Status Report on Open Recommendations to DHS Components 


                        Page 159 

   It is unknown whether the recommendations have been
   implemented. Upon verification of implementation, the
   recommendation will be closed.

   Estimated Cost Savings: $64,692.

   Non-Monetary Benefits: N/A

   Report Number DA-01-05

   Title: North Carolina Department of Transportation.

   Issued: October 2004.

   Abstract: We performed an audit of the public assistance funds
   awarded to the North Carolina Department of Transportation. The
   objective of the audit was to determine whether the department
   accounted for and expended FEMA funds according to federal
   regulations and FEMA guidelines.

   Key Findings: The department’s claim included $206,642 (FEMA
   share $154,982) of project charges that were excessive or
   unauthorized.

   Recommendation Summary and Status: As of December 31,
   2007, the four recommendations in this report were open. It is
   unknown whether the recommendation has been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $206,642.

   Non-Monetary Benefits: N/A

   Report Number DA-02-05

   Title: Hudson County, New Jersey.

   Issued: October 2004.

   Abstract: At the request of FEMA Region II, we performed an
   audit of the public assistance funds awarded to Hudson County,
   New Jersey. The objective of the audit was to determine whether
   the county and other recipients of grant funds accounted for and
   expended FEMA funds according to federal regulations and FEMA
   guidelines.

Status Report on Open Recommendations to DHS Components 


                        Page 160 

   Key Findings: Jersey City did not maintain an effective system to
   account for and document overtime salary charges made under
   various projects. Additionally, we determined that costs claimed
   by Jersey City, Hudson County, and the Town of Weehawken
   included $2,082,429 of overtime salary charges that were
   unsupported, ineligible, or unreasonable.

   Recommendation Summary and Status: As of December 31,
   2007, the three recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $2,082,429.

   Non-Monetary Benefits: N/A

   Report Number DA-06-05

   Title: Crisp County, Georgia.

   Issued: June 2007.

   Abstract: We performed an audit of the public assistance funds
   awarded to Crisp County, Georgia. The objective of the audit was
   to determine whether the county accounted for and expended
   FEMA funds according to federal regulations and FEMA
   guidelines.

   Key Findings: The county’s claim contained charges of $211,528
   (FEMA share $190,375) that were either unnecessary, not reduced
   by project income, or were duplicative in nature.

   Recommendation Summary and Status: As of December 31,
   2007, the three recommendations in this report were open. The
   component has responded by providing a corrective action plan
   implementing one open recommendation. We have not come to
   agreement with the component on two of the recommendations.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $211,528.

   Non-Monetary Benefits: N/A


Status Report on Open Recommendations to DHS Components 


                        Page 161 

   Report Number DA-07-05

   Title: Review of Hurricane Katrina Activities, Hancock County,
   Mississippi.

   Issued: December 2006.

   Abstract: We performed an interim review on emergency
   services and debris removal costs associated with Hurricane
   Katrina activities for Hancock County, Mississippi. The objective
   of the review was to determine whether the county was properly
   accounting for disaster-related costs and whether such costs were
   eligible for funding under FEMA’s disaster assistance programs.

   Key Findings: The county accounted for funds on a project-by-
   project basis according to federal regulation for large projects.
   Additionally, project expenditures were supported by checks,
   invoices, and other source documentation. However, the county
   did not always comply with federal procurement standards when
   contracting for debris removal activities.

   Recommendation Summary and Status: As of December 31,
   2007, the two recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure best use of government
   resources.

   Report Number DA-08-05

   Title: New Hanover County, North Carolina.

   Issued: December 2004.

   Abstract: We performed an audit of public assistance funds
   awarded to New Hanover County, North Carolina. The objective
   of the audit was to determine whether the county accounted for and
   expended FEMA funds according to federal regulations and FEMA
   guidelines.

   Key Findings: The county’s claim of $1.5 million under Project
   78826 included charges of $596,581 (FEMA share $536,923),

Status Report on Open Recommendations to DHS Components 


                        Page 162 

   which should have been offset by earned income. We questioned
   these charges.

   Recommendation Summary and Status: As of December 31,
   2007, the recommendation in this report was open. It is unknown
   whether the recommendation has been implemented. Upon
   verification of implementation, the recommendation will be closed.

   Estimated Cost Savings: $596,581.

   Non-Monetary Benefits: N/A

   Report Number DA-09-05

   Title: Municipality of Maunabo.

   Issued: January 2005.

   Abstract: We performed an audit of public assistance funds
   awarded to the Municipality of Maunabo, Puerto Rico. The
   objective of the audit was to determine whether the Municipality
   accounted for and expended FEMA funds according to federal
   regulations and FEMA guidelines.

   Key Findings: The Municipality’s grant accounting system did not
   provide adequate details to support the expenditures allocable to
   FEMA projects. Additionally, the Municipality’s claim included
   questioned costs of $447,284 (FEMA share $402,557) resulting
   from excessive and unsupported charges, duplication of benefits,
   and incomplete implementation of small projects.

   Recommendation Summary and Status: As of December 31,
   2007, the seven recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $447,284.

   Non-Monetary Benefits: N/A

   Report Number DA-10-05

   Title: State of Rhode Island Administration of Disaster Assistance
   Funds.


Status Report on Open Recommendations to DHS Components 


                        Page 163 

   Issued: February 2005.

   Abstract: We performed an audit of the State of Rhode Island’s
   administration and management of FEMA disaster assistance grant
   programs. The overall objective of this audit was to determine the
   effectiveness of the Rhode Island Emergency Management
   Agency’s (grantee) administration and management of disaster
   assistance programs.

   Key Findings: The audit concluded that the State of Rhode Island,
   for the most part, had effectively managed FEMA’s PA grant
   program according to Federal requirements. However, as indicated
   by the report findings, some weaknesses in internal controls and
   noncompliance situations were identified.

   Recommendation Summary and Status: As of December 31,
   2007, one of the two recommendations in this report was open.
   The component has responded by providing a corrective action
   plan implementing the open recommendation. Upon verification
   of implementation, the recommendation will be closed.

   Estimated Cost Savings: $21,769.

   Non-Monetary Benefits: N/A

   Report Number DA-12-05

   Title: Municipality of Mayaguez.

   Issued: March 2005.

   Abstract: We performed an audit of the public assistance funds
   awarded to the Municipality of Mayaguez, Puerto Rico. The
   objective of the audit was to determine whether the Municipality
   accounted for and expended FEMA funds according to federal
   regulations and FEMA guidelines.

   Key Findings: Prior to the audit, FEMA disallowed $1,260,522 of
   debris removal charges under three of the large projects audited
   because the amount of debris reportedly removed and claimed
   exceeded the amount verified by FEMA. However, our audit
   revealed additional questioned charges of $328,462 (FEMA share
   $295,616) resulting from small projects that were not completed
   and unsupported and duplicative charges. Additionally, the
   Municipality earned $11,180 of interest on FEMA funds that
   should have been, but was not returned to FEMA.

Status Report on Open Recommendations to DHS Components 


                        Page 164 

   Recommendation Status and Summary: As of December 31,
   2007, the seven recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $339,642.

   Non-Monetary Benefits: N/A

   Report Number DA-14-05

   Title: State of New Jersey Administration of Disaster Assistance
   Funds.

   Issued: March 2005.

   Abstract: We performed an audit of the administration of disaster
   assistance grant programs by the State of New Jersey, Division of
   State Police, Office of Emergency Management (OEM) was
   performed. The audit objectives were to determine whether OEM
   administered FEMA disaster grant programs according to federal
   regulations, properly accounted for and used FEMA program
   funds, and submitted accurate financial expenditure reports.

   Key Findings: The audit revealed that: (1) Improvements were
   needed in the preparation of PA and HM administrative plans; (2)
   OEM was not always submitting required HM quarterly progress
   reports; (3) OEM did not submit complete HM project
   applications; (4) OEM did not effectively monitor subgrantee’s
   activities; and (5) OEM did not have an adequate labor distribution
   system to support personnel costs charged to management grants.

   Recommendation Summary and Status: As of December 31,
   2007, one of the five recommendations in this report was open.
   The component has responded by providing a corrective action
   plan implementing the open recommendation. Upon verification
   of implementation, the recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: N/A

   Report Number DA-16-05


Status Report on Open Recommendations to DHS Components 


                        Page 165 

   Title: City of Columbus, Mississippi.

   Issued: May 2005.

   Abstract: We performed an audit of public assistance funds
   awarded to the City of Columbus, Mississippi. The objective of
   the audit was to determine whether the city accounted for and
   expended FEMA funds according to federal regulations and FEMA
   guidelines.

   Key Findings: The city did not follow proper contracting
   procedures for awarding contracts for project activities. Also, the
   city’s claim included project charges of $256,770 (FEMA share
   $192,578) that were determined to be either unsupported or
   improper, or not reduced by applicable credits.

   Recommendation Summary and Status: As of December 31,
   2007, the three recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendation will be
   closed.

   Estimated Cost Savings: $256,770.

   Non-Monetary Benefits: N/A

   Report Number DA-17-05

   Title: Monroe County School District, Key West, Florida.

   Issued: June 2005.

   Abstract: We performed an audit of public assistance funds
   awarded to Monroe County School District, Key West, Florida.
   The objective of the audit was to determine whether the District
   accounted for and expended FEMA funds according to federal
   regulations and FEMA guidelines.

   Key Findings: The District’s claim included questioned costs of
   $548,035 (FEMA share $411,026) resulting from charges that were
   either excessive or covered by insurance.

   Recommendation Summary and Status: As of December 31,
   2007, the four recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.


Status Report on Open Recommendations to DHS Components 


                        Page 166 

   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $548,035.

   Non-Monetary Benefits: N/A.

   Report Number DA-18-05

   Title: City of Owensboro, Kentucky.

   Issued: June 2005.

   Abstract: We performed an audit of public assistance funds
   awarded to the City of Owensboro, Kentucky. The objective of the
   audit was to determine whether the city accounted for and
   expended FEMA funds according to federal regulations and FEMA
   guidelines.

   Key Findings: The city’s claim included $8,171 (FEMA share
   46,128) of excess fringe benefits, labor and equipment charges.

   Recommendation Summary and Status: As of December 31,
   2007, the three recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendation will be
   closed.

   Estimated Cost Savings: $8,171.

   Non-Monetary Benefits: N/A

   Report Number DA-21-05

   Title: Audit of District of Columbia Administration of Disaster
   Assistance Funds.

   Issued: July 2005.

   Abstract: We performed an audit of disaster assistance grant
   programs administered by the District of Columbia Emergency
   Management Agency (grantee). The audit objectives were to
   determine whether the grantee administered FEMA grant programs
   according to federal regulations, and accounted for, reported and
   used program funds properly.


Status Report on Open Recommendations to DHS Components 


                        Page 167 

   Key Findings: Financial and Program management findings
   included: the grantee did not document internal and management
   control systems to ensure its controls were adequate and being
   followed; HM project files did not include sufficient evidence to
   support effective project monitoring; and closeout documents for
   the IFG program were not prepared within the required
   timeframes.

   Recommendation Summary and Status: As of December 31,
   2007, two of the three recommendations in this report were open.
   The component has responded by providing a corrective action
   plan implementing the remaining open recommendations. Upon
   verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure compliance with program
   requirements.

   Report Number DA-22-05

   Title: Municipality of Coamo.

   Issued: August 2005.

   Abstract: We performed an audit of public assistance funds
   awarded to the Municipality of Coamo, Puerto Rico. The objective
   of the audit was to determine whether the Municipality accounted
   for and expended FEMA funds according to federal regulations
   and FEMA guidelines.

   Key Findings: The Municipality’s claim included $1,031,165
   (FEMA share $928,049) of costs that were questioned, resulting
   from excessive charges, duplication of benefits, and incomplete
   implementation of large and small projects.

   Recommendation Summary and Status: As of December 31,
   2007, the seven recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $1,031,165.

   Non-Monetary Benefits: N/A

Status Report on Open Recommendations to DHS Components 


                        Page 168 

   Report Number DA-23-05

   Title: City of Portsmouth, Virginia.

   Issued: August 2005.

   Abstract: We performed an audit of public assistance funds
   awarded to the City of Portsmouth, Virginia. The objective of the
   audit was to determine whether the city accounted for and
   expended FEMA funds according to federal regulations and FEMA
   guidelines.

   Key Findings: The city’s claim contained questioned costs of
   $46,485 (FEMA share $34,864) resulting from duplicate charges.

   Recommendation Summary and Status: As of December 31,
   2007, the recommendation in this report was open. It is unknown
   whether the recommendation has been implemented. Upon
   verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $46,485.

   Non-Monetary Benefits: N/A

   Report Number DA-24-05

   Title: City of Clarksville, Tennessee.

   Issued: August 2005.

   Abstract: We performed an audit of public assistance funds
   awarded to the City of Clarksville, Tennessee. The objective of
   the audit was to determine whether the city accounted for and
   expended FEMA funds according to federal regulations and FEMA
   guidelines.

   Key Findings: The city’s claim included $30,596 of questioned
   costs (FEMA share $22,947) resulting from charges that were
   ineligible, for work not completed, covered by insurance, or
   excessive.

   Recommendation Summary and Status: As of December 31,
   2007, the four recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.

Status Report on Open Recommendations to DHS Components 


                        Page 169 

   Upon verification of implementation, the recommendation will be
   closed.

   Estimated Cost Savings: $30,596.

   Non-Monetary Benefits: N/A

   Report Number DA-25-05

   Title: Audit of the State of Florida Administration of Disaster
   Assistance Funds.

   Issued: August 2005.

   Abstract: We performed an audit of the administration of the
   disaster assistance grant programs by the Florida Department of
   Community Affairs, Division of Emergency Management
   (grantee) was completed. The objectives were to determine
   whether the grantee administered FEMA grant programs according
   to Federal regulations, and accounted for, reported and used
   program funds properly.

   Key Findings: The audit found that the grantee needed to
   improve procedures for: reporting total disaster costs; managing
   obligations and expenditures for State Management grants; making
   payments to subgrantees; and monitoring projects and project
   closeouts.

   Recommendation Summary and Status: As of December 31,
   2006, four of the 16 recommendations in this report were open.
   The component has responded by providing a corrective action
   plan implementing three of the open recommendations. We do not
   agree with the component on one of the open recommendations.
   Upon verification of implementation the recommendations will be
   closed.

   Estimated Cost Savings: $597,855.

   Non-Monetary Benefits: N/A

   Report Number DA-26-05

   Title: Audit of the State of New Hampshire Administration of
   Disaster Assistance Funds.

   Issued: August 2005.

Status Report on Open Recommendations to DHS Components 


                        Page 170 

   Abstract: We performed an audit of the administration of the
   disaster assistance grant programs by the New Hampshire Bureau
   of Emergency Management (grantee) was performed. The
   objectives of the audit were to determine whether the grantee
   administered the FEMA disaster Assistance Grant Program
   according to federal regulations and properly accounted for,
   reported, and expended FEMA funds

   Key Findings: The grantee needed procedures to ensure
   compliance with the Single Audit Act; did not have supporting
   documentation for costs claimed under the Individual and Family
   grant; had weak controls over the grant disbursement activities; did
   not have adequate procedures in place to prevent overpayments to
   subgrantees; and needed improvements in completing and
   supporting Financial Status Reports.

   Recommendation Summary and Status: As of December 31,
   2007, the five recommendations in this report were open. The
   component has responded by providing a corrective action plan
   implementing the open recommendations. Upon verification of
   implementation, the recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Effective performance of grant
   management function.

   Report Number DA-28-05

   Title: First Responder Grant Funds Awarded to Virgin Islands
   Law Enforcement.

   Issued: September 2005.

   Abstract: We performed an audit of first responder grant funds
   awarded by the Office of Domestic Preparedness to the Virgin
   Islands (VI) Law Enforcement Planning Commission (LEPC).
   The audit objectives were to determine whether the VI
   Government had: adequate controls to account for and ensure
   appropriate use of grant funds; and implemented the first responder
   program according to federal regulations and grant requirements.

   Key Findings: The VI Government needs to improve its control
   over the accountability and use of program funds. Specifically,
   reconciliations of accounting data were not performed and the

Status Report on Open Recommendations to DHS Components 


                        Page 171 

   LEPC incurred questionable charges of $111,540 resulting from
   purchases made prior to the grant period and poor contracting and
   spending practices. Also, LPEC did not follow ODP reporting
   requirements for the preparation of progress reports.

   Recommendation Summary and Status: As of December 31,
   2007, the four recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $111,540.

   Non-Monetary Benefits: N/A

   Report Number DA-07-06

   Title: Interim Review of Hurricane Wilma Activities, City of
   Coral Gables, Florida.

   Issued: December 2006.

   Abstract: We performed an interim review on emergency services
   and debris removal costs associated with Hurricane Wilma
   activities for the city of Coral Gables, Florida. The objective of the
   review was to determine whether the city was properly accounting
   for disaster-related costs and whether such costs were eligible for
   funding under FEMA's public assistance program.

   Key Findings: The city had an effective system for accounting for
   disaster-related costs. A separate cost account had been
   established to record project expenditures and accounting entries
   could be systematically traced to supporting source documents.
   Also, the city's contracts for debris removal activities were
   awarded according to federal procurement regulations. However,
   the city's claim under several projects included $365,633 of
   excessive force account equipment costs resulting from idle
   equipment time.

   Recommendation Summary and Status: As of December 31,
   2007, the recommendation in this report was open. It is unknown
   whether the recommendation has been implemented. Upon
   verification of implementation, the recommendation will be closed.

   Estimated Cost Savings: $365,633.


Status Report on Open Recommendations to DHS Components 


                        Page 172 

   Non-Monetary Benefits: N/A

   Report Number DA-07-08

   Title: Review of Hurricane Katrina Activities, Jones County,
   Mississippi.

   Issued: February 2007.

   Abstract: We performed an interim review on debris removal
   costs associated with Hurricane Katrina activities for Jones
   County, Mississippi. The objective of the review was to determine
   whether the county was properly accounting for disaster-related
   costs and whether such costs were eligible for funding under
   FEMA's disaster assistance programs.

   Key Findings: The county accounted for funds on a project-by-
   project basis consistent with federal regulations for large projects.
   Additionally, expenditures were supported with checks, invoices,
   and other source documentation. Also, the county's contracts for
   debris removal activities were generally awarded according to
   federal procurement regulations. The county however, did not
   ensure that it obtained the best price for debris contract monitors.

   Recommendation Summary and Status: As of December 31,
   2007, the recommendation in this report was open. The
   component has responded by providing a corrective action plan
   implementing the remaining open recommendation. Upon
   verification of implementation, the recommendation will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Safeguard the use of government funds
   related to Hurricane Katrina.

   Report Number DA-07-09

   Title: Audit of Hurricanes Katrina and Wilma Activities, Monroe
   County, Florida.

   Issued: March 2007.

   Abstract: The interim audit focused on emergency services and
   debris removal costs for activities associated with Hurricane
   Katrina and Wilma for Monroe County, Florida. The objective of
   the review was to determine whether the county was properly

Status Report on Open Recommendations to DHS Components 


                        Page 173 

   accounting for disaster-related costs and whether such costs were
   eligible for funding under FEMA's disaster assistance programs,

   Key Findings: The county accounted for the FEMA funds on a
   project-by-project basis according to federal regulations for large
   projects. Additionally, checks, invoices, and the source
   documentation supported project expenditures. Moreover, the
   county complied with federal procurement standards when
   contracting for debris removal activities. However, $1,721,725 of
   project expenditures for activities associated with removing debris
   from federal-aid roads are the responsibility of the Federal
   Highway Administration.

   Recommendation Summary and Status: As of December 31,
   2007, the recommendation in this report was open. The
   component has responded by providing a corrective action plan
   implementing the open recommendation. Upon verification of
   implementation, the recommendation will be closed.

   Estimated Cost Savings: $1,721,725.

   Non-Monetary Benefits: N/A

   Report Number DA-07-10

   Title: Audit of Personnel Costs Claimed by New York State
   Emergency Management Office Under FEMA Grant Programs.

   Issued: March 2007.

   Abstract: The audit focused on the personnel costs claimed by the
   New York State Emergency Management Office under various
   FEMA grant programs. The objective of the audit was to
   determine whether the costs claimed were properly supported and
   not duplicated among grant programs.

   Key Findings: The New York State Emergency Management
   Office did not properly account for FEMA grant funds. Moreover,
   the claim included $653,408 of duplicative personnel costs—
   salaries and fringe benefits.

   Recommendation Summary and Status: As of December 31,
   2007, the two recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendation will be
   closed.

Status Report on Open Recommendations to DHS Components 


                        Page 174 

   Estimated Cost Savings: $653,408.

   Non-Monetary Benefits: Ensure that proper accounting practices
   are followed.

   Report Number DA-07-11

   Title: Audit of Hurricanes Katrina and Wilma Activities City of
   Miami, Florida.

   Issued: June 2007.

   Abstract: The audit focused on emergency services and debris
   removal costs for activities associated with Hurricane Katrina and
   Wilma for the City of Miami, Florida. The objective of the review
   was to determine whether the city was properly accounting for
   disaster-related costs and whether such costs were eligible for
   funding under FEMA's disaster assistance programs.

   Key Findings: The city had an effective system for accounting for
   disaster-related costs. A separate cost account had been
   established to record project expenditures and accounting entries
   could be systematically traced to supporting documents. However,
   questioned costs of $3,817,991 (FEMA share $3,374,876) were
   identified resulting from excess and non-disaster-related charges,
   an unapplied credit, losses covered by insurance, and excessive
   contract labor charges.
   Recommendation Summary and Status: As of December 31,
   2007, the recommendation in this report was open. It is unknown
   whether the recommendation has been implemented. Upon
   verification of implementation, the recommendation will be closed.

   Estimated Cost Savings: $3,817,991.

   Non-Monetary Benefits: N/A

   Report Number DA-08-01

   Title: Audit of Hurricane Jeanne Activities Hillsborough County,
   Florida.

   Issued: November 2007.

   Abstract: The audit focused on emergency services and debris
   removal funds awarded to Hillsborough County, Florida (county),

Status Report on Open Recommendations to DHS Components 


                        Page 175 

   as a result of Hurricane Jeanne in September 2004. The audit
   objective was to determine whether the county accounted for and
   expended FEMA funds according to federal regulations and FEMA
   guidelines.

   Key Findings: The county's accounting records did not accurately
   reflect all costs claimed and reimbursed for debris removal
   activities. In addition, the county's claim contained $336,786
   (FEMA share $303,107) of unsupported debris removal charges.

   Recommendation Summary and Status: As of December 31,
   2007, the recommendation in this report was open. It is unknown
   whether the recommendation has been implemented. Upon
   verification of implementation, the recommendation will be closed.

   Estimated Cost Savings: $336,786.

   Non-Monetary Benefits: N/A

   Report Number DA-08-02

   Title: Review of the Hurricane Katrina Activities for City of
   Pascagoula, Mississippi.

   Issued: November 2007.

   Abstract: The review focused on emergency services and debris
   removal costs associated with Hurricane Katrina activities for the
   City of Pascagoula, Mississippi. The objective of the review was
   to determine whether the city properly accounted for disaster-
   related costs and whether such costs were eligible for funding
   under FEMA disaster assistance programs.

   Key Findings: The city accounted for FEMA funds on a project-
   by-project basis according to federal regulations for large projects.
   However, the costs claimed under the FEMA projects included
   $725,237 of ineligible regular-time labor and excessive contract
   charges.

   Recommendation Summary and Status: As of December 31,
   2007, the recommendation in this report was open. It is unknown
   whether the recommendation has been implemented. Upon
   verification of implementation, the recommendation will be closed.

   Estimated Cost Savings: $43,751.


Status Report on Open Recommendations to DHS Components 


                        Page 176 

   Non-Monetary Benefits: N/A

   Report Number DA-08-03

   Title: Audit of Hurricane Katrina Activities for City of Ocean
   Springs, Mississippi.

   Issued: December 2007.

   Abstract: The audit focused on disaster costs associated with
   Hurricane Katrina activities for the City of Ocean Springs,
   Mississippi. The objective of the review was to determine whether
   the city properly accounted for disaster-related costs and whether
   such costs were eligible for funding under FEMA disaster
   assistance programs.

   Key Findings: The city’s accounting system did not separately
   account for project expenditures on a project-by-project basis as
   required by federal regulations. Also, the city did not comply with
   federal contracting regulations when awarding a debris removal
   contract. Further, $102,244 of questioned costs resulted from
   ineligible and duplicative project charges.

   Recommendation Summary and Status: As of December 31,
   2007, the three recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $102,244.

   Non-Monetary Benefits: Ensure that proper accounting practices
   are followed and the best use of government resources.

   Report Number DA-FL-07-12

   Title: Review of Hurricane Wilma Activities, City of Pembroke
   Pines, Florida.

   Issued: July 2007.

   Abstract: This audit focuses on Hurricane Wilma emergency
   services and debris removal costs for the city of Pembroke Pines,
   Florida. The objective of the audit was to determine whether the
   city was properly accounting for disaster-related costs and whether


Status Report on Open Recommendations to DHS Components 


                        Page 177 

   such costs were eligible for funding under FEMA’s disaster
   assistance programs

   Key Findings: The city accounted for funds on a project-by-
   project basis consistent with federal regulations for large projects.
   However, the city did not always comply with federal procurement
   standards when contracting for disaster-related services.

   Recommendation Status and Summary: As of December 31,
   2007, the four recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $3,186,310.

   Non-Monetary Benefits: Ensure best use of government
   resources.

   Report Number DD-01-04

   Title: Minnkota Power Cooperative, Inc. Grand Forks, North
   Dakota.

   Issued: October 2003.

   Abstract: This audit focuses on public assistance funds awarded to
   Minnkota Power Cooperative, Inc., Grand Forks, North Dakota
   (MPC). The objective of the audit was to determine whether MPC
   expended and accounted for FEMA funds according to federal
   regulations and FEMA guidelines.

   Key Findings: MPC did not expend and account for FEMA funds
   according to federal regulations and FEMA guidelines. Further,
   MPC did not follow federal procurement regulations to contract for
   $4,015,277 in disaster work. As a result, fair and open competition
   did not occur and FEMA had no assurance that contract costs
   claimed were reasonable.

   Recommendation Status and Summary: As of December 31,
   2007, two of the five recommendations in this report were open.
   The component has responded by providing a corrective action
   plan implementing the remaining open recommendations. Upon
   verification of implementation, the recommendations will be
   closed.


Status Report on Open Recommendations to DHS Components 


                        Page 178 

   Estimated Cost Savings: $476,248.

   Non-Monetary Benefits: N/A

   Report Number DD-01-05

   Title: Grant Management: Wisconsin’s Compliance with Disaster
   Assistance Program’s Requirements.

   Issued: October 2004.

   Abstract: This report focuses on Wisconsin’s Emergency
   Management’s (WEM) agency (grantee) systems and processes for
   ensuring that grant funds were managed, controlled, and expended
   according to the Stafford Act and the requirements set forth in Title
   44 of the Code of Federal Regulations (44 CFR).

   Key Findings: The audit concluded that the State of Wisconsin, for
   the most part, had effectively managed FEMA’s disaster assistance
   programs according to Federal requirements. However, as indicated
   by the reported findings, some weaknesses in internal controls and
   noncompliance situations were identified.

   Recommendation Summary and Status: As of December 31,
   2007, the five recommendations in this report were open. We
   received verification in 2008 of implementation and the
   recommendations have been closed.

   Estimated Cost Savings: $84,933.

   Non-Monetary Benefits: N/A

   Report Number DD-02-04

   Title: City of Hoisington, Kansas.

   Issued: October 2003.

   Abstract: This audit focuses on public assistance funds awarded to
   the City of Hoisington, Kansas. The objective of the audit was to
   determine whether the city expended and accounted for FEMA
   funds according to federal regulations and FEMA guidelines.

   Key Findings: The city did not expend and account for FEMA
   funds according to federal regulations and FEMA guidelines. In
   addition, the city did not follow federal procurement regulations to

Status Report on Open Recommendations to DHS Components 


                        Page 179 

   contract for $779,269 in construction services. As a result, fair and
   open competition did not occur and FEMA had no assurance that
   contract costs were reasonable.

   Recommendation Status and Summary: As of December 31,
   2007, nine of the 10 recommendations in this report were open.
   The component has responded by providing a corrective action
   plan implementing the remaining open recommendations. Upon
   verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $196, 513.

   Non-Monetary Benefits: N/A

   Report Number DD-02-05

   Title: Grant Management: Louisiana’s Compliance With Disaster
   Assistance Program’s Requirements.

   Issued: November 2004.

   Abstract: This audit focuses on the administration of the Hazard
   Mitigation Grant Program (HMGP) and Unmet Needs (UN)
   funding by the State of Louisiana’s Office of Homeland Security
   and Emergency Preparedness (LHLS/EP). The audit objective was
   to determine whether LHLS/EP administered FEMA HMGP and
   UN according to federal regulations and properly accounted for
   and used FEMA program funds.

   Key Findings: The review determined that LHLS/EP did not
   administer the FEMA Hazard Mitigation Grant and Unmet Needs
   Programs according to federal regulations and did not properly
   account for and use FEMA program funds. As a result, $617,787
   of ineligible management and administrative costs were questioned
   and other conditions that increased the likelihood that fraud, waste,
   and abuse occurred without detection were identified. LHLS/EP’s
   inadequate administration was largely due to its not having
   procedures for administering grant funds and staff having minimal
   program knowledge and experience.

   Recommendation Summary and Status: As of December 31,
   2007, the nine recommendations in this report were open. The
   component has responded by providing a corrective action plan
   implementing the open recommendations. Upon verification of
   implementation, the recommendations will be closed.

Status Report on Open Recommendations to DHS Components 


                        Page 180 

   Estimated Cost Savings: $651,849.

   Non-Monetary Benefits: Ensure program improvement and
   compliance with requirements.

   Report Number DD-03-05

   Title: Grant Management: Louisiana’s Compliance With Disaster
   Assistance Program’s Requirements.

   Issued: February 2005.

   Abstract: This audit focuses on the State of Louisiana Office of
   Homeland Security and Emergency Preparedness (LHLS/EP)
   administration and management of FEMA grant assistance
   programs.

   Key Findings: The State of Louisiana needs to improve its
   program and financial management controls to ensure compliance
   with Federal grant management requirements. Significant internal
   controls weaknesses and noncompliance situations were identified
   during the audit.

   Recommendation Summary and Status: As of December 31,
   2007, three of the six recommendations in this report were open.
   We did not agree with the component on one of the open
   recommendations. However, the component has responded by
   providing a corrective action plan implementing two of the
   remaining open recommendations. The Office of Emergency
   Management Oversight has requested additional documentation to
   verify full implementation. Upon verification of implementation,
   the recommendations will be closed.

   Estimated Cost Savings: $482,705.

   Non-Monetary Benefits: N/A

   Report Number DD-06-05

   Title: Central Rural Electric Cooperative, Inc. Stillwater,
   Oklahoma.

   Issued: May 2005.




Status Report on Open Recommendations to DHS Components 


                        Page 181 

   Abstract: This audit focuses on public assistance funds awarded to
   the Central Rural Electric Cooperative (CREC), located in
   Stillwater, Oklahoma. The objective of the audit was to determine
   whether CREC accounted for and expended FEMA funds
   according to federal regulations and FEMA guidelines.

   Key Findings: CREC did not account for and expend FEMA
   funds according to federal regulations and FEMA guidelines.
   Specifically, CREC awarded non-competitive time-and-materials
   contracts that did not comply with federal procurement standards.
   As a result, fair and open competition did not occur and FEMA has
   no assurance that contract costs claimed were reasonable.

   Recommendation Summary and Status: As of December 31,
   2007, the two recommendations in this report were open. We did
   not agree with the component on one of the open
   recommendations. However, the component has responded by
   providing a corrective action plan implementing one open
   recommendation. Upon verification of implementation, the
   recommendation will be closed.

   Estimated Cost Savings: $1,406,494.

   Non-Monetary Benefits: N/A

   Report Number DD-06-06

   Report Title: Western Farmers Electric Cooperative, Anadarko,
   Oklahoma.

   Issued: January 2006.

   Abstract: We audited public assistance funds awarded to Western
   Farmers Electric Cooperative, (WFEC) Anadarko, Oklahoma. The
   objective of the audit was to determine whether the WFEC
   expended and accounted for FEMA funds according to federal
   regulations and FEMA guidelines.

   Key Findings: WFEC did not expend and account for all FEMA
   funds according to federal regulations and FEMA guidelines.
   WFEC did not comply with federal procurement standards or
   FEMA guidelines in awarding $7,947,354 of contracted utility and
   debris removal work. As a result, fair and open competition did
   not occur and FEMA has no assurance that the contract work was
   reasonable. Further, questioned costs totaled $4,112,646
   ($3,084,485 FEMA share), or 37% of the $11,092,047 claimed.

Status Report on Open Recommendations to DHS Components 


                        Page 182 

   Recommendation Status and Summary: As of December 31, 

   2007, the seven recommendations in this report were open. We 

   did not agree with the component on the open recommendations. 

   It is unknown whether the recommendations have been 

   implemented. Upon verification of implementation, the 

   recommendations will be closed.

   Estimated Cost Savings: $3,084,486.


   Non-Monetary Benefits: N/A

   Report Number DD-07-02

   Title: St. Bernard Parish, Louisiana’s Management of State 

   Homeland Security Grants Awarded For the Removal of Debris 

   From Hurricane Katrina. 


   Issued: November 2006. 


   Abstract: A review of ongoing Hurricane Katrina debris removal 

   activities in St. Bernard Parish, Louisiana, was performed. The 

   objective of the review was to determine whether the awarded 

   contracts and contractor billings were in compliance with 

   applicable Federal criteria. 


   Key Findings: Several reportable conditions were identified. The 

   conditions included non-compliance with Federal requirements, 

   claims for ineligible or unreasonable costs, and opportunities for 

   improved controls and accuracy during the debris removal process. 

   There were other issues that impacted the Parish’s progress in

   removing debris. 


   Recommendation Summary and Status: As of December 31, 

   2007, 11 of the 15 recommendations in this report were open. The 

   component has not provided a corrective action plan implementing 

   eight of the remaining open recommendations. Upon verification 

   of implementation, the recommendations will be closed. 


   Estimated Cost Savings: $209,115.

   Non-Monetary Benefits: Ensure best use of government resources 

   and compliance with regulations.


   Report Number DD-07-05

   Title: Interim Review of Hurricane Katrina Activities Plaquemines
   Parish Sheriff’s Office, Louisiana.

Status Report on Open Recommendations to DHS Components 


                        Page 183 

                             Issued: February 2007.

                             Abstract: The interim review focused on public assistance funds
                             awarded to the Plaquemines Parish Sheriff’s Office (PPSO),
                             Louisiana. The objective was to determine whether PPSO
                             expended and accounted for FEMA funds according to federal
                             regulations and FEMA guidelines.

                             Key Findings: PPSO did not expend and account for FEMA funds
                             according to federal regulations and FEMA guidelines.
                             Specifically, PPSO did not track costs on a project-by-project basis
                             or support cost eligibility. If left uncorrected, PPSO’s final claim
                             could include errors and ineligible costs. Further, PPSO did not
                             follow federal procurement regulations when it awarded contracts
                             for mobile homes and site preparation. As a result, FEMA has no
                             assurance that costs were reasonable.

                             Recommendation Summary and Status: As of December 31,
                             2007, one of the four recommendations in this report was open.
                             The component has responded by providing a corrective action
                             plan implementing the open recommendation. Upon verification
                             of implementation, the recommendation will be closed.

                             Estimated Cost Savings: $1,054,000.

                             Non-Monetary Benefits: N/A

                             Report Number DD-07-061

                             Title: Grant Management: Connecticut’s Compliance with
                             Disaster Assistance Program’s Requirements.

                             Issued: March 2006.

                             Abstract: The audit focused on the State of Connecticut’s
                             administration of federal disaster assistance grant programs for the
                             federal fiscal year ending September 30, 2002. The objective of
                             the audit was to determine whether the state (the grantee) had
                             administered the programs according to applicable federal
                             regulations, properly accounted for and expended federal funds,
                             and submitted accurate financial reports.




1
    Two reports, unrelated and covering different topics, were issued under the same report number.

                         Status Report on Open Recommendations to DHS Components 


                                                   Page 184 

                             Key Findings: The administrative plans for the PA and HM
                             programs were determined to be missing required procedures. The
                             general ledger accounting records did not support the amounts
                             reported on the Financial Status Reports (FSRs) by the State of
                             Connecticut. The State of Connecticut’s Office of Policy and
                             Management and Department of Environmental Protection (DEP)
                             did not support expenditures under the administrative allowances
                             awarded for both the PA and HM programs. DEP did not properly
                             support labor costs claimed under the HM management grant and
                             did not have those costs properly approved by the Regional
                             Director.

                             Recommendation Summary and Status: As of December 31,
                             2007, the seven recommendations in this report were open. The
                             component has responded by providing a corrective action plan
                             implementing the remaining open recommendations. Upon
                             verification of implementation, the recommendations will be
                             closed.

                             Estimated Cost Savings: N/A.

                             Non-Monetary Benefits: Ensure compliance with program
                             requirements resulting in program improvements.

                             Report Number DD-07-062

                             Title: Interim Review of Contract Costs, Clearbrook, LLC

                             Issued: February 2007.

                             Abstract: The interim review focused on costs incurred under a
                             contract with Clearbrook, LLC, for base camp services associated
                             with Hurricane Katrina activities in Louisiana. Our objectives
                             were to determine whether FEMA properly administered the
                             contract and whether Clearbrook's billings are reimbursable under
                             the agreements and federal regulations.

                             Key Findings: As a result of FEMA’s haste to establish base
                             camps, and the shortage of trained and experienced contracting
                             officials, the Clearbrook contract was not effectively administered,
                             leading to contractual deficiencies, excessive billings, and
                             questionable costs of $16.4 million. FEMA’s contract
                             administration of Clearbrook's second work order improved


2
    Two reports, unrelated and covering different topics, were issued under the same report number.

                         Status Report on Open Recommendations to DHS Components 


                                                   Page 185 

   significantly and included a reduction in the fixed unit price and a
   well-defined scope of work.

   Recommendation Summary and Status: As of December 31,
   2007, one of the two recommendations in this report was open.
   The component has responded by providing a corrective action
   plan implementing the remaining open recommendation. Upon
   verification of implementation, the recommendation will be closed.

   Estimated Cost Savings: $16,400,000.

   Non-Monetary Benefits: N/A

   Report Number DD-07-08

   Title: Interim Review of Hurricane Katrina Activities, City of
   Kenner, Louisiana.

   Issued: March 2007.

   Abstract: The interim review focused on public assistance funds
   awarded to the City of Kenner, Louisiana. Our objective was to
   determine whether the city expended and accounted for FEMA
   funds according to federal regulations and FEMA guidelines.

   Key Findings: The city did not track costs on a project-by-project
   basis or support cost eligibility. If left uncorrected, the city’s final
   claim could include errors and ineligible costs. Further, the city
   did not follow federal procurement regulations when it awarded
   $1.4 million in contracts for the purchase of travel trailers. As a
   result, FEMA has no assurance that costs were reasonable.

   Recommendation Summary and Status: As of December 31,
   2007, six of the seven recommendations in this report were open.
   The component has responded by providing a corrective action
   plan implementing the remaining open recommendations. Upon
   verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $679,150.

   Non-Monetary Benefits: Ensure proper accounting practices are
   followed and best use of government resources for overall program
   improvement.

   Report Number DD-07-10

Status Report on Open Recommendations to DHS Components 


                        Page 186 

   Title: Review of Hurricane Katrina Debris Removal Activities, St.
   Tammany Parish, Louisiana.

   Issued: August 2007.

   Abstract: A review of ongoing Hurricane Katrina debris removal
   activities in St. Tammany Parish, Louisiana was performed. The
   objective of the review was to determine whether the awarded
   contracts and contractor billings were in compliance with
   applicable federal criteria.

   Key Findings: In the wake of Hurricane Katrina, the Parish
   successfully removed large volumes of debris. The removal of
   debris helped to restore public health and safety and ensure
   economic recovery throughout the Parish. Also, the Parish
   established an internal audit activity shortly after the hurricane
   occurred that resulted in significant cost savings. However, the
   review identified some reportable conditions concerning the
   Parish’s management of the debris removal. The conditions
   included ineffective contractor performance, the amendment of a
   contract without competition, and noncompliance with federal
   project and cash management requirements.

   Recommendation Summary and Status: As of December 31,
   2007, the seven recommendations in this report were open. We
   received verification of implementation in 2008 and two of the
   recommendations have been closed. We did not agree with the
   component on two of the open recommendations. The component
   has responded by providing a corrective action plan implementing
   three of the remaining open recommendations. Upon verification
   of implementation, the recommendations will be closed.

   Estimated Cost Savings: Amount pending FEMA and state
   review.

   Non-Monetary Benefits: Ensure compliance with program
   requirements and overall program improvement.

   Report Number DD-07-11

   Title: Review of Hurricane Katrina Debris Removal Activities
   Washington Parish, Louisiana.

   Issued: August 2007.


Status Report on Open Recommendations to DHS Components 


                        Page 187 

   Abstract: A review of ongoing Hurricane Katrina debris removal
   activities in Washington Parish, Louisiana, was performed. The
   objective of the review was to determine whether the awarded
   contracts and contractor billings were in compliance with
   applicable Federal criteria.

   Key Findings: The review identified reportable conditions that
   resulted in questioned costs of $2,098,111 for unsupported costs
   for right-of-way debris removal, direct labor hour charged for
   administrative personnel, unsupported costs for tree stumps,
   limited use of administrative allowance funds, contractual concerns
   with the monitoring contract and excess costs for leaners and
   hangers.

   Recommendation Summary and Status: As of December 31,
   2007, the eight recommendations in this report were open. We
   received verification of implementation in 2008 and three of the
   recommendations have been closed. The component has
   responded by providing a corrective action plan implementing the
   remaining open recommendations. Upon verification of
   implementation, the remaining recommendations will be closed.

   Estimated Cost Savings: $2,098,111.

   Non-Monetary Benefits: Ensure best use of government
   resources.

   Report Number DD-08-05

   Title: Kiamichi Electric Cooperative, Inc. Wilburton, Oklahoma.

   Issued: July 2005.

   Abstract: We audited public assistance funds awarded to the
   Kiamichi Electric Cooperative, Inc. (KEC), located in Wilburton,
   Oklahoma. The objective of the audit was to determine whether
   KEC accounted for and expended FEMA funds according to
   federal regulations and FEMA guidelines.

   Key Findings: KEC did not account for and expend FEMA funds
   according to federal regulations and FEMA guidelines.
   Specifically, KEC did not follow federal procurement standards in
   awarding $8,381,786 of contract work. As a result, fair and open
   competition did not occur and contract costs were excessive.
   Further, questioned costs totaling $6,235,687 ($5,657,548 FEMA
   share) were identified.

Status Report on Open Recommendations to DHS Components 


                        Page 188 

   Recommendation Summary and Status: As of December 31,
   2007, the eight recommendations in this report were open. The
   component has responded by providing a corrective action plan
   implementing the remaining open recommendations. Upon
   verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $5,333,907.

   Non-Monetary Benefits: N/A

   Report Number DD-08-06

   Title: University of North Dakota Grand Forks, North Dakota.

   Issued: June 2006.

   Abstract: We audited public assistance funds awarded to the
   University of North Dakota (UND) in the amount of $43.9 million
   from the North Dakota Division of Emergency Management
   (NDDEM), a FEMA grantee. The objective of the audit was to
   determine whether UND accounted for and expended FEMA funds
   according to federal regulations and FEMA guidelines.

   Key Findings: Overall, UND accounted for and expended $25.4
   million for repairs to its steam lines according to federal
   regulations and FEMA guidelines. However, UND did not comply
   with federal regulations and FEMA guidelines in awarding
   contracts for project management services totaling $3,005,823. As
   a result, full and open competition did not occur and FEMA has no
   assurance that the contract costs were fair and reasonable.
   Therefore, $3,005,823 was questioned as ineligible contract costs.

   Recommendation Summary and Status: As of December 31,
   2007, one of the two recommendations in this report was open.
   The component has responded by providing a corrective action
   plan implementing the remaining open recommendation. Upon
   verification of implementation, the recommendation will be closed.

   Estimated Cost Savings: $2,254,367.

   Non-Monetary Benefits: N/A

   Report Number DD-09-04




Status Report on Open Recommendations to DHS Components 


                        Page 189 

   Title: Audit of Michigan State Police, Emergency Management 

   Division Lansing, Michigan.

   Issued: June 2004. 


   Abstract: This audit focuses on public assistance funds awarded to 

   the Michigan State Police, Emergency Management Division 

   (MSP), Lansing, Michigan. The objective of the audit was to 

   determine whether MSP accounted for and expended FEMA funds 

   according to federal regulations and FEMA guidelines.


   Key Findings: MSP did not account for and expend FEMA funds 

   according to federal regulations and FEMA guidelines. MSP’s 

   claim included $4,492,408 ($3,402,632 FEMA share) of costs that 

   we determined questionable. The questioned costs included 

   unreasonable contractor profits, ineligible mobilization costs,

   ineligible subgrantee administrative allowance, unsupported 

   engineering costs, and ineligible travel costs.


   Recommendation Summary and Status: As of December 31, 

   2007, the five recommendations in this report were open. We

   received verification in 2008 of implementation and three of the 

   recommendations were closed. The component has responded by 

   providing a corrective action plan implementing the remaining 

   open recommendations. Upon verification of implementation, the 

   recommendations will be closed.


   Estimated Cost Savings: $3,402,632.

   Non-Monetary Benefits: Program improvements.

   Report Number DD-09-05

   Title: Western Farmers Electric Cooperative, Anadarko,
   Oklahoma.

   Issued: September 2005.

   Abstract: We audited public assistance funds awarded to WFEC,
   Anadarko, Oklahoma. The objective of the audit was to determine
   whether WFEC expended and accounted for FEMA funds
   according to federal regulations and FEMA guidelines.

   Key Findings: WFEC did not expend and account for all FEMA
   funds according to federal regulations and FEMA guidelines.
   WFEC did not comply with federal procurement standards or
   FEMA guidelines in awarding $592,643 of contracted utility and

Status Report on Open Recommendations to DHS Components 


                        Page 190 

   debris removal work. Further, WFEC’s claim included $259,851
   ($245,901 FEMA share) of costs that were questionable. The
   questioned costs included ineligible damages to private property
   ($204,049), overstated fringe benefits ($34,098), duplicate labor
   costs ($15,984), and unsupported costs ($5,720).

   Recommendation Summary and Status: As of December 31,
   2007, the five recommendations in this report were open. The
   component has responded by providing a corrective action plan
   implementing the open recommendations. Upon verification of
   implementation, the recommendations will be closed.

   Estimated Cost Savings: $245,901.

   Non-Monetary Benefits: Program improvements.

   Report Number DD-09-06

   Title: City of Kansas, Missouri.

   Issued: July 2006.

   Abstract: This audit focuses on public assistance funds awarded to
   City of Kansas City, Missouri. The audit objectives were to
   determine whether Missouri SEMA effectively performed its grant
   management function regarding the city’s award and whether the
   city accounted for and expended FEMA funds according to federal
   regulations and FEMA guidelines.

   Key Findings: Overall, SEMA did not perform its grant
   management responsibilities in an effective manner or according to
   federal regulations. Further, the city’s systems and processes were
   ineffective in managing and controlling federal funds; and the city
   did not account for and expend all FEMA funds according to
   federal regulations and FEMA guidelines.

   Recommendation Summary and Status: As of December 31,
   2007, 14 of the 16 recommendations in this report were open. We
   did not agree with the component on five of the open
   recommendations. The component has responded by providing a
   corrective action plan implementing nine of the open
   recommendations. Upon verification of implementation, the
   recommendations will be closed.

   Estimated Cost Savings: $8,782,247.


Status Report on Open Recommendations to DHS Components 


                        Page 191 

   Non-Monetary Benefits: Effective performance of grant
   management function.

   Report Number DD-10-06

   Title: Grand Forks Public School District, Grand Forks, ND.

   Issued: August 2006.

   Abstract: We audited public assistance funds awarded to Grand
   Forks Public School District, Grand Forks, ND, (GFPS). The
   objective of the audit was to determine whether GFPS accounted
   for and expended FEMA funds according to federal regulations
   and FEMA guidelines.

   Key Findings: GFPS did not expend and account for FEMA funds
   according to federal regulations and FEMA guidelines. GFPS’s
   claim included $27,396,148 ($24,656,533 FEMA share) of costs
   that we questioned. The questioned costs consisted of costs to
   replace schools that should have been repaired ($23,745,386),
   unreasonable project management fees ($3,416,855), unsupported
   contract costs ($207,666), and duplicate administrative costs
   ($26,241). Further, GFPS did not follow federal procurement
   standards to contract for $5,321,074 of construction management
   services. As a result, full and open competition did not occur, and
   FEMA has no assurance that contract costs claimed were fair and
   reasonable.

   Recommendation Summary and Status: As of December 31,
   2007, three of the seven recommendations in this report were open.
   We received verification of implementation in 2008 and one of the
   recommendations has been closed. The component has responded
   by providing a corrective action plan implementing the remaining
   open recommendations. Upon verification of implementation, the
   recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Strengthened program management;
   improved controls to ensuring best use of government resources
   and protection of government assets.

   Report Number DD-11-04

   Title: Grant Management: Texas’ Compliance with Disaster
   Assistance Program’s Requirements.

Status Report on Open Recommendations to DHS Components 


                        Page 192 

   Issued: July 2004.

   Abstract: This audit focuses on the Texas Division of Emergency
   Management’s (TDEM) administration and management of FEMA
   disaster assistance grant programs. The overall objective of this
   audit was to determine the effectiveness of TDEM’s administration
   and management of disaster assistance programs authorized by the
   Robert T. Stafford Disaster Relief and Emergency Assistance Act
   (Public Law 93-288, as amended) and applicable Federal
   regulations.

   Key Findings: The State of Texas, for the most part, had
   effectively managed FEMA disaster assistance program funds
   according to Federal requirements. However, some weaknesses in
   internal controls and noncompliance situations were identified.

   Recommendation Summary and Status: As of December 31,
   2007, three of the 11 recommendations in this report were open.
   The component has responded by providing a corrective action
   plan implementing the remaining open recommendations. Upon
   verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Improved effectiveness of TDEM’s
   administration and management of disaster assistance programs
   authorized by the Robert T. Stafford Disaster Relief and
   Emergency Assistance Act.

   Report Number DD-11-06

   Title: Recap of Procurement Problems Identified in Audits of
   Electric Cooperatives.

   Issued: September 2006.

   Abstract: From September 2002 to January 2006, we issued nine
   audit reports containing findings that electric cooperatives did not
   follow federal procurement standards in awarding contracts for
   utility repairs and debris removal work. As a result, full and open
   competition did not occur and FEMA had no assurance that
   contract costs were reasonable. The nine audits covered $59.2
   million in electric cooperative subgrantee claims, of which $39.3
   million were for costs incurred under non-competitive contracts.

Status Report on Open Recommendations to DHS Components 


                        Page 193 

   Key Findings: FEMA grants a substantial amount of federal
   funding annually to electric cooperatives for natural disasters. For
   example, FEMA Regions V, VI, VII, and VIII provided $391
   million in federal grants to electric cooperatives from 2000 through
   2004. Based on past experience, we estimated that more than half
   of that funding reimburses electric cooperatives for costs incurred
   under contracts that do not comply with federal procurement
   standards.

   Recommendation Summary and Status: As of December 31,
   2007, the three recommendations in this report were open. The
   component has responded by providing a corrective action plan
   implementing the remaining open recommendations. Upon
   verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Program improvements.

   Report Number DD-13-04

   Title: Cookson Hills Electric Cooperative, Inc., Stigler, Oklahoma


   Issued: August 2004.


   Abstract: This audit focuses on public assistance funds awarded to 

   the Cookson Hills Electric Cooperative, Inc. (Co-op), located in 

   Stigler, Oklahoma. The objective of the audit was to determine 

   whether the Co-op expended and accounted for FEMA funds 

   according to federal regulations and FEMA guidelines


   Key Findings: The Co-op did not follow federal procurement 

   regulations to contract for $907,274 in disaster work. As a result, 

   fair and open competition did not occur and FEMA had no 

   assurance that contract costs claimed were reasonable. Further, the 

   Co-op claimed $255,462 ($209,231 FEMA share) of costs that we 

   determined questionable. 


   Recommendation Summary and Status: As of December 31, 

   2007, one of the six recommendations in this report was open. We

   did not agree with the component on the open recommendation. 

   Upon verification of implementation, the recommendation will be 

   closed. 

   Estimated Cost Savings: N/A 


Status Report on Open Recommendations to DHS Components 


                        Page 194 

   Non-Monetary Benefits: Program improvement to ensure
   subgrantees follow federal regulations and FEMA guidelines
   related to procurement.

   Report Number DD-15-03

   Title: Grand Forks, ND.

   Issued: September 2003.

   Abstract: This audit focuses on public assistance funds awarded to
   the City of Grand Forks, North Dakota. The objective of the audit
   was to determine whether the city expended and accounted for
   FEMA funds according to federal regulations and FEMA
   guidelines.

   Key Findings: The city did not expend and account for FEMA
   funds according to federal regulations and FEMA guidelines. In
   addition, the city did not follow federal procurement regulations to
   contract for $12,123,852 in construction, engineering, and project
   management services. As a result, fair and open competition did
   not occur, and FEMA had no assurance that contract costs were
   reasonable.

   Recommendation Status and Summary: As of December 31,
   2007, one of the seven recommendations in this report was open.
   We received verification in 2008 of implementation and the
   recommendation has been closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Program improvement to ensure
   subgrantees follow federal regulations and FEMA guidelines
   related to procurement.

   Report Number DD-16-03

   Title: City of Chicago, Illinois.

   Issued: September 2003.

   Abstract: This audit focused on public assistance funds awarded
   to the City of Chicago, Illinois. The objective of the audit was to
   determine whether the city expended and accounted for FEMA
   funds according to federal regulations and FEMA guidelines.

Status Report on Open Recommendations to DHS Components 


                        Page 195 

   Key Findings: The city did not expend and account for FEMA
   funds according to federal regulations and FEMA guidelines. The
   audit identified $8,945,093 of claimed costs for FEMA disaster
   number 3134-EM-IL that were either ineligible or unsupported.
   Further, the city did not follow federal procurement regulations to
   contract for $1,705,640 in disaster work. As a result, FEMA had
   no assurance that contract costs claimed were reasonable. Under
   FEMA disaster number 3161-EM-IL, the city’s claim included
   questioned costs of $1,452,330 ($1,089,248 FEMA share) in
   duplicate benefits.

   Recommendation Status and Summary: As of December 31,
   2007, two of the five recommendations in this report were open.
   We received verification of implementation in 2008 and one of the
   recommendations has been closed. The component has responded
   by providing a corrective action plan implementing the remaining
   open recommendation. Upon verification of implementation, the
   recommendation will be closed.

   Estimated Cost Savings: $5,887,175.

   Non-Monetary Benefits: N/A

   Report Number DD-18-04

   Title: Montcalm County Drain Commission Stanton, Michigan.

   Issued: March 2005.

   Abstract: This audit focused on public assistance funds awarded
   to the Montcalm County Drain Commission (Montcalm), located
   in Stanton, Michigan. The objective of the audit was to determine
   whether Montcalm accounted for and expended FEMA funds
   according to federal regulations and FEMA guidelines.

   Key Findings: Montcalm did not account for and expend FEMA
   funds according to federal regulations and FEMA guidelines.
   Specifically, Montcalm awarded a non-competitive contract for
   $4,383,330 that did not comply with federal procurement
   standards. As a result, fair and open competition did not occur and
   Montcalm’s claim included $1,037,459 in contractor profits and
   $76,733 in markups on subcontractor costs that we questioned as
   unreasonable and excessive. Montcalm also did not justify
   ineligible cost overruns that exceeded FEMA-approved estimates
   by $2,844,779; and did not account for FEMA funds by project, as

Status Report on Open Recommendations to DHS Components 


                        Page 196 

   required. As a result, FEMA had no assurance that claimed costs
   were reasonable and within the scope of work defined for the
   individual projects.

   Further, MSP, the grantee, did not properly manage its subgrant to
   Montcalm. MSP did not: (1) ensure that Montcalm was aware of
   federal regulations, (2) properly process requests for project time
   extensions, or (3) provide FEMA with timely and accurate
   progress reports. As a result, FEMA Region V did not have the
   information needed to fulfill its grant oversight responsibilities.

   Recommendation Summary and Status: As of December 31,
   2007, one of the four recommendations in this report was open.
   We did not agree with the component on the open
   recommendation. Upon verification of implementation, the
   recommendations will be closed.

   Estimated Cost Savings: $835,644.

   Non-Monetary Benefits: N/A

   Report Number DO-08-03

   Report Title: FEMA Disaster Number 0979-DR Victor Valley
   Wastewater Reclamation Authority, Victorville, California.

   Issued: May 2003.

   Abstract: We audited public assistance funds awarded to the
   Victor Valley Wastewater Reclamation Authority, Victorville,
   California (Authority). The objective of this audit was to
   determine whether the Authority expended and accounted for
   FEMA funds according to federal regulations and FEMA
   guidelines.

   Key Findings: The Authority’s claim included questionable costs
   of $362,799 for project 95364 (FEMA’s share - $272,099). The
   questionable costs consisted of $148,284 of unsupported force
   account equipment costs, $82,086 of ineligible equipment
   operating costs, $81,856 of excess charges, $41,629 of costs
   covered under FEMA’s statutory administrative allowance, $5,000
   of non-disaster related costs, and $3,944 of unsupported force
   account labor costs.

   Recommendation Summary and Status: As of December 31,
   2007, the five recommendations in this report were open. We have

Status Report on Open Recommendations to DHS Components 


                        Page 197 

   come to partial agreement with the component on the open
   recommendations. The response for these recommendations is due
   in 2008. Upon verification of implementation, the
   recommendations will be closed.

   Estimated Cost Savings: $269,142.

   Non-Monetary Benefits: N/A

   Report Number DO-12-03

   Title: Los Angeles County Department of Public Works
   Alhambra, California.

   Issued: June 2003.

   Abstract: We audited public assistance funds awarded to the Los
   Angeles County Department of Public Works, Alhambra,
   California. The objective of this audit was to determine whether
   the department’s force account labor fringe benefits claim was
   reasonable and according to federal regulations and FEMA
   guidelines.

   Key Findings: The department’s claim included questionable
   costs of $100,252 (FEMA’s share $75,189) for unsupported fringe
   benefits costs on overtime labor ($45,446 for Disaster 1005 and
   $54,806 for Disaster 1044). The records provided to us by the
   department indicated that the fringe benefits rate for regular pay
   was reasonable; however, the rate for the overtime labor was
   overstated because it included costs for retirement, sick leave, and
   unemployment insurance benefits. Generally, these costs are based
   on the regular salaries of the employees and do not vary with the
   payment of overtime costs.

   Recommendation Summary and Status: As of December 31,
   2007, the recommendation in this report was open. We have come
   to partial agreement with the component on the open
   recommendation. Upon verification of implementation, the
   recommendation will be closed.

   Estimated Cost Savings: $75,189.

   Non-Monetary Benefits: N/A

   Report Number DS-03-06


Status Report on Open Recommendations to DHS Components 


                        Page 198 

   Title: Audit of Sonoma County, Santa Rosa, California.

   Issued: April 2006.

   Abstract: The audit was conducted on public assistance grant
   funds awarded to Sonoma County, Santa Rosa, California. The
   objective of the audit was to determine whether the county
   expended and accounted for FEMA funds according to federal
   regulations and FEMA guidelines.

   Key Findings: We questioned $442,644 claimed by the county
   (FEMA share $331,983). Specifically, $361,673 in costs claimed
   but not properly supported, $57,853 in ineligible costs, $13,050 of
   credit not provide to FEMA, and $10,068 in costs covered under
   FEMA’s statutory administrative allowance were questioned.

   Recommendation Summary and Status: As of December 31,
   2007, one of the four recommendations in this report was open.
   We have come to partial agreement with the component on the
   open recommendation. Upon verification of implementation, the
   recommendation will be closed.

   Estimated Cost Savings: $11,048.

   Non-Monetary Benefits: N/A

   Report Number DS-07-01

   Title: Audit of Federal Emergency Management Agency Public
   Assistance Grant Funding Awarded to the State of Washington’s
   Department of General Administration after the Nisqually
   Earthquake.

   Issued: August 2007.

   Abstract: The report assessed the eligibility of work funded under
   FEMA’s Public Assistance Program, and the eligibility of costs
   claimed by the sub-grant recipient, State of Washington’s
   Department of General Administration.

   Key Findings: The audit report findings and the department’s
   responses highlight instances where pertinent documentation
   cannot be located to justify FEMA’s acceptance of claimed costs.
   Although the disaster occurred over 5 years ago, the Emergency
   Management Division and the department have not submitted final
   expenditure reports or a final project completion and certification

Status Report on Open Recommendations to DHS Components 


                        Page 199 

   report; and FEMA has not made a final closeout determination of
   eligible costs.

   Recommendation Summary and Status: As of December 31,
   2007, the recommendation in this report was open. It is unknown
   whether the recommendation has been implemented. Upon
   verification of implementation, the recommendation will be closed.

   Estimated Cost Savings: $4,899,578.

   Non-Monetary Benefits: N/A

   Report Number DS-07-42

   Title: State Homeland Security Grants Awarded to the American
   Samoa Government.

   Issued: May 2007.

   Abstract: We audited ASG’s management of state homeland
   security grants, known as “first responder” grants, awarded by the
   Office for Domestic Preparedness during FY 2002, 2003, and
   2004. The audit objective was to determine whether ASG
   developed and implemented an appropriate homeland security
   strategic plan and grants management practices and controls.

   Key Findings: The review determined that the ASG strategic
   plans were fundamentally flawed in that they did not sufficiently
   identify deficiencies in immediate equipment and training needs
   and overall capabilities of ASG’s first responders. The strategic
   plans also did not sufficiently identify ways to solve the homeland
   security vulnerabilities identified in the plans. In addition,
   systemic deficiencies in ASG’s grants management practices and
   controls were identified, and more than $1.7 million in costs
   claimed against the grants were questioned, of which $151,999
   was unsupported.

   Recommendation Summary and Status: As of December 31,
   2007, the nine recommendations in this report were open. We
   have come to partial agreement with the component on the open
   recommendations. Upon verification of implementation, the
   recommendations will be closed.

   Estimated Cost Savings: $1,713,117.



Status Report on Open Recommendations to DHS Components 


                        Page 200 

   Non-Monetary Benefits: Improved management of state Homeland
   Security grants.

   Report Number EMA-06-03

   Title: Maine Emergency Management Agency.

   Issued: May 2003.

   Abstract: We performed an audit of the FY2000 and 2001
   Emergency Management Performance Grants (EMPG) awarded to
   the Maine Emergency Management Agency (MEMA). The
   objective of the audit was to determine whether MEMA accounted
   for and expended EMPG funds according to federal regulations
   and FEMA guidelines.

   Key Findings: MEMA’s claim included questioned costs of
   $358,040 (FEMA share $265,722) resulting from unsupported
   costs, duplicate charges, and the unauthorized carry over and late
   use of funds provided to local governments.

   Recommendation Summary and Status: As of December 31,
   2007, the six recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $358,040.

   Non-Monetary Benefits: N/A

   Report Number GC-HQ-06-05

   Title: Management Advisory report on the Major Technical
   Assistance Contracts.

   Issued: November 2005.

   Abstract: This review focused on the FEMA’s contract
   management of the four major Technical Assistance Contracts:
   Bechtel National, Inc; CH2M Hill Constructors, Inc.; Fluor
   Enterprises, Inc.; and Shaw Environmental, Inc. Our objective was
   to determine whether FEMA had implemented effective processes
   for managing the four Technical Assistance Contracts.




Status Report on Open Recommendations to DHS Components 


                        Page 201 

   Key Findings: Much of the effort being undertaken by the four
   Technical Assistance Contracts (TACs) is based on verbal
   authorizations and are not currently based on executed task orders.
   FEMA’s procurement activities are consistent with the Federal
   Acquisition Regulations and can be justified under the critical need
   for expedited action resulting from Hurricane Katrina. However,
   the current process of using pre-award cost authorizations without
   spending limits does not provide for effective control of total costs
   for the effort.

   Recommendation Summary and Status: As of December 31,
   2007, the three recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensures best use of government
   resources; protects government assets.

   Report Number GC-HQ-06-06

   Title: Expedited Assistance Overpayment.

   Issued: November 2005.

   Abstract: We initiated this review based on information that a
   married couple received two checks for Expedited Assistance (EA)
   resulting in a $2,000 duplicate payment. The review objective was
   to identify the events that took place and determine why internal
   controls did not prevent the duplicate payment.

   Key Findings: EA was officially authorized for the hurricane
   ravaged states of Louisiana, Mississippi (DR-1604) and Alabama
   (DR-1605) on September 6, 2005, with the stipulation that an equal
   amount of assistance be awarded to all eligible households that met
   the following criteria: 1) registration must be for the primary
   residence only; 2) registrant must be displaced due to the disaster
   or have their access restricted; and 3) registrant is in need of
   shelter. According to the Virginia National Processing Service
   center (VA-NPSC) officials, on September 8, 2005, FEMA HQ
   asked that EA be enabled in the NEMIS with the same system
   controls in place as those used last year for EA provided after the
   Florida hurricanes. At that time, FEMA apparently did not limit
   payments to one person per household. The couple’s payments

Status Report on Open Recommendations to DHS Components 


                        Page 202 

   were processed during that period, slightly less than one day, when
   the controls were not in place to prevent duplicate payments.
   Consequently they each received a $2,000 payment. Of the
   125,714 EA payments made during that period, VA-NPSC has
   identified over 5,126 that may be duplicate payments.

   Recommendation Summary and Status: As of December 31,
   2007, two of the three recommendations in this report were open.
   The component has responded by providing a corrective action
   plan implementing the remaining open recommendations. Upon
   verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: Pending.

   Non-Monetary Benefits: Ensure proper internal controls are in
   place to prevent duplicate payments.

   Report Number GC-HQ-06-09

   Title: Management Advisory Report on Invoices submitted under
   Order HSFEHQ-06-F-0047 by Corporate Lodging Consultants,
   Inc.

   Issued: February 2006.

   Abstract: This review focused on the FEMA's contract
   management and administration of a task order under a Blanket
   Purchase Agreement (BPA) Number QPN-BQR-0016 awarded by
   the General Services Administration to Corporate Lodging
   Consultants, Inc. (CLC). The objective was to determine whether
   FEMA had used effective contract management processes to award
   and administer a task order to provide emergency lodging for
   Katrina evacuees.

   Key Findings: The BPA provided fixed rates per room night for
   CLC's services with lodging costs priced separately at cost. The
   BPA did not provide any mechanisms to control lodging costs (i.e.,
   provided neither monetary incentives for meeting lodging cost
   goals nor penalties for not meeting lodging cost goals).

   Recommendation Summary and Status: As of December 31,
   2007, the three recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

Status Report on Open Recommendations to DHS Components 


                        Page 203 

   Estimated Cost Savings: Pending.

   Non-Monetary Benefits: Ensure effective process for contract
   management to award and administer task orders.

   Report Number GC-HQ-06-10

   Title: Strengthening Registration Intake Controls.

   Issued: February 2006.

   Abstract: This review focused on the effectiveness of procedures
   in place governing the process that applicants use to register for
   individual disaster assistance.

   Key Findings: The review disclosed certain shortcomings with
   FEMA's registration intake controls including instances where
   employees overrode the controls that were in place. Specifically,
   some reviewing employees approved applications for payment
   without thoroughly verifying that the information was correct and
   that there was no duplication. It is recognized that some controls
   were eased to expedite assistance to as many applicants as
   possible. However, now that the majority of victims have
   registered, FEMA should reinstate these controls.

   Recommendation Summary and Status: As of December 31,
   2007, two of the three recommendations in this report were open.
   The component has responded by providing a corrective action
   plan implementing the remaining open recommendations. Upon
   verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $65,000.

   Non-Monetary Benefits: Ensure effectiveness of procedures in
   place governing the process that applicants use to register for
   individual disaster assistance.

   Report Number GC-HQ-06-12

   Title: Mobile Homes and Modular Homes at Hope and Red River.

   Issued: February 2006.




Status Report on Open Recommendations to DHS Components 


                        Page 204 

   Abstract: This review focused on procedures used by FEMA to
   accept and maintain manufactured homes and modular homes
   staged at Hope, Arkansas and Red River Army Depot (RRAD),
   Texas. The objectives were to determine whether FEMA
   established reasonable requirements for these types of housing
   units and to evaluate the current arrangements for staging them.

   Key Findings: There are currently 10,777 homes at the Hope site
   and about 1,900 at the RRAD site. FEMA began receiving the
   homes at the two sites in September 2005, but only 17 from Red
   River have been used to house evacuees, and none from Hope have
   been delivered to evacuees.

   During site visits to the Hope staging site, inspectors found that
   some of the homes had minor damages, which occurred during
   delivery, and some were beginning to sink in mud as a result of
   heavy rainfall. Also, frames on some of the larger homes were
   beginning to warp because they were stored on wheeled trailer
   hitches without adequate support. Although the damages did not
   appear to be serious, there was concern that, if preventative
   measures were not taken soon, more serious deterioration may
   occur. FEMA officials said that they were going to cover the sight
   with crushed rock for stability and shore up the homes with jacks
   to prevent frames from warping.

   Recommendation Summary and Status: As of December 31,
   2007, the four recommendations in this report were open. The
   component has responded by providing a corrective action plan
   implementing one of the open recommendations. It is unknown
   whether three of the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure best use of government resources
   and protect government assets.

   Report Number GC-HQ-06-17

   Title: Management Advisory Report on Armed Guard Services
   Provided by Blackwater Security Consulting, LLC under contract
   HSCEFC-05-J-F00002.

   Issued: March 2006.


Status Report on Open Recommendations to DHS Components 


                        Page 205 

   Abstract: This review focused on whether the Federal Protective
   Services’ (FPS’s) contract number HSCEFC-05-J-F0002 awarded
   to Blackwater Security Consulting, LLC (Blackwater Security)
   was appropriate and the costs were reasonable. FPS awarded
   Blackwater $33.3 million through December 31, 2005, for guard
   services in Louisiana.

   Key Findings: FPS' contractor selection process for armed guard
   services was appropriate and the contract prices were reasonable.
   FEMA established a number of field offices for its response and
   recovery missions and these facilities required protection, FPS
   officials said that the services that Blackwater Security provided
   satisfied the security needs at the FEMA operational facilities.
   However, security requirements have changed from the initial
   response period and there may be opportunities to reduce costs by
   soliciting competitive proposals using a mix of armed and unarmed
   security personnel.

   Recommendations Summary and Status: As of December 31,
   2007, the two recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure appropriate awarding and costs
   of contracts are reasonable.

   Report Number GC-HQ-06-35

   Title: Cannibalization of Travel Trailers by Bechtel.

   Issued: April 2006.

   Abstract: This review focused on an allegation that Bechtel
   National, Inc. was cannibalizing travel trailers at its forward
   staging areas in Mississippi. Bechtel is one of FEMA's technical
   assistance contractors responsible for delivering and installing
   travel trailers in response to Hurricanes Katrina and Rita.

   Key Findings: FEMA officials told us that 51 trailers had been
   cannibalized at Bechtel forward staging areas. We visited two of
   the three staging areas and determined 36 cannibalized trailers, as
   well as other trailers that were not mission capable.
   Cannibalization was a way to make at least some of the damaged

Status Report on Open Recommendations to DHS Components 


                        Page 206 

   trailers mission capable to meet the needs of evacuees. However,
   both Federal Acquisition Regulations and the Bechtel contract
   require that Bechtel notify FEMA of any property received in a
   condition not suitable for its intended use. In addition, some of the
   deficient trailers may have been eligible under the manufacturer's
   warranty, but Bechtel's decision to cannibalize damaged trailers
   may have voided the manufacturer's warranty.

   Recommendation Summary and Status: As of December 31,
   2007, the two recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Improved program management;
   ensuring best use of government resources and protection of
   government resources.

   Report Number GC-HQ-06-40

   Title: Review of FEMA Policy for Funding Public Assistance
   Administrative Costs.

   Issued: April 2006.

   Abstract: This review focused on FEMA awards of funds to cover
   grantee operations associated with the administration of public
   assistance grants.

   Key Findings: FEMA should initiate immediate action to correct
   weaknesses in awarding funds to cover grantee operations
   associated with the administration of public assistance grants.
   Currently, FEMA provides assistance in the form of an
   administrative allowance, as well as state management
   administrative grants to cover needs that are unmet by the
   allowance. However, there is a real potential for excess funding
   and a financial windfall for state grantees because the two fund
   sources cover essentially the same activities and no provisions
   exist for the state grantees to report or return unused funds granted
   under the allowance.

   Recommendation Summary and Status: As of December 31,
   2007, one of the four recommendations in this report was open.
   The component has responded by providing a corrective action

Status Report on Open Recommendations to DHS Components 


                        Page 207 

   plan implementing the remaining open recommendation. Upon
   verification of implementation, the recommendation will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensures proper accounting practices are
   followed.

   Report Number GC-HQ-06-41

   Title: Management Advisory Report on Contract HSFEHQ-06-C-
   0024 to Provide Assistance to Eligible Evacuees in Need of
   Housing and Pharmaceuticals.

   Issued: June 2006.

   Abstract: This review focused on Katrina evacuee hotel invoices
   submitted by the American Red Cross to FEMA for reimbursement
   under the subject contract. The objectives of the review are to
   determine whether: (1) lodging rates were reasonable, allowable,
   and necessary; (2) evacuees were eligible to receive lodging; and
   (3) effective contracting practices were adhered.

   Key Findings: The American Red Cross identified unallowable
   charges it billed to FEMA for lodging its employees and
   volunteers. Only evacuee lodging expenses are allowable costs
   under the contract with the American Red Cross. The American
   Red Cross has identified $103,293 of such billings to date, and is
   continuing to identify additional unallowable billings.

   Recommendation Summary and Status: As of December 31,
   2007, the three recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure best use of government
   resources; protect government assets.

   Report Number GC-HQ-06-45

   Title: Improvements Needed in the Classification and Distribution
   of Hurricane Katrina Disaster Relief Costs.


Status Report on Open Recommendations to DHS Components 


                        Page 208 

   Issued: July 2006.

   Abstract: This review focused on procedures for classifying
   Hurricane Katrina disaster relief costs as part of ongoing oversight
   of Hurricane Katrina operations. The objective was to determine
   whether the classification of direct and administrative costs for
   Alabama, Louisiana, and Mississippi was reasonable and accurate.

   Key Findings: FEMA needs to improve its cost identification and
   classification. Because it did not classify costs properly, FEMA
   provided inaccurate information to managers, Congress, and the
   public on how taxpayer funds were spent. First, in Alabama,
   Louisiana, and Mississippi, FEMA charged direct costs to an
   administrative cost category, resulting in overstated administrative
   costs and understated direct costs. Second, FEMA charged costs to
   the Mississippi disaster that should have been distribution among
   the three states.

   Recommendation Summary and Status: As of December 31,
   2007, one of the two recommendations in this report was open.
   The component has responded by providing a corrective action
   plan implementing the remaining open recommendation. Upon
   verification of implementation, the recommendation will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure proper accounting practices are
   followed.

   Report Number GC-LA-06-54

   Title: Interim Review of Hurricane Katrina Activities, St. Bernard
   Parish, Louisiana.

   Issued: September 2006.

   Abstract: This review focused on emergency protective services
   and other disaster costs associated with Hurricane Katrina
   activities for St. Bernard Parish, LA. The objective of the review
   was to determine whether the Parish was accounting properly for
   disaster-related costs, and whether such costs were eligible for
   funding under FEMA’s Public Assistance program.

   Key Findings: The Parish's management of its disaster activities
   was deficient in three principal areas: (1) the accounting system
   did not allocate costs properly or document cost eligibility; (2) the

Status Report on Open Recommendations to DHS Components 


                        Page 209 

   Parish did not comply with federal contracting procedures; and (3)
   the Parish did not maintain accountability for capital asset
   purchases.

   Recommendation Summary and Status: As of December 31,
   2007, four of the seven recommendations in this report were open.
   The component has responded by providing a corrective action
   plan implementing the remaining open recommendations. Upon
   verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $3,736,032.

   Non-Monetary Benefits: N/A

   Report Number GC-MS-06-25

   Title: Review of Hurricane Katrina Activities, City of Biloxi,
   Mississippi.

   Issued: March 2006.

   Abstract: This review focused on emergency services and debris
   removal costs associated with Hurricane Katrina activities for the
   City of Biloxi, MS. The objective of the review was to determine
   whether the city was properly accounting for disaster related costs
   and whether such costs were eligible for funding under FEMA’s
   disaster assistance programs.

   Key Findings: The city accounted for funds on a project-by-
   project basis consistent with federal regulations for large projects.
   Additionally, project expenditures were supported by invoices,
   cancelled checks, and other source documentation. However,
   FEMA awards and the city records included $1.9 million for debris
   removal from federal aid roads that are the responsibility of the
   Federal Highway Administration (FHA). According to 44 CFR,
   FEMA cannot pay for the cost of activities that are the
   responsibility of another federal agency.

   Recommendation Summary and Status: As of December 31,
   2007, the two recommendations in this report were open. The
   component has responded by providing a corrective action plan
   implementing the remaining open recommendations. Upon
   verification of implementation, the recommendations will be
   closed.


Status Report on Open Recommendations to DHS Components 


                        Page 210 

   Estimated Cost Savings: $1,900,000.

   Non-Monetary Benefits: N/A

   Report Number GC-MS-06-29

   Title: Review of FEMA Contracts Awarded by Contracting
   Officers at the Jackson, Mississippi Joint Field Office.

   Issued: March 2006.

   Abstract: This review focused on contracts awarded by FEMA
   contracting officers at the Jackson, MS Joint Field Office (JFO) to
   determine whether the FEMA contracting officers complied with
   Title 48 of the Federal Code of Regulations, also known as the
   FAR, in selection of contractors for government services and
   products.

   Key Findings: FEMA contracting officers at the Jackson, MS JFO
   generally complied with the FAR. However, in one instance, a
   $200,000 sole source contract for printing services was awarded
   without the required justification. Controls to ensure the most
   beneficial price for government printing services were
   circumvented.

   Recommendation Summary and Status: As of December 31,
   2007, the recommendation in this report was open. It is unknown
   whether the recommendation has been implemented. Upon
   verification of implementation, the recommendation will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure best use of government
   resources.

   Report Number GC-MS-06-36

   Title: Review of Hurricane Katrina Activities, City of Wiggins,
   Mississippi.

   Issued: April 2006.

   Abstract: This review focused on debris removal costs associated
   with Hurricane Katrina activities for the City of Wiggins,
   Mississippi. The objective of the review was to determine whether
   the city was properly accounting for disaster related costs and

Status Report on Open Recommendations to DHS Components 


                        Page 211 

   whether such costs were eligible for funding under FEMA's
   disaster assistance program.

   Key Findings: The city accounted for funds on a project-by-
   project basis consistent with federal regulation for large projects,
   44 CFR§206.205. Additionally, expenditures were supported by
   checks, invoices, and other source documents. Also, the city's
   contracts for debris removal activities were competitively awarded
   and generally complied with federal regulation 44 CFR§13.36.

   However, the city did not take action to ensure that it obtained the
   best price for debris contract monitors. Rather than attempt to
   negotiate a lower price for debris monitoring, the city paid the firm
   the rates in the existing contract.

   Recommendation Summary and Status: As of December 31,
   2007, the recommendation in this report was open. The
   component has responded by providing a corrective action plan
   implementing the remaining open recommendation. Upon
   verification of implementation, the recommendation will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure best use of government
   resources; protect government assets.

   Report Number GC-MS-06-37

   Title: Review of Hurricane Katrina Activities, Dixie Electric
   Power Association.

   Issued: April 2006.

   Abstract: This review focused on emergency services and debris
   removal costs associated with Hurricane Katrina for the Dixie
   Electric Power Association. The objective of the review was to
   determine whether the association was properly accounting for
   disaster-related costs and whether such costs were eligible for
   funding under FEMA's disaster assistance programs.

   Key Findings: The association accounted for funds on a project-
   by-project basis consistent with federal regulation for large
   projects 44 CFR§206.205. Additionally, expenditures were
   supported by checks, invoices, and other source documents.
   However, for six large projects, the association's grant
   expenditures included $207,068 of ineligible overtime salary

Status Report on Open Recommendations to DHS Components 


                        Page 212 

   ($118,089) and fringe benefit ($88,979) costs for association
   managers and supervisors.

   Recommendation Summary and Status: As of December 31,
   2007, the recommendation in this report was open. It is unknown
   whether the recommendation has been implemented. Upon
   verification of implementation, the recommendation will be closed.

   Estimated Cost Savings: $ 207,068.

   Non-Monetary Benefits: N/A

   Report Number GC-MS-06-47

   Title: Review of Hurricane Katrina Activities Pearl River County,
   MS.

   Issued: August 2006.

   Abstract: This review focused on debris removal costs associated
   with Hurricane Katrina activities for Pearl River County,
   Mississippi. The objective of the review was to determine whether
   the county was properly accounting for disaster-related costs and
   whether such costs were eligible for funding under FEMA’s
   disaster assistance program.
   Key Findings: The county accounted for funds on a project-by-
   project basis consistent with federal regulation for large projects,
   44 CFR§206.205. Additionally, expenditures were supported by
   checks, invoices, and other source documents. Also the county's
   contracts for debris removal activities were competitively awarded
   and generally complied with federal regulation 44 CFR§13.36.
   However, the county did not take action to ensure that it obtained
   the best price for debris contract monitors. The county elected to
   retain an engineering firm, with whom it had an existing contract
   relationship, to monitor the activities of debris contractors.

   Recommendation Summary and Status: As of December 31,
   2007, the recommendation in this report was open. The
   component has responded by providing a corrective action plan
   implementing the remaining open recommendation. Upon
   verification of implementation, the recommendation will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure best use of government
   resources; protect government assets.

Status Report on Open Recommendations to DHS Components 


                        Page 213 

   Report Number GC-MS-06-48

   Title: Review of Hurricane Katrina Activities Stone County,
   Mississippi.

   Issued: August 2006.

   Abstract: This review focused on debris removal costs associated
   with Hurricane Katrina for Stone County, Mississippi. The
   objective of the review was to determine whether the county was
   properly accounting for disaster-related costs and whether such
   costs were eligible for funding under disaster assistance programs.

   Key Findings: The county accounted for funds on a project-by-
   project basis consistent with federal regulation for large projects,
   44 CFR§206.205. Additionally, expenditures were supported by
   checks, invoices, and other source documents. Also, the county's
   contracts for debris removal activities were generally awarded
   according to federal procurement regulations 44 CFR§13.36.

   However, the county did not ensure that it obtained the best price
   for debris contract monitors. The county elected to retain an
   engineering firm, with whom it had an existing contract, to monitor
   the activities of debris contractors.

   Recommendation Summary and Status: As of December 31,
   2007, the recommendation in this report was open. The
   component has responded by providing a corrective action plan
   implementing the remaining open recommendation. Upon
   verification of implementation, the recommendation will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure best use of government
   resources; protect government assets.

   Report Number GC-MS-06-55

   Title: Review of Hurricane Katrina Activities City of Long Beach,
   Mississippi.

   Issued: September 2006.

   Abstract: This review focused on emergency services and debris
   removal costs associated with Hurricane Katrina activities for the

Status Report on Open Recommendations to DHS Components 


                        Page 214 

   City of Long Beach, Mississippi. The objective of the review was
   to determine whether the city was properly accounting for disaster-
   related costs and whether such costs were eligible for funding
   under FEMA's disaster assistance programs.

   Key Findings: The city accounted for finds on a project-by-project
   basis consistent with federal regulations for large projects, 44
   CFR§ 5 206.205. Additionally, it supported expenditures with
   checks, invoices, and other source documentation. Also, the city's
   contracts for debris removal activities were generally awarded
   according to federal procurement regulations 44 CFR§13.36. The
   city, however, did not ensure that it obtained the best price for
   debris contract monitors.

   Recommendation Summary and Status: As of December 31,
   2007, the two recommendations in this report were open. The
   component has responded by providing a corrective action plan
   implementing the remaining open recommendations. Upon
   verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: Pending.

   Non-Monetary Benefits: Ensure best use of government
   resources; protect government assets.

   Report Number GC-TX-06-26

   Title: Review of Hurricane Katrina Activities City of San Antonio,
   Texas.

   Issued: March 2006.

   Abstract: The review focused on the emergency sheltering costs
   associated with Hurricane Katrina activities for the City of San
   Antonio, Texas. The objective of the review was to determine
   whether the city was properly accounting for disaster related costs
   and whether such costs were eligible for funding under FEMA’s
   disaster assistance programs.

   Key Findings: Except for control weaknesses related to the $2.24
   million paid to apartment complexes the city had an effective
   system of accounting for and ensuring the appropriate use of
   disaster grant funds. The control weaknesses resulted from the
   city's not verifying the accuracy of bills received from apartment
   complexes housing Hurricane Katrina evacuees. Additionally, the

Status Report on Open Recommendations to DHS Components 


                        Page 215 

   city had not organized apartment lease agreements in a manner to
   facilitate such verifications.

   Recommendation Summary and Status: As of December 31,
   2007, the two recommendations in this report were open. We
   received verification of implementation in 2008 and the
   recommendations have been closed.


   Estimated Cost Savings: $2,240,000.

   Non-Monetary Benefits: N/A

   Report Number M04-BCBP-LAX-07060

   Title: Customs and Border Protection, Los Angeles International
   Airport.

   Issued: October 2004.

   Abstract: We received information alleging that funds in the
   amounts of $10,000 and $15,000 was discovered missing from the
   CBP safe at the Tom Bradley International Terminal, Los Angeles
   International Airport, California. The funds were inventoried on
   multi-copy property receipts, placed into security pouches with a
   copy of the receipts, secured with numbered security seals, and
   placed in the CBP safe.

   Key Findings: The investigation revealed that CBP has a policy
   for processing valuables held and inventoried while
   aliens/individuals are detained. The policy requires the
   maintenance of a log to record the placement of the items in the
   safe. However, logs are not standardized, maintained consistently,
   accurately or securely, and parts of the logs have been discovered
   missing. The local policy requires an audit of the log and contents
   of the safe at the beginning of each shift. However, the audits
   were not performed; thereby the thefts went undetected for an
   unspecified period of time. Additionally, the CBP safe was left
   open for undetermined periods of time allowing all CBP
   employees access. Finally, CBP management does not know the
   number of CBP employees that have the safe combination.

   Recommendation Summary and Status: As of December 31,
   2007, the eight recommendations in this report were open. The
   component has received a Management Implication Report. Upon


Status Report on Open Recommendations to DHS Components 


                        Page 216 

   completion and verification of implementation, the
   recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Complete standardization of CBP safe
   security procedures at the Los Angeles International Airport,
   California.

   Report Number M05-BICE-ELC-05480

   Title: Lack of Passport Accountability, Department of Homeland
   Security, U.S. Immigrations and Customs Enforcement, El Centro
   Service Processing Center.

   Issued: March 2005.

   Abstract: We received information regarding the misplacement of
   an official government passport by personnel at the DHS ICE El
   Centro Service Processing Center, CA. These passports are used
   by ICE Immigration Enforcement Agents to escort detainees to
   their home countries after a formal order of deportation has been
   issued. Since June 2004, on two separate occasions, five passports
   have been identified as missing. Four of the passports have been
   located, but one is still missing.

   Key Findings: The investigation revealed a number of passport
   security deficiencies. The current security procedures are
   inadequate, inefficient, and leave opportunities for loss. The
   current standard operating procedure does not address certain
   critical elements and is not known by most employees at the
   center.

   Recommendation Summary and Status: As of December 31,
   2007, the five recommendations in this report were open. The
   component has received a Management Implication Report. Upon
   completion and verification of implementation, the
   recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Increased security procedures for storing
   Official Government Passports at the DHS ICE El Centro Service
   Processing Center, California.



Status Report on Open Recommendations to DHS Components 


                        Page 217 

   Report Number M05-BICE-LAX-00125

   Title: Mira Loma Detention Center, Detention and Removal
   Operations, U.S. Immigration and Customs Enforcement.

   Issued: May 2005.

   Abstract: We received information regarding an alien who was
   allegedly deprived of his civil rights by an Immigration
   Enforcement Agent from the ICE, Detention and Removal
   Operations at the Mira Loma Detention Center, California. The
   alien alleged that he was physically and verbally assaulted by the
   agent who was incited by officers of the Los Angeles County
   Sheriff Department. The alien further alleged that he was being
   racially profiled by the Los Angeles County Sheriff Department.

   Key Findings: The Mira Loma Detention Center is owned and
   fully staffed by the Los Angeles County Sheriff Department. The
   ICE, Detention and Removal Operations, Los Angeles, contracted
   with the center in 1997 to house and support operations involving
   detention of aliens in the Los Angeles/Orange County areas.
   Throughout the investigation the Los Angeles County Sheriff
   Department refused to provide, without a subpoena, full and
   complete documentation of an internal investigation it had
   conducted of the alleged event. The refusal by the Los Angeles
   County Sherriff Department hindered the conduct of the
   investigation, its timeliness, and possibly, its outcome.

   Recommendation Summary and Status: As of December 31,
   2007, the one recommendation in this report was open. The
   component has received a Management Implication Report. Upon
   completion and verification of implementation, the
   recommendation will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: An improved contract between ICE,
   Detention and Removal Operations, and the Los Angeles County
   Sheriff Department for use of facilities at the Mira Loma Detention
   Center, California.

   Report Number M05-BICE-TUC-07713

   Title: Unsafe Conveyance Allowing for Prisoner Escape.

   Issued: March 2005.

Status Report on Open Recommendations to DHS Components 


                        Page 218 

   Abstract: Our Tucson Field Office received information regarding
   circumstances surrounding the escape of three undocumented alien
   prisoners from the custody of ICE, Detention and Removal,
   Tucson, Arizona, while be transported on a DRO bus.

   Key Findings: The investigation revealed that certain
   modifications made to buses used by ICE Detention and Removal
   Operations to transport undocumented alien prisoners have
   facilitated prisoner escapes and created a safety concern for the
   officers manning the buses. It was discovered that the process of
   retrofitting the buses to accommodate rooftop air conditioning
   systems required modifications to the interior cage doors that, in
   turn, rendered the doors less secure.

   Recommendation Summary and Status: As of December 31,
   2007, the four recommendations in this report were open. The
   component has received a Management Implication Report. Upon
   completion and verification of implementation, the
   recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Secured transportation of undocumented
   alien prisoners in the custody of ICE Detention and Removal
   Operations.

   Report Number M05-CBP-LAR-12693

   Title: Lack of CBP Policy Regarding Detainee Property.

   Issued: May 2006.

   Abstract: We received information regarding an undocumented
   immigrant whom was missing personal property for which there
   was a receipt.

   Key Findings: The investigation revealed that CBP did not have a
   policy to dictate the record keeping requirements for maintaining
   custody of undocumented immigrant’s property when seized by
   CBP. Further, it was determined that CBP did not have a policy to
   outline the standard operating procedure for the disposal of the
   undocumented immigrant’s property.

   Recommendation Summary and Status: As of December 31,
   2007, the recommendation in this report was open. The Report.

Status Report on Open Recommendations to DHS Components 


                        Page 219 

   Upon completion and verification of implementation, the
   recommendation will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Formulation of proper procedures to
   inventory, account, and properly dispose of undocumented
   immigrant's property.

   Report Number M05-CBP-MIA-11844

   Report Title: Lack of Control System for CBP Container Seals at
   the Port of Miami.

   Issued: October 2005.

   Abstract: Our Miami Field Office received information regarding
   allegations of a non-DHS employee was attempting to facilitate the
   illegal sale of CBP container seals obtained form the Port of
   Miami, Florida.

   Key Findings: The investigation revealed that the CBP container
   seals used at the Port of Miami to indicate containers have been
   inspected and cleared by CBP inspectors are stored and issued to
   CBP employees without the use of an adequate control system. A
   CBP inspector stationed at the Port of Miami removed several CBP
   container seals from the post of duty and lost control of them at a
   personal residence. The spouse, a non-DHS employee, retrieved
   the CBP container seals and attempted to illegally sell them to a
   DHS special agent acting in an undercover capacity.

   Recommendation Summary and Status: As of December 31,
   2007, the two recommendations in this report were open. The
   component has received a Management Implication Report. Upon
   completion and verification of implementation, the
   recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Establishment of adequate control
   system for CBP container seals.

   Report Number M06-FEMA-HOU-22692

   Title: Need Improvements to the FEMA Telephone Registration
   Intake Script and FEMA Form 90-69B, Declaration and Release.

Status Report on Open Recommendations to DHS Components 


                        Page 220 

   Issued: November 2006.

   Abstract: We received information that an alien nonimmigrant
   student visa holder, category F1, had received disaster benefits
   from FEMA. For disaster benefit purposes, F1 visa holders are not
   Qualified Aliens and are ineligible for such benefits.

   Key Findings: The investigation revealed that at least 44 foreign
   nonimmigrant visa-holders in Beaumont, Texas, received disaster
   benefits from FEMA to which they were not entitled. A
   nonimmigrant visa holder is not a Qualified Alien as defined by
   FEMA, and is therefore ineligible for disaster benefits. The
   investigation further disclosed that FEMA’s telephone registration
   procedures do not incorporate provisions to identify and screen out
   ineligible aliens, and the Form 90-69B does not properly define the
   term Qualified Alien.

   Recommendation Summary and Status: As of December 31,
   2007, the two recommendations in this report were open. The
   component has received a Management Implication Report. Upon
   completion and verification of implementation, the
   recommendations will be closed.

   Estimated Cost Savings: N/A.

   Non-Monetary Benefits: Assurance that F1 visa holders do not
   receive disaster benefits from FEMA.

   Report Number M06-CBP-ELC-18604

   Title: Techniques and Training Methods for Subduing and
   Restraining Combative Detainees.

   Issued: April 2007.

   Abstract: Our El Centro Resident Office received information
   regarding the in-custody death of a United States Citizen at the
   CBP Calexico Port of Entry, California. The citizen was
   encountered at the primary vehicle inspection lane, and became
   combative and aggressive toward CBP officers. The citizen was
   subdued by a large group of CBP officers and restrained in a hogtie
   position. Within one to two minutes of being hogtied, the citizen
   lost consciousness. Emergency personnel were summoned and
   transported the citizen to a nearby hospital. The citizen was
   pronounced dead shortly after arrival. Subsequent autopsy results

Status Report on Open Recommendations to DHS Components 


                        Page 221 

   indicated that the citizen died of cardiac arrest caused by acute
   ethanol and methamphetamine intoxication with excited delirium
   needing restraint.

   Key Findings: The investigation revealed that DHS has no
   definitive policy regarding hogtying at FLETC, nor is hogtying
   addressed in training received by CBP officers. The investigation
   further identified a deficiency in the training received by field
   personnel regarding the identification of drug abuse symptoms and
   the proper response.

   Recommendation Summary and Status: As of December 31,
   2007, the two recommendations in this report were open. The
   component has received a Management Implication Report. Upon
   completion and verification of implementation, the
   recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Development of guidance to CBP
   officers regarding the use of hogtying techniques.

   Report Number M06-CBP-SND-19040

   Title: Suggested Modifications to TECS.

   Issued: November 2006.

   Abstract: We received information concerning allegations of a
   CBP officer at the San Diego Ports of Entry, California, was
   assisting a resident alien in smuggling undocumented aliens into
   the United States from Mexico. This investigation was conducted
   jointly with the Federal Bureau of Investigation, Department of
   Justice, and members of the Border Corruption Task Force.

   Key Findings: The investigation revealed the CBP officer would
   communicate with the alien smugglers via cellular telephone and
   pager. A date, time, and traffic lane to approach would be
   provided by the CBP officer 15 minutes before the shift began.
   Upon approach, the CBP officer would turn off the automatic
   license plate reader in the traffic lane. With the lane reader off,
   none of the license plates on vehicles entering from Mexico into
   the United States could be recorded in the Treasury Enforcement
   Communications System (TECS).



Status Report on Open Recommendations to DHS Components 


                        Page 222 

   Recommendation Summary and Status: As of December 31,
   2007, the four recommendations in this report were open. The
   component has received a Management Implication Report. Upon
   completion and verification of implementation, the
   recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Assurance that CBP officers at ports of
   entry record all license plate information into TECS.

   Report Number M08-OGPO-MIA-00379

   Title: UASI Nonprofit Security Grant Program.

   Issued: December 2007.

   Abstract: Our Miami Field Office received information regarding
   an allegation that an organization and two affiliated individuals,
   allegedly with links to terrorism, had received a DHS grant funds
   as an At-Risk Nonprofit.

   Key Findings: The investigation revealed that organizations and
   entities that apply for grants under the Urban Area Security
   Initiative (UASI), Nonprofit Security Grant Program, did not
   undergo any examination by law enforcement entities prior to
   issuance of award monies. Particularly, these organizations were
   not scrutinized using law enforcement databases to determine
   whether any derogatory information is revealed, which might halt
   the approval of some grants.

   Recommendation Summary and Status: As of December 31,
   2007, the three recommendations in this report were open. The
   component has received a Management Implication Report. Upon
   completion and verification of implementation, the
   recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Assurance that organizations and entities
   with links to terrorism do not receive federal grant funds.

   Report Number OIG-04-01

   Title: Automated Commercial Environment Secure Data Web
   Portal: Quality of Deliverables Can Be Improved.

Status Report on Open Recommendations to DHS Components 


                        Page 223 

   Issued: November 2003.

   Abstract: We conducted an audit of U.S. Customs and Border
   Protection’s (CBP) Automated Commercial Environment (ACE)
   secure data web portal. ACE will allow the private sector trade
   community to submit data meeting all federal requirements for
   cargo entering and leaving the U.S., including data used for
   targeting cargo for inspection, revenue collection, and trade
   statistics. In the first of three reports, we reported on the quality of
   deliverables, called “releases,” received from the prime contractor,
   a consortium headed by IBM Global Services. Some of the initial
   deliverables did not meet all requirements and were accepted with
   conditions by legacy Customs to allow the contract to continue as
   scheduled. Release 2 was to provide a working system accessible
   to internal CBP account managers and 41 trade companies, and
   problems were being encountered in meeting some of the
   requirements. Because Release 2 was the foundation for all further
   ACE development efforts, we recommended the release not be
   accepted for delivery until it is complete and meets all contract
   requirements.

   Key Findings: We determined that a subcontractor providing
   technical support to the consortium was submitting activity and
   progress reports with insufficient detail to identify important issues
   for action, including recommended solutions and alternatives. We
   recommended that the reports be improved.

   Recommendation Summary and Status: As of December 31,
   2007, one of the two recommendations in this report was open. It
   is unknown whether the recommendation has been implemented.
   Upon verification of implementation, the recommendation will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Better information to improve the
   quality of contract deliverables for a critical $3 billion contract.

   Report Number OIG-04-08

   Title: Background Checks for Federal Passenger and Baggage
   Screeners at Airports.

   Issued: January 2004.


Status Report on Open Recommendations to DHS Components 


                        Page 224 

   Abstract: The Aviation and Transportation Security Act of 2001
   directed the TSA to hire airline passenger and baggage screeners
   by November 19 and December 31, 2002, respectively. The law
   requires that federal screeners undergo a background investigation,
   including a criminal history records check and a review of
   available law enforcement databases and records of other U.S.
   governmental and international agencies.

   Key Findings: TSA met the hiring deadlines, employing
   approximately 55,600 screeners, but, as of June 2003, background
   checks for more than half of the screener pool were incomplete.
   TSA did not maintain control over the quantity, quality, or
   timeliness of background check documentation and processing.
   TSA’s personnel security office did not: (1) develop a
   comprehensive plan, including screener position risk designations,
   to administer the background checks effectively; (2) have
   sufficient staff to meet workload demands; (3) provide substantive
   oversight of the contractors’ performance; or, (4) develop an
   adequate information tracking system to manage the process. As a
   result, TSA allowed some screeners to work without first
   completing a criminal history.

   Recommendation Summary and Status: As of December 31,
   2007, one of the 12 recommendations in this report was open. The
   component has responded by providing a corrective action plan
   implementing the remaining open recommendation. Upon
   verification of implementation, the recommendation will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Improved ability for TSA to ensure
   timely background checks for airport screeners.

   Report Number OIG-04-12

   Title: Federal Emergency Management Agency’s Acquisition
   Workforce.

   Issued: March 2004.

   Abstract: FEMA’s mission was to reduce the loss of life and
   property and protect our institutions from all hazards. In support
   of this mission, FEMA processed more than 2,600 procurement
   actions for $429 million during Fiscal Year (FY) 2002. In March
   2003, FEMA became part of DHS.


Status Report on Open Recommendations to DHS Components 


                        Page 225 

   Key Findings: We audited FEMA’s management of its acquisition
   workforce and concluded that FEMA did not devote sufficient
   attention or resources to maintain its acquisition files and policies
   or managing its acquisition workforce. Numerous deficiencies in
   FEMA’s record keeping prevented us from performing a thorough
   analysis of acquisition workforce capability and workload
   management or determining whether acquisition personnel met
   training, education, and experience requirements. Also, it was not
   possible to evaluate workload management; however, there were
   indications that FEMA needs to manage workload more
   effectively. The absence of capability and performance
   information in employee files, and the absence of operational
   reviews indicated that managers might not have the information
   needed to manage workload.

   Recommendation Summary and Status: As of December 31,
   2007, one of the four recommendations in this report was open. It
   is unknown whether the recommendation has been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure FEMA devotes sufficient
   attention or resources to maintaining and updating its acquisition
   files and policies or managing its acquisition workforce.

   Report Number OIG-04-15

   Title: Distributing and Spending “First Responder” Grant Funds.

   Issued: March 2004.

   Abstract: Spurred by the attacks of September 11, 2001,
   Congress, state and local politicians, “first responders,” and the
   general public have become more aware of the need to increase
   preparedness against terrorist incidents. Recipients of
   preparedness funds have complained that the funds are being
   distributed too slowly. We conducted an audit to determine
   whether first responder funds were being distributed and spent in a
   timely fashion, and, if not, the reasons for the delay.

   Key Findings: States, localities, and first responder organizations
   have been slow to receive and spend Office for Domestic
   Preparedness (ODP) first responder grant funds.


Status Report on Open Recommendations to DHS Components 


                        Page 226 

   In some instances, states and local jurisdictions had delayed
   spending funds pending the development of detailed spending
   plans, believing that spending the funds wisely was more important
   than spending them immediately. Numerous other reasons delayed
   spending. While some of the delays are unavoidable, others can be
   reduced. ODP’s application process was not a major reason for
   delays. Some state officials praised ODP and believed that ODP
   processed grant applications in a timely manner.

   Recommendation Summary and Status: As of December 31,
   2007, three of the seven recommendations in this report were open.
   It is unknown whether the recommendations have been
   implemented. Upon verification of implementation, the
   recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure development of federal
   guidelines for first responder capabilities, equipment, training, and
   exercises.

   Report Number OIG-04-20

   Title: AMOC Needs to Improve Written Guidelines For Providing
   Assistance to Other Agencies.

   Issued: March 2004.

   Abstract: We initiated an audit of the Air and Marine Operations
   Centers (AMOC) in response to congressional concerns regarding
   assistance AMOC provided to the Texas Department of Public
   Safety (DPS) in locating a missing aircraft with Texas state
   legislators on board. AMOC is a national interagency law
   enforcement facility using civil aviation and military sensor
   networks to support law enforcement and national defense
   operations throughout the Western Hemisphere. The audit
   assessed the propriety of AMOC’s guidelines for rendering
   assistance to federal, state, and local law enforcement agencies.

   Key Findings: We concluded that assistance rendered to the Texas
   DPS by AMOC was consistent with AMOC’s mission and policy
   of providing assistance to federal, state, and local law enforcement
   agencies. AMOC’s policy was to presume that any request from a
   law enforcement agency, whether law enforcement or
   humanitarian oriented, was valid and would not be denied when
   staffing and resources were available. We recommended

Status Report on Open Recommendations to DHS Components 


                        Page 227 

   corrective action for issues regarding AMOC’s procedures and
   operations

   Recommendation Summary and Status: As of December 31,
   2007, the five recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Enhance productivity and effectiveness
   of AMOC personnel.

   Report Number OIG-04-22

   Title: Audit of the Automated Commercial Environment Secure
   Data Portal: Security Requirements Need To Be Implemented.

   Issued: May 2004.

   Abstract: The development of the ACE is a massive and
   multifaceted effort directly related to the success of the CBP
   mission. The goal of ACE is to create a single portal for all federal
   requirements for international cargo. This will benefit the trade
   community by providing a single web-based interface to make
   periodic payments, post transactions, and view statement records
   by account. The federal government will benefit from the creation
   of a common knowledge-based risk management system for joint
   enforcement targeting and intelligence development.

   Key Findings: We concluded that there were weaknesses in the
   basic security features. These basic security requirements need to
   be in place to have proper safeguards and reduce exposure to risks
   from individuals or groups with malicious intent. The goal of ACE
   is to allow the federal government to provide a “single window” on
   border cargo regulation to reduce the complexity, redundancy, and
   burden on the trade. The CBP plans for ACE to be a customer-
   oriented, account-centric process that provides real-time access to
   internal and external revenue, sensitive law enforcement, and
   proprietary corporate information through a secure global channel
   for travel and trade. CBP agreed to have all basic system security
   requirements in place prior to continuing the project.



Status Report on Open Recommendations to DHS Components 


                        Page 228 

   Recommendation Summary and Status: As of December 31,
   2007, the one recommendation in this report was open. It is
   unknown whether the recommendation has been implemented.
   Upon verification of implementation, the recommendation will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure basic system security controls
   are in place.

   Report Number OIG-04-25

   Title: Passenger Processing Reengineering.

   Issued: March 2004.
   Abstract: One of the main aims of DHS is to keep track of people
   entering and leaving the U.S. This is necessary to prevent
   terrorism, narcotics smuggling, and illegal alien smuggling, and to
   enforce trade laws and collect revenue, all while facilitating
   international travel. Over the next five years, DHS will invest
   billions of dollars to modernize the passenger processes and
   systems inherited from the legacy bureaus.

   Key Findings: Efforts are being made to realign certain operations
   and systems within the newly created DHS. However, business
   processing reengineering for the overall federal passenger
   processing requirements was not conducted. Further, DHS did not
   have an overall modernization acquisition strategy for the legacy
   Customs, Immigration and Naturalization Services (INS),
   Transportation and Security Administration (TSA), and Animal
   and Plant Health Inspection Service systems related to passenger
   processing. An acquisition strategy based on a re-engineered
   vision of how DHS will process international travelers, in
   alignment with the enterprise architecture, should result in better
   and more definitive contract requirements. This would increase
   the probability of achieving mission requirements while reducing
   cost.

   Recommendation Summary and Status: As of December 31,
   2007, the two recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

Status Report on Open Recommendations to DHS Components 


                        Page 229 

   Non-Monetary Benefits: Ensure system developed meets user
   requirements.

   Report Number OIG-04-26

   Title: An Evaluation of the Security Implications of the Visa
   Waiver Program.

   Issued: April 2004.

   Abstract: The Visa Waiver Program (VWP) enables citizens of
   27 countries to travel to the United States for tourism or business
   for 90 days or less without obtaining a visa. CBP needs to
   strengthen and improve VWP performance in significant areas.
   Since the dissolution of the INS, the VWP has had a series of
   acting managers and responsibility for the program has been
   diffused among DHS components.

   Key Findings: At the time of our review, responsibility for the
   VWP program was not clear to many within DHS or other federal
   agencies. This ambiguity, coupled with funding issues, threatened
   to render CBP delinquent in its conduct of mandatory country
   reviews of each VWP-designated country every two years. In
   addition, lost and stolen passports (LASP) constitute VWP’s most
   serious security problem. CBP has not thoroughly checked LASP
   against U.S. entry and exit information to determine whether the
   passports have been used to enter the United States. Collection of
   LASP data from VWP governments is not proactive or uniform,
   nor is the data disseminated in an organized fashion. Further,
   LASP problems are complicated by the absence of international
   standardization in passport numbering systems that can result in a
   failure to identify male fide travelers using stolen VWP passports.

   Recommendation Summary and Status: As of December 31,
   2007, two of the 14 recommendations in this report were open.
   We received verification in 2008 of implementation and the
   recommendations have been closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Increased clarity of responsibilities for
   CBP, better documentation on individuals entering and exiting the
   United States, and enhanced awareness of the VWP
   internationally.


Status Report on Open Recommendations to DHS Components 


                        Page 230 

   Report Number OIG-04-37 Classified

   Title: Audit of Passenger and Baggage Screening Procedures at
   Domestic Airports.

   Issued: September 2004.

   This report is Classified. There is one open recommendation in
   this report. Upon request, additional information will be provided
   to qualified recipients.

   Report Number OIG-04-44

   Title: Evaluation of TSA’s Contract for Installation and
   Maintenance of Explosive Detection Equipment at United States
   Airports.

   Issued: September 2004.

   Abstract: As part of its review of the federalization of airport
   security screeners and the management of major DHS
   procurements, we reviewed DHS’ contract with the Boeing Service
   Company. Issues arose as to whether the contract was properly
   administered as a cost-plus-award-fee-contract and whether the
   level of profits paid to Boeing was reasonable.

   Key Findings: We determined that until December 2003, TSA
   paid contract fees based on a percentage of total invoiced costs,
   which had the effect of creating a cost-plus-a-percentage-of-cost
   type contract. This type of contract is prohibited in the federal
   government. The contract did not contain an award fee
   determination plan to evaluate the contractor’s performance until
   December 2003, eighteen months after contract award, and it
   included cost increases unrelated to approved scope changes in the
   calculation of the award fee pool. Through December 2003, TSA
   had paid more than $44 million in provisional award fees without
   any evaluation of the contractor’s performance. The profit paid to
   the contractor was disproportionately high when compared to the
   contractor’s cost and risk and compared to what other agencies
   allow as profit under such contracts. Based on these factors, we
   concluded that TSA paid Boeing at least $49 million in excess
   profit.

   Recommendation Summary and Status: As of December 31,
   2007, the five recommendations in this report were open. It is

Status Report on Open Recommendations to DHS Components 


                        Page 231 

   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Improve contract reliability and
   appropriateness for TSA.

   Report Number OIG-04-45

   Title: Evaluation of the Transportation Security Administration’s
   Screener Training and Methods of Testing.

   Issued: September 2004.

   Abstract: Steps taken by the TSA to update, modify, and improve
   the training and testing of security screeners incrementally
   improved basic screener training. TSA’s December 2003 revisions
   to the passenger and checked baggage basic training aligned the
   course materials with TSA’s latest standard operating procedures,
   presented detailed and technically accurate information, and
   addressed many instructional topics in sufficient depth.
   Furthermore, TSA revised and eliminated repetitive and simplistic
   test questions that we reported previously (ISP-02-03, August
   2003).

   Key Findings: The curriculum and test revisions were not
   supported by a systematic or comprehensive instructional systems
   design process and, as a result, were incomplete. Classroom and
   on-the-job training could have benefited from more thorough
   advance planning and analysis to select course content and frame
   the curriculum. Test design and administration for the basic
   classroom and on-the-job-training require greater standardization
   and validation. For recurrent training, TSA made significant
   improvements, setting a three-hour-per-week screener training
   requirement and distributing an array of training materials and
   tools to airports. TSA also recently completed its first annual
   screener re-certification testing. However, to maximize their
   benefit, both programs require further development.

   Recommendation Summary and Status: As of December 31,
   2007, 20 of the 22 recommendations in this report were open. The
   component has not provided a corrective action plan implementing
   the remaining open recommendations. We did not agree with the
   component on three of the open recommendations. Upon

Status Report on Open Recommendations to DHS Components 


                        Page 232 

   verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Better training and testing of TSA
   screeners.

   Report Number OIG-04-47

   Title: Review of the TSA Passenger and Baggage Screening Pilot
   Program.

   Issued: September 2004.

   Abstract: The Aviation and Transportation Security Act of 2001
   (Public Law 107-71) required TSA to assume control of security
   screening at the nation’s airports and to implement a two-year
   private security screening pilot program designed to determine
   whether, with proper government supervision and controls,
   contract screening companies could attain or exceed the
   performance levels provided by TSA’s federal screener workforce.
   On October 10, 2002, TSA awarded four pilot program contracts
   covering five different airports. The pilot program began at the
   airports on November 19, 2002.

   Key Findings: TSA’s passenger and baggage screening pilot
   program has two primary weaknesses: (1) the hiring, staffing, and
   training of screeners remained either completely or partially under
   the control of TSA, which limited the opportunities for the pilot
   contractors to test new innovations and approaches in these areas;
   and (2) TSA did not have criteria for evaluating the performance of
   either the pilot program contractors or the federal screening
   workforce.

   Recommendation Summary and Status: As of December 31,
   2007, the two recommendations in this report were open. We did
   not agree with the component on the open recommendations. We
   have requested additional documentation to verify full
   implementation. Upon verification of implementation, the
   recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure the hiring, staffing, and training
   of screeners is improved and development of criteria for evaluating

Status Report on Open Recommendations to DHS Components 


                        Page 233 

   the performance of either the pilot program contractors or the
   federal screening workforce.

   Report Number OIG-05-18

   Title: Irregularities in the Development of the Transportation
   Security Operations Center.

   Issued: March 2005.

   Abstract: In May 2004, TSA’s Office of Internal Affairs and
   Program Review reported to us the results of its review of
   suspicious purchases made during the development and building of
   the Transportation Security Operations Center. In our follow-up
   inspection of the acquisition and procurement activities involved in
   the development of the center, we confirmed office’s
   determination that multiple violations of procurement policy and
   regulations had occurred. Inappropriate activities included the
   unauthorized expenditures of $500,000 for decorative artwork and
   plants; the deliberate splitting of purchases to exceed purchase card
   spending limits; the acquisition of extravagant kitchen appliances
   and excessive fitness center equipment; and the construction of
   offices that exceed TSA office size standards.

   Key Findings: We concluded that inadequate management
   controls left the project vulnerable to waste and abuse. The
   breakdown in the system was attributable largely to a self-imposed
   90-day deadline to complete the project as well as to the senior
   managers, who believed that full compliance with federal
   regulations and TSA rules governing procurements would impede
   meeting the deadline. Senior management’s not enforcing
   procurement regulations and policy created an environment that
   fostered improper or questionable purchases and construction
   decisions, as well as a disregard for the ethical duty of impartiality.

   Recommendation Summary and Status: As of December 31,
   2007, two of the three recommendations in this report were open.
   The component has responded by providing a corrective action
   plan implementing the remaining open recommendations. Upon
   verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: TSA will be better positioned to avoid
   wasteful and abusive procurement actions.

Status Report on Open Recommendations to DHS Components 


                        Page 234 

   Report Number OIG-05-20

   Title: FEMA’s Individuals and Households Program in Miami-
   Dade County, Florida, for Hurricane Frances.

   Issued: May 2005.

   Abstract: We sought to determine whether FEMA had sufficient
   evidence to support the county’s eligibility for Individuals and
   Households Program (IHP) assistance and whether adequate
   program controls existed to ensure that funds were provided only
   to eligible applicants, for eligible expenses. The administration of
   the IHP has two key control points: (1) the disaster declaration and
   related amendment process, which is designed to assess damages
   and losses and determine and document the need for a major
   disaster declaration and FEMA assistance; and (2) the inspection
   of damages and verification of losses reported by individuals and
   households to determine whether the losses are disaster-related and
   eligible for FEMA assistance.

   Key Findings: Our review of the IHP in Miami-Dade disclosed
   shortcomings in both areas. FEMA designated Miami-Dade
   County eligible for the Individual Assistance program without a
   proper preliminary damage assessment. Funds provided for repairs
   and replacement of household room items were not based on actual
   disaster-related damages or losses. The verification of some
   personal property damages or losses were based on undocumented
   verbal representations. Guidance and criteria for replacing and
   repairing of automobiles and the reimbursement of expenses for
   funerals and other items were generally not in place. Some
   Expedited Rental Assistance awards were made to some applicants
   without reasonable assurance of eligibility. Further, FEMA’s
   oversight of inspections needs improvement. Specifically
   contractors were not required to review inspections prior to
   submission; edit checks for inspection errors were made after
   payment rather than before; and, no provisions existed for
   inspectors to recluse themselves from inspections that may have
   presented possible conflicts of interest.

   The policies, procedures, and guidelines used in Miami-Dade
   County for the IHP were used throughout the State of Florida,
   casting doubt about the appropriateness of IHP awards made to
   individuals and households in other counties of the state as a result
   of the four hurricanes, particularly those counties that had only
   marginal damage. Further, according to FEMA officials, most of

Status Report on Open Recommendations to DHS Components 


                        Page 235 

   the procedures were used for disasters in other states making the
   conditions and recommendations broadly applicable to FEMA’s
   implementation of the IHP nationwide

   Recommendation Summary and Status: As of December 31,
   2007, the 16 recommendations in this report were open. We did
   not agree with the component on six of the open recommendations.
   It is unknown whether the 16 recommendations have been
   implemented. We have requested additional documentation to
   verify full implementation. Upon verification of implementation,
   the recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Establish sufficient evidence to support
   the county’s eligibility for IHP assistance and adequate program
   controls to ensure that funds were provided only to eligible
   applicants, for eligible expenses.

   Report Number OIG-05-21

   Title: Controls Over the Export of Chemical and Biological
   Commodities.

   Issued: June 2005.

   Abstract: The National Defense Authorization Act requires
   Inspector Generals to review the controls over the export of
   militarily sensitive technologies to countries and entities of
   concern. We evaluated CBP’s enforcement practices to determine
   whether they are in place and working effectively to prevent the
   illegal export of chemical and biological commodities. The review
   is part of a series of interagency reviews on the transfer of
   militarily sensitive technologies.

   Key Findings: CBP does not consistently document the location
   of licenses issued by the Department of State in its Automated
   Export System. Exporters physically lodge state licenses with
   CBP at the port where shipments are expected primarily to occur;
   however, exports may be made through any authorized U.S. port of
   exit. Such license information is necessary to determine whether
   an individual shipment is being made in compliance with the
   associated license conditions. When an exporter ships from a port
   where the state license is not lodged, it becomes difficult for
   enforcement personnel at the port of shipping to readily obtain
   license information. As a result, CBP’s ability to enforce

Status Report on Open Recommendations to DHS Components 


                        Page 236 

   Department of State licensed exports in a timely and efficient
   manner is reduced. Also, CBP needs to improve its enforcement
   of license requirements for shipments that have been processed
   against commerce licenses.

   Recommendation Summary and Status: As of December 31,
   2007, one of the two recommendations in this report was open.
   The component has responded by providing a corrective action
   plan implementing the remaining open recommendation. The
   response for this recommendation is due in 2008. Upon
   verification of implementation, the recommendation will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Effective and consistent administration
   of the CBP Outbound Program at all ports of exportation.

   Report Number OIG-05-23

   Title: Buy American Act Compliance.

   Issued: June 2003.

   Abstract: As directed by Congress in the FY 2005 Conference
   Report accompanying H.R. 4567, we audited DHS’ compliance
   with the Buy American Act (BAA) of 1933 (41 USC 10a-10d). We
   concluded that DHS and its organizational component procurement
   offices have sufficient policies and procedures to ensure
   compliance with BAA requirements. However, we were unable to
   fully validate compliance with BAA requirements because of
   DHS’ inability to identify conclusively all procurements subject to
   BAA requirements and the tight time constraints under which the
   audit had to be conducted.

   Key Findings: Neither the Federal Procurement Data System -
   Next Generation (FPDS-NG) nor the Homeland Security Contract
   Information System have the capability to collect data regarding
   the amounts and types of foreign end products being procured by
   DHS. While DHS organizational components identified
   acquisitions worth approximately $165 million involving foreign
   end products, these acquisitions do not represent the entire BAA
   universe at DHS. While DHS believes that acquisition of foreign
   end products occurs infrequently, system limitations make it
   difficult to determine the actual frequency of foreign acquisitions.
   Additionally, ICE incorrectly applied BAA evaluation factors
   during the source selection process for a major procurement of

Status Report on Open Recommendations to DHS Components 


                        Page 237 

   pistols. Finally, automated contract writing systems that help
   ensure BAA compliance are not available at all procurement
   offices at this time.

   Recommendation Summary and Status: As of December 31,
   2007, the five recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure that DHS and its organizational
   component procurement offices have sufficient policies and
   procedures to ensure compliance with BAA requirements.

   Report Number OIG-05-26

   Title: Targeting Oceangoing Cargo Containers.

   Issued: July 2005.

   Abstract: In response to a congressional mandate in the United
   States Coast Guard and Maritime Transportation Act of 2004, we
   reviewed the Automated Targeting System (ATS) used by CBP for
   selecting ocean-going cargo containers for inspection. Our review
   also included an overview of oceangoing container supply chain
   security.

   Key Findings: We concluded that CBP could improve the
   effectiveness of the ATS by using of more complete and accurate
   shipping data and systematically analyzing container examination
   results to refine existing targeting rules and develop new rules. In
   addition, the examination statistics contained at the ports and CBP
   headquarters showed inconsistencies. Additionally, physical
   controls over containers selected for examination needed
   improvement.

   Recommendation Summary and Status: As of December 31,
   2007, one of the three recommendations in this report was open. It
   is unknown whether the recommendation has been implemented.
   Upon verification of implementation, the recommendation will be
   closed.

   Estimated Cost Savings: N/A


Status Report on Open Recommendations to DHS Components 


                        Page 238 

   Non-Monetary Benefits: Allow management at the ports and at
   headquarter to make decisions using the same data reports.

   Report Number OIG-05-29

   Title: The Coast Guard’s Civilian Pay Budget Process.

   Issued: August 2005.

   Abstract: In response to a request from the Chairman of the House
   Subcommittee on Homeland Security, Committee on
   Appropriations, we engaged the independent accounting firm
   KPMG LLP (KPMG) to perform an audit of the United States
   Coast Guard’s (USCG) FY 2004 civilian pay expenses and related
   budget reprogramming requests.

   Key Findings: KPMG reported that USCG had not designed
   appropriate processes and internal controls for the development
   and execution of the civilian pay budget. As a result, USCG had
   difficulty supporting its FY 2004 reprogramming requests with
   respect to civilian pay. Prior to FY 2004, civilian pay was part of a
   much larger budget category that included military pay.
   Thereafter, civilian pay became its own budget category, with
   more visibility. KPMG made several recommendations to improve
   USCG’s budgeting process for civilian pay.

   Recommendation Summary and Status: As of December 31,
   2007, the three recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure USCG designs appropriate
   processes and internal controls for the development and execution
   of the civilian pay budget.

   Report Number OIG-05-30

   Title: Improved Security Required for U.S. Coast Guard
   Networks.

   Issued: August 2005.



Status Report on Open Recommendations to DHS Components 


                        Page 239 

   Abstract: We audited the DHS security program and its
   organizational components to determine the effectiveness of
   controls implemented on selected wired-based sensitive but
   unclassified networks. Our audit included a review of applicable
   DHS and USCG security policies, procedures, and other
   appropriate documentation. In addition, we performed
   vulnerability assessments to evaluate the effectiveness of controls
   implemented on selected network devices.

   Key Findings: Security controls must be improved in order for
   USCG to provide adequate and effective security over its
   networks. Our vulnerability assessments identified security
   concerns resulting from inadequate password controls, missing
   critical patches, vulnerable network devices, and inconsistent
   configuration and patch management. These security concerns
   indicate increased potential for unauthorized access to USCG
   resources and data. Effective network management and security
   controls are needed in order to protect the confidentiality, integrity,
   and availability of sensitive information.

   Recommendation Summary and Status: As of December 31,
   2007, the six recommendations in this report were open. The
   component has sent a corrective action plan and implementation is
   pending. Upon verification of implementation, the
   recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Improved USCG system security.

   Report Number OIG-05-37

   Title: Security Weaknesses Increase Risks to Critical United States
   Secret Service Database.

   Issued: September 2005.

   Abstract: We audited DHS and its organizational components’
   security program to determine the security and integrity of select
   sensitive but unclassified mission critical databases. Our audit
   included reviews of access controls, change management, and
   continuity of operations policies and procedures.

   Key Findings: The USSS has not established adequate or effective
   database security controls for USSS Web (SSWeb). Although the
   USSS has developed and implemented many essential security

Status Report on Open Recommendations to DHS Components 


                        Page 240 

   controls—including a process to ensure that system access is
   removed upon employee separation as well as a change
   management policy for implementing routine and emergency
   changes—additional work remains to implement the access
   controls, configuration management procedures, and continuity of
   operations safeguards necessary to protect sensitive SSWeb data
   effectively. The USSS has not implemented effective procedures
   for user administration; established a configuration management
   plan; or, developed and tested an IT contingency plan. In addition,
   vulnerabilities existed on an SSWeb database server related to
   access rights and password administration, configuration
   management, as well as other security measures. We made several
   recommendations to assist the USSS to secure SSWeb.

   In addition, to comply with the OMB’s FISMA reporting
   requirements, we evaluated the effectiveness of the USSS’s
   information security program and practices as implemented
   for SSWeb. The USSS has not yet fully aligned its security
   program with DHS’ overall policies or procedures. For example, a
   contingency plan has not been established and tested; security
   control costs have not been integrated into the life cycle of the
   system; and, system and database administrators have not obtained
   specialized security training.

   Recommendation Summary and Status: As of December 31,
   2007, four of the six recommendations in this report were open.
   The component has sent a corrective action plan and
   implementation is pending. Upon verification of implementation,
   the recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Enhanced protection of USSS
   information assets.

   Report Number OIG-05-42

   Title: Security Weaknesses Increase Risks to Critical United States
   Citizenship and Immigration Services Database.

   Issued: September 2005.

   Abstract: We audited USCIS’ security program to determine
   whether USCIS had implemented adequate and effective controls
   over sensitive data contained in its Central Index System.


Status Report on Open Recommendations to DHS Components 


                        Page 241 

   Information contained in the Central Index System is used to assist
   in the enforcement of United States immigration laws.

   Key Findings: USCIS is in the process of building an IT Security
   Office and implementing security, privacy, systems development,
   and continuity of operations best practices.

   Recommendation Summary and Status: As of December 31,
   2007, three of the six recommendations in this report were open.
   The component has sent a corrective action plan and
   implementation is pending. Upon verification of implementation,
   the recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Improved system security.

   Report Number OIG-05-43

   Title: Security Weaknesses Increase Risks to Critical Emergency
   Preparedness and Response Database.

   Issued: September 2005.

   Abstract: We audited the DHS and its organizational components’
   security program to determine whether Emergency Preparedness
   and Response (EP&R) had implemented adequate and effective
   controls over sensitive data contained in its NEMIS.

   Key Findings: EP&R has not established adequate or effective
   database security controls for NEMIS. EP&R has developed and
   implemented many essential security controls for the NEMIS
   system, including the establishment of a change management
   process and the development of a NEMIS IT contingency plan.
   However, additional work remains to implement the access
   controls and continuity of operations safeguards necessary to
   protect sensitive NEMIS data properly. EP&R has not (1)
   implemented effective procedures for granting, monitoring, and
   removing user access; or (2) conducted NEMIS IT contingency
   training or testing. In addition, vulnerabilities existed on NEMIS
   servers related to access rights and password administration,
   configuration management, as well as other security measures.

   In addition, to comply with the OMB’s FISMA reporting
   requirements, we evaluated the effectiveness of EP&R’s
   information security program and practices as implemented for

Status Report on Open Recommendations to DHS Components 


                        Page 242 

   NEMIS. EP&R has not aligned fully its security program with
   DHS’ overall policies, procedures, or practices. For example,
   security controls had not been tested in over a year; a contingency
   plan has not been tested; security control costs have not been
   integrated into the life cycle of the system; and, system and
   database administrators have not obtained specialized security
   training.

   Recommendation Summary and Status: As of December 31,
   2007, the four recommendations in this report were open. The
   component has sent a corrective action plan and implementation is
   pending. Upon verification of implementation, the
   recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Enhanced protection of information
   assets.

   Report Number OIG-05-44

   Title: Challenges in FEMA’s Flood Map Modernization Program.

   Issued: September 2005.

   Abstract: Floods are among the most frequent and costly of all
   natural disasters and have great impact in terms of economic and
   human losses each year. Since 1978, FEMA has been charged
   with assisting communities by producing flood maps that detail
   areas at risk; identify where flood insurance is needed; and, help
   limit construction within flood zones. However, the majority of
   FEMA’s maps are outdated and in unalterable paper format. In
   response to demands for more accurate mapping products, FEMA
   has embarked on a six year, $1.475 billion program to update and
   digitize the nation’s flood maps. We conducted an audit to assess
   FEMA’s management approach; coordination with federal, state,
   and local entities; and, acquisition and use of technology to meet
   map modernization program objectives.

   Key Findings: We determined that while FEMA is making
   progress in map modernization, a number of significant challenges
   remain. Specifically, FEMA has developed a plan that outlines the
   priorities, resources, and standards for accomplishing map
   modernization in communities across the U.S. However, because
   of budget limitations, FEMA’s plan does not reflect user or
   funding needs. Also, the plan does not provide guidance on how

Status Report on Open Recommendations to DHS Components 


                        Page 243 

   new mapping standards will be achieved. Due to these
   deficiencies, the plan discourages stakeholder buy-in and may not
   help FEMA meet its map modernization schedule and quality
   goals.

   Further, FEMA has enhanced its efforts to partner and
   communicate with its mapping stakeholders, but the agency has
   not maximized the benefits possible through these relationships.
   Additionally, as part of its map modernization efforts, FEMA is
   developing a web-based technology platform and tools to support
   efficient production and sharing of digital maps. However,
   FEMA’s IT development approach has limited program progress;
   unclear contractor expectations; underestimation of program scope
   and complexity; and, poorly defined requirements, which have
   resulted in significant system acquisition delays and cost overruns.

   Recommendation Summary and Status: As of December 31,
   2007, six of the eight recommendations in this report were open.
   The component has sent a corrective action plan and
   implementation is pending. Upon verification of implementation,
   all recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Improve Security and Controls on DHS
   Financial Systems.

   Report Number OIG-05-45

   Title: DHS' Responsibilities for Juvenile Aliens.

   Issued: September 2005.

   Abstract: We reviewed the effectiveness of the coordination
   between CBP and ICE after CBP apprehends and initially holds
   juvenile aliens. Our review included the process by which CBP
   informs the ICE DRO that a juvenile alien was apprehended, the
   process for transferring the juvenile alien to ICE DRO custody,
   and the effectiveness of the current system for transferring care and
   custody of unaccompanied juvenile aliens to the Department of
   Health and Human Services. Finally, we assessed the progress of
   relevant DHS components in implementing three open
   recommendations from a prior Department of Justice OIG report.

   Key Findings: We concluded that DHS adhered to its
   responsibilities for treating apprehended juvenile aliens with

Status Report on Open Recommendations to DHS Components 


                        Page 244 

   dignity and concern. The department is proficient in key areas of
   apprehending and processing juvenile aliens, prioritizing
   processing and transportation of juveniles after they are
   apprehended, and providing appropriate information to juveniles
   on their legal rights. Generally, the department placed juvenile
   aliens in longer-term housing facilities in a timely manner.

   Recommendation Summary and Status: As of December 31,
   2007, the eight recommendations in this report were open. We
   received verification in 2008 of implementation and three of the
   recommendations have been closed. The component has
   responded by providing a corrective action plan implementing one
   of the remaining open recommendations. We did not agree with
   the component on four of the open recommendations. We have
   requested additional documentation to verify full implementation
   of the one. Upon verification of implementation, the
   recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Establishment of responsibilities and
   policy for use in operations involving juvenile aliens.

   Report Number OIG-05-47

   Title: Vehicle Disposal and Sales Program Within U.S. Border
   Patrol’s San Diego Sector.

   Issued: September 2005.

   Abstract: In response to a request from the U.S. House of
   Representatives member for the 51st District of California, we
   audited the fleet vehicle disposal and sales activities of the U.S.
   Border Patrol’s San Diego Sector (the Sector) while under its
   legacy agency, the INS. The Congressman’s request was primarily
   spurred by a constituent’s assertions that (1) vehicles were
   prematurely disposed of after major restoration work; (2) vehicles
   were reported as inoperable and downgraded to scrap although the
   majority were actually in good condition; (3) useable vehicles
   reported as inoperable or in poor condition were sold to scrap
   dealers with major components intact; (4) vehicles downgraded to
   salvage were sold to select individuals and companies at extremely
   low prices without following traditional sales procedures; and (5)
   vehicles and heavy-duty equipment were improperly transferred to
   an Indian Tribe.


Status Report on Open Recommendations to DHS Components 


                        Page 245 

   Key Findings: We confirmed the validity of the five assertions.
   The Sector did not manage its aging fleet of vehicles in an
   effective manner or ensure that the disposal of government assets
   complied with established policies. It is noteworthy that the Sector
   was experiencing a severe shortage of serviceable vehicles needed
   to meet the Border Patrol’s operational readiness standards. The
   Sector’s stopgap solution in 2001 resulted in 129 aging vehicles
   being restored and, as of March 17, 2005, the Sector reported that
   69 of those vehicles remained operational in its fleet. CBP now
   has oversight of the Sector and is working to standardize vehicle
   fleet management throughout the Bureau; however, to address the
   deficiencies of the Sector, additional improvements are needed.

   Recommendation Summary and Status: As of December 31,
   2007, the five recommendations in this report were open. The
   component has responded by providing a corrective action plan
   implementing the open recommendations. Upon verification of
   implementation, the recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure proper maintenance, sale, and
   transfer of government equipment at the San Diego Sector.

   Report Number OIG-05-51

   Title: Transportation Security Administration’s Revised Security
   Procedures.

   Issued: September 2005.

   Abstract: In response to a request from the U.S. House Committee
   on Government Reform, our office conducted a review of
   procedures initiated by TSA in response to the security breaches
   experienced in 2003 on Southwest Airlines aircraft. The findings
   and recommendations were presented to the committee in a
   sensitive security information report.

   Key Findings: We assessed TSA’s changes to procedures used by
   its Contact Center for handling emails and other correspondence,
   and any changes related to the inspection of aircraft.

   Recommendation Summary and Status: As of December 31,
   2007, the three recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.


Status Report on Open Recommendations to DHS Components 


                        Page 246 

   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Improve the efficiency and effectiveness
   of TSA operations and government oversight of air carrier
   compliance with security regulations.

   Report Number OIG-05-52

   Title: Transportation Security Administration’s Procedures for
   Law Enforcement Officers Carrying Weapons on Board
   Commercial Aircraft.

   Issued: September 2005.

   Abstract: The Ranking Democratic Member, Committee on
   Transportation and Infrastructure, requested that we determine
   whether current TSA operating procedures ensure the safe and
   secure transport of weapons on commercial aircraft by law
   enforcement officers. Further, the Congressman also asked us to
   report the number of federal, state, and local officers authorized to
   carry weapons on commercial aircraft.

   Key Findings: TSA procedures to verify the identity of law
   enforcement officers, flying armed, need to be strengthened. In
   addition, TSA should establish procedures to manually inspect a
   random sample of officers’ carry-on bags and ask the officer,
   during processing, whether they are carrying hazardous materials
   such as pepper spray or mace in their carry-on bags.

   Recommendation Summary and Status: As of December 31,
   2007, the two recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Increased air security reducing risk of
   unauthorized person or weapons present aboard airplanes.

   Report Number OIG-06-06



Status Report on Open Recommendations to DHS Components 


                        Page 247 

   Title: A Review of U.S. Citizenship and Immigration Services’
   Alien Security Checks.

   Issued: November 2005.

   Abstract: The USCIS conducts approximately 35 million security
   checks each year. The checks prevent ineligible applicants from
   obtaining benefits and help law enforcement agencies identify
   people who pose risks to national security or public safety. We
   assessed the scope, proper completion, and efficiency of USCIS’
   security checks.

   Key Findings: USCIS’ security checks are overly reliant on the
   integrity of names and documents that applicants submit. USCIS
   has not developed a measurable, risk-based plan to define how
   they will improve the scope of security checks. In addition, our
   sampling of most benefits showed that management controls are
   not sufficiently comprehensive to ensure that staff completes
   checks correctly. Finally, USCIS needs improved automation and
   staff coordination to eliminate inefficient security check processes.

   Recommendation Summary and Status: As of December 31,
   2007, six of the seven recommendations in this report were open.
   The component has responded by providing a corrective action
   plan implementing the remaining open recommendations. Upon
   verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Improves USCIS’ ability to verify
   applicants’ identity and increases efficiency and quality control of
   security checks in order to prevent identity fraud and
   accompanying security threats.

   Report Number OIG-06-07

   Title: Review of Top Officials 3 Exercise.

   Issued: November 2005.

   Abstract: The Top Officials Exercise (TOPOFF) is a
   congressionally mandated biennial cycle of seminars, planning
   events, and national exercises designed to strengthen the United
   States’ capacity to prevent, prepare for, respond to, and recover
   from large scale terrorist attacks. Every two years the cycle

Status Report on Open Recommendations to DHS Components 


                        Page 248 

   culminates in an exercise that simulates a coordinated terrorist
   attack. G&T, formerly SLGCP, sponsors the TOPOFF series and
   manages the design, planning, conduct, and evaluation of the
   exercises.

   Key Findings: Overall, exercise objectives were addressed and
   generally met, but the exercise highlighted at all levels of
   government a fundamental lack of understanding for the principles
   and protocols set forth in the National Response Plan (NRP) and
   NIMS. Further, integration issues relative to the private sector and
   the Department of Defense require further discussion and analysis.
   Several issues affect the overall effectiveness of the TOPOFF
   series. The first concerns the high investment cost required of
   participating states and whether or how the federal government
   should provide funding assistance. The second issue concerns
   DHS’ dependency on contractor expertise and support. Finally,
   TOPOFF 3 demonstrated unresolved issues from previous
   exercises that continue to affect and inhibit the ability of
   organizations at all levels to coordinate effectively an integrated
   response.

   Recommendation Summary and Status: As of December 31,
   2007, eight of the 14 recommendations in this report were open.
   The component has responded by providing a corrective action
   plan implementing two of the remaining open recommendations.
   We did not agree with the component on six of the open
   recommendations. We have requested additional documentation to
   verify full implementation of the two. Upon verification of
   implementation, the recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Enhances coordination of federal
   resources and assets during an Incident of National Significance
   and improves the effectiveness of future exercises.

   Report Number OIG-06-15

   Title: Review of Remote Surveillance Technology Along U.S.
   Land Borders.

   Issued: December 2005.

   Abstract: We reviewed the effectiveness of the border
   surveillance, remote assessment, and monitoring technology used
   by CBP’s Office of Border Protection to detect illegal entry into

Status Report on Open Recommendations to DHS Components 


                        Page 249 

   the United States between official ports of entry. Despite an
   investment of more than $429 million since 1997 and two major
   program initiatives, the Integrated Surveillance Intelligence
   System and America’s Shield Initiative, we determined that
   limitations of border surveillance, remote assessment, and
   monitoring technology and significant delays and cost overruns in
   the procurement of remote video camera systems have impeded the
   success of CBP’s remote surveillance program.

   Key Findings: The intelligence system’s components, cameras
   and sensors, are not fully integrated to the extent represented at the
   program’s onset. Cameras must be manually oriented, via toggling
   control keyboards, in the direction of the triggered sensor.
   Deficiencies in the contract management and processes; delays in
   installing, testing, and bringing on-line camera sites that are
   operational; and incomplete installation of 168 camera sites
   resulted in more than $37 million in DHS funds remaining in GSA
   accounts.

   Recommendation Summary and Status: As of December 31,
   2007, one of the seven recommendations in this report was open.
   The component has responded by providing a corrective action
   plan implementing the remaining open recommendation. We
   received verification in 2008 of implementation the
   recommendation has been closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Increased effectiveness of CBP’s remote
   surveillance program.

   Report Number OIG-06-18

   Title: Review of the Transportation Security Administration’s
   Management Controls Over the Screener Recruitment Program.

   Issued: December 2005.

   Abstract: As a result of the September 11, 2001 terrorist attacks,
   TSA faced a formidable challenge to hire a federalized screener
   workforce, while concurrently standing up an agency with a one-
   year Congressional mandate. Although TSA successfully recruited
   more than 56,000 airport screeners within the mandated period,
   success came at a high cost. The recruitment contract costs grew
   more than 600% over a 10-month period. In response to
   Congressional concerns over press reports of perceived wasteful

Status Report on Open Recommendations to DHS Components 


                        Page 250 

   government spending by the TSA’s recruitment contractor, NCS
   Pearson, we audited TSA’s management and oversight of the
   recruitment program.

   Key Findings: As a brand new agency, TSA did not have the staff
   or infrastructure necessary to plan and manage the actions and
   contracts properly, such as the NCS Pearson contract. As a result,
   TSA made critical decisions that greatly increased costs without
   the benefit of sound acquisition planning or adequate cost control.
   The establishment of temporary assessment centers, delays and
   revisions in issuance of the airport federalization schedule and
   staffing requirements, and higher than expected applicant rejection
   rates significantly impacted NCS Pearson’s costs to establish and
   operate the assessment centers. By the contract’s end, NCS
   Pearson had assessed more than nine times the number of screeners
   originally estimated in less than half the time originally allotted.
   Consequently, the increased candidate volume necessitated larger
   and more accessible assessment centers. All of these factors
   contributed to the escalation of contract costs from the original
   estimate of $104 million to the settlement amount of $742 million.
   In addition, TSA’s delay in recording contractual obligations may
   have put the agency at increased risk for Antideficiency Act
   violations.

   Recommendation Summary and Status: As of December 31,
   2007, the two recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure better controls to keep costs
   down when establishing and operating TSA assessment centers.

   Report Number OIG-06-19

   Title: The State of Indiana’s Management of State Homeland
   Security Grants Awarded During Fiscal Years 2002 and 2003.

   Issued: December 2005.

   Abstract: Foxx and Company, an independent accounting firm
   under contract with us, reviewed $48 million in grants awarded by
   the ODP to the State of Indiana from the FY 2002 State Domestic
   Preparedness Program, and from the FY 2003 State Homeland

Status Report on Open Recommendations to DHS Components 


                        Page 251 

   Security Grant Program Parts I and II. The audit assessed the
   Indiana State Emergency Management Agency’s (SEMA)
   management of these first responder grant programs and included
   visits to 18 sub-grantees. The state of Indiana’s emergency
   management agency awarded the 18 sub-grantees about $7.2
   million from the FY 2002 and FY 2003 first responder grant
   programs.

   Key Findings: The auditors concluded that while Indiana
   attempted to conscientiously manage the first responder grant
   programs, it did not follow its ODP-approved strategic plan.
   Although the deviations from the plan might have been justifiable
   by the Indiana SEMA, the state did not document the reasons for
   the deviations or ask for ODP’s approval. Frequent changes in the
   grantee’s management team through April 2005 adversely affected
   the state’s management of the programs, and the magnitude of the
   grantee’s responsibilities was inconsistent with the number of
   program management staff. Specifically, the state needed more
   staff to ensure that: (1) sub-grants were awarded timely, (2) sub-
   grant activities were properly monitored, (3) progress reports were
   submitted to ODP and were consistent with ODP’s program
   guidelines, and (4) costs claimed for critical infrastructure
   protection were properly supported with documentation proving
   that the costs were incurred by sub grantees. The audit questioned
   $1,236,515 of the costs, of which $278,857 was unsupported. The
   auditors made nine recommendations to strengthen controls over
   grant spending, improve grants management, and recover
   unsupported and disallowed costs.

   Recommendation Summary and Status: As of December 31,
   2007, the five recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $278,857.

   Non-Monetary Benefits: Ensure documentation and
   implementation of procedures for evaluating the state's progress in
   achieving the February 2002 strategic plan's goals and objectives,
   and either redirect spending to be in line with the plan or revise the
   plan based upon the progress achieved.

   Report Number OIG-06-21



Status Report on Open Recommendations to DHS Components 


                        Page 252 

   Title: Audit Screening of Trucks Carrying Canadian Municipal
   Solid Waste.

   Issued: February 2006.

   Abstract: At the request of two Senators and a Representative, our
   office reviewed the effectiveness of CBP’s screening of trucks
   carrying Canadian municipal solid waste. The greater Toronto,
   Canada area has been shipping municipal solid waste to Michigan
   landfills for disposal since 1998. During calendar year 2004,
   Michigan landfills received approximately 100,000 truckloads of
   Canadian municipal solid waste, an 8% increase over calendar year
   2003. Another 10,000 shipments of municipal solid waste enter
   the U.S. through nine other ports of entry that accept Canadian and
   Mexican municipal solid waste. Over the past two years, trucks
   carrying Canadian municipal solid waste were determined to
   contain medical waste, illegal drugs, and illegal currency.

   Key Findings: We determined that there are limitations in the
   inspections of municipal solid waste. Improvements are needed in
   conducting inspections and the radiation portal monitor, and
   Vehicle and Cargo Inspection System examinations. We
   recommended that the Commissioner of CBP conduct a risk
   analysis and develop minimum requirements for selecting and
   inspecting trucks carrying Canadian municipal solid waste.

   Recommendation Summary and Status: As of December 31,
   2007, the recommendation in this report was open. It is unknown
   whether the recommendation has been implemented. Upon
   verification of implementation, the recommendation will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Increased effectiveness of CBP’s
   screening of trucks carrying Canadian municipal solid waste.

   Report Number OIG-06-29

   Title: FPS Related Funds Transferred from GSA to DHS.

   Issued: March 2006.

   Abstract: In response to a request from two representatives, we
   reviewed certain funds transferred from the US General Services
   Administration (GSA) to DHS for the Office of Federal Protective
   Service (FPS). We attempted to determine whether DHS was in

Status Report on Open Recommendations to DHS Components 


                        Page 253 

   compliance with the Homeland Security Act of 2002, which
   required that any GSA rents and fees transferred to DHS be used
   solely for the protection of buildings and grounds owned or
   occupied by the Federal government.

   Key Findings: We concluded that DHS did not violate the terms
   of the Homeland Security Act in FY 2003 or FY 2005; however,
   the potential for a violation exists in FY 2004.

   Recommendation Summary and Status: As of December 31,
   2007, the three recommendations in this report were open. The
   component has responded by providing a corrective action plan
   implementing the open recommendations. Upon verification of
   implementation, the recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Financial management improvement for
   the FPS program.

   Report Number OIG-06-31

   Title: Review of the Department's Handling of Suspicious
   Passengers Aboard Northwest Flight 327.

   Issued: March 2006.

   Abstract: We audited the handling of suspicious passengers to: (1)
   determine the specific circumstances relating to Northwest Airlines
   Flight 327 from Detroit to Los Angeles on June 29, 2004,
   including the department’s handling of the suspicious airplane
   passengers before boarding, during flight, and after landing; and
   (2) identify any lessons learned as a result of the department’s
   handling of the suspicious incident. On this flight, 13 Middle
   Eastern men behaved in a suspicious manner that aroused the
   attention and concern of the flight attendants, passengers, air
   marshals, and pilots.

   Key Findings: We concluded that DHS’ internal system for
   communicating and coordinating information on suspicious
   passengers, activities, and incidents in the gate area and aboard
   aircraft needs improvement. In addition, both the Federal Air
   Marshal Service and the Federal Bureau of Investigations (FBI)
   have statutory authority to investigate in-flight incidents, thereby
   causing possible confusion, duplication, and the potential for
   compromising investigative cases.

Status Report on Open Recommendations to DHS Components 


                        Page 254 

   Recommendation Summary and Status: As of December 31,
   2007, the three recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Improve the overall effectiveness of the
   FBI and air marshals in handling in-flight missions and incidents.

   Report Number OIG-06-32

   Title: A Performance Review of FEMA’s Disaster Management
   Activities in Response to Hurricane Katrina.

   Issued: March 2006.

   Abstract: Reviewing the FEMA activities in response to
   Hurricane Katrina, we examined FEMA’s responsibilities for three
   of the four major phases of disaster management – preparedness,
   response, and recovery – during the first five weeks of the federal
   response. We reviewed whether FEMA's authorities, plans and
   procedures, organizational structure, and resources were adequate
   and effective. In addition, we evaluated FEMA’s preparedness and
   readiness efforts over the past ten years to determine its
   organizational capability and posture prior to Hurricane Katrina.

   Within the past two years, the DHS published the National
   Incident Management System and the National Response Plan,
   restructuring how federal, state, and local government agencies and
   emergency responders conduct disaster preparation, response, and
   recovery activities. Implementation of the National Incident
   Management System and the National Response Plan was still
   underway when Hurricane Katrina made landfall. FEMA’s initial
   response was significantly impeded by the adjustments it was
   making in implementing its responsibilities under the National
   Response Plan.

   Key Findings: The Hurricane Katrina response demonstrated
   some positive features of the incident command structure under the
   National Incident Management System; however, it also
   highlighted severe deficiencies and multiple areas where FEMA
   and DHS headquarters must make adjustments to the National
   Response Plan. In comparison with its efforts during other

Status Report on Open Recommendations to DHS Components 


                        Page 255 

   disasters, FEMA provided record levels of support to Hurricane
   Katrina victims, states, and emergency responders. However,
   insufficient visibility in the resource ordering process, difficulty
   deploying sufficient numbers of trained personnel, and unreliable
   communication systems demonstrate a need for improved response
   support capabilities.

   FEMA’s efforts to support state emergency management and to
   prepare for federal response and recovery in natural disasters were
   insufficient for an event of Hurricane Katrina’s magnitude.
   Difficulties experienced during the response directly correlate with
   weaknesses in FEMA’s grant programs, staffing, training,
   catastrophic planning, and remediation of issues identified during
   previous disasters and exercises.

   Finally, the integration of FEMA, all hazards preparedness, and
   disaster response and recovery capabilities within DHS requires
   additional attention. Although an “all-hazards” approach can
   address preparedness needs common to both man-made and natural
   events, DHS must ensure that all four phases of emergency
   management – preparedness, response, recovery, and mitigation –
   are managed throughout the department on an all hazards basis.

   Recommendation Summary and Status: As of December 31,
   2007, 33 of the 38 recommendations in this report were open. The
   component has responded by providing a corrective action plan
   implementing 18 of the remaining open recommendations. The
   component has not provided a corrective action plan for six of the
   recommendations. We did not agree with the component on nine
   of the open recommendations. We have requested additional
   documentation to verify full implementation. Upon verification of
   implementation, the recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Enhances DHS and FEMA readiness to
   respond to a disaster that exceeds a state’s capabilities by
   improving disaster planning, resource coordination, and policies.

   Report Number OIG-06-33

   Title: Detention and Removal of Illegal Aliens, U.S. Immigration
   and Customs Enforcement.

   Issued: April 2006.


Status Report on Open Recommendations to DHS Components 


                        Page 256 

   Abstract: We conducted an audit of Immigration and Customs
   Enforcement’s (ICE) program for detaining and removing illegal
   aliens apprehended in the United States and at ports of entry
   (POE). The program is administered through ICE’s Office of
   Detention and Removal (DRO). The objective of our review was
   to determine the extent to which the detention and removal office
   is performing its mission to repatriate all illegal aliens who are
   removable, including those that pose a potential national security
   or public safety thereat to the U.S.

   Key Findings: Currently, the DRO is unable to ensure the
   departure from the U.S. of all removable aliens. Of the 774,112
   illegal aliens apprehended during the past three years, 280,987
   (36%) were released largely due to not having the personnel, bed
   space, and funding needed to detain illegal aliens while their
   immigration status is being adjudicated. This presents significant
   risks due to the inability of CBP and ICE to verify the identity,
   country-of-origin, and terrorist or criminal affiliation of many of
   the aliens being released. Further, the declining personnel and bed
   space level is occurring when the number of illegal aliens
   apprehended is increasing. For example, the number of illegal
   aliens apprehended increased from 231,077 in FY 2002 to 275,680
   in FY 2004, a 19% increase. However, during the same period,
   authorized personnel and funded bed space levels declined by 3%
   and 6%, respectively. These shortfalls encourage illegal
   immigration by increasing the likelihood that apprehended aliens
   would be released while their immigration status is adjudicated.

   Further, historical trends indicate that 62% of the aliens released
   will eventually be issued final orders of removal by the U.S.
   Department of Justice, Executive Office of Immigration Review,
   and later fail to surrender for removal or abscond. Although the
   detention and removal office has received additional funding to
   enhance its Fugitive Operations Program, it is unlikely that many
   of the released aliens will ever be removed. As of December 30,
   2005 there were more than 544,000 released aliens with final
   orders of removal who have absconded.

   Recommendation Summary and Status: As of December 31,
   2007, the four recommendations in this report were open. We did
   not agree with the component on one of the recommendations. It
   is unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

Status Report on Open Recommendations to DHS Components 


                        Page 257 

   Non-Monetary Benefits: Ensure ICE’s program for detaining and
   removing illegal aliens apprehended in the United States and at
   POEs performs its mission to repatriate all illegal aliens who are
   removable, including those that pose a potential national security
   or public safety thereat to the U.S.

   Report Number OIG-06-34

   Title: Grant 2004-TK-TX-003 and 2006-GH-T5-001, National
   Domestic Coalition of Preparedness, Orlando FL.

   Issued: May 2006.

   Abstract: We audited State Domestic Preparedness Equipment
   Support Program grant funds awarded by the Office of State and
   Local Government Coordination and Preparedness (SLGCP) to the
   National Domestic Preparedness Coalition Incorporated (NDPCI)
   of Orlando, Florida under grants 2004-TK-TX-0003 and 2005-GH-
   T5-0001. The audit objective was to determine whether NDPCI
   accounted for and expended grant funds according to federal
   regulations and grant guidelines.

   Key Findings: NDPCI did not account for grant funds according
   to federal regulations and grant guidelines because its claim
   consisted of $134,386 in unsupported labor costs, $16,861 in
   overstated operating and administrative expenses, and $1,500 in
   unallowable travel costs. Total questioned costs equal $152,747.
   In addition, NDPCI did no credit the grants for $87,770 in
   licensing fee reimbursements it received from its software
   developer. Also, NDPCI needs to improve its grant management
   procedures regarding (1) the preparation and submission of
   Financial Status Reports, (2) cash management, and (3)
   compliance with grant requirements for travel.

   Recommendation Summary and Status: As of December 31,
   2007, the five recommendations in this report were open. We have
   come to partial agreement with the component on three of the open
   recommendations. The component has responded by providing a
   corrective action plan implementing two of the remaining open
   recommendations. Upon verification of implementation, the
   recommendations will be closed.

   Estimated Cost Savings: $240,517.



Status Report on Open Recommendations to DHS Components 


                        Page 258 

   Non-Monetary Benefits: Ensure NDPCI accounts for and
   expends grant funds according to federal regulations and grant
   guidelines.

   Report Number OIG-06-35

   Title: Review of TSA Collection of Aviation Security Fees.

   Issued: May 2006.

   Abstract: We evaluated TSA monitoring controls and oversight of
   passenger security fees to determine whether the air carriers
   properly identified, collected, and remitted these fees to TSA. At
   the request of TSA, we also evaluated calendar year 2000
   passenger and property screening expenses reported by air carriers
   to determine the accuracy of the costs reported and if the costing
   methodologies used by these air carriers provided a fair and
   reasonable basis for computing the air carriers’ aviation security
   infrastructure fee costs to TSA.

   Key Findings: For passenger security fees, TSA had not
   developed adequate controls and had not conducted audits to
   oversee the accuracy of the air carriers’ collection and remittance
   practices until late 2004. As a result, TSA did not know that the
   three air carriers reviewed did not identify, collect, and remit $2.7
   million in fees for the period covered during the audit.

   Recommendation Summary and Status: As of December 31,
   2007, three of the seven recommendations in this report were open.
   It is unknown whether the recommendations have been
   implemented. Upon verification of implementation, the
   recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure TSA develops monitoring
   controls and oversight of passenger security fees to determine
   whether the air carriers properly identified, collected, and remitted
   these fees to TSA.

   Report Number OIG-06-41 FOUO

   Title: Information Technology Management Letter for the FY
   2005 Customs and Border Protection Balance Sheet Audit.

   Issued: June 2006.

Status Report on Open Recommendations to DHS Components 


                        Page 259 

   This report is For Official Use Only. This report has 18 open
   recommendations. Upon request, additional information will be
   provided to qualified recipients.

   Report Number OIG-06-42

   Title: Improved Administration Can Enhance Science and
   Technology Laptop Computer Security.

   Issued: June 2006.

   Abstract: We audited the DHS and its organizational components’
   security program to evaluate the security and integrity of select
   government-issued laptop computers. The report focuses on the
   S&T. Our objective was to determine whether S&T has
   established and implemented adequate and effective security
   policies and procedures related to physical security and logical
   access to government-issued laptop computers.

   Key Findings: The report identified existing critical vulnerabilities
   in the standard model configuration for laptops. The possibility of
   similar vulnerabilities and remediation for all S&T issued
   computers exists and the updated model system must be correctly
   implemented. Procedures need to be developed to ensure that all
   S&T laptops are patched and updated in a timely manner.
   Appropriate inventory management controls, including effective
   inventory reviews, physical security controls, and classification
   labeling completed.

   Recommendation Summary and Status: As of December 31,
   2007, the four recommendations in this report were open. The
   component has sent a corrective action plan and implementation is
   pending. Upon verification of implementation, the
   recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Enhanced protection of information
   assets.

   Report Number OIG-06-45

   Title: Commonwealth of Virginia’s Management of State
   Homeland Security Grants Awarded During Fiscal Years 2002 and
   2003.

Status Report on Open Recommendations to DHS Components 


                        Page 260 

   Issued: July 2006.

   Abstract: Cotton and Company, under contract with us, completed
   an audit of the Commonwealth of Virginia’s (Commonwealth)
   management of the DHS’ ODP State Homeland Security Grant
   Program (SHSGP) to determine whether the state (1) effectively
   and efficiently implemented the first responder grant programs, (2)
   achieved the goals of the programs, and (3) spent funds according
   to grant requirements. The goal of the audit was to identify
   problems and solutions that would help the Commonwealth
   prepare for and respond to terrorist attacks.

   Key Findings: The audit disclosed several areas where the
   Commonwealth could improve its grant performance.
   Specifically, the Commonwealth did not properly document its
   plan and implementation of the grant programs, allocate ODP grant
   funds based on its risk assessment or stated needs and goals, could
   not effectively monitor local jurisdictions, did not have adequate
   internal controls over monitoring cash advances, and did not
   adhere to grant requirements regarding equipment purchases.

   Recommendation Summary and Status: As of December 31,
   2007, the eight recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $471,768.

   Non-Monetary Benefits: Ensure effective and efficient
   implementation of the first responder grant programs.

   Report Number OIG-06-54

   Title: Audit of the National Urban Search and Rescue Response
   System.

   Issued: August 2006.

   Abstract: The National Urban Search and Rescue Response
   System (US&R System) is a rapidly deployable federal source for
   first response to nationwide emergencies, including Weapons of
   Mass Destruction (WMD) events. FEMA is responsible for
   administering the US&R System. After September 11, 2001,
   Congress provided substantial increases to US&R System funding.

Status Report on Open Recommendations to DHS Components 


                        Page 261 

   Federal preparedness funding for the US&R System reached a high
   of $65 million in FY 2004, or about 550% more than FY 2001, but
   fell to $30 million in FY 2005. The objective of this audit was to
   determine to what extent DHS had achieved the US&R System's
   preparedness goals and to identify opportunities for improvement
   in US&R task force preparedness.

   Key Findings: While the US&R System has made improvements,
   especially in WMD training and equipment preparedness, the task
   forces are falling short in achieving system objectives and
   standards in three primary areas of readiness: operational,
   logistical, and management. Systemic deficiencies existed for
   many of the operational and logistical readiness objectives.

   Recommendation Summary and Status: As of December 31,
   2007, the three recommendations in this report were open. We did
   not agree with the component on the open recommendations. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure appropriate use and funding of
   the US&R system.

   Report Number OIG-06-55

   Title: Improvements Needed in the U.S. Coast Guard's
   Acquisition.

   Issued: August 2006.

   Abstract: Declining readiness of “Deepwater” assets, including
   aircraft and cutters of various sizes, has hindered the USCG’s
   effectiveness in accomplishing its homeland security, law
   enforcement, and regulatory missions. To meet the demand for
   improved communications, interoperability, and maritime security
   in today’s environment, the USCG has embarked in an estimated
   20-year, $20 billion acquisitions to modernize and strengthen its
   aging Deepwater fleet.

   Key Findings: To ensure the success of the Deepwater program,
   the commandant should direct the program executive officer to
   address the Command, Control, Communications, Computer,


Status Report on Open Recommendations to DHS Components 


                        Page 262 

   Intelligence, Surveillance, and Reconnaissance (C4ISR) planning
   and implementation issues.

   Recommendation Summary and Status: As of December 31,
   2007, two of the nine recommendations in this report were open.
   The component has sent a corrective action plan and
   implementation is pending. Upon verification of implementation,
   the recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Improve Security and Controls on DHS
   Financial Systems.

   Report Number OIG-06-60

   Title: Transportation Security Administration Continuity of
   Operations Program.

   Issued: August 2006.

   Abstract: The TSA’s ability to continue its mission-essential
   functions during a variety of emergencies is at risk because TSA does
   not have a comprehensive and effective Continuity of Operations
   (COOP) plan and program. The TSA Headquarters (HQ) COOP Plan
   and Program only partially address the 11 required elements that
   define a viable COOP.

   Key Findings: Without a complete and viable COOP plan, TSA’s
   ability to support, coordinate, and direct intermodal transportation
   security during an emergency could be impaired or fail. In addition,
   DHS, through its lead component on COOP matters -- FEMA -- has
   provided only limited oversight of TSA COOP activities and has not
   assessed the extent to which TSA, as well as other DHS components,
   are maintaining a COOP plan and program that is current and
   contains all required information.

   Recommendation Summary and Status: As of December 31,
   2007, two of the four recommendations in this report were open.
   We did not agree with the component on one of the open
   recommendations. The component has responded by providing a
   corrective action plan implementing one of the remaining open
   recommendations. We have requested additional documentation to
   verify full implementation. Upon verification of implementation,
   the recommendations will be closed.

   Estimated Cost Savings: N/A
Status Report on Open Recommendations to DHS Components 


                        Page 263 

   Non-Monetary Benefits: Ensure TSA maintains a COOP
   program, can support missions during emergencies, and clearly
   assigns responsibilities to DHS components.

   Report Number OIG-06-61

   Title: Audit of DHS’ Corrective Action Plan Process for Financial
   Reporting - Report No. 2.

   Issued: September 2006.

   Abstract: This is a performance audit report related to DHS’
   overall corrective action plan process in fiscal year 2006, prepared
   by the independent public accounting firm, KPMG. It is the
   second of a series of performance audit reports intended to provide
   an assessment of planned DHS corrective actions to improve
   internal control.

   Key Findings: DHS is working to identify and develop effective
   CAPs to address the four material weaknesses at the Office of the
   Chief Financial Officer (OCFO), USCG, and ICE over financial
   management oversight, financial reporting, fund balance with the
   Department of Treasury, and actuarial liabilities, as reported in the
   Department's independent auditors' report included in the FY 2005
   Performance and Accountability Report. The OCFO, USCG, and
   ICE have drafted CAPs intended to address their respective
   sections of the material weaknesses. The department deems these
   CAPs as critical steps towards its objective of obtaining an
   unqualified audit opinion on its consolidated financial statements,
   as well as on its internal controls over financial reporting. Our
   performance audit was limited to a review of the CAPs themselves
   and not the outcomes achieved as a result of the execution of the
   procedures outlined in the CAPs.

   Recommendation Summary and Status: As of December 31,
   2007, the five recommendations in this report were open. The
   component has responded by providing a corrective action plan
   implementing the remaining open recommendations. Upon
   verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Financial management improvement of
   the four material weaknesses at the OCFO, USCG, and ICE.

Status Report on Open Recommendations to DHS Components 


                        Page 264 

   Report Number OIG-06-65

   Title: Review of TSA Non-screener Administrative Positions.

   Issued: September 2006.

   Abstract: The Chairman of the House Aviation Subcommittee
   raised concerns that TSA’s administrative staff was top-heavy and
   underused at several airports and included overpaid supervisory
   screeners. The staff of 1,850 employees supports a passenger and
   baggage screening workforce of 47,037 screeners.

   Key Findings: We determined that TSA’s initial staffing actions
   did not have coherency and resulted, in some cases, in significant
   disparities in staffing at airports. Additionally, TSA had not
   determined the precise number of federal security director
   administrative positions it needs.

   Recommendation Summary and Status: As of December 31,
   2007, the four recommendations in this report were open. The
   component has responded by providing a corrective action plan
   implementing the remaining open recommendations. Upon
   verification of implementation, the recommendations will be
   closed. We received verification in 2008 of implementation and
   one recommendation has been closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Equitable distribution of non-screener
   staff based on airport requirements.

   Report Number OIG-07-01

   Title: Treatment of Immigration Detainees Housed at Immigration
   and Customs Enforcement Facilities.

   Issued: December 2006.

   Abstract: We assessed the extent to which ICE facilities that
   house immigration detainees were complying with detention
   standards. We focused on detention standards regarding Health
   Care, Environmental Health and Safety, General Conditions of
   Confinement, and Reporting of Abuse at five facilities used by
   ICE. The five facilities were:


Status Report on Open Recommendations to DHS Components 


                        Page 265 

           • Berks County Prison, Leesport, Pennsylvania;
           • Corrections Corporation of America Facility, San Diego,
             California;
           • Hudson County Correction Center, Kearny, New Jersey;
           • Krome Service Processing Center, Miami, Florida; and
           • Passaic County Jail, Paterson, New Jersey.

   Key Findings: All five facilities had instances of noncompliance
   with ICE Detention Standards. Regarding health care standards,
   four of the five detention facilities had instances of noncompliance,
   including timely initial and responsive medical care. Three of the
   five detention facilities reviewed had environmental health and
   safety concerns. Instances of noncompliance with ICE Detention
   Standards regarding general conditions of confinement at the five
   facilities included: disciplinary policy, classifying detainees, and
   housing together detainees classified at different security levels.
   Two facilities also had inadequate inventory controls over detainee
   funds and personal property. Further, the ICE Detention Standard
   on Detainee Grievance Procedures does not provide a process for
   detainees to report abuse or civil rights violations. In addition, two
   detention facilities did not issue handbooks specifically addressing
   detainee’s rights, responsibilities, and rules, and three facilities did
   not translate handbooks and orientation material into Spanish and
   other prevalent languages.

   Recommendation Summary and Status: As of December 31,
   2007, four of the 12 recommendations in this report were open.
   The component has responded by providing a corrective action
   plan implementing the remaining open recommendations. Upon
   verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Improve treatment of immigration
   detainees at ICE Facilities.

   Report Number OIG-07-02

   Title: The State of North Carolina’s Management of State
   Homeland Security Grants Awarded During Fiscal Years 2002 and
   2003.

   Issued: October 2006.



Status Report on Open Recommendations to DHS Components 


                        Page 266 

   Abstract: ODP awarded about $58 million to the State of North
   Carolina from the FY 2002 State Domestic Preparedness Program,
   and from Parts I and II of the FY 2003 State Homeland Security
   Grant Program. McBride, Lock and Associates, under a contract
   with our office, conducted the audit to determine whether North
   Carolina: (1) effectively and efficiently implemented the first
   responder grant programs, (2) achieved the goals of the programs,
   and (3) spent funds according to grant requirements.

   Key Findings: While North Carolina attempted to conscientiously
   manage the first responder grant programs, it did not measure
   accountability in achievement of the Office for Domestic
   Preparedness-approved strategic plan. Frequent changes in the
   grantee’s management team adversely affected the state’s
   management of the programs. Additionally, the need for written
   policies and procedures and the inadequacy of the budget structure
   diminished the effectiveness of the administration of the programs.
   The need to hire through temporary employment agencies also
   caused security concerns because of the sensitive nature of
   information that they may have processed. The state made some
   payments for unnecessary equipment and other unsupported
   purchases and did not always properly monitor sub-grantees. We
   reported delays in the expenditure of grant funds as well as
   limitations on measurement standards to determine the
   effectiveness or efficiency of North Carolina’s progress in
   preparing for terrorist incidents.

   Recommendation Summary and Status: As of December 31,
   2007, the 11 recommendations in this report were open. We did
   not agree with the component on one of the open
   recommendations. The component has responded by providing a
   corrective action plan implementing the remaining open
   recommendations. Upon verification of implementation, the
   recommendations will be closed.

   Non-Monetary Benefits: Commit the necessary resources to an
   accounting system that properly tracks and details grant
   expenditures by budgetary category.

   Report Number OIG-07-03

   Title: Management Advisory Report on Condition, Losses, and
   Possible Uses of FEMA Modular Housing.

   Issued: October 2006.


Status Report on Open Recommendations to DHS Components 


                        Page 267 

   Abstract: As part of oversight responsibilities regarding FEMA’s
   management of modular homes that were purchased in the wake of
   Hurricane Katrina but never used, we revisited the emergency
   housing sites at Texarkana, Texas, and Hope, Arkansas, where
   more than 1,000 modular homes are stored. The objectives were to
   assess whether FEMA correctly implemented recommendations
   made in February 2006 to ensure that the units were properly
   stored and maintained to mitigate deterioration, and that damaged
   units were repaired.

   Key Findings: Most of the modular homes were not properly
   stored and have been significantly damaged. Based on an
   evaluation by representatives of the homes’ manufacturers, it is
   estimated that the cost of the damage is several million dollars.

   Recommendation Summary and Status: As of December 31,
   2007, two of the five recommendations in this report were open.
   The component has not provided a corrective action plan
   implementing the open recommendations. Upon verification of
   implementation, the recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure best use of government
   resources; protect government assets.

   Report Number OIG-07-05

   Title: Federal Protective Service Needs To Improve Its Oversight
   of the Contract Guard Program.

   Issued: October 2006.

   Abstract: We assessed the FPS’ contract guard monitoring efforts
   within its National Capital Region (NCR) Region 11 to determine
   whether effective controls are in place to ensure qualified contract
   guards are deployed at federal buildings and if FPS effectively
   monitors contractor performance and compliance with contract
   provisions. In addition, we assessed the extent to which contract
   guard company invoices were paid on time according to the
   Prompt Payment Act.

   Key Findings: We concluded that FPS’ Region 11 is not
   consistently deploying qualified and certified contract guards
   because FPS personnel were not effectively monitoring the
   contract guard program. Contract guards were on post without

Status Report on Open Recommendations to DHS Components 


                        Page 268 

   current suitability determinations or with expired certifications.
   Also, security contractors were not performing their security
   services according to the terms and conditions of their contracts.
   In addition, FPS is not paying invoices in a timely manner for its
   contract guard services nationwide and is in violation of the
   Prompt Payment Act. Of the 25,557 invoices paid from October 1,
   2004, to November 21, 2005, only 12% were paid within 30 days,
   as required by the Prompt Payment Act. This condition occurred,
   in part, because the FPS transition from the General Services
   Administration’s Financial Management System to the ICE
   Federal Financial Management System was improperly planned.
   As a result, FPS paid more than $1.2 million in interest to guard
   companies that are contracted by FPS to protect federal buildings
   for late payments made during this time period.
   Recommendation Summary and Status: As of December 31,
   2007, one of the five recommendations in this report was open.
   The component has responded by providing a corrective action
   plan implementing the remaining open recommendation. Upon
   verification of implementation, the recommendation will be closed.

   Estimated Cost Savings: $1,300,000.

   Non-Monetary Benefits: N/A

   Report Number OIG-07-07

   Title: Risk Management Advisory for the SBInet Program
   Initiation.

   Issued: November 2006.

   Abstract: We performed an assessment of risks and controls over
   DHS’ new major acquisition program, Secure Border Initiative
   network Program (SBInet), which is aimed at transforming border
   control technology and infrastructure. The SBInet program’s
   objective is to develop solutions to manage, control, and secure the
   borders using a mix of proven, current, and future technology,
   infrastructure, personnel, response capability, and processes.
   SBInet replaces and expands on two previous efforts to gain
   control of the borders: the Integrated Surveillance Intelligence
   System and the America’s Shield Initiative. The FY 2007 budget
   request for SBInet included $100 million for border security
   technology, and similar FY 2008 budget estimates are under
   development; however, early forecasts and estimates of the
   program costs range from $8 to $30 billion.


Status Report on Open Recommendations to DHS Components 


                        Page 269 

   Key Findings: Our objectives were to determine whether lessons
   learned from other DHS major acquisition programs were being
   applied to minimize risks to accomplishing SBInet’s objectives.
   By the end of our review, DHS was applying lessons learned from
   previous major acquisition programs. However, the program
   management office did not have the capability to effectively
   oversee and assess contractor performance and effectively control
   cost and schedule. Also, the underlying operational requirements
   for the program were not properly defined, validated, and
   stabilized, thereby jeopardizing the program’s success and
   precluding cost and schedule control.

   Recommendation Summary and Status: As of December 31,
   2007, the four recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Improve effectiveness and reduce risks
   to this investment by ensuring adequate government management
   and oversight of contracts and program decisions.

   Report Number OIG-07-09

   Title: Targeting Oceangoing Cargo Containers.

   Issued: November 2006.

   Abstract: This report is the second annual review of the ATS used
   by CBP for sea containers, in response to a congressional mandate
   in the Coast Guard and Maritime Transportation Act of 2004.

   Key Findings: CBP did not fully use available information and
   intelligence sources. Differences in interpreting the Advance
   Targeting Unit policy exist as to which CBP port personnel need to
   have security clearances to better affect the targeting mission. In
   addition, National ATS performance measures are still under
   development. Also, local controls over container movement and
   inspection need to be evaluated and improved, and additional
   guidance for inspection of shipments with elevated ATS scores
   was needed. Finally, non-intrusive inspection imagery was not
   always available to CBP Officers conducting cargo inspections.



Status Report on Open Recommendations to DHS Components 


                        Page 270 

   Recommendation Summary and Status: As of December 31,
   2007, four of the six recommendations in this report were open. It
   is unknown whether the recommendations have been
   implemented. Upon verification of implementation, the
   recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure further examination of
   exceedingly high-risk cargo containers.

   Report Number OIG-07-11

   Title: United States Citizenship and Immigration Services’
   Progress in Modernizing Information Technology.

   Issued: November 2006.

   Abstract: Effective use of IT, coupled with updated processes, is
   vital to increase efficiency and address demands in immigration
   benefits processing. In our September 2005 report, USCIS Faces
   Challenges in Modernizing Information Technology (OIG-05-41),
   we reported inefficiencies in the United States Citizenship and
   Immigration Service’s (USCIS) operational environment and an
   unfocused approach to improving processes and systems in order
   to provide citizenship and immigration services more effectively.
   In the report, we recommended a number of actions that USCIS
   can take to leverage IT to achieve its modernization objectives.
   Such actions also will be critical to support potential increases in
   benefits processing workloads that could result from proposed
   immigration reform legislation.

   Key Findings: Although USCIS has exhibited new commitment to
   business transformation, the bureau faces challenges in finalizing
   its approach and advancing to transformation implementation.
   USCIS has accomplished the first phase of its IT staffing
   integration effort, however, remaining phases are on hold until the
   bureau makes necessary organizational improvements to issues
   that affect day-to-day IT operations.

   USCIS has made progress in applying IT to support mission
   business operations, but improved strategic planning by the Office
   of the Chief Information Officer (OCIO) could help in managing
   IT resources. Process engineering is contingent on implementing a
   “to-be” transaction-based environment and a supporting
   acquisition approach. While significant progress in IT

Status Report on Open Recommendations to DHS Components 


                        Page 271 

   infrastructure upgrades has been made, plans to complete
   remaining sites are on hold pending funding approval. USCIS has
   outlined strategies to increase stakeholder involvement in
   transformation planning to promote buy-in and minimize risks that
   redesigned processes and systems may not meet user needs.

   Recommendation Summary and Status: As of December 31,
   2007 the six recommendations in this report were open. The
   component has sent a corrective action plan and implementation is
   pending. Upon verification of implementation, the
   recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Improve Security and Controls on DHS
   Financial Systems.

   Report Number OIG-07-13

   Title: DHS’ Corrective Action Plan Process for Financial
   Reporting - Report No. 3.

   Issued: December 2006.

   Abstract: KPMG, under contract with us, performed an audit of
   DHS’ corrective action plans developed to address five of the ten
   material weaknesses in internal control cited in the Independent
   Auditor’s Report included in the department’s FY 2005
   Performance and Accountability Report.

   Key Findings: The five material weaknesses are: property, plant,
   and equipment; operating materials and supplies; undelivered
   orders, accounts and grants payable, and disbursements; budgetary
   accounting; and intra-governmental and intra-departmental
   balances. These weaknesses are primarily attributable to five
   entities within DHS: OCFO, USCG, ICE, TSA, and G&T, now
   part of FEMA.

   Recommendation Summary and Status: As of December 31,
   2007, 13 of the 23 recommendations in this report were open. The
   component has responded by providing a corrective action plan
   implementing the open recommendations. Upon verification of
   implementation, the recommendations will be closed.

   Estimated Cost Savings: N/A


Status Report on Open Recommendations to DHS Components 


                        Page 272 

   Non-Monetary Benefits: Financial management improvement.

   Report Number OIG-07-16

   Title: Improved Administration Can Enhance U.S. Customs and
   Border Protection Laptop Computer Security.

   Issued: December 2006.

   Abstract: We audited the DHS and its organizational components’
   security program to determine the security and integrity of select
   government-issued laptop computers. CBP has employed many
   essential security controls for its sensitive but unclassified laptops.
   Our audit work was based on direct observations; vulnerability and
   wireless system security scans; and an analysis of applicable CBP
   documents. In addition, we interviewed CBP management
   officials and security personnel.

   Key Findings: Significant work remains for CBP to further
   strengthen the configuration, patch, and inventory management
   controls necessary to protect its government-issued laptop
   computers. Specifically, CBP has not established: (1) a standard
   configuration for its laptops that meets required minimum-security
   settings; (2) effective procedures to patch laptop computers; and,
   (3) adequate inventory management procedures. As a result,
   sensitive information stored and processed on CBP’s laptop
   computers may not be protected properly. Further, because CBP
   uses the same procedures to develop a model for its desktop
   computers, the configuration weaknesses in laptop computers are
   relevant to all government-issued computers assigned within CBP.

   Recommendation Summary and Status: As of December 31,
   2007, four of the seven recommendations in this report were open.
   The component has sent a corrective action plan and
   implementation is pending. Upon verification of implementation,
   the recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Enhanced protection of information
   assets.

   Report Number OIG-07-17

   Title: FEMA's Progress in Addressing Information Technology
   Management Weakness.

Status Report on Open Recommendations to DHS Components 


                        Page 273 

   Issued: December 2006.

   Abstract: FEMA is responsible for coordinating disaster relief
   efforts across federal, state, and volunteer organizations, such as
   the American Red Cross. FEMA relies heavily on information
   technology (IT) systems to carry out its response and recovery
   operations. Strategic management of these assets is important to
   ensure that the technology can perform effectively during times of
   disaster and tremendous stress.

   Key Findings: FEMA has not documented or communicated a
   strategic direction to guide long-term IT investment and system
   development efforts. FEMA also has not performed crosscutting
   requirement gathering to determine business needs, which would
   allow Information Technology Services Division personnel to
   analyze alternatives to continued development of the complex,
   custom NEMIS system. In addition, FEMA has several resource
   challenges to accomplishing these tasks, including personnel
   needs, time limitations, and funding constraints. Therefore,
   constrained by limited resources, FEMA focused its efforts on
   preparation for the 2006 hurricane season and has made little
   progress in addressing long-term needs, such as updating strategic
   plans, defining cross-cutting requirements, and evaluating systems
   alternatives.

   Recommendation Summary and Status: As of December 31,
   2007, the five recommendations in this report were open. The
   component has sent a corrective action plan and implementation is
   pending. Upon verification of implementation, the
   recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Improve Security and Controls on DHS
   Financial Systems.

   Report Number OIG-07-18 FOUO

   Title: Information Technology Matters Related to TSA’s FY 2005
   Financial Statements.

   Issued: December 2006.




Status Report on Open Recommendations to DHS Components 


                        Page 274 

   This report is For Official Use Only. This report has 19 open
   recommendations. Upon request, additional information will be
   provided to qualified recipients.

   Report Number OIG-07-23

   Title: Acquisition of the National Security Cutter, U. S. Coast
   Guard.

   Issued: January 2007.

   Abstract: We assessed the extent to which the USCG’s National
   Security Cutter will meet the cost, schedule, and performance
   requirements contained in the Integrated Deepwater System
   (“Deepwater”) contract. Deepwater is a $24 billion, 25-year
   acquisition program to replace and modernize the USCG’s aging
   and deteriorating fleet of ships and aircraft. Deepwater employs a
   nontraditional “system-of-systems” by which a private sector
   Systems Integrator is authorized to develop an optimal mix of
   assets to accomplish all defined USCG Deepwater missions,
   typically defined as operations more than 50 miles from shore. On
   June 25, 2002, USCG awarded Integrated Coast Guard Systems a
   joint venture between Lockheed Martin and Northrop Grumman,
   an initial 5-year contract to serve as the Deepwater Systems
   Integrator. This Deepwater implementation plan specifies that a
   total of eight National Security Cutters will be built.

   Key Findings: As designed and constructed, the National Security
   Cutter will not meet performance specifications established in the
   Deepwater contract. Specifically, due to design deficiencies, the
   structure provides insufficient fatigue strength to meet its
   contractual performance capability of being underway for 230 days
   per year, on average, in both the Caribbean (General Atlantic) and
   Gulf of Alaska (North Pacific) regions over a 30-year operational
   service life. To mitigate the effects of these deficiencies, USCG
   intends to task Integrated Coast Guard Systems with modifying the
   design to support an annual operating profile of 170 to 180 days
   underway, on average, in the North Pacific region, which is less
   than the 230-day performance standard required by contract. The
   design and performance deficiencies are fundamentally the result
   of USCG’s need to improve technical oversight over the design
   and construction of its Deepwater assets.

   Recommendation Summary and Status: As of December 31,
   2007, three of the six recommendations in this report were open.
   We did not agree with the component on one of the open

Status Report on Open Recommendations to DHS Components 


                        Page 275 

   recommendations. It is unknown whether the recommendations
   have been implemented. Upon verification of implementation, the
   recommendations will be closed.

   Estimated Costs Savings: N/A

   Non-Monetary Benefits: Ensure the USCG’s National Security
   Cutter will meet the cost, schedule, and performance requirements
   contained in the Integrated Deepwater contract.

   Report Number OIG-07-24

   Title: DHS’ Implementation of Protective Measures for
   Personally Identifiable Information.

   Issued: January 2007.

   Abstract: We reviewed the DHS’ implementation of the
   recommendations set forth in the OMB Memorandum 06-16,
   Protection of Sensitive Agency Information. Our objective was to
   determine whether DHS has effectively implemented safeguards to
   protect sensitive and personally identifiable information (PII).

   Key Findings: The Chief Privacy Officer should ensure
   completion of the identification of systems that collect, process, or
   store PII, as well as the assessment of the risk associated with the
   systems and data.

   Recommendation Summary and Status: As of December 31,
   2007, the five recommendations in this report were open. The
   component has sent a corrective action plan and implementation is
   pending. Upon verification of implementation, the
   recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Enhanced protection of information
   assets.

   Report Number OIG-07-26

   Title: Audit of Federal Emergency Management Agency Public
   Assistance Grant Funding Awarded to the City of Richmond
   California After the Loma Prieta Earthquake.

   Issued: February 2007.

Status Report on Open Recommendations to DHS Components 


                        Page 276 

   Abstract: We audited public assistance grant funds awarded to the
   City of Richmond, California for FEMA Disaster Number 845-
   DR-CA. The objective of the audit was to determine whether the
   city expended and accounted for the funds according to federal
   regulations and FEMA guidelines.

   Key Findings: With the Region’s approval, the city spent all the
   funds received for repairs to the Ford Assembly Building but did
   not finish the reduced scope of work described in Damage Survey
   Report 21043 (supplement to Damage Survey Report 78123)
   before selling the building. The Region did not implement the
   final agency determination. Specifically, the Region reduced the
   scope of work approved by the FEMA Director but allowed the
   city to claim all of the $15.5 million awarded for disaster repairs
   and mitigation as a result of the city’s third appeal. Additionally,
   the Region further reduced the scope of work approved in the
   Director’s determination and did not ensure that the city complied
   with grant requirements.

   Recommendation Summary and Status: As of December 31,
   2007, the two recommendations in this report were open. We did
   not agree with the component on the open recommendations.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $12,169,567.

   Non-Monetary Benefits: Ensure best use of government
   resources; protect government assets.

   Report Number OIG-07-28

   Title: ICE’s Compliance With Detention Limits for Aliens With a
   Final Order of Removal From the United States.

   Issued: February 2007.

   Abstract: ICE Office of Detention and Removal Operations
   manages the detention and deportation of aliens with a final order
   of removal from the United States. In addition to current laws,
   regulations, and internal guidance, this office must comply with
   two Supreme Court rulings that generally prohibit periods of
   detention longer than six months for some aliens, unless certain
   conditions apply. We reviewed ICE’s compliance with detention
   time limits for aliens with a final order of removal, including the

Status Report on Open Recommendations to DHS Components 


                        Page 277 

   reasons for exceptions or noncompliance. We focused on: (1)
   compliance with the Supreme Court rulings in Zadvydas v. Davis
   533 U.S. 678 (2001) and Clark v. Martinez 543 U.S. 371 (2005),
   and implementing regulations; (2) the quality of guidance provided
   by DRO headquarters; and (3) ICE’s management practices,
   including its ability to track and prioritize cases and conduct
   nationwide quality assurance.

   Key Findings: ICE has introduced quality assurance and tracking
   measures for case review; however, outdated databases and current
   staffing resources limit the effectiveness of its oversight
   capabilities. Although approximately 80% of aliens with a final
   order are removed or released within 90 days of an order, ICE’s
   Post-Order Custody Reviews for the remaining cases were not
   conducted in more than 6% of cases, and were not performed on
   time in more than 19% of cases. Moreover, some aliens have been
   suspended from the review process without properly documented
   evidence that the alien is not complying with efforts to secure
   removal. In addition, cases are not prioritized to ensure that aliens
   who are dangerous or whose departure is in the national interest
   are removed, or that their release within the United States is
   properly supervised. Finally, ICE has not provided sufficient
   guidance on applying the Supreme Court’s “reasonably foreseeable
   future” standard, and does not systematically track removal rates—
   information that is necessary for negotiating returns and for
   determining whether detention space is used effectively.

   Recommendation Summary and Status: As of December 31,
   2007, one of the five recommendations in this report was open.
   The component has responded by providing a corrective action
   plan implementing the remaining open recommendation. Upon
   verification of implementation, the recommendation will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Improved oversight of aliens who have
   been in detention longer than 180 days after a final order of
   removal.

   Report Number OIG-07-29

   Title: DHS’ Corrective Action Plan Process for Financial
   Reporting - Report No. 4.

   Issued: February 2007.


Status Report on Open Recommendations to DHS Components 


                        Page 278 

   Abstract: We conducted a review of DHS’ corrective action plan
   process for financial reporting to (1) assess the integrity of the
   corrective action plans, updated as of September 30, 2006, related
   to 4 of the 10 material weaknesses that were cited in the
   independent auditors’ report; (2) evaluate the alignment of 5
   contracts awarded to support actions to correct specific material
   weaknesses; and (3) evaluate the Financial Management
   Transformation and CFO Audit Remediation task force activities
   taken in response to the Commandant’s Order issued July 3, 2006.

   Key Findings: The initial root cause exercise that was performed
   to draft the corrective action plans contained weaknesses. For the
   plans reviewed, it remains difficult to determine whether all
   conditions of the material weaknesses have been identified and
   whether the root causes that have been identified are adequate to
   assist management with developing effective remediation plans.
   Also, USCG management did not consider business risks,
   materiality, or cost versus benefit analysis when developing the
   remediation plans. The plans include high-level work breakdown
   structures but not resource estimates for each subtask of the
   milestones or a formal process for reporting progress against each
   CAP’s milestones. For the four plans, accountability for all areas,
   including accountability below the process owner level, has not
   been fully determined. In addition, USCG has not defined
   procedures to assess the effectiveness of its remediation activities.

   Recommendation Summary and Status: As of December 31,
   2007, the 21 recommendations in this report were open. The
   component has responded by providing a corrective action plan
   implementing the remaining open recommendations. Upon
   verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure financial management
   improvements for the USCG.

   Report Number OIG-07-31

   Title: Special Transient Accommodations Program for the
   Evacuees from Hurricanes Katrina and Rita.

   Issued: February 2007.



Status Report on Open Recommendations to DHS Components 


                        Page 279 

   Abstract: FEMA entered into contracts with the American Red
   Cross and Corporate Lodging Consultants (the Consultants) to
   provide temporary housing for evacuees displaced by Hurricanes
   Katrina and Rita. The review focused on whether FEMA, through
   the American Red Cross and the Consultants, effectively
   implemented a plan that would properly determine: (1) evacuee
   eligibility for lodging; (2) allowableness of charges; (3)
   reasonableness of room rates; and (4) compliance with Federal
   Acquisition Regulations.

   Key Findings: The American Red Cross and the Consultants did
   not always follow procedures authorized by FEMA for
   determining evacuee eligibility or require hotels and motels to
   follow standard industry protocols. Billed room rates were greater
   than published rates. Definitive proof of occupancy prior to
   authorizing payments was not required. From our judgmental
   sample of 3,000 evacuees, we questioned costs of $3.4 million.

   Recommendation Summary and Status: As of December 31,
   2007, the eight recommendations in this report were open. The
   component has responded by providing a corrective action plan
   implementing the open recommendations. Upon verification of
   implementation, the recommendations will be closed.

   Estimated Cost Savings: $26,000,000.

   Non-Monetary Benefits: N/A

   Report Number OIG-07-32

   Title: Review of Customs and Border Protection’s Agriculture
   Inspection Activities.

   Issued: February 2007.

   Abstract: We conducted a joint review with the United States
   Department of Agriculture (USDA) OIG of selected agricultural
   inspection activities that were transferred to CBP from USDA.
   With the DHS creation in March 2003, CBP assumed
   responsibility to inspect agricultural goods arriving at U.S. ports
   while USDA-Animal and Plant Health Inspection Service retained
   responsibility for agriculture related policies and procedures.

   Key Findings: CBP generally conducted agriculture inspection
   activities in compliance with procedures at ports visited. However,
   improvements were needed to ensure that Agricultural Quarantine

Status Report on Open Recommendations to DHS Components 


                        Page 280 

   Inspection Monitoring sampling, staffing, and performance
   measures are adequate. CBP’s agricultural quarantine sampling,
   which helps USDA predict potential future risks to agriculture
   from pests and diseases, did not meet sampling requirements for 13
   of 18 pathway activities at four ports (such as air passengers and
   truck cargo agricultural inspections). CBP also needed a current
   staffing model for agriculture specialists and performance
   measures for many activities to ensure the most effective use of
   personnel.

   CBP has other noncompliance and control issues. At Miami CBP,
   agriculture specialists were not following proper procedures for
   selecting flower samples for inspection. Miami CBP also made an
   operational change to procedures for inspections of cut flowers but
   did not have a specific formal process for notifying USDA
   concerning this change. This affects the inspection practices for
   87% of the cut flowers entering the United States. In addition,
   CBP ports did not properly monitor Transportation and
   Exportation shipments. We also reported significant inaccuracies
   in data used to track agriculture inspection activities. For example,
   107 of 148 Work Accomplishment Data System activity codes
   were reported incorrectly or did not have supporting
   documentation to allow verification.

   Recommendation Summary and Status: As of December 31,
   2007, three of the 10 recommendations in this report were open. It
   is unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure development of agriculture
   related policies and procedures.

   Report Number OIG-07-33

   Title: The Department of Homeland Security’s Role in Food
   Defense and Critical Infrastructure Protection.

   Issued: February 2007.

   Abstract: The federal government is charged with defending the
   food supply from intentional attacks and natural hazards. While
   DHS is not the designated lead for a number of key activities in
   this area, Congress and the President have assigned DHS many

Status Report on Open Recommendations to DHS Components 


                        Page 281 

   important food defense and critical infrastructure protection
   responsibilities. This report examines DHS activities relating to
   post-harvest food, and focuses on prevention, protection,
   preparedness, and detection efforts.

   Key Findings: We observed four main limitations in DHS’
   related efforts. DHS could improve internal coordination of its
   related efforts, improve its engagement of public and private food
   sector partners, do more to prioritize resources and activities based
   on risk, and fully discharge its food sector responsibilities.

   Recommendation Summary and Status: As of December 31,
   2007, 13 of the 16 recommendations in this report were open. The
   component has responded by providing a corrective action plan
   implementing 11 of the remaining open recommendations. We did
   not agree with the component on two of the open
   recommendations. We have requested additional documentation to
   verify full implementation of the open recommendations. Upon
   verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Improved efficiency and coordination in
   the federal effort to protect the food supply.

   Report Number OIG-07-35 Classified

   Title: Access to Airport Secured Areas.

   Issued: March 2007.

   This report is Classified. This report has one open
   recommendation. Upon request, additional information will be
   provided to qualified recipients.

   Report Number OIG-07-36

   Title: FEMA’s Award of 36 Trailer Maintenance and Deactivation
   Contracts.

   Issued: March 2007.

   Abstract: At the request of Senators Byron L. Dorgan and Mary
   L. Landrieu, we reviewed FEMA’s award of 36 contracts worth
   $3.6 billion for the maintenance and deactivation of travel trailers

Status Report on Open Recommendations to DHS Components 


                        Page 282 

   and manufactured housing needed after hurricanes Katrina and
   Rita. The Senators’ letter asked us to investigate the bid process
   and address concerns raised by witnesses who testified before the
   Senate Democratic Policy Committee on May 19, 2006.

   Key Findings: FEMA contracting officials treated bidders fairly
   during the bid process. However, to fully realize the goal of
   maximizing local participation, they should have established better
   criteria for determining whether a bidder was a local firm. FEMA
   officials did not design the solicitation to maximize preference to
   local businesses. They also should have analyzed prices more
   thoroughly before awarding the contracts to ensure that costs were
   reasonable. Contracting officials also did not properly assess the
   wide range of prices proposed by bidders and thereby exposed
   FEMA to both the risk of paying too much for contract line items
   as well as not paying enough to ensure proper performance.
   Finally, FEMA officials did not provide unsuccessful bidders with
   line item prices, as required during post award debriefings.

   Recommendation Summary and Status: As of December 31,
   2007, the three recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure best use of government
   resources; protect government assets.

   Report Number OIG-07-41

   Title: Sales of Federal Emergency Management Agency Travel
   Trailers and Mobile Homes.

   Issued: May 2007.

   Abstract: We reviewed the results of the FEMA travel trailer and
   mobile home sales that took place in 2005 and 2006 in Alabama,
   Florida, Mississippi, and Texas to determine whether the sales
   were at fair and equitable prices, provided the best return for the
   government, and complied with applicable regulations.

   Key Findings: FEMA needs a consistent and equitable sales
   policy for travel trailers and mobile homes. FEMA has sold travel
   trailers and mobile homes for as little as $1 and as much as

Status Report on Open Recommendations to DHS Components 


                        Page 283 

   $20,000. Pricing has not resulted in the best return for the
   government and has been inequitable to buyers. Because FEMA
   field offices were using inconsistent pricing practices, FEMA
   officials in October 2006, directed that sales be placed on hold
   pending development of a national sales policy. FEMA needs to
   expedite the development of that policy.

   Recommendation Summary and Status: As of December 31,
   2007, the recommendation in this report was open. The
   component has responded by providing a corrective action plan
   implementing the remaining open recommendation. Upon
   verification of implementation, the recommendation will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure best use of government
   resources; protect government assets.

   Report Number OIG-07-42

   Title: Audit of State Homeland Security Grants Awarded to the
   American Samoa Government.

   Issued: May 2007.

   Abstract: We audited American Samoa Government’s (ASG’s)
   management of state homeland security grants (first responder
   grants) awarded by the ODP during FYs 2002, 2003, and 2004.
   Our audit objective was to determine whether ASG developed and
   implemented an appropriate homeland security strategic plan and
   grants management practices and controls.

   Key Findings: We determined that the ASG’s strategic plans were
   fundamentally flawed in that they did not sufficiently identify
   deficiencies in immediate equipment and training needs and
   overall capabilities of ASG’s first responders. The strategic plans
   also did not sufficiently identify ways to solve the homeland
   security vulnerabilities identified in the plans.

   Recommendation Summary and Status: As of December 31,
   2007, the five recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $1,713,117.

Status Report on Open Recommendations to DHS Components 


                        Page 284 

   Non-Monetary Benefits: Improvement of ASG's ability to
   respond to and recover from acts of terrorism.

   Report Number OIG-07-43 FOUO

   Title: Additional Physical, System, and Management Controls
   Can Enhance Security at Plum Island.

   Issued: May 2007.

   This report is For Official Use Only. This report has 12 open
   recommendations. Upon request, additional information will be
   provided to qualified recipients.

   Report Number OIG-07-45

   Title: Transportation Security Administration’s Management of Its
   Federal Employees’ Compensation Act Program.

   Issued: May 2007.

   Abstract: The physical activity required to screen passengers and
   baggage at the Nation’s airports has resulted in an inordinate number
   of injuries for TSA screeners. The annual costs for injured agency
   screeners increased from $39 million to $66 million between fiscal
   years 2004 and 2006. Furthermore, the estimated future liability to
   the agency based on currently approved Federal Employees’
   Compensation Act (FECA) cases in fiscal year 2006 was estimated to
   be approximately $600 million. The objective of our audit was to
   determine whether the agency is effectively managing its FECA
   program to minimize lost workdays and compensation costs, and is
   taking aggressive steps to reduce workplace injuries.

   Key Findings: Despite improvements in timeliness and a
   reduction in the number of new claims filed by injured workers,
   the TSA is not aggressively and effectively managing long-term
   FECA cases in order to return work-capable employees to work as
   soon as medically possible. In addition, the agency does not have
   a process to validate its workers’ compensation chargeback
   reports, putting the agency at risk of improperly paying
   compensation and medical costs. As a result, TSA may be paying
   benefits to individuals who are not entitled to them, may not be
   returning injured employees to work in the most expeditious
   timeframe possible, and may be at risk for significant workers’
   compensation-related fraud and abuse.

Status Report on Open Recommendations to DHS Components 


                        Page 285 

   Recommendation Summary and Status: As of December 31,
   2007, three of the 12 recommendations in this report were open.
   The component has responded by providing a corrective action
   plan implementing the remaining open recommendations. Upon
   verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Defining roles and responsibilities will
   improve the monitoring of worker compensation cases to ensure
   that the employee returns to work or enters a vocational
   rehabilitation program.

   Report Number OIG-07-46

   Title: Independent Auditors’ Report on the Federal Law
   Enforcement Training Center’s Fiscal Year 2006 Balance Sheet.

   Issued: May 2007.

   Abstract: KPMG, under a contract with us, issued an unqualified
   opinion on the DHS Federal Law Enforcement Training Center
   (FLETC).

   Key Findings: KPMG identified eight reportable conditions with
   six considered material weakness and instances of non-compliance
   with the Federal Financial Management Improvement Act of 1996
   and the Prompt Payment Act. Material weaknesses included
   financial reporting, capital lease liabilities, valuation of
   inventories, accounts payable, environmental cleanup costs, and
   construction in progress. Other reportable conditions included
   deferred revenue and financial systems security. KPMG also
   reported other matters related to compliance with the Anti-
   Deficiency Act.

   Recommendation Summary and Status: As of December 31,
   2007, 23 of the 32 recommendations in this report were open. The
   component has responded by providing a corrective action plan
   implementing the remaining open recommendations. Upon
   verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A


Status Report on Open Recommendations to DHS Components 


                        Page 286 

   Non-Monetary Benefits: Ensure financial management
   improvements for financial reporting, capital lease liabilities,
   valuation of inventories, accounts payable, environmental cleanup
   costs, and construction in progress at FLETC.

   Report Number OIG-07-47

   Title: Congressional Inquiry Regarding Southwest Charter Lines,
   Inc.

   Issued: May 2007.

   Abstract: At the request of Senator John McCain, we reviewed the
   contract awarded by FEMA in September 2005 to Southwest
   Charter Lines Inc. of Mesa, Arizona to provide mobile shower
   facilities for the FEMA Urban Search and Rescue Base located at
   Saints’ Field in New Orleans.

   Key Findings: The allegation that Southwest Charter Lines Inc.
   intentionally over-billed FEMA was not substantiated. It was
   determined that the alleged over-billing was unintentional.
   However, during this review, there were issues of concern
   regarding internal controls and billing errors for items such as
   overtime and delivery charges, which were not allowed under the
   contract.

   Recommendation Summary and Status: As of December 31,
   2007, the two recommendations in this report were open. The
   component has responded by providing a corrective action plan
   implementing one open recommendation. Upon verification of
   implementation, the recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure best use of government
   resources; protect government assets.

   Report Number OIG-07-48

   Title: Challenges Remain in Securing the Nation’s Cyber
   Infrastructure.

   Issued: June 2007.

   Abstract: Since our last review in 2004, the National Cyber
   Security Division has taken actions to further implement The

Status Report on Open Recommendations to DHS Components 


                        Page 287 

   National Strategy to Secure Cyberspace and made progress in
   meeting its mission. The division established a fully operational
   incident-handling center; began to implement programs that
   promote cyber security awareness among the public and private
   sectors; and planned, coordinated, and conducted cyber exercises
   with the public and private sectors. However, many of the
   division’s initiatives are not complete and the progress to date has
   been limited; performance measures to monitor the results and
   impacts of the division’s programs have not been developed; the
   private sector expressed concerns over the focus of the division’s
   information sharing and communications programs; and all known
   cyber incidents from across the federal government are not being
   reported.

   Key Findings: The division needs to establish priorities to ensure
   that its mission-critical tasks supporting its programs are
   completed timely; to develop enhanced performance measures that
   can be used to evaluate the effectiveness in meeting its mission; to
   develop information sharing and communications programs with
   the private sector; and to develop and implement enhanced
   procedures to ensure that all known cyber incidents from across the
   federal government are being reported.

   Recommendation Summary and Status: As of December 31,
   2007, the 14 recommendations in this report were open. We did
   not agree with the component on one of the open
   recommendations. The component has responded by providing a
   corrective action plan implementing the remaining open
   recommendations. Upon verification of implementation, the
   recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Enhanced protection of information
   assets.

   Report Number OIG-07-50

   Title: Improved Administration Can Enhance Federal Emergency
   Management Agency Laptop Computer Security.

   Issued: June 2007.

   Abstract: Significant work remains for FEMA to further
   strengthen the configuration, patch, and inventory management


Status Report on Open Recommendations to DHS Components 


                        Page 288 

   controls necessary to protect its government-issued laptop
   computers.

   Key Findings: Specifically, FEMA has not established: (1)
   effective processes to apply the domain security policy to its
   laptops that meets required minimum-security settings; (2)
   effective procedures to patch laptop computers; and (3) adequate
   laptop computer inventory management procedures. As a result,
   sensitive information stored and processed on FEMA laptop
   computers may not be protected properly. Further, because FEMA
   applies the same domain security policies for its desktop
   computers, the configuration weaknesses identified with laptop
   computers are relevant to all government-issued computers
   assigned within FEMA. Finally, we were unable to evaluate the
   FISMA 2002 requirements because FEMA had not accounted for
   its laptop computers as part of a recognized information
   technology system. Our recommendations focused on developing
   a standard configuration, remedying existing vulnerabilities,
   patching and updating laptop computers, implementing inventory
   management controls, and complying with FISMA requirements.

   Recommendation Summary and Status: As of December 31,
   2007, five of the seven recommendations in this report were open.
   The component has sent a corrective action plan and
   implementation is pending. Upon verification of implementation,
   the recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Enhanced protection of information
   assets.

   Report Number OIG-07-51

   Title: Federal Emergency Management Agency Volunteer Service
   Program Following Hurricane Katrina.

   Issued: June 2007.

   Abstract: The review focused on FEMA’s mission assignments to
   federal departments and agencies to provide volunteers in response
   to the 2005 Gulf Coast hurricanes. The objective was to determine
   whether the volunteer service program was managed efficiently
   and effectively.



Status Report on Open Recommendations to DHS Components 


                        Page 289 

   Key Findings: The volunteer service program was initiated in a
   short time frame and with limited prior experience or planning, but
   was generally implemented efficiently and effectively, and
   provided needed resources to assist with relief efforts. Volunteers
   overwhelmingly cited their service as particularly rewarding.
   However, POCs and volunteers identified several areas that need to
   be addressed prior to the next hurricane season to improve the
   efficacy of the volunteer service program.

   Recommendation Summary and Status: As of December 31,
   2007, the four recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure best use of government
   resources; protect government assets.

   Report Number OIG-07-53 FOUO

   Title: Information Technology Management Letter for the Fiscal
   Year 2006 Department of Homeland Security Financial Statement
   Audit.

   Issued: August 2007.

   This report is For Official Use Only. This report has 19 open
   recommendations. Upon request, additional information will be
   provided to qualified recipients.

   Report Number OIG-07-54

   Title: Automated Commercial Environment Release 4 Post-
   Deployment Problems.

   Issued: June 2007.

   Abstract: CBP is developing a new cargo processing system to
   modernize the targeting, inspection, enforcement, border security,
   revenue collection, and trade statistics processes for all cargo
   entering and leaving the United States. The ACE Release 4, e-
   Manifest: Trucks provides an electronic truck manifest; a primary
   officer interface, which has the screens CBP officers use; and
   expedited importation processing.

Status Report on Open Recommendations to DHS Components 


                        Page 290 

   Key Findings: Generally, problems referred to the ACE help desk,
   the principal method used by CBP to detect and resolve problems
   with ACE at the land border ports, were effectively resolved.
   However, CBP did not detect and resolve some operational
   problems that occurred at the ports and did not provide adequate
   communication and guidance to the ports.

   Recommendation Summary and Status: As of December 31,
   2007, the two recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Identify and resolve problems that occur
   in the deployment of the new automated system.

   Report Number OIG-07-57

   Title: Transportation Security Administration’s Oversight of
   Passenger Aircraft Cargo Security Faces Significant Challenges.

   Issued: July 2007.

   Abstract: TSA relies on inspections carried out by Aviation
   Security Inspectors as an integral part of a multilayered approach
   to ensure air carrier compliance with cargo security regulations.

   Key Findings: We concluded that TSA’s inspection process may
   not accurately represent the extent to which air carriers comply
   with cargo screening requirements. The current level of oversight
   does not provide assurance that air carriers are meeting
   congressionally mandated goals of tripling the amount of cargo
   screened for passenger aircraft and that air carriers are properly
   applying exemption rules for cargo screening. Consequently, the
   process increases the opportunities for the carriage of explosives,
   incendiaries, and other dangerous devices on passenger aircraft.

   Recommendation Summary and Status: As of December 31,
   2007, four of the seven recommendations in this report were open.
   The component has responded by providing a corrective action
   plan implementing three of the remaining open recommendations.
   It is unknown whether one recommendation has been


Status Report on Open Recommendations to DHS Components 


                        Page 291 

   implemented. Upon verification of implementation, the
   recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Improved oversight and consistent cargo
   security.

   Report Number OIG-07-58

   Title: The State of New Jersey’s Management of State Homeland
   Security Grants Awarded During Fiscal Years 2002 Through 2004.

   Issued: July 2007.

   Abstract: The State of New Jersey received $115.3 million in
   State Homeland Security Grants, known as “first responder”
   grants, during FYs 2002 through 2004.

   Key Findings: We determined that the State of New Jersey (1)
   effectively and efficiently implemented the first responder grant
   programs, (2) achieved the goals of the programs, and (3) spent
   funds according to grant requirements. However, there were areas
   that needed improvement. Supporting documentation and
   accounting records were not retained for $247,199 in federal
   expenditures. This occurred because the grantee and subgrant
   recipients had inefficient internal controls over record retention
   and did not adhere to recordkeeping and reporting requirements.
   In addition, the state did not provide five of 27 required
   Categorical Assistance Progress Reports, nor timely submit 12 of
   46 required Financial Status Reports.

   Recommendation Summary and Status: As of December 31,
   2007, the six recommendations in this report were open. We have
   come to agreement with the component on the open
   recommendations and a response is pending. Upon verification of
   implementation, the recommendations will be closed.

   Estimated Cost Savings: $247,199.

   Non-Monetary Benefits: Ensure best use of government resources
   and protect government assets.

   Report Number OIG-07-59

   Title: Review of the Buffer Zone Protection Program.

Status Report on Open Recommendations to DHS Components 


                        Page 292 

   Issued: July 2007.

   Abstract: The Buffer Zone Protection Program (BZPP) is jointly
   managed by the National Protection and Programs Directorate and
   the National Preparedness Office under FEMA. The BZPP was
   designed to focus terrorism detection and prevention efforts at
   high-priority critical infrastructure facilities and key resources sites
   throughout the United States. Modifications in the program,
   delays, and administrative challenges stemming from the multiple
   agencies involved, the relative complexity of the grant application
   process, and the co-management of the program within DHS
   slowed the approval of grant applications and the delivery of
   equipment to local jurisdictions.

   Key Findings: Program managers have taken steps to strengthen
   the BZPP and have addressed issues that inhibited the program
   including the type and number of sites to participate, the amount of
   money to be allotted per site, the method used to assess site
   vulnerability, the allowable equipment, and the grant requirements.
   These adjustments will help the program achieve its intended
   results.

   Recommendation Summary and Status: As of December 31,
   2007, six of the 12 recommendations in this report were open. The
   component has responded by providing a corrective action plan
   implementing the remaining open recommendations. Upon
   verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Increased functionality of the BZPP and
   further enhancements of critical infrastructure protection within the
   US.

   Report Number OIG-07-60

   Title: Improvements to Information Sharing Are Needed To
   Facilitate Law Enforcement Efforts During Disasters.

   Issued: July 2007.

   Abstract: Law enforcement efforts to provide public safety and
   security, and detect disaster assistance fraud, are complicated by:
   (1) FEMA concerns about improperly disclosing Privacy Act-

Status Report on Open Recommendations to DHS Components 


                        Page 293 

   protected information; and (2) the Computer Matching and Privacy
   Protection Act, which prevents federal Inspectors General from
   expeditiously conducting computer matches among recipients of
   disaster assistance.

   Key Findings: Law enforcement agencies were not given direct
   access to FEMA disaster recovery assistance files to locate missing
   children, sex offenders, and fugitive felons following Hurricane
   Katrina.

   DHS and the Department of Justice have not established an
   arrangement that provides law enforcement with direct access to
   FEMA disaster recovery assistance files for all public safety and
   security needs, such as identifying the whereabouts of registered
   sex offenders and fugitive felons following a disaster. The
   Computer Matching and Privacy Protection Act prevented
   proactive fraud investigations by federal Inspectors General
   because it required a time-consuming review and approval process
   before computer matching could be performed. Computer
   matching to identify fraud following a disaster is crucial to
   mitigate recurring improper payments and to recover improperly
   disbursed funds. Only the U.S. Congress has the authority to
   exempt federal law enforcement agencies, including the Inspectors
   General, from the Computer Matching and Privacy Protection Act
   to support their efforts to identify and prevent fraud, waste, and
   abuse.

   Recommendation Summary and Status: As of December 31,
   2007, one of the three recommendations in this report was open.
   The component has responded by providing a corrective action
   plan implementing the remaining open recommendation. Upon
   verification of implementation, the recommendation will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Increased sharing of federal law
   enforcement information.

   Report Number OIG-07-61

   Title: Better Management Needed for the National Bio-
   Surveillance Integration System Program.

   Issued: June 2007.



Status Report on Open Recommendations to DHS Components 


                        Page 294 

   Abstract: In 2004, the President directed DHS to consolidate
   federal agency bio-surveillance data in one system. In response,
   DHS began efforts to develop the National Bio-Surveillance
   Integration System (NBIS), the Nation’s first system capable of
   providing comprehensive and integrated biosurveillance and
   situational awareness.

   Key Findings: We recommended that the Assistant Secretary and
   Chief Medical Officer of the OHA ensure that NBIS program
   management.

   Recommendation Summary and Status: As of December 31,
   2007, the five recommendations in this report were open. The
   component has not provided corrective action plan. Upon
   verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Improve security and controls on DHS
   financial systems.

   Report Number OIG-07-62

   Title: Interim Report: Hurricane Katrina: A Review of Wind
   Versus Flood Issues.

   Issued: July 2007.

   Abstract: The Department of Homeland Security Appropriations
   Act, 2007 (Public Law 109-295), directed that we investigate
   whether, and to what extent, insurance companies participating in
   the National Flood Insurance Program (NFIP), referred to as
   Write-Your-Own Companies, improperly attributed damages from
   Hurricane Katrina to flooding rather than to windstorms covered
   under homeowner policies or wind insurance pools.

   The objective for this interim report was to determine whether
   NFIP claim records included indications that participating
   insurance companies attributed wind damage to flooding.

   Key Findings: A review of sample flood claims did not reveal
   evidence that the NFIP was used to subsidize wind damage.
   However, there is little evidence in flood claim files to determine
   whether payouts from the NFIP were fair and equitable for


Status Report on Open Recommendations to DHS Components 


                        Page 295 

   damages caused by both wind and water affecting the same
   structure.

   Recommendation Summary and Status: As of December 31,
   2007, the three recommendations in this report were open. We did
   not agree with the component on two of the open
   recommendations. The component has responded by providing a
   corrective action plan implementing one of the remaining open
   recommendations. Upon verification of implementation, the
   recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure best use of government
   resources; protect government assets and program improvement.

   Report Number OIG-07-64 Classified

   Title: Aviation Security at Foreign Airports.

   Issued: August 2007.

   This report is Classified. This report has one open
   recommendation. Upon request, additional information will be
   provided to qualified recipients.

   Report Number OIG-07-65

   Title: Exchanging Contract Information With U. S. Army Corps of
   Engineers.

   Issued: August 2007.

   Abstract: Debris removal and demolition activities following a
   disaster are administered by local governments, funded by FEMA
   public assistance grants or by U.S. Army Corps of Engineers
   (USACE) funded by Mission Assignments from FEMA. The state
   determines whether the local government or USACE will perform
   the work. Following Hurricane Katrina, local governments and
   USACE administered debris removal operations in the same
   geographic area, such as neighboring counties or parishes.

   Key Findings: FEMA contract award guidance recognizes that
   comparing the cost data from other agencies on similar contracts is
   often beneficial in estimating contract costs. However, contract
   information was not exchanged between FEMA and USACE in

Status Report on Open Recommendations to DHS Components 


                        Page 296 

   Baton Rouge and New Orleans, despite the existence of this
   information and its potential value. Additionally, FEMA staff,
   which have access to applicant cost proposals as part of their
   review responsibility, did not share local government contract
   information with USACE and auditors from the Army Audit
   Agency who were reviewing USACE contracts because of
   disclosure concerns.

   Recommendation Summary and Status: As of December 31,
   2007, the recommendation in this report was open. The
   component has responded by providing a corrective action plan
   implementing the remaining open recommendation. Upon
   verification of implementation, the recommendation will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure improvement of program by
   establishing proper procedures.

   Report Number OIG-07-66

   Title: Review of FEMA’s Recommendation Tracking Process.

   Issued: August 2007.

   Abstract: As required by the Inspector General Act of 1978, as
   amended, and OMB Circular A-50, agency management officials
   are responsible for receiving and analyzing audit reports and taking
   prompt corrective action where appropriate. We are responsible
   for monitoring the resolution and implementation actions to ensure
   that disagreements between our office and management are
   resolved as promptly as possible, and that corrective actions are
   implemented as agreed upon by management officials.

   Key Findings: Between October 5, 2005 and June 12, 2007, we
   issued 85 reports with 162 recommendations. Of the 162
   recommendations, 22 are open and resolved, 86 are open and
   unresolved, and 54 are closed and resolved as of June 12, 2007. Of
   the 86 open and unresolved recommendations, 64 are open and
   unresolved because a response from FEMA had not been received.
   A majority of the reports cover housing and debris removal
   activities and include issues regarding questionable contract costs
   and other contracting concerns.

   Recommendation Summary and Status: As of December 31,
   2007, the three recommendations in this report were open. The

Status Report on Open Recommendations to DHS Components 


                        Page 297 

   component has responded by providing a corrective action plan
   implementing the remaining open recommendations. Upon
   verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure improvements to management by
   implementing previous recommendations.

   Report Number OIG-07-67

   Title: A Follow up Review of the Transportation Security Officer
   Background Check Process.

   Issued: August 2007.

   Abstract: In January 2004, we reported on the efficiency of the
   background check process for TSA’s Transportation Security
   Officers (TSOs). This follow-up review reported that TSA’s
   background check process has improved, but some important
   challenges remain.

   Key Findings: TSOs undergo a background investigation with
   employment standards exceeding most national security positions.
   However, implementation of the background checks is inefficient
   in some respects. TSA has not implemented all necessary steps
   that would improve security and reduce costs.

   Recommendation Summary and Status: As of December 31,
   2007, the nine recommendations in this report were open. The
   component has responded by providing a corrective action plan
   implementing the remaining open recommendations. Upon
   verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Improves the efficiency of TSA’s
   background check process for Transportation Security Officers

   Report Number OIG-07-68 FOUO

   Title: A Review of Homeland Security Activities Along a
   Segment of the Michigan-Canadian Border.


Status Report on Open Recommendations to DHS Components 


                        Page 298 

   Issued: November 2007.

   This report is For Official Use Only. This report has six open
   recommendations. Upon request, additional information will be
   provided to qualified recipients.

   Report Number OIG-07-72

   Title: Targeting Oceangoing Cargo Containers 2007.

   Issued: September 2007.

   Abstract: This report is the review of the Automated Targeting
   System used by CBP for sea containers, in response to the Coast
   Guard and Maritime Transportation Act of 2004 congressional
   mandate.

   Key Findings: CBP is not consistently monitoring entry data for
   all shipments, resulting in some high-risk containers being allowed
   to leave ports without examination. Also, CBP has not mandated
   or actively monitored the implementation of corrective actions by
   ports in response to our previous recommendations. Furthermore,
   flaws in the Cargo Enforcement Reporting and Tracking System
   may result in improper container releases, and CBP still has not
   automated its integration of examination findings into the
   Automated Targeting System.

   Recommendation Summary and Status: As of December 31,
   2007, one of the four recommendations in this report was open.
   The component has responded by providing a corrective action
   plan implementing the remaining open recommendation. Upon
   verification of implementation, the recommendation will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Increased security resulting from proper
   implementation of the ATS used by CBP for sea containers.

   Report Number OIG-07-74

   Title: Management Letter for the Fiscal Year 2006 Department of
   Homeland Security Financial Statement Audit.

   Issued: September 2007.



Status Report on Open Recommendations to DHS Components 


                        Page 299 

   Abstract: KPMG, under a contract with us, was unable to express
   an opinion on the department’s balance sheet and statement of
   custodial activity for the year ended September 30, 2006.

   Key Findings: The disclaimer of opinion was due primarily to
   financial reporting problems at four bureaus and at the department
   level. KPMG also looked at DHS’ internal control over financial
   reporting. KPMG documented certain matters involving internal
   control and other operational matters that resulted in a total of 79
   financial management comments at 12 components and one
   comment related to the consolidation financial statements. The
   comments are in addition to the reportable conditions presented in
   the Independent Auditors’ Report on DHS’ FY 2006 Financial
   Statement.

   Recommendation Summary and Status: As of December 31,
   2007, the 39 recommendations in this report were open. The
   components have responded by providing a corrective action plan
   implementing 29 of the open recommendations. The components
   have not provided action plans for nine of the remaining open
   recommendations. Upon verification of implementation, the
   recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Improved methods and controls for
   internal control over financial reporting.

   Report Number OIG-07-76

   Title: CBP Export Control Activities.

   Issued: September 2007.

   Abstract: This was the eighth and final review in a series of
   interagency audits required by Congress.

   Key Findings: Our audit concluded CBP does not devote
   sufficient resources to the function, does not have the information
   necessary to effectively monitor the program, and does not have
   performance measures to evaluate program results. The agency
   has reallocated resources devoted to export targeting and
   inspection since September 11, 2001. As a result, shipments could
   be exported that violate export laws and regulations.



Status Report on Open Recommendations to DHS Components 


                        Page 300 

   Recommendation Summary and Status: As of December 31,
   2007, the three recommendations in this report were open. The
   component has responded by providing a corrective action plan
   implementing the remaining open recommendations. Upon
   verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: To effectively target and monitor
   outbound shipments that could be exported in violation of US
   export laws.

   Report Number OIG-07-77

   Title: Evaluation of Department of Homeland Security’s
   Information Security Program for Fiscal Year 2007.

   Issued: September 2007.

   Abstract: DHS continues to improve and strengthen its
   information security program. During the past year, the
   department implemented a performance plan to measure
   components' progress toward full compliance with its information
   security program. The performance plan tracks key elements
   indicative of a strong, functioning security program.

   Key Findings: The report identified a need to improve
   management oversight of the component’s implementation of the
   department’s policies and procedures to ensure the quality of the
   certification and accreditation process and that all information
   security weaknesses are tracked and remediated. Other
   information security program areas that need improvement include
   security configuration management, incident detection and
   analysis, and security training.

   Recommendation Summary and Status: As of December 31,
   2007, the five recommendations in this report were open. The
   component has sent a corrective action plan and implementation is
   pending. Upon verification of implementation, all
   recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Enhanced protection of information
   assets.

Status Report on Open Recommendations to DHS Components 


                        Page 301 

   Report Number OIG-08-01

   Title: Progress Has Been Made But More Work Remains in
   Meeting Homeland Security Presidential Directive 12
   Requirements.

   Issued: October 2007.

   Abstract: DHS has taken actions to implement Homeland Security
   Presidential Directive 12 (HSPD-12) requirements. The
   department established a Program Management Office to provide
   guidance and logistic support to implement HSPD-12 requirements
   at its headquarters and components; developed a three-phase
   implementation plan and a procedures reference book that
   documents the processes to enroll applicants and issue credentials;
   prepared a privacy impact assessment providing details about
   personally identifiable information collected for issuing
   credentials; and established an HSPD-12 Council to facilitate the
   implementation of HSPD-12 throughout the department.
   However, the department is experiencing delays in implementing a
   technical solution and issuing compliant HSPD-12 cards to its
   employees and contractors. In addition, the department had not
   assessed the total cost to implement HSPD-12.

   Key Findings: The report identified the need for the Program
   Management Office to evaluate its implementation plan and take
   necessary steps to ensure that milestones are met and that further
   delays are avoided; develop department-wide cost estimates to
   implement HSPD-12; identify facilities access points and
   information systems where cards will be required; ensure the
   proper accreditation of Personal Identity Verification (PIV)
   processes and re-accredit the headquarters PCI services; and certify
   and accredit information systems used for implementation of
   HSPD-12 and FIPS 201 requirements.

   Recommendation Summary and Status: As of December 31,
   2007, the seven recommendations in this report were open. The
   first 90-day response for these recommendations is due in 2008.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Enhanced protection of information
   assets.

Status Report on Open Recommendations to DHS Components 


                        Page 302 

   Report Number OIG-08-03

   Title: The Commonwealth of Pennsylvania's Management of State 

   Homeland Security Grants Awarded During Fiscal Years 2002 

   through 2004.

   Issued: October 2007.


   Abstract: Williams, Adley and Company, LLP, under contract 

   with us, completed an audit of the DHS State Homeland Security 

   Grants awarded to the Commonwealth of Pennsylvania. The 

   objectives of the audit were to determine whether the 

   Commonwealth (1) effectively and efficiently implemented the 

   first responder grant programs, (2) achieved the goals of the 

   programs, and (3) spent funds according to grant requirements. 

   The goal of the audit was to identify problems and solutions that 

   would help the Commonwealth of Pennsylvania prepare for and 

   respond to terrorist attacks.


   Key Findings: The audit determined that the Commonwealth (1) 

   generally implemented the first responder grant programs in an 

   effective and efficient manner; (2) did not measure whether it 

   achieved the goals of the programs; and (3) generally spent the 

   funds according to grant requirements. However, the following

   exceptions and areas of non-compliance detailed in the body of this 

   report warrant attention. The Pennsylvania Emergency 

   Management Agency was not in compliance with the grant 

   requirements when it: 


               •	 had a burdensome, time consuming, and inefficient
                  administrative subgrant award process;
               •	 did not implement a system to monitor and measure
                  improved preparedness and subrecipient
                  performance;
               •	 did not provide access to supporting documentation
                  for expenditures charged to federal funds;
               •	 acquired various unauthorized warranties,
                  maintenance agreements, spare parts, and other
                  expenses totaling $721,317;
               •	 submitted 16 of 25 Categorical Assistance Progress
                  Reports late and one was not submitted;
               •	 did not submit the final FY 2002 Financial Status
                  Report timely; and
               •	 reported unliquidated obligations on the Financial
                  Status Reports that were not in agreement with the
                  accounting system for six Financial Status Reports.
Status Report on Open Recommendations to DHS Components 


                        Page 303 

   Recommendation Summary and Status: As of December 31,
   2007, the 13 recommendations in this report were open. The first
   90-day response for these recommendations is due in 2008. Upon
   verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: $721,317.

   Non-Monetary Benefits: Commonwealth of Pennsylvania will be
   better prepared for and able to respond to terrorist attacks.

   Report Number OIG-08-05

   Title: Independent Auditor Report on TSA's FY 2006 Balance
   Sheet.

   Issued: October 2007.

   Abstract: This report presents the results of the audit of TSA’s
   consolidated balance sheet as of September 30, 2006. We
   contracted with the independent public accounting firm KPMG to
   perform the audit. KPMG issued a disclaimer of opinion on TSA’s
   financial statements for fiscal year 2006.

   Key Findings: KPMG’s report identified seven material
   weaknesses related to financial reporting, financial systems
   security, undelivered orders and contract file maintenance,
   property and equipment, journal voucher preparation and approval,
   grant accrual methodology and monitoring, and accrued leave. It
   also identified instances of noncompliance with six laws and
   regulations, including one violation of the Anti-deficiency Act that
   affected certain previously issued financial statements. KPMG is
   responsible for the attached auditor’s report dated December 21,
   2006, and the conclusions expressed in the report. We do not
   express opinions on TSA’s financial statements or internal control
   or conclusions on compliance with laws and regulations.

   Recommendation Summary and Status: As of December 31,
   2007, the 17 recommendations in this report were open. The
   component has responded by providing a corrective action plan
   implementing the open recommendations. Upon verification of
   implementation, the recommendations will be closed.

   Estimated Cost Savings: N/A


Status Report on Open Recommendations to DHS Components 


                        Page 304 

   Non-Monetary Benefits: Ensure sound financial management of
   TSA’s consolidated balance sheets.

   Report Number OIG-08-06 FOUO

   Title: Better Administration of Automated Targeting Systems
   Controls Can Further Protect Personally Identifiable information.

   Issued: October 2007.

   This report is For Official Use Only. This report has three open
   recommendations. Upon request, additional information will be
   provided to qualified recipients.

   Report Number OIG-08-07

   Title: Information Technology Management Needs to Be
   Strengthened at the Transportation Security Administration.

   Issued: October 2007.

   Abstract: As part of our ongoing responsibility to assess the
   efficiency, effectiveness, and economy of departmental programs
   and operations, we reviewed TSA’s IT management programs and
   activities. The objectives of this review were to evaluate TSA’s
   management of current technologies and infrastructure to ensure
   effective transportation security mission operations and
   information management and exchange across internal and
   external stakeholders.

   Key Findings: TSA does not manage and apply IT effectively to
   support accomplishment of its mission objectives. Due to early
   pressures to meet tight congressional time frames and the public’s
   demand for increased transportation security, TSA’s technology
   environment evolved quickly and in a highly decentralized
   manner. The resulting IT infrastructure has limited system
   integration and data sharing and has perpetuated inefficient manual
   work processes. Additionally, without the authority and standard
   policies to govern technology implementation across TSA offices,
   the agency’s chief information officer (CIO) faces significant
   challenges in conducting agency-wide IT planning and investment
   management to counter the fragmented environment. The
   declining number of staff within the central IT Division also
   impedes the CIO’s ability to manage the IT infrastructure and
   support new technology requirements. Further, TSA faces
   disparate aviation stakeholder challenges, such as technical

Status Report on Open Recommendations to DHS Components 


                        Page 305 

   limitations and privacy assurance requirements, which largely
   remain outside of the agency’s control.

   Recommendation Summary and Status: As of December 31,
   2007, the five recommendations in this report were open. The first
   90-day response for these recommendations is due in 2008. Upon
   verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Improve Security and Controls on DHS
   Financial Systems.

   Report Number OIG-08-09

   Title: Review of the USCIS Benefit Fraud Referral Process.

   Issued: December 2007.

   Abstract: In USCIS, the Office of Fraud Detection and National
   Security (FDNS) has primary responsibility for resolving
   immigration petitions with potential fraud indicators. However,
   with the notable exception of conspiracies that FDNS identified for
   criminal investigation by ICE, FDNS had limited measurable
   effect on immigration benefit fraud.

   Key Findings: FDNS resources were diverted by higher priority
   national security and public safety background checks and by the
   labor-intensive commitment to refer all articulable fraud petitions
   to ICE for review. USCIS adjudicators referred less than 1% of
   immigration benefit petitions to FDNS as having articulable fraud
   indicators. ICE Special Agents in Charge accepted less than 1% of
   these referrals for criminal investigation. The FDNS tracking
   database was not adequate for case management, program
   oversight, and data analysis.

   Recommendation Summary and Status: As of December 31,
   2007, the ten recommendations in this report were open. The first
   90-day response for these recommendations is due in 2008. Upon
   verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A



Status Report on Open Recommendations to DHS Components 


                        Page 306 

   Non-Monetary Benefits: Ensure the appropriate identification of
   fraud patterns for adjudicators by establishing reporting
   requirements, data analysis techniques, and standards for site
   visits.

   Report Number OIG-08-10

   Title: Customs and Border Protection Award and Oversight of
   Alaska Native Corporation Contract for Enforcement Equipment
   Maintenance and Field Operations Support.

   Issued: October 2007.

   Abstract: We reviewed the 2003 CBP sole source award of an
   integrated logistics and operations support contract for almost
   10,000 pieces of inspection equipment. Before this contract with
   Chenega Technology Service Corporation, four CBP staff
   managed more than 20 separate contracts for logistics,
   maintenance, and training on mental detectors, X-ray machines,
   and explosive trace detectors at land border crossings, commercial
   airports, and seaports. Our review objectives were to determine
   whether CBP complied with federal regulations in awarding the
   contract and performed adequate oversight during implementation.

   Key Findings: CBP did not comply with federal regulations when
   it awarded Chenega the contract under an incorrect industry
   classification code. Furthermore, CBP did not effectively monitor
   Chenega’s compliance with regulatory and contract limitations on
   subcontracting.

   Recommendation Summary and Status: As of December 31,
   2007, the four recommendations in this report were open. It is
   unknown whether the recommendations have been implemented.
   Upon verification of implementation, the recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensure proper awarding of sole source
   integrated logistics and operations support contract.

   Report Number OIG-08-12

   Title: Independent Auditors’ Report on DHS' FY 2007 Financial
   Statements.


Status Report on Open Recommendations to DHS Components 


                        Page 307 

   Issued: November 2007.

   Abstract: KPMG, under contract with us, presented financial
   information excerpted from DHS’ Annual Financial Report (AFR)
   and the results of the DHS financial statement audits for FY 2007
   and FY 2006. We contracted with the independent public
   accounting firm KPMG to perform the audits.

   Key Findings: KPMG was unable to provide an opinion on DHS’
   balance sheet as of September 30, 2007 and 2006. The FY 2007
   auditor’s report discusses eight significant deficiencies, seven of
   which are considered material weaknesses in internal control, and
   eight instances of noncompliance with laws and regulations.

   Recommendation Summary and Status: As of December 31,
   2007, the 87 recommendations in this report were open. It is
   unknown whether 48 of the recommendations have been
   implemented. The component has responded by providing a
   corrective action plan implementing 39 of the remaining open
   recommendations. We did not agree with the component on 11 of
   the open recommendations. Upon verification of implementation,
   the recommendations will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Financial management improvement.

   Report Number OIG-08-14 Classified

   Title: Improved Administration Can Enhance Federal Emergency
   Management Agency Classified Laptop Computer Security.

   Issued: November 2007.

   This report is Classified. This report has six open
   recommendations. Upon request, additional information will be
   provided to qualified recipients.

   Report Number OIG-08-16

   Title: Audit of the State of Colorado Homeland Security Grant
   Program.

   Issued: December 2007.



Status Report on Open Recommendations to DHS Components 


                        Page 308 

   Abstract: At the request of the G&T, we audited the State of
   Colorado’s (Colorado) management of homeland security and
   urban areas security initiative grants awarded by G&T during
   fiscal years 2003, through 2006. The objective of our audit was to
   determine whether Colorado effectively and efficiently
   implemented its homeland security program, achieved the goals of
   the program, and spent funds according to grant requirements. Our
   goal was to identify problems and recommend solutions to help the
   DHS and Colorado improve the nation’s ability to prevent, prepare
   for, and respond to major disasters, terrorist attacks, and other
   emergencies, known as ‘all-hazards’ preparedness.

   Key Findings: Colorado has improved its management of the
   grant programs, including the hiring of additional executive and
   technical personnel and initiating program reviews to improve the
   effectiveness of its homeland security efforts. However, Colorado
   has not complied with critical Homeland Security Grant Program
   requirements, as the state has not ensured adequate oversight of
   program activities and compliance with its homeland security
   strategy. In addition, the state’s internal controls for managing
   homeland security grant programs, and ensuring sub-grantee
   compliance and program readiness were ineffective. This report
   highlights (1) the challenges facing Colorado’s homeland security
   organization, (2) Colorado’s need to ensure adherence to its
   homeland security strategy has been followed, (3) areas where
   grant management could be improved, and (4) opportunities for
   improving program readiness.

   Recommendation Summary and Status: As of December 31,
   2007, the six recommendations in this report were open. The first
   90-day response for these recommendations is due on 3/10/2008.
   Upon verification of implementation, all recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Ensuring grant funding is allocated to
   projects with the highest risk and priority.

   Report Number OIG-08-19

   Title: DHS’ Domestic Nuclear Detection Office Progress in
   Integrating Detection Capabilities and Response Protocols.

   Issued: December 2007.


Status Report on Open Recommendations to DHS Components 


                        Page 309 

   Abstract: The Domestic Nuclear Detection Office is working to
   coordinate federal, state, and local government efforts to expand
   and improve detection capabilities. Further, the Domestic Nuclear
   Detection Office, in conjunction with the FEMA’s Office of Grant
   Programs, is collaborating with state and local officials in
   developing and delivering radiological and nuclear detection
   programs and training. It is also coordinating with federal partners
   to identify and prevent overlap of federal radiological and nuclear
   detection programs.

   Key Findings: The office has also made progress in developing a
   multilayered system of detection technologies, programs, and
   guidelines designed to enhance the ability to detect the threat of a
   radiological or nuclear attack.

   Recommendation Summary and Status: As of December 31,
   2007, the recommendation in this report was open. The first 90-
   day response for these recommendations is due in 2008. Upon
   verification of implementation, the recommendation will be closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Defines funding responsibilities of each
   office for preventative radiological and nuclear training courses.

   Report Number OIG-08-20

   Title: The State of Florida's Management of State Homeland
   Security Grants Awarded During Fiscal Years 2002 through 2004.
   Issued: December 2007.

   Abstract: Cotton and Company LLP, under contract with us,
   completed an audit of the DHS State Homeland Security Grants
   awarded to the State of Florida. The objectives of the audit were to
   determine whether the state (1) effectively and efficiently
   implemented the first responder grant programs, (2) achieved the
   goals of the programs, and (3) spent funds according to grant
   requirements. The audit goal was to identify problems and solutions
   that would help the State of Florida prepare for and respond to
   terrorist attacks.

   Key Findings: Florida Division of Emergency Management could
   develop or improve policies and procedures over grant processes.
   Our findings, summarized below.




Status Report on Open Recommendations to DHS Components 


                        Page 310 

       1.	 Florida Division of Emergency Management did not have
           effective policies and procedures to ensure compliance with
           grant requirements for funding allocations and timeliness;

       2.	 Florida Division of Emergency Management did not enter
           into Memorandums of Understanding with subgrantees
           properly; and

       3.	 Florida Division of Emergency Management did not have
           effective controls for its subgrantees.

   Recommendation Summary and Status: As of December 31,
   2007, the five recommendations in this report were open. The first
   90-day response for these recommendations is due in 2008. Upon
   verification of implementation, all recommendations will be
   closed.

   Estimated Cost Savings: N/A

   Non-Monetary Benefits: Effective and efficient implementation
   of first responder grants.




Status Report on Open Recommendations to DHS Components 


                        Page 311 

Appendix A
Department Comments




              Status Report on Open Recommendations to DHS Components 


                                      Page 313

Appendix B
Major Contributors to this Report

                    Douglas Ellice, Chief Inspector
                    Megan McNeely, Lead Inspector
                    Susan Fischer, Inspector
                    Pharyn Smith, Inspector

                    Alexander Best, Office of Audits
                    Iris Hudson, Office of Audits
                    Paul McPhail, Office of Emergency Management
                    Wynne Kelch, Office of Inspections
                    Ann Brooks, Office of Information Technology
                    Sylvia Massie, Office of Information Technology
                    Steve Laferty, Office of Investigations




                 Status Report on Open Recommendations to DHS Components 


                                         Page 314

Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
